<html>
<title> - NOMINATIONS TO THE DEPARTMENT OF TRANSPORTATION, DEPARTMENT OF COMMERCE, THE FEDERAL COMMUNICATIONS COMMISSION, AND THE FEDERAL TRADE COMMISSION</title>
<body><pre>[Senate Hearing 112-802]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 112-802
 
                           NOMINATIONS TO THE
                     DEPARTMENT OF TRANSPORTATION,
                        DEPARTMENT OF COMMERCE,
                 THE FEDERAL COMMUNICATIONS COMMISSION,
                    AND THE FEDERAL TRADE COMMISSION
=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 4, 2012

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
82-230                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
             Richard M. Russell, Republican Staff Director
            David Quinalty, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 4, 2012.................................     1
Statement of Senator Kerry.......................................     1
Statement of Senator Hutchison...................................     2
Statement of Senator Boxer.......................................     4
    Prepared statement...........................................     4
Statement of Senator Cantwell....................................     6
Statement of Senator Thune.......................................     7
Statement of Senator Klobuchar...................................    65
Statement of Senator Lautenberg..................................    67
Statement of Senator Ayotte......................................    71

                               Witnesses

Hon. Polly E. Trottenberg, Nominee to be Under Secretary of 
  Transportation for Policy, Department of Transportation........     8
    Prepared statement...........................................    10
    Biographical information.....................................    11
Dr. Mark E. Doms, Nominee to be Under Secretary of Commerce for 
  Economic Affairs, U.S. Department of Commerce..................    24
    Prepared statement...........................................    25
    Biographical information.....................................    27
Hon. Mignon L. Clyburn, Nominee to be a Commissioner of the 
  Federal Communications Commission (Reappointment)..............    32
    Prepared statement...........................................    33
    Biographical information.....................................    35
Dr. Joshua D. Wright, Nominee to be a Commissioner at the Federal 
  Trade Commission...............................................    40
    Prepared statement...........................................    41
    Biographical information.....................................    42
Hon. Charles E. Schumer, U.S. Senator from New York..............    61
    Prepared statement...........................................    61

                                Appendix

Response to written questions submitted to Hon. Polly E. 
  Trottenberg by:
    Hon. John D. Rockefeller IV..................................    81
    Hon. Barbara Boxer...........................................    83
    Hon. Maria Cantwell..........................................    84
    Hon. Tom Udall...............................................    87
    Hon. John Thune..............................................    87
    Hon. John Boozman............................................    88
Response to written questions submitted to Dr. Mark E. Doms by:
    Hon. John D. Rockefeller IV..................................    90
    Hon. Amy Klobuchar...........................................    91
    Hon. Frank R. Lautenberg.....................................    92
    Hon. Tom Udall...............................................    92
Response to written questions submitted to Hon. Mignon L. Clyburn 
  by:
    Hon. John D. Rockefeller IV..................................    93
    Hon. Maria Cantwell..........................................    94
    Hon. Frank R. Lautenberg.....................................    96
    Hon. Amy Klobuchar...........................................    97
    Hon. tom Udall...............................................    97
    Hon. Mark Begich.............................................   101
    Hon. John Thune..............................................   102
    Hon. Roger F. Wicker.........................................   103
    Hon. Roy Blunt...............................................   104
    Hon. Marco Rubio.............................................   105
Response to written questions submitted to Dr. Joshua D. Wright 
  by:
    Hon. John D. Rockefeller IV..................................   105
    Hon. Barbara Boxer...........................................   110
    Hon. Bill Nelson.............................................   110
    Hon. Maria Cantwell..........................................   111
    Hon. Frank R. Lautenberg.....................................   117
    Hon. Mark Pryor..............................................   118
    Hon. Tom Udall...............................................   120
    Hon. John Thune..............................................   122
    Hon. Roger F. Wicker.........................................   123
    Hon. Roy Blunt...............................................   123
    Hon. John Boozman............................................   125
Response to written questions submitted by Hon. Maria Cantwell 
  to:
    Yvonne Burke, Nominee to the Amtrak Board of Directors.......   125
    Chris Beall, Nominee to the Amtrak Board of Directors........   127


                           NOMINATIONS TO THE

                     DEPARTMENT OF TRANSPORTATION,


                  DEPARTMENT OF COMMERCE, THE FEDERAL


                     COMMUNICATIONS COMMISSION, AND


                      THE FEDERAL TRADE COMMISSION

                              ----------                              


                       TUESDAY, DECEMBER 4, 2012

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:33 p.m., in 
room SR-253, Russell Senate Office Building, Hon. John F. 
Kerry, presiding.

           OPENING STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. This hearing will come to order. Thank you 
all very much. Welcome.
    Senator Rockefeller is not feeling well today; he's not 
here. He was here for the vote, but he didn't--he's not staying 
for the day. And so, I'm going to open this hearing, and then I 
think Senator Boxer is going to chair the better part of it 
after we have opened.
    But, we have a number of important nominees here today:
    Polly Trottenberg is the nominee for Under Secretary of 
Transportation for Policy, and she is very familiar to many of 
us here on the Committee because of her current role at the 
agency, but also 12 years of valuable service for Senators 
Boxer, Schumer, and Moynihan. And as Under Secretary, she'd be 
responsible for implementation of the recently passed 
bipartisan surface transportation bill, the MAP-21.
    Dr. Mark Doms is the nominee for Under Secretary for 
Economic Affairs at the Department of Commerce, and, in that 
capacity, he'd have to manage the statistical agencies in the 
Department, as well as the private--provide economic analysis 
for the Secretary and for the administration.
    Our other two nominees are pursuing confirmation for posts 
at the Federal Communications Commission and the Federal Trade 
Commission, and they are extremely important consumer 
protection and competition agencies---- competition/protection, 
I guess is the way to say it. Their capacity and their 
effectiveness is, obviously, essential to all of the goals of 
this committee and the Congress.
    Let me just say, quickly, that FTC investigations and 
settlement negotiations have, unfortunately, become poorly kept 
secrets. And I want to note, for the nominees, that neither the 
commissioners nor the businesses subject to their jurisdiction 
can do their jobs well if their deliberations or investigations 
are manipulated or leaked for strategic advantage. I don't 
think anybody is well served by that, frankly. It would be good 
to see more bipartisanship at both the FTC and the FCC, and 
greater efforts at collaboration, frankly. I think that 
Congress's intent, and the people's interests, would be well 
served if that were so.
    There also will be no certainty for the markets if you 
can't bridge the ideological divide in order to establish a 
well-understood, easily adhered to, effective, and accepted 
body of law and regulation governing competition and consumer 
protection in the Digital Age that we now live in. So, I hope 
the nominees here today will help us--will be committed to help 
us move forward and achieve that place of common sense.
    Commissioner Clyburn is seeking reappointment to the FCC. 
And she has done a superb job since joining the Commission and 
helping the Chairman to move along important policies, helping 
the country lead to wireless communications and broadband 
deployment and adoption, which is critical to our nation, and 
we've fallen behind on that. She's also become a critical voice 
in trying to reform the unfair pricing schemes that lead people 
to prison, having to pay dramatically more money than the rest 
of the population to make a long-distance phone call. It's, 
frankly, obscene, and we certainly salute her work on that.
    Mr. Wright is nominated to serve at the FTC. As a 
conservative scholar and occasional blogger, he has injected 
ideas on antitrust into the public domain, and this committee 
will look forward to exploring those. His work is widely read 
and well-respected.
    If confirmed, Ms. Clyburn and Mr. Wright will have to 
decide how best to apply our laws on consumer protection, 
competition, telecommunications to the new business models, 
firms, and services that the Internet has enabled.
    So, that's a very significant, intellectually challenging 
task, and I know every member of the Committee looks forward to 
exploring with our nominees what their thoughts are on these 
areas that are so important to our economy and to the 
preservation of certain rights for people.
    The Ranking Member, Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Well, thank you very much, Senator 
Kerry, for agreeing to chair this hearing. And I'm very pleased 
that we are moving forward with some of these nominations. Now 
that the elections have occurred, I think having these agencies 
and boards and commissions, with their membership, if they are 
approved, to be able to go forward expeditiously is a good 
idea.
    I want to say that Dr. Mark Doms, who has been nominated 
for Under Secretary of Commerce for Economic Affairs, would 
make him the chief economist, where he actually is there at the 
Department of Commerce now doing that job, with a long career 
in economics, which is very important, and I think he will be 
confirmed very quickly.
    It is crucial that we have leadership in place at the 
Department of Commerce to focus on promoting business and 
creating jobs and growing our economy. Also, I would hope that 
the Census, which will occur in--probably 8 years from now--
needs to begin to have a model of planning so that it will be 
as efficient and effective as possible.
    The Department of Transportation, the Acting Under 
Secretary, Polly Trottenberg, is nominated for the permanent 
position. And DOT certainly has many issues before it, and I 
know that the surface reauthorization legislation that was 
enacted this year has some issues that I would hope to hear how 
it's going to implement those issues. And this committee has 
been particularly active in opposing the European Union's 
unilateral emissions trading scheme. The bill emanated out of 
this committee, and has been signed by the President, so I 
think a report on that would be something I would be interested 
in hearing.
    Commissioner Clyburn has been before our committee before 
and is back up for reappointment. And her commitment to serve 
underutilized rural areas is something that she said she wanted 
to do when she was first appointed, and I will look forward to 
hearing her progress on that.
    And then, the Federal Trade Commission, Dr. Joshua Wright 
has a great background for this. He, too, is an economist--he 
would be the only one on that Commission, if he's confirmed--
and he does have a distinguished record of teaching at 
prestigious institutions, including my alma mater, the 
University of Texas. And so, I hope that we can hear from him 
about how he sees the approach of the FTC, if he is confirmed 
as a member.
    With that, Mr. Chairman, I would like to proceed to hearing 
from either the missing Senator Schumer or having the nominees 
come forward.
    Senator Kerry. Well, Senator Schumer is good at speaking 
under all circumstances, but not being there, for him even, is 
hard. So----
    [Laughter.]
    Senator Kerry.--we're going to have to wait. I am--I've 
just received notice, he's not going to be here until 3 
o'clock, so we're going to proceed. But, Senator Boxer, I know, 
wants to make an introduction. Senator DeMint, I believe, wants 
to make an introduction.
    What I would ask is for the nominees to come up to the 
table, and when Senator Schumer gets here, we'll ask him to 
speak from the dais and make his comments.
    Let me just say, to all our colleagues on the Committee, 
and all the staff, and for those of you here visiting, I think 
this will probably be Senator Hutchison's last hearing as a 
member of the Committee, and in the Senate on this committee. 
So, I would like to personally acknowledge her tremendous 
contributions. She's been a terrific colleague on the other 
side of the aisle, always open to listening and working with us 
on a lot of different projects. We are going to miss her on 
this committee, and the Senate, indeed, and wish her well in 
whatever endeavor she undertakes, back there in that small 
state of Texas.
    [Laughter.]
    Senator Kerry. But, we--honestly, we are really grateful 
for your service, Kay, and wish you well. Everybody here on the 
Committee joins me, I know, in saying that to you. Thank you.
    Senator Hutchison. No, thank you for----
    [Applause.]
    Senator Hutchison. Thank you.
    Well, as the nominees are coming forward--please do come 
forward----
    Senator Kerry. Come on up, nominees. Come on up.
    Senator Hutchison.--and I will just say thank you, from my 
colleagues. I've loved this committee. It was my first choice 
when I got into the Senate, and I've loved serving as Ranking 
Member and working with Senator Rockefeller, with all of you. I 
think we've achieved, really, maybe the most successful amount 
of legislation of any committee in the last 2 years. And I 
think we've made great, productive moves. I hope, Senator 
Kerry, that you will pass our infrastructure legislation when 
I'm gone.
    Senator Kerry. I've got to find--Senator Thune, you gonna 
pick up that cudgel when you----
    [Laughter.]
    Senator Hutchison. That's right. And I really look forward 
to----
    Senator Kerry. Thank you.
    Senator Hutchison.--seeing all of you when I am a happy 
camper and you all are still here in the fights.
    Senator Boxer. Senator Kerry?
    Senator Kerry. Senator Boxer.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Senator Kerry, I want to join you in your 
tribute to Senator Hutchison.
    And I have to say--and I know that Maria Cantwell and Amy 
Klobuchar will back me up on this--that, you know, having her 
in the Senate--the women have a special bond right now--and I 
guess we'll continue to do that until we're 50-50--because 
there's just not that many of us. Even now, we're going to 20, 
which is huge. But, I think many people don't know the close 
relationship that the women Senators have. And I would just 
point to the special relationship that developed between 
Senator Mikulski and Senator Hutchison, and their work in 
keeping us together and having bipartisan meetings and dinners 
and so on. And, more than that, working together on 
legislation.
    And I guess--I've put an extensive statement in the record 
about my colleague----
    [The prepared statement of Senator Boxer follows:]

 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from California
    Thank you, Mr. Chairman, for holding this hearing to consider 
nominees for key positions at the Department of Transportation, 
Department of Commerce, Federal Communications Commission, and Federal 
Trade Commission.
    I look forward to hearing from all of the nominees, but would like 
to say a few words about two who are particularly near and dear to me.
    First of all, I am delighted to welcome Ms. Polly Trottenberg, the 
nominee for Under Secretary of Transportation for Policy at the U.S. 
Department of Transportation.
    Polly was my Deputy Chief of Staff and Legislative Director from 
2006 to 2008, so I can personally attest to her incredible leadership 
abilities and commitment to public service.
    She is smart, charismatic, and dedicated--and the DOT is fortunate 
to have such a talented individual at the helm of its policy team.
    Polly joined the DOT in August 2009 as Assistant Secretary for 
Transportation Policy, and became the Acting Under Secretary last 
November.
    Polly's accomplishments so far include overseeing the allocation of 
$3.1 billion through the incredibly successful and popular TIGER 
(Transportation Investment Generating Economic Recovery) discretionary 
grant program, highlighting her ability to manage complex, nationally 
significant programs.
    In her current role, Polly has been coordinating implementation of 
the transportation reauthorization bill, Moving Ahead for Progress in 
the 21st Century (MAP-21), in close coordination with regional, state, 
and local transportation authorities.
    She will play a role as DOT implements many of the critical reforms 
included in MAP-21, such as the nearly ten-fold expansion of the TIFIA 
(Transportation Infrastructure Finance and Innovation Act) loan program 
and a new Federal focus on improving freight movement.
    I am confident that Polly's extensive prior experience working on 
transportation policy will allow her to continue making valuable 
contributions to the DOT:

        She was Executive Director of Building America's Future from 
        2008 to 2009.

        She served as a top aide in the Senate for 12 years, not only 
        in my office but also working for Senator Chuck Schumer and the 
        late Senator Daniel Patrick Moynihan.

        And she previously worked at the Port Authority of New York and 
        New Jersey as well as the Massachusetts Port Authority.

    I am delighted that President Obama has selected Polly for this 
important position, and look forward to working with my colleagues in 
the Senate to advance her nomination swiftly.
    I would also like to offer my enthusiastic support for the 
nomination of Congresswoman Yvonne Burke to the Amtrak Board of 
Directors. Ms. Burke is not testifying today, but I would like to say a 
few words about her.
    Congresswoman Burke has 30 years of experience as a public official 
representing the Los Angeles area, and will bring a wealth of knowledge 
to this position about the transportation challenges facing communities 
across our Nation.
    Her experience includes:

        6 years in the California State Assembly,

        6 years representing the 37th District of California in the 
        U.S. House of Representatives, and

        17 years on the Los Angeles County Board of Supervisors.

        She is particularly well known for her work involving 
        infrastructure, economic development, the environment, and 
        children and families.

        She has held numerous other distinguished positions, including 
        serving on the California State Transportation Commission, the 
        Board of Directors of the House Committee on Congressional 
        Ethics, and the California Board of Regents.

    I am confident that Congresswoman Burke will make a valuable 
addition to the Board, and will provide unique insights into ways 
Amtrak can better serve communities across our Nation.
    I look forward to hearing from all of the nominees today.
    Thank you.

    Senator Boxer.--but, I do want to say, unequivocally, as 
far--from my perch, here, we never would have done the FAA bill 
without you. We wouldn't have dislodged it without you and your 
persistence. And we wouldn't have gotten the highway bill done; 
even though it's a different committee, this committee had a 
lot of jurisdiction in there.
    So, I just--I mean, that's millions of jobs, and I just 
think you have a wonderful legacy, and Texas is lucky. If you 
go back there full-time, they're lucky to have you, and we will 
miss you.
    I have a statement I'd like to make about two nominees. 
I'll withhold, if anybody wants to add to the tribute to our 
colleague, if----
    Senator Hutchison. Oh, I don't want to take----
    Senator Boxer. Well, it's----
    Senator Hutchison.--everyone's time.
    Senator Boxer.--it's worth it.
    Senator Hutchison. Really. No, it's not.
    [Laughter.]
    Senator Boxer. Well, I think----
    Senator Hutchison. I really appreciate it, but----
    Senator Kerry. That's why we're going----
    Senator Hutchison.--thank you.
    Senator Kerry.--to miss her, folks.
    [Laughter.]
    Senator Hutchison. Let's deem that the great statements are 
made, and get these nominees----
    Senator Cantwell. No, no, Mr. Chairman, if I could just----
    Senator Kerry. Yes, Senator Cantwell.
    Senator Cantwell.--chime in.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    And I know that--I know my colleague doesn't want us to, 
but we--and we had a chance at the--one of our last hearings, 
to bring this up. But, Senator Boxer brings up such an 
important point, and that is to always--for us to recognize the 
great contribution that you and Senator Mikulski made to being 
pioneers in this institution, and the fact that, not only did 
you take time to do that, but you took time to bring all of us 
together, to help us along the way.
    And her second point, as somebody who comes from an 
aviation state with over 150,000 aviation jobs, the fact that 
getting the aviation bill was critically important to our 
state, and thank you for your help in support of that.
    I never thought that the issue of slots could be so 
contentious----
    [Laughter.]
    Senator Cantwell.--and so germane and mundane at the same 
time. And I appreciate you weighing through what was a very 
tough issue for many people.
    And so, your leadership will be missed, to say nothing that 
you got Senator Mikulski to a rodeo. I--we're still looking for 
the pictures of that.
    [Laughter.]
    Senator Hutchison. Oh, they were great.
    Senator Cantwell. And we certainly hope you won't be a 
stranger here.
    Thank you.
    Senator Hutchison. Thank you very much.
    Thank you.
    Senator Kerry. Thank you all very much.
    Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Well, Mr. Chairman, as long as we're on the 
subject, my colleague from Texas is someone who has been very 
focused on getting things done and getting results, and I think 
that is a lesson all of us can learn in the challenges that 
we're going to face ahead. But, she really has been very 
effective for her state, very effective for her country, 
because of that focus. And that means working with people who 
have different points of view and perspectives, but I think it 
has served her extremely well and allowed this committee to get 
some things done that perhaps otherwise would not have been 
done. And so, she will be greatly missed. And there are some of 
us who will try and fill those big shoes, or big pumps, or 
whatever the case may be----
    [Laughter.]
    Senator Thune.--but, we appreciate her great service here, 
and we'll miss her contributions, not only on our side of the 
aisle, but, I know, as has already been expressed, by members 
on the other side.
    So, Senator, we know you're going to do great things in 
Texas, but we'll miss you around here.
    Senator Hutchison. Well, thank you all so much.
    Thank you.
    Senator Kerry. Well, can I say, as we close it out and I'm 
opening it up----
    [Laughter.]
    Senator Kerry.--it's a long way from that seat, down there. 
You and I have both journeyed from the last seat----
    Senator Hutchison. Right.
    Senator Kerry.--up to there. And so, you know, you--a 
couple of minutes here is not so bad.
    Senator Hutchison. Well, thank you.
    Senator Kerry. You're owed that, at least.
    Senator Boxer. You can take it.
    [Laughter.]
    Senator Hutchison. We've had a couple.
    Senator Kerry. OK.
    Senator Boxer. Now, can I talk to colleagues----
    Senator Kerry. Let me just say, to all the members of the 
Committee, that Senator Rockefeller is planning to mark up 
these nominees, hopefully next week. And so, obviously, with 
the press of business, we want to get this done. So, the 
Committee is requesting members submit any questions for the 
record within the next 24 hours, and it'll be closed out at 
that point.
    So, with that said----
    Senator Boxer. Mr. Chairman, I was told I could say----
    Senator Kerry. Yes----
    Senator Boxer.--a couple of minutes----
    Senator Kerry.--absolutely. We said you could----
    Senator Boxer.--just 2--I'll put my whole statement in the 
record.
    But, I want to just say how proud I am that Polly 
Trottenberg is here, the nominee for Under Secretary of 
Transportation for Policy at the U.S. Department of 
Transportation. She's near and dear to my heart because she was 
my Deputy Chief of Staff and Legislative Director, and I can 
personally attest to her incredible leadership abilities. She 
also--she got great training from the great Senator Moynihan 
and then the great Senator Schumer, who will be here shortly 
and will be unable to speak--won't that be interesting.
    [Laughter.]
    Senator Boxer. And I just want to say that Polly joined DOT 
in 2009. I was upset to lose her. But, she's been incredible--
and I won't go into everything; I'll put it in the record--but, 
the TIGER Grant program that she--it's been very, very 
bipartisan and very, very important to the country, and she's 
cut through that issue. She--when we passed our bipartisan 
transportation bill, MAP-21, she's been working, literally, 
night and day to get it going, because we need those jobs. And 
I just know that--after we have a chance to hear from her, and 
look at her record--I just know she'll sail through.
    And lastly, Yvonne Braithwaite Burke, who some of you may 
know--she's a very important figure in California--she has 30 
years of experience as a public official, representing Los 
Angeles--6 years in the State Assembly; 6 years, the 37th 
District in the U.S. House; 17 years on the L.A. Board of 
Supervisors--very well known for her work. She's a 
distinguished nominee.
    So, these two are near and dear to my heart. I'm sure the 
others are wonderful; I just know these two so well, and I 
wanted to get the chance to put the statement in the record.
    Thank you.
    Senator Kerry. Thank you very much, Senator Boxer.
    So, now, Ms. Trottenberg, is it--now that you've been so 
pumped up, you're going to lead off.
    Ms. Trottenberg. Thank you.
    Senator Kerry. So, we'll listen to you, and then we'll just 
run right down the line.
    Ms. Trottenberg. OK, thank you.
    Senator Kerry. Thank you very much.

  STATEMENT OF HON. POLLY E. TROTTENBERG, NOMINEE TO BE UNDER 
     SECRETARY OF TRANSPORTATION FOR POLICY, DEPARTMENT OF 
                         TRANSPORTATION

    Ms. Trottenberg. Thank you, Senator Kerry and Ranking 
Member Hutchison--you will be missed by many of us at DOT, as 
well--members of the Committee. It's a privilege to appear 
before you today as President Obama's nominee for Under 
Secretary of Transportation for Policy. I'm honored by this 
nomination and the opportunity to serve our nation. And I'm 
grateful to Secretary Ray LaHood for his leadership and 
support.
    I'd like to just quickly introduce my family--my husband, 
Mark Zuckerman; my stepdaughter, Naomi; my stepson, Noah; my 
niece, Mallory; my sister-in-law, Suzanne; and my nephew, Sam. 
I'd also like to gratefully acknowledge the friends and 
colleagues who are here today.
    As Senator Boxer mentioned, I've served as Assistant 
Secretary for Policy since July 2009, and I've been the Acting 
Under Secretary for the past year. Prior to arriving at DOT, I 
did spend the majority of my career in the U.S. Senate. As 
Senator Kerry mentioned, I've had the honor of working for 
Senator Boxer, Senator Schumer, and the late Daniel Patrick 
Moynihan.
    And thank you, Senator Boxer, for your kind remarks.
    I served as Executive Director of Building America's 
Future, a bipartisan group of State and local elected officials 
that work to promote infrastructure investment, and I also 
worked at both the Massachusetts Port Authority and the Port 
Authority of New York and New Jersey, and I got a firsthand 
look at the challenges that some of our nation's busiest ports 
and airports face.
    In my current role at DOT, I have responsibility for 
overseeing the Department's surface and aviation policy 
efforts, with a focus on our strategic goals: safety, number 
one; state of good repair; economic competitiveness; 
livability; and environmental sustainability. And, as Senator 
Boxer mentioned, the policy office is currently coordinating 
the Department's implementation of MAP-21. I'd like to thank 
this committee for its work on the bill, especially in the area 
of safety. And, of course, I would like to thank my former 
boss, Senator Boxer, for her leadership in working with Senator 
Inhofe to help get that bill through Congress. We're very 
appreciative at USDOT.
    We've worked very diligently from the moment the bill 
passed, throughout the summer and the fall, to provide State 
DOTs, transit agencies, and metropolitan planning organizations 
with the timely guidance they needed on MAP-21's many new 
funding and programmatic provisions, starting, just a few weeks 
after the passage of the bill, with getting the information out 
on the TIFIA program; and we've had a big response on that.
    To oversee implementation of MAP-21's freight provisions, 
working with Senator Cantwell, we announced, this summer, a 
Freight Policy Council. The council is bringing together, 
within the Department, our senior leadership, our policy, 
economic, safety, and research experts, to oversee our freight 
policy work, including the development of the National Freight 
Strategic Plan, which was required in MAP-21.
    The policy office also works with the--has been working 
with all the other surface modes and stakeholder groups to 
implement the new performance measure requirements in MAP-21, 
which will ultimately empower State DOTs, transit agencies, 
MPOs, elected officials, and the public, to make more informed 
and cost-effective transportation investment decisions. And I'd 
like to particularly note Senator Warner, Senator Lautenberg, 
and Senator Rockefeller, who have been big leaders on the issue 
of performance measures.
    Prior to MAP-21, our policy office led the Department's 
efforts to develop our own surface transportation proposal. 
We're grateful that Congress adopted some of our 
recommendations, and we're hoping that our implementation of 
MAP-21 will teach us many lessons and help shape our collective 
vision for the next surface transportation bill.
    On the aviation side, the policy office works with the FAA 
to focus on our number one priority--safety--and on the 
implementation of NextGen, which I know is a big concern to 
many on this committee. We also work to promote the global 
competitiveness of U.S. air carriers and ensure that small and 
rural communities have access to air travel through the 
Essential Air Service program.
    Finally, as Senator Boxer noted, my office has overseen 
four rounds of competition through the TIGER Discretionary 
Grant program. We've awarded 3.1 billion to 218 transportation 
projects all across the country. We've leveraged tens of 
billions of dollars in additional public and private funding, 
and put thousands of Americans to work.
    In conclusion, if confirmed, I pledge to continue our work 
with Congress and the transportation community to create a 
safer, more efficient, and performance-based system that serves 
our citizens and their communities while creating jobs and 
economic opportunities.
    I thank the Committee for its consideration, and would be 
happy to answer questions.
    [The prepared statement and biographical information of Ms. 
Trottenberg follow:]

Prepared Statement of Hon. Polly E. Trottenberg, Acting Under Secretary 
       of Transportation for Policy, Department of Transportation
    Thank you Chairman Rockefeller, Ranking Member Hutchison, and 
Members of the Committee. It is a privilege to appear before you today 
as President Obama's nominee for Under Secretary of Transportation for 
Policy.
    I am honored by this nomination and the opportunity to serve our 
nation and the Administration. And I am grateful to Secretary Ray 
LaHood for his leadership and support.
    I would like to introduce my family--my husband Mark Zuckerman, my 
stepdaughter Naomi, my stepson Noah, my niece Mallory, my sister-in-law 
Suzanne Pillsbury, and my nephew Sam Trottenberg. I would also like to 
gratefully acknowledge the friends and colleagues who are here today.
    I have been honored to serve as Assistant Secretary for 
Transportation Policy since July of 2009 and as Acting Under Secretary 
of Transportation for Policy for the last year.
    Prior to arriving at DOT, I spent the majority of my career helping 
shape transportation policy in the U.S. Senate. In my 12 years serving 
here, I had the honor of working for Senators Barbara Boxer, Charles 
Schumer, and the late Daniel Patrick Moynihan.
    I served as Executive Director of Building America's Future, a 
bipartisan coalition of state and local elected officials chaired by 
former Governor Rendell, former Governor Schwarzenegger and Mayor 
Bloomberg, which seeks to promote infrastructure investment. I also 
worked at both the Massachusetts Port Authority and the Port Authority 
of New York and New Jersey, where I learned firsthand about the 
challenges some of our Nation's busiest ports and airports face.
    In my current role at DOT, I have the responsibility of overseeing 
the Department's surface and aviation policy efforts in several major 
areas, with a focus on our key strategic goals: safety, state of good 
repair, economic competitiveness, livability and environmental 
sustainability.
    The Policy Office is currently coordinating the Department's 
implementation of the new bipartisan surface transportation 
legislation, MAP-21. I would like to thank this Committee for its work 
on the bill, especially in the area of safety, which is the 
Department's highest goal. In addition, I would like to thank my former 
boss Senator Boxer, for her leadership in moving this bipartisan 
legislation through Congress.
    We have worked diligently to provide State DOTs, transit agencies 
and MPOs with timely guidance on MAP-21's many new funding and 
programmatic provisions, starting this summer with a greatly expanded 
TIFIA loan program. We have also worked hard to provide the public and 
transportation stakeholders with many opportunities to engage and have 
input into this process.
    To oversee the implementation of MAP-21's freight provisions, 
working with Senator Cantwell, DOT recently created a Freight Policy 
Council. The Council brings together senior leadership, as well as 
policy, economic, safety and research experts--to oversee the 
Department's freight policy work, including development of the National 
Freight Strategic Plan, as required by MAP-21.
    The Policy Office is also working with the surface modes and 
stakeholder groups across the country to implement the new performance 
measure and performance-based planning requirements in MAP-21. We 
believe these important provisions will ultimately empower State DOTs, 
transit agencies, MPOs, elected officials and the public to make more 
informed and cost-effective transportation investment decisions. I 
would like to thank you, Mr. Chairman, and Senators Lautenberg and 
Warner, for your leadership in the area of performance measurement.
    Prior to MAP-21, the Policy Office led the Department's cross-modal 
efforts to develop the Administration's surface transportation 
proposal. We are grateful that Congress adopted many of our 
recommendations. We expect that our MAP-21implementation efforts will 
teach us many lessons and help shape our collective vision for the next 
surface transportation bill.
    On the aviation side, the Policy Office works with FAA to focus on 
our number one priority, safety, and on the modernization of the air 
traffic control system through the implementation of NextGen. We are 
also working to promote the global competitiveness of U.S. air carriers 
and ensure that small and rural communities in this country have access 
to the national air transportation system through the Essential Air 
Service program.
    Finally, my office has also overseen four rounds of competition 
through the TIGER Discretionary Grant Program. We have awarded $3.1 
billion to 218 transportation projects all across the country, 
leveraged tens of billions of dollars in additional public and private 
funding, and put thousands of Americans to work.
    By applying principles of cost benefit analysis, performance 
measurement and innovative project delivery, DOT has funded projects 
with strong partnerships, accelerated schedules, and demonstrative 
benefits for the traveling public, their communities, and the Nation. 
TIGER provided the Department with valuable lessons in innovative, 
multimodal project selection and we continue to work with the TIGER 
grantees to track their performance and long-term outcomes.
    In conclusion, if confirmed, I pledge to continue our work with 
Congress and the transportation community to create a safer, more 
efficient, performance-based and multimodal transportation system that 
serves our citizens and their communities while creating jobs and 
economic opportunities.
    I thank the Committee for its consideration of my nomination and 
would be happy to respond to your questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Polly Ellen 
Trottenberg.
    2. Position to which nominated: Under Secretary of Transportation 
for Policy, Department of Transportation.
    3. Date of Nomination: June 20, 2012.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: U.S. Department of Transportation, 1200 New Jersey 
        Ave., SE, Washington, DC 20950.

    5. Date and Place of Birth: March 16, 1964; Boston, MA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Mark Zuckerman, Deputy Assistant to the President and Deputy 
        Director of the Domestic Policy Council, The White House, 1600 
        Pennsylvania Ave. NW, Washington, DC 20500; children: Naomi 
        Zuckerman, age 22; Noah Zuckerman, age 17.

    7. List all college and graduate degrees. Provide year and school 
attended.

        BA in History, Barnard College, Columbia University, May 1986.
        Masters in Public Policy, Kennedy School of Government, Harvard 
        University, June 1992

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        U.S. Department of Transportation, Acting Under Secretary of 
        Transportation for Policy and Assistant Secretary of 
        Transportation Policy, Washington, D.C., July 2009 to present 
        (managerial, related).

        Building America's Future, Executive Director, Washington, 
        D.C., Aug. 2008-July 2009 (managerial, related).

        Senator Barbara Boxer, Deputy Chief of Staff and Legislative 
        Director, Washington, D.C., Jan. 2006-July 2008 (managerial, 
        related).

        Senator Charles E. Schumer, Legislative Director, Washington, 
        D.C., Jan. 1999-Dec. 2005 (managerial, related).

        Senator Daniel Patrick Moynihan, Legislative Assistant for 
        Transportation, Public Works, and Environment, Washington, 
        D.C., Oct. 1996-Dec. 1998 (non-managerial, related).

        Port Authority of New York & New Jersey, New York, NY, Senior 
        Executive Assistant to the Director of Aviation and Executive 
        Assistant to the Executive Director, Oct. 1994-Sept. 1996 (non-
        managerial, related)

        Massachusetts State Senate, Boston, MA, Policy Analyst, Joint 
        Committee on Commerce and Labor, State Senator Lois Pines, 
        Chair, June 1992-Sept. 1994 (non-managerial, related).

        Massachusetts Port Authority, Boston, MA, Research Associate, 
        Department of Administration and Finance, Summer 1991 
        (nonmanagerial, related).

        Perry Davis Associates, New York, NY, Research Director, March 
        1988-April 1990 (non-managerial).

        Freelance Writer and Editor, New York, NY and Chicago, IL, 
        September 1986-February 1988 (non-managerial).

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years.

        Ex Officio Member and Chair (March 2010--March 2011) of the 
        U.S. Access Board, July 2009 to present.

        First Vice Chair, Northeast Corridor Infrastructure and 
        Operations Advisory Commission, Jan. 2012 to present.

        Ex Officio Member, Transportation Research Board Executive 
        Committee, July 2009 to present.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years.

        Working World TV, Founding Member, Feb. 2005-Oct. 2007.

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Women's Transportation Seminar (WTS) Sept. 2008 to present
        WTS does not restrict membership.

        Women's Leadership Network Sept. 2008-Nov. 2009
        WLN restricts membership based on sex.

        Barnard in Washington Club Oct. 1996 to present
        Barnard in Washington Club, is an alumni association for 
        Barnard College, a private women's college, and as such, 
        restricts membership based on sex.

        The Road Gang March January 2009 to present
        The Road Gang does not restrict membership.

        Member of the Economic Policy Institute's Transportation 
        Infrastructure Research Project Advisory Committee Sept. 2008-
        July 2009 (est.) EPI does not restrict membership.

        Member of the America 2050 ``Visualizing a 21st Century 
        Transportation System'' Policy Subcommittee, Summer 2009 (est.) 
        America 2050 does not restrict membership.

    In addition, over the last several years I have donated money to 
various organizations that consider their contributors ``members.'' 
These include: Rock Creek Pool, Inc.; Friends of Rock Creek's 
Environment (FORCE); WAMU 88.5 American University Public Radio; 
Environmental Defense Fund; Humane Society of the United States; 
Natural Resources Defense Council; Smart Growth America; Friends of the 
Earth; The Nature Conservancy; Sierra Club; National Trust for Historic 
Preservation; and Chesapeake Bay Foundation.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.

        Obama for America--$794 in 2011, $800 in 2008

        Democratic Senatorial Campaign Committee--$1,000 in 2008

        John Kerry for President--$1,750 in 2004

        DNC $1,000 in 2004

        Emily's List--$1,000 in 2004,

        Friends of Dan Maffei--$700 in 2008

        Campaign volunteer work:
        Gore/Lieberman, Oct.--Nov. 2000

        Dutch Ruppersberger for Congress, Oct. 2002

        Frank Lautenberg for Senate, Oct. 2002

        Tim Bishop for Congress, Nov. 2002

        Charles Schumer for Senate, July--Oct. 2004

        Kerry/Edwards, Oct.--Nov. 2004

        Ron Klein for Congress, Oct. 2006

        Lois Murphy for Congress, Oct. 2006

        Obama/Biden, Oct.--Nov. 2008

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Phi Beta Kappa, 1986.
        Ellen Davis Goldwater History Prize, 1986.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Written
        Research paper for America 2050--``Federal Decision-Making in 
        Transportation Investments: Getting the Federal Government to 
        do `the Math' ''--December, 2008.

        As a freelance writer from 1986 to 1988 I covered real estate 
        and business topics. Generally my writings were not published 
        under my name and were used in newsletters, textbooks and 
        business journals. I do not have any records of them now and I 
        believe that all the entities I wrote for then have long since 
        gone out of business.
Speaking
    [See p. 16 of this document for a list of Ms. Trottenberg's major 
speeches.]
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    I testified at my confirmation hearing for my nomination to be 
Assistant Secretary for Transportation Policy before the Senate 
Commerce Committee, July 8, 2009.
    I testified at a hearing on ``DOT's Research and Development to 
Support the Department's Strategic Goals,'' before the House Committee 
on Science and Technology Subcommittee on Technology and Innovation, 
November 19, 2009.
    I testified at a hearing on ``Doubling U.S. Exports: Are U.S. Sea 
Ports Ready for the Challenge?'' before the Senate Finance Subcommittee 
on International Trade, Customs and Global Competitiveness, April 29, 
2010.
    I testified at a hearing on ``Building American Transportation 
Infrastructure Through Innovative Funding'' before the Senate Commerce 
Committee, July 20, 2011.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    For the last three years, I have served as the Assistant Secretary 
for Transportation Policy and, since November 2011, I have also served 
as the Acting Under Secretary of Transportation for Policy at U.S. DOT. 
The Office of Transportation Policy is the chief policy office for U.S. 
DOT and is responsible for analysis, development, communication and 
review of policy and plans for domestic and international 
transportation issues, including surface and aviation reauthorization, 
intercity passenger rail, international trade and transportation, and 
other intermodal initiatives, such as the implementation of MAP-21 and 
the development of DOT's proposed reauthorization language.
    The office is responsible for running the TIGER Discretionary Grant 
Program, the Essential Air Service Program (EAS), the Small Communities 
Air Development Service Program (SCASDP), negotiates bilateral and 
multilateral aviation agreements and provides leadership on 
international transportation and trade policies.
    I also have over 20 years of diverse policy-making and managerial 
experience in the U.S. Senate, in the Massachusetts State Senate, as 
well as the Aviation Department of the Port Authority of New York and 
New Jersey, the Department of Administration and Finance at the 
Massachusetts Port Authority, and in running an infrastructure non-
profit focused on transportation.
    My 12 years on Capitol Hill working for three U.S. Senators, the 
late Senator Daniel Patrick Moynihan, Senator Charles Schumer and 
Senator Barbara Boxer, enabled me to participate directly in all of the 
major transportation legislation during that period and to work closely 
with all Senate Committees of jurisdiction--Environment and Public 
Works, Commerce and Science, Banking, Housing and Urban Affairs, and 
Finance, as well as the Appropriations Committee.
    I also served as Executive Director of Building America's Future 
(BAF), a bipartisan infrastructure coalition chaired by Governor Edward 
Rendell, Governor Arnold Schwarzenegger and Mayor Michael Bloomberg and 
was able to work closely with many state and local elected officials 
and get a deeper understanding of how Federal transportation policy 
affects them and what states and localities are doing to innovate and 
experiment.
    I believe that our nation currently faces a once-in-a-generation 
opportunity to build a 21st century transportation system that will 
bolster U.S. economic growth and long-term prosperity, grow our freight 
system capacity, foster rural mobility, and enhance the safety and the 
quality of life for our citizens and communities.
    I have had a lifelong interest and passion in transportation policy 
and what it can do to improve the lives of ordinary Americans and our 
nation's economy. I believe that my background and extensive experience 
with transportation policy at the regional, state and Federal levels, 
and my intimate knowledge of the legislative process, have prepared me 
to serve in this role.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    As Acting Under Secretary of Transportation for Policy, I currently 
oversee the Office of Transportation Policy, which has an annual budget 
of approximately $20 million, over 120 employees, and in Fiscal Year 
2012 awarded almost $1 billion in TIGER grants, managed the $220 
million Essential Air Program, awarded $6 million in SCASDP grants. The 
Policy Office works closely with the Department of Transportation's 
Budget Office, Office of the General Counsel and Office of 
Administration to ensure that our organizational budget and grant 
dollars are subject to the appropriate management and accounting 
controls.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        1. Implementation of MAP-21. Congress has passed a 27-month 
        surface transportation authorization that makes significant 
        changes to current law. Some of the new law took effect July 6 
        and many of the major programmatic changes take effect October 
        1. It will require extensive work throughout the agency to make 
        programmatic changes, promulgate new rules, issue guidance, and 
        coordinate successfully with State DOTs, transit agencies and 
        other transportation stakeholders.

        2. Development of Successor Legislation to MAP-21. While USDOT 
        implements MAP-21, it must also continue its work with Congress 
        and the transportation community to develop a national vision 
        for transportation policy to put in place once MAP-21 expires 
        at the end of 2014. The fiscal challenges are formidable, while 
        the system has a huge backlog of maintenance needs as well as a 
        need for significant new investment in the coming years.

        3. Aviation Policy. Congress has also recently passed a new FAA 
        reauthorization bill and now the Department's implementation is 
        underway, including ensuring that the NextGen satellite-based 
        navigation system is sustainably funded and finally underway, 
        working with the other Federal agencies involved--the 
        Department of Defense, NASA and the Department of Homeland 
        Security.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    As of June 30, 2012, I have $259,016 in a Thrift Savings Plan (TSP) 
account for retirement.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
designated agency ethics official to identify any potential conflicts 
of interest. Any potential conflicts of interest will continue to be 
resolved in accordance with the terms of an ethics agreement that I 
have entered into with the Department's designated agency ethics 
official and that has been provided to this Committee. I am not aware 
of any potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
designated agency ethics official to identify any potential conflicts 
of interest. Any potential conflicts of interest will continue to be 
resolved in accordance with the terms of an ethics agreement that I 
have entered into with the Department's designated agency ethics 
official and that has been provided to this Committee. I am not aware 
of any potential conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    In my current role as Assistant Secretary for Transportation Policy 
and Acting Under Secretary of Transportation for Policy, I have helped 
oversee U.S. DOT's legislative proposal, technical assistance, and 
correspondence to Congress on surface reauthorization. I have also been 
involved in deliberations on other departmental legislative efforts in 
aviation, transit safety, and pipeline safety. I have also been 
involved in the administration and execution of the American Recovery 
and Reinvestment Act of 2009, particularly the TIGER Discretionary 
Grant program and the Intercity Passenger Rail Service Corridor Capital 
Assistance Program, as well as MAP-21.
    I worked in the U.S. Senate from 1996 to 2008 and so have worked on 
many pieces of legislation as part of my official duties.
    As Executive Director of Building America's Future, I was involved 
in debates about the American Recovery and Reinvestment Act of 2009, as 
well as the next surface transportation reauthorization and FAA 
reauthorization.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
designated agency ethics official to identify any potential conflicts 
of interest. Any potential conflicts of interest will continue to be 
resolved in accordance with the terms of an ethics agreement that I 
have entered into with the Department's designated agency ethics 
official and that has been provided to this Committee. I am not aware 
of any potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 

                 Polly Trottenberg Major Public Speeches
------------------------------------------------------------------------
 Date        Sponsor       Event Description    Location        Role
------------------------------------------------------------------------
09/08   Euromoney          Challenges and     New York, NY  Speaker
         Conference on      Opportunities in
         Public Private     U.S.
         Partnerships       Transportation
                            Investment
------------------------------------------------------------------------
2/09    National           Improving the      New York, NY  Speaker
         Association of     Federal Funding
         City               Process and
         Transportation     Achieving a
         Officials          State of Good
                            Repair
------------------------------------------------------------------------
2/09    Regional Plan      Metropolitan       Washington,   Speaker
         Association,       Regions Forum      DC
         Urban Land
         Institute and
         NARC
------------------------------------------------------------------------
3/09    City & Financial   Public Private     Washington,   Speaker
         and U.S. DOT       Partnerships:      DC
                            USA Summit
------------------------------------------------------------------------
5/09    Railway Supply     Advancing          Washington,   Speaker
         Institute and      Passenger and      DC
         One Rail           Freight Rail in
                            the Nation's
                            Transportation
                            System
------------------------------------------------------------------------
5/09    The Road Gang      Building           Washington,   Keynote
                            America's          DC            Speaker
                            Future: Vision
                            for the
                            Reauthorization
                            of the Surface
                            Transportation
                            Legislation
------------------------------------------------------------------------
7/8/09  Senate Committee   Confirmation       Washington,   Hearing
         on Commerce,       Hearing: Polly     DC            Witness
         Science, and       Trottenberg,
         Transportation     Assistant
                            Secretary for
                            Transportation
                            Policy
------------------------------------------------------------------------
9/1/09  Association for    Moving Forward to  Washington,   Keynote
         Commuter           Address            DC            Speaker
         Transportation     Transportation,
         (ACT)              Economic &
                            Environmental
                            Challenges
------------------------------------------------------------------------
10/5/   The National       U.S. DOT's Views   Washington,   Speaker
 09      Complete Streets   on Complete        DC
         Coalition and      Streets Policies
         the American
         Planning
         Association
------------------------------------------------------------------------
10/28/  Association of     Annual             Savannah, GA  Keynote
 09      Metropolitan       Conference:                      Speaker
         Planning           Planning for a
         Organizations      Better Future
         (AMPO)
------------------------------------------------------------------------
10/30/  Kennedy School of  Fast Track to the  Cambridge,    Speaker
 09      Government         Future: The New    MA
         Rappaport          Vision for High-
         Institute for      Speed Rail
         Greater Boston
         Harvard
         University
------------------------------------------------------------------------
10/31/  Rail-Volution      Greening Your      Boston, MA    Speaker
 09                         Future--Current
                            and Emerging
                            Opportunities
                            for Federal
                            Funding
------------------------------------------------------------------------
11/19/  House Committee    DOT's Research     Washington,   Hearing
 09      on Science and     and Development    DC            Witness
         Technology and     to Support the
         Subcommittee on    Department of
         Technology and     Transportation's
         Innovation         Strategic Goals
------------------------------------------------------------------------
12/1/   U.S. DOT           Transportation     New Orleans,  Host/Speaker
 09                         Reauthorization    LA
                            Outreach Tour
                            with Secretary
                            LaHood
------------------------------------------------------------------------
1/12/   Transportation     Annual Meeting:    Washington,   Moderator
 10      Research Board     Meet the U.S.      DC
                            DOT. Leadership
                            Panel
------------------------------------------------------------------------
1/20/   U.S. Conference    78th Winter        Washington,   Speaker
 10      of Mayors          Meeting: ``The     DC
                            Partnership for
                            Sustainable
                            Communities:
                            Integrating
                            Transportation,
                            Housing, Land
                            Use and Economic
                            Development''
------------------------------------------------------------------------
1/25/   U.S. DOT           Transportation     Minneapolis,  Host/Speaker
 10                         Reauthorization    MN
                            Outreach Tour
                            with Secretary
                            LaHood
------------------------------------------------------------------------
1/29/   The American       Center for         Washington,   Speaker
 10      Association of     Excellence in      DC
         State Highway      Project Finance,
         and                Congressional
         Transportation     Staff Forum,
         Officials          ``Legislative
         (AASHTO)           Policy Issues in
                            Transportation
                            Finance''
------------------------------------------------------------------------
2/19/   U.S. DOT           Transportation     Los Angeles,  Host/Speaker
 10                         Reauthorization    CA
                            Outreach Tour
                            with Secretary
                            LaHood
------------------------------------------------------------------------
2/19/   WTS--Los Angeles   Women's            Los Angeles,  Speaker
 10      Chapter            Leadership and     CA
                            Transportation
------------------------------------------------------------------------
2/21/   National           Energizing         Washington,   Speaker
 10      Association of     Regional           DC
         Regional           Leadership and
         Councils (NARC)    Shaping
                            Administration
                            and
                            Congressional
                            Priorities
------------------------------------------------------------------------
2/24/   Community          Streetcar Summit:  Washington,   Speaker
 10      Streetcar          How streetcars     DC
         Coalition          promote economic
                            development,
                            livability and
                            sustainability
------------------------------------------------------------------------
3/9/10  Penn               High Speed Rail    London, UK    Speaker
         International      and America's
         Planning           National
         Workshop           Infrastructure
                            Strategy
------------------------------------------------------------------------
3/11/   United Kingdom     Comparing U.S.     London, UK    Speaker
 10      Transport          and UK
         Ministry           Transportation
                            Policies (with
                            Transport
                            Minister Lord
                            Adonis)
------------------------------------------------------------------------
4/9/10  National           Public Hearing:    Washington,   Speaker
         Conference of      High Speed Rail    DC
         State
         Legislatures
         (NCSL)
------------------------------------------------------------------------
4/16/   Regional Plan      20th Annual        Washington,   Panelist
 10      Association        Regional           DC
                            Assembly: ``The
                            Future of Trains
                            and Planes''
------------------------------------------------------------------------
4/29/   Senate Committee   Hearing: Doubling  Washington,   Hearing
 10      on Finance,        U.S. Exports:      DC            Witness
         Subcommittee on    Are U.S. Sea
         International      Ports Ready for
         Trade, Customs,    the Challenge?
         and Global
         Competitiveness
------------------------------------------------------------------------
5/4/10  ITS America        Surface            Houston, TX   Panelist
                            Transportation
                            Reauthorization
                            Outreach
------------------------------------------------------------------------
5/5/10  U.S. DOT           Transportation     Houston, TX   Host/Speaker
                            Reauthorization
                            Outreach Tour
                            with Secretary
                            LaHood
------------------------------------------------------------------------
5/10/   Asia-Pacific       Transportation     Washington,   Keynote
 10      Economic           Energy             DC            Speaker
         Cooperation        Efficiency
         (APEC)             Improvement
                            Potential in
                            APEC Economies
------------------------------------------------------------------------
6/4/10  U.S. DOT           Transportation     Bismarck, ND  Host/Speaker
                            Reauthorization
                            Outreach Tour
                            with Secretary
                            LaHood
------------------------------------------------------------------------
6/16/   Rudin Center at    High Speed Rail:   New York, NY  Speaker
 10      New York           Leveraging
         University         Federal
                            Investment
                            Locally
------------------------------------------------------------------------
7/9/10  City of Denver,    Urban Circulator   Denver, CO    Speaker
         CO                 and Bus
                            Livability Grant
                            Announcement,
                            Denver Regional
                            Transportation
                            District
------------------------------------------------------------------------
7/14/   U.S. DOT           Transportation     Washington,   Host/Speaker
 10                         Reauthorization    DC
                            Outreach Tour
                            with Secretary
                            LaHood
------------------------------------------------------------------------
9/1/10  Association for    How DOT is Moving  Washington,   Keynote
         Commuter           Forward to         DC            Speaker
         Transportation     address
         Conference .       Transportation,
                            Economic &
                            Environmental
                            Challenges
------------------------------------------------------------------------
9/20/   Capitol Bikeshare  Capitol Bikeshare  Washington,   Panelist
 10      and U.S. DOT       Launch and         DC
                            Opening
------------------------------------------------------------------------
9/28/   The Associated     National and       Washington,   Speaker
 10      General            Chapter            DC
         Contractors of     Leadership
         America            Conference: The
                            Administration's
                            Approach to
                            Infrastructure
------------------------------------------------------------------------
9/29/   T4America          National           Washington,   Speaker
 10                         Leadership         DC
                            Conference
------------------------------------------------------------------------
10/5/   The National       U.S. DOT's Views   Washington,   Speaker
 10      Complete Streets   on Complete        DC
         Coalition and      Streets and
         the American       Policies
         Planning
         Association
------------------------------------------------------------------------
10/29/  National           How Outcomes and   Washington,   Speaker
 10      Association of     the Integration    DC
         Public             of Programs can
         Administrations    create Synergy,
         (NAPA)             Efficiencies and
                            Money
------------------------------------------------------------------------
10/31/  Rail-Volution      Greening Your      Boston, MA    Speaker
 10                         Future: Current
                            and Emerging
                            Opportunities
                            for Federal
                            Funding
------------------------------------------------------------------------
11/15/  United States      American           Brisbane,     Speaker
 10      Studies Centre     Transportation    Australia
         at the             Policy
         University of
         Sydney,
         Australia
------------------------------------------------------------------------
11/15/  United States      City of the        Brisbane,     Keynote
 10      Studies Centre     Future: U.S. and   Australia     Speaker
         at the             Australian
         University of      Perspectives
         Sydney,
         Australia
------------------------------------------------------------------------
1/21/   Institute for      BRT in the U.S.:   Washington,   Discussant
 11      Transportation &   Challenges and     DC
         Development        How it Might be
         Policy (ITDP)      Enhanced
------------------------------------------------------------------------
1/1/21/ Orange County      Breaking Down      Washington,   Discussant
 11      Transportation     Barriers           DC
         Authority (OCTA)   Initiative:
                            Expedite
                            Federally Funded
                            Projects.
------------------------------------------------------------------------
1/24/   Institute for      2011 Sustainable   Washington,   Keynote
 11      Transportation &   Transportation     DC            Speaker
         Development        Award Ceremony
         Policy (ITDP).
------------------------------------------------------------------------
1/25/   Transportation     90th Annual        Washington,   Moderator
 11      Research Board     Meeting: Surface   DC
                            Transportation
                            Authorization--A
                            Discussion with
                            the U.S.
                            Department of
                            Transportation
                            Leadership
------------------------------------------------------------------------
1/26/   Transportation     90th Annual        Washington,   Panelist
 11      Research Board     Meeting:           DC
                            Grabbing the
                            TIGER by the
                            Tail--Experience
                            s and Future
                            Outlook
------------------------------------------------------------------------
1/26/   Transportation     90th Annual        Washington,   Moderator
 11      Research Board     Meeting: Future    DC
                            Directions in
                            Transportation--
                            A Multimodal
                            Dialogue with
                            the U.S. DOT
                            Deputy
                            Administrators
------------------------------------------------------------------------
3/17/   Intelligent        ITS 18th World     Washington,   Speaker
 11      Transportation     Congress Board     DC
         Society of         of Directors'
         America (ITS)      Meeting
------------------------------------------------------------------------
3/25/   Bipartisan Policy  Grounding the      Warrenton,    Presenter
 11      Center National    Vision in the      VA
         Transportation     Political--nviro
         Policy Project     nment Strategies
         (NTPP)             far Overcoming
                            Barriers and Key
                            Next Steps
------------------------------------------------------------------------
3/28/   The National       Washington         Alexandria,   Keynote
 11      Industrial         Freight            VA            Speaker
         Transportation     Transportation
         League (NITL)      Policy Forum:
                            Mapping
                            America's Vision
                            for Freight
                            Transportation
------------------------------------------------------------------------
3/30/   American Public    Transportation     Washington,   Speaker
 11      Works              Sustainability     DC
         Association        Summit:
         (APWA)             Transportation
                            Sustainability
                            and Surface
                            Transportation
                            Reauthorization
------------------------------------------------------------------------
4/7/11  American Bus       Government         Washington,   Speaker
         Association        Affairs and        DC
                            Policy Committee
                            Meeting:
                            Transportation
                            Authorization,
                            Planning, and
                            the Evolution of
                            Surface
                            Transportation
------------------------------------------------------------------------
4/8/11  Urban Institute    Infrastructure     Washington,   Moderator
                            Policy Research    DC
                            Initiative
                            Roundtable:
                            Rationale,
                            Choices, and
                            Challenges
------------------------------------------------------------------------
5/3/11  American Public    Surface            Washington,   Keynote
         Transportation     Transportation:    DC            Speaker
         Association        Where do we
                            stand?
------------------------------------------------------------------------
5/4/11  Senator Sheldon    Second Annual      Washington,   Panelist
         Whitehouse,        Rhode Island       DC
         Rhode Island       Energy &
                            Environmental
                            Leaders Day
------------------------------------------------------------------------
5/10/   Coalition          Annual Meeting:    Washington,   Speaker
 11      America's          The role of        DC
         Gateways & Trade   freight in
         Corridors          surface
         (CAGTC)            transportation
                            authorization
------------------------------------------------------------------------
6/13/   American Public    The Power of Rail  Boston, MA    Panelist
 11      Transportation     as a Foundation
         Association        of Economic
                            Growth
------------------------------------------------------------------------
6/13/   WTS Boston         Annual Awards and  Boston, MA    Keynote
 11                         Scholars Dinner                  Speaker
------------------------------------------------------------------------
6/15/   Minnesota          Congressional      Washington,   Speaker
 11      Transportation     Delegation Fly-    DC
         Affiance           in: Latest
         Reception          Developments
                            Impacting
                            Federal Funding
                            and Policy
------------------------------------------------------------------------
6/24/   Mineta             National Policy    San           Speaker
 11      Transportation     Summit on          Francisco,
         Institute          Transportation     CA
                            Finance
------------------------------------------------------------------------
6/24/   Mineta             Norman Y. Mineta   San           Keynote
 11      Transportation     National Policy    Francisco,    Speaker
         Institute and      Summit on          CA
         the Commonwealth   Transportation
         Club of            Finance
         California
------------------------------------------------------------------------
6/25/   Mineta             20th Annual        San Jose CA   Commencement
 11      Transportation     Mineta                           Speaker
         Institute          Transportation
                            Institute
                            Commencement
                            Ceremony
------------------------------------------------------------------------
6/24/   White House        White House        Los Gatos,    Host/Speaker
 11      Office of Public   Roundtable:        CA
         Engagement         Winning the
                            Future with the
                            Jewish
                            Federation of
                            Los Gatos
------------------------------------------------------------------------
7/11/   White House        Strong Cities      Fresno, CA    Speaker
 11                         Strong
                            Communities
                            Launch
------------------------------------------------------------------------
7/20/   Senate Committee   Building American  Washington,   Hearing
 11      on Commerce,       Transportation     DC            Witness
         Science and        Infrastructure
         Transportation     Through
                            Innovative
                            Funding
------------------------------------------------------------------------
9/20/   The French-        The                Washington,   Speaker
 11      American           Infrastructure     DC
         Foundation         Nexus: Public
                            Transportation
                            in Urban and
                            Interstate
                            Schemes
------------------------------------------------------------------------
10/13/  Active             Active             Chicago, IL   Speaker
 11      Transportation     Transportation
         Alliance           Alliance 25th
                            Anniversary
                            Dinner
------------------------------------------------------------------------
10/14/  Center for         Board Meeting and  Chicago, IL   Keynote
 11      Neighborhood       Staff Address                    Speaker
         Technology
------------------------------------------------------------------------
10/14/  WTS Chicago        White House        Chicago, IL   Speaker
 11                         Roundtable:
                            Chicago Women in
                            Trades
------------------------------------------------------------------------
10/18/  Rail-Volution      Reauthorization    Washington,   Moderator
 11                         for the Future:    DC
                            SAFETEA-LU and
                            the Gasoline Tax
------------------------------------------------------------------------
10/20/  The White House    White House        Martinsburg,  Speaker
 11      Business Council   Roundtable:        WV
         and the Eastern    Martinsburg
         Panhandle          Business
         Regional
         Planning &
         Development
         Council
------------------------------------------------------------------------
10/31/  Taubman Center     The Current        Cambridge,    Speaker
 11      for State and      Politics of        MA
         Local.             Transportation:
         Government         The View from
         Harvard Kennedy    Washington
         School
------------------------------------------------------------------------
11/1/   The White House    White House        Boston, MA    Speaker
 11      Business Council   Roundtable:
                            Winning the
                            Future with
                            Boston
------------------------------------------------------------------------
11/4/   The White House    White House        Washington,   Speaker
 11      Business Council   Roundtable:        DC
         and Business       Forum on Jobs
         Forward            and Economic
                            Competitiveness
------------------------------------------------------------------------
11/16/  Multnomah County   TIGER III          Portland, OR  Speaker
 11                         Groundbreaking
                            Ceremony--Sellwo
                            od Bridge
                            Replacement
                            Project
------------------------------------------------------------------------
1/12/   White House        National           Washington,   Speaker
 12      Office of          Association of     DC
         Intergovernmenta   Counties
         l Affairs          Transportation
                            Briefing
------------------------------------------------------------------------
1/24/   American Public    Transportation as  Washington,   Speaker
 12      Transportation     a Foundation for   DC
         Association        Economic Health:
                            Job Creation and
                            Transportation
                            Finance
------------------------------------------------------------------------
2/24/   The American       AASHTO             Washington,   Opening
 12      Association of     Congressional      DC            Speaker
         State Highway      Forum: The
         and                Transportation
         Transportation     Funding Issues
         Officials          and
                            Reauthorization
------------------------------------------------------------------------
2/29/   The American       AASHTO Washington  Washington,   Speaker
 12      Association of     Briefing:          DC
         State Highway      Updates for
         and                Congressional
         Transportation     High Speed and
         Officials          Intercity
                            Passenger Rail
                            Caucus Staff
------------------------------------------------------------------------
3/8/12  The American       Grassroots         Washington,   Keynote
         Institute of       Leadership and     DC
         Architects         Legislative
                            Conference
------------------------------------------------------------------------
3/9/12  City of Irving,    5th Annual         Washington,   Speaker
         TX                 Transportation     DC
                            and
                            Infrastructure
                            Convention
------------------------------------------------------------------------
3/15/   Institute for      Sustainable        Washington,   Panelist
 12      Transportation     Mobility on the    DC
         and Development    Road to the Rio+
         Policy             20 United
                            Nations
                            Conference on
                            Sustainable
                            Development
------------------------------------------------------------------------
4/24/   U.S. DOT, U.S.     National           Washington,   Speaker
 12      DOL and U.S. ED    Transportation     DC
                            Workforce Summit
------------------------------------------------------------------------
4/25/   Atlanta Regional   Board of           Atlanta, GA   Speaker
 12      Commission         Directors
                            Meeting
------------------------------------------------------------------------
4/26/   The White Office   White House        Atlanta, GA   Speaker
 12      of Public          Roundtable
         Engagement, U.S.
         DOT, and WTS
         Atlanta
------------------------------------------------------------------------
5/10/   WTS International  Annual             Denver, CO    Keynote
 12                         Conference: 2012                 Speaker
                            WTS Awards
                            Banquet
------------------------------------------------------------------------
6/11/   Northeast          2012 NASTO         Baltimore,    Panelist
 12      Association of     Conference         MD
         Transportation     ``Regional
         Officials          Issues and
         (NASTO)            Regional
                            Cooperation''
                            Perspectives on
                            Federal Rail
                            Programs
------------------------------------------------------------------------
6/26/   National Academy   2nd Bi-Annual MTS  Washington,   Keynote
 12      of Sciences/TRB    Research &         DC            Speaker
                            Development
                            Conference:
                            Diagnosing the
                            Marine
                            Transportation
                            System
------------------------------------------------------------------------
6/28/   Urban Land         Official Release   Washington,   Keynote
 12      Institute          of                 DC            Speaker
                            ``Infrastructure
                            2012: Spotlight
                            on Leadership''
------------------------------------------------------------------------

                                 ______
                                 
                     Resume of Polly E. Trottenberg
Professional Experience
U.S. Department of Transportation, Washington, D.C.--July 2009-Present
Acting Under Secretary for Policy and Assistant Secretary for 
        Transportation Policy
  <bullet> Appointed by President Barack Obama to lead the Department 
        of Transportation's Policy Office. Responsible for developing 
        and implementing key initiatives for Secretary LaHood and the 
        Obama Administration on transportation policy, funding and 
        financing, high-speed rail, and the $2.5 billion TIGER 
        discretionary grant program. Manages and provides strategic 
        direction to key policy and research offices within the 59,000-
        person Department including transportation finance, innovation, 
        safety, economic analysis, and the environment.

  <bullet> Led the effort to write the Administration's $556 billion 
        surface transportation reauthorization bill that was sent to 
        Congress. The bill included major policy reforms, including a 
        focus on better integrating transportation, housing, 
        environment and economic development, program consolidation, 
        innovative finance and using competition, transparency and 
        economic analysis to improve the performance of the U.S. 
        transportation system.

  <bullet> Member of the U.S. DOT Cabinet, Credit Council, Safety 
        Council, Research Council, lead author of the USDOT Strategic 
        Plan. Extensive experience with Federal budget and 
        appropriations process, Federal personnel, procurement and 
        contracting procedures. Has given numerous speeches, media 
        appearances and testified before the U.S. Congress on a variety 
        of transportation issues. Confirmed by the U.S. Senate, Top 
        Security Clearance.
Building America's Future, Washington, D.C.--Aug. 2008-July 2009
Executive Director
  <bullet> Managed a new bipartisan non-profit organization, Building 
        America's Future (BAF), created to advocate for increased 
        investment in infrastructure and major transportation policy 
        reform. BAF is chaired by Governor Edward G. Rendell, Governor 
        Arnold Schwarzenegger and Mayor Michael R. Bloomberg and has a 
        membership of elected officials from across the U.S.

  <bullet> Responsible for organization's start up operations, 
        including representing the organization publicly and in the 
        press, fundraising, hiring, policy development, advocacy, 
        coalition-building and media strategy.
Senator Barbara Boxer, Washington, DC--Jan. 2006-July 2008
Deputy Chief of Staff and Legislative Director
  <bullet> Chief policy advisor to Senator Boxer, responsible for 
        developing comprehensive legislative agenda, media and 
        political strategy, with focus on the Environment and Public 
        Works and Commerce Committees. Areas of expertise include 
        transportation, environment, appropriations, and economic 
        development.

  <bullet> Extensive experience on transportation legislation, 
        including FAA Reauthorization, Airline Passenger Bill of 
        Rights, Amtrak reauthorization, developed legislation to 
        address Coast Guard and oil spill issues in the wake of the 
        Cosco Busan accident in San Francisco Bay.

  <bullet> Twelve years legislative experience in the U.S. Senate, 
        specializing in bipartisan coalition-building to achieve 
        successful legislative outcomes. Extensive management and 
        leadership experience, responsible for the hiring, training, 
        and supervision of legislative staff.
Senator Charles E. Schumer, Washington, D.C.--Jan. 1999-Dec. 2005
Legislative Director
  <bullet> Chief policy advisor to Senator Schumer, responsible for 
        developing comprehensive legislative agenda, media and 
        political strategy, with focus on the Banking, Housing and 
        Urban Affairs, Energy, Judiciary, and Finance Committees, with 
        focus on transportation. Assisted in the creation and 
        organization of all aspects of a new Senate office.

  <bullet> Extensive experience on transportation legislation and 
        policy, including SAFETEA-LU with a focus on mass transit 
        funding and policy, Amtrak, port and aviation issues, including 
        helping to bring new airline service to Upstate New York, and 
        transportation appropriations.

  <bullet> Led the development of New York's bipartisan post-September 
        11 legislative agenda, working closely with the Bush 
        Administration, including securing $21 billion in 
        appropriations, crafting a $5 billion business recovery tax 
        package and a $4.5 billion transportation infrastructure plan 
        for Lower Manhattan.
Senator Daniel Patrick Moynihan, Washington, D.C.--Oct. 1996-Dec. 1998
Legislative Assistant for Transportation, Public Works, and Environment
  <bullet> Lead advisor to Senator Moynihan on the Environment and 
        Public Works Committee. Responsible for developing policy and 
        political strategy on transportation, public works, and 
        environmental issues. Areas of expertise included TEA-21, 
        Amtrak, mass transit, aviation, water resources, public 
        buildings, and transportation appropriations.

  <bullet> Developed political strategy for Northeast and urban states 
        to maintain environmentally sustainable highway and mass 
        transit programs during authorization of TEA-21. Won passage of 
        initiative to encourage employers to offer mass transit 
        benefits to employees.
Port Authority of NY & NJ, New York, NY--Oct. 1994-Sept. 1996
Senior Executive Assistant to the Director of Aviation, Gerald P. 
        Fitzgerald
  <bullet> Directed the Port Authority Board approvals process for the 
        Aviation Department, which operates the region's three major 
        airports--Kennedy, Newark, and LaGuardia. Supervised a staff of 
        seven who provided administrative and policy support for 1,800-
        person department.
Executive Assistant to the Executive Director, Stanley Brezenoff
  <bullet> Provided administrative and policy analysis support to the 
        Executive Director in key areas, including negotiation of New 
        York City Airport Lease, the AirTrain Project and Port 
        dredging.
Massachusetts State Senate, Boston, MA--June 1992-Sept. 1994
Policy Analyst, Joint Committee on Commerce and Labor, State Senator 
        Lois Pines, Chair
  <bullet> Developed legislative initiatives for the Committee on labor 
        and business issues, including economic and industrial 
        development, defense conversion, welfare reform, job training, 
        unemployment insurance, consumer protection, foreign trade, and 
        tourism.
Massachusetts Port Authority, Boston, MA--Summer 1991
Research Associate, Department of Administration and Finance
  <bullet> Conducted financial analysis projects, including the 
        development and design of a new rate methodology and fee 
        structure for Logan Airport's International Terminal and 
        determined its financial implications for airline carriers and 
        Massport.
Education
Harvard University, John F. Kennedy School of Government, Cambridge, MA
  <bullet> Master of Public Policy, June 1992.
  <bullet> Editor-in-Chief, Kennedy School Beacon, 1991-1992. Reporter, 
        1990-1991.
Columbia University, Barnard College, New York, NY
  <bullet> B.A. magna cum laude, in History, May 1986.
  <bullet> Elected to Phi Beta Kappa, April 1986.
Other Activities
  <bullet> Ex Officio Member and Chair (2009-2010) of the U.S. Access 
        Board.

  <bullet> First Vice Chair, Northeast Corridor Infrastructure and 
        Operations Advisory Commission:

  <bullet> Ex Officio, Member, Transportation Research Board Executive 
        Committee.

  <bullet> Member, Women's Transportation Seminar.

    Senator Kerry. Thank you very much, Ms. Trottenberg.
    Dr. Doms.

STATEMENT OF DR. MARK E. DOMS, NOMINEE TO BE UNDER SECRETARY OF 
                COMMERCE FOR ECONOMIC AFFAIRS, 
                  U.S. DEPARTMENT OF COMMERCE

    Dr. Doms. First, I'd like to say hello and thank you to my 
friends and family, both here and watching online. I wouldn't 
be here without their love and support.
    Senator Kerry, Ranking Member Hutchison, and distinguished 
members of the Committee, I appreciate the opportunity to 
appear before you today as the nominee for Under Secretary for 
Economic Affairs at the Department of Commerce. It is an honor 
to be nominated by President Obama, and, if confirmed, I look 
forward to working with Acting Secretary Blank, other Commerce 
leaders, and the commerce, and especially this committee, in 
the years to come.
    The Under Secretary position, which is housed in the 
Economics and Statistics Administration, has two key functions. 
The first is the management and oversight of two of the top 
statistical agencies in the United States--the Census Bureau 
and the Bureau of Economic Analysis. The second part of the job 
is to provide high-quality economic analysis to the Department, 
administration, Congress, and the public.
    The management and oversight responsibilities for the 
Census Bureau and BEA are vitally important. As you know, the 
Census Bureau is responsible for conducting the decennial 
Census, the largest peacetime operation of the Federal 
Government. In fact, the Census Bureau is well underway in 
planning for the 2020 Census, which we hope to be the best-
managed, ever.
    In addition, the Census Bureau does a vast amount of data 
collection that gives businesses and Federal, State, local, and 
tribal governments the vital statistics needed to manage and 
grow the economy. BEA provides other economic data, such as 
gross domestic product, personal income and outlays, and trade 
in services.
    If confirmed as Under Secretary, I will work with these 
agencies to continue to provide the American people greater and 
easier access to the best, most accurate information about our 
economy and our communities.
    The second part of the Under Secretary's job is to serve as 
the economic advisor to the Secretary of Commerce, providing 
indepth economic analysis on current issues. In fact, the 
economic team at ESA, of which I am a part, worked closely with 
others to draft the COMPETES report that was delivered earlier 
this year to this committee. This report summarized the 
competitiveness and innovative capacity of the United States, 
and highlighted policies to strengthen our economy, especially 
for the middle class. ESA also produced reports on women-owned 
businesses, IP-intensive industries, and broadband adoption, to 
name just a few. If confirmed as Under Secretary, I will 
continue to ensure that the Department, the American people, 
the administration, and the Congress have access to cutting-
edge economic analysis.
    The main responsibilities for the Under Secretary closely 
align with my past professional experiences. I pursued my Ph.D. 
in economics as a result of my desire to bridge the gap between 
data analysis and policy development. I began my professional 
work in economics at the Census Bureau, observing firsthand the 
challenges in collecting and using data. After leaving the 
Census Bureau, I spent the bulk of my career working in the 
Federal Reserve system. During that time, I observed how data 
collected by our statistical agencies helps guide how we 
understand the macro economy.
    My most rewarding experience, however, has been serving as 
the Department of Commerce's chief economist for the past 3 
years, a position that reports directly to the Under Secretary. 
In addition to my analytical work, I've had the opportunity to 
become intimately familiar with major issues facing our agency. 
These issues include: budgeting and management in a time of 
fiscal restraint; data collection for a growing, increasingly 
mobile population; and risk management.
    Finally, in my capacity as chief economist, I've had the 
great pleasure of meeting regularly with business leaders from 
all parts of the country. It is one thing to observe data 
trends, it is another to talk to business leaders to understand 
the decisions that are the basis for those trends. These 
meetings have been exceedingly rewarding, but I believe their 
highest value has been in providing business leaders with a 
forum where their concerns are heard by administration 
officials.
    I appreciate the opportunity to come before you today. I 
have enjoyed working with this committee, and appreciate 
meeting with members and staff about my nomination, and 
learning more about your work and priorities. If my nomination 
is approved by this committee and confirmed by the full Senate, 
I look forward to working with you and your staff members on 
all items of shared interest and concern.
    Thank you.
    [The prepared statement and biographical information of Dr. 
Doms follow:]

Prepared Statement of Dr. Mark E. Doms, Nominee for Under Secretary for 
             Economic Affairs, U.S. Department of Commerce
    Chairman Rockefeller, Ranking Member Hutchison, and distinguished 
members of the Committee, I appreciate the opportunity to appear before 
you today as the nominee for the position of Under Secretary for 
Economic Affairs at the Department of Commerce. It is an honor to be 
nominated for Under Secretary by President Obama, and if confirmed I 
look forward to working with Acting Secretary Blank and others in 
leadership at the Department of Commerce. I also look forward to 
working with Congress, and especially this committee, in the years to 
come. I believe the Under Secretary for Economic Affairs to be a vital 
agency job, and I am grateful for the privilege of being considered for 
this position.
    The Under Secretary job, which is housed in the Economics and 
Statistics Administration (ESA), has two key functions. The first is 
management and oversight of two of the top statistical agencies in the 
United States, the Census Bureau and the Bureau of Economic Analysis 
(BEA). The second part of the job is to provide high-quality economic 
analysis to the Department, Administration, and the public.
    The management and oversight responsibilities for the Census Bureau 
and BEA are vitally important. As you know, the Census Bureau is 
responsible for conducting the decennial census, the largest peacetime 
operation of the Federal Government. In fact, although it may seem 
early to do so, the Census Bureau is well underway in planning the 2020 
Census, which we hope to be the best managed, most efficient and cost 
effective census ever. What may be a surprise to some, the Census 
Bureau also does an Economic Census of businesses in the US, which is 
currently underway. In addition, the Census Bureau does a vast amount 
of data collection that gives us vital statistics that are used by 
businesses, federal, state, local and tribal governments to manage and 
grow the economy. BEA provides other economic data, such as Gross 
Domestic Product (GDP), personal income and outlays, and trade in goods 
and services.
    If confirmed as Under Secretary, I will work with these agencies to 
continue to provide the American people greater and easier access to 
the best, most accurate information about our economy and our 
communities.
    The second part of the Under Secretary's job is to serve as the key 
economic advisor to the Secretary of Commerce, providing in-depth 
economic analysis on current issues. In fact, the economics team in 
ESA, of which I am a part of, worked closely with others to draft the 
COMPETES report that was delivered earlier this year to this committee. 
The COMPETES report is comprehensive report on the competitiveness and 
innovative capacity of the United States and highlights bipartisan 
priorities to sustain and promote American innovation and economic 
competitiveness.
    ESA also produced reports on the middle class, women-owned 
businesses in the 21st century, IP-intensive industries and broadband 
adoption. What ESA does informs the Secretary on a daily basis, but 
also provides a data-driven perspective on economic issues relevant in 
the department's economic recovery efforts. If confirmed as Under 
Secretary, I will continue to ensure that the Department, the American 
people, the Administration, and the Congress have access to cutting-
edge economic analysis.
    The main responsibilities for the Under Secretary for Economic 
Affairs closely align with my past professional experiences. I pursued 
my Ph.D. in economics as a result of my desire to bridge the gap 
between data analysis and policy development. My research has mainly 
focused on how forces, especially technological change, affect our 
economy, most notably in the areas of productivity growth and wages.
    I began my professional work in economics at the Census Bureau, 
learning the intricacies of data, observing first-hand the challenges 
in collecting and subsequently using data. After leaving the Census 
Bureau, I spent the bulk of my career working in the Federal Reserve 
System. During that time I observed first-hand how the data collected 
by our statistical agencies guides how we understand the macro economy. 
While at the Federal Reserve, I interacted frequently with the staffs 
of Census and BEA. Also while at the Federal Reserve, I learned how to 
produce a primary economic indicator, the index of industrial 
production, which measures the output of our Nation's factories, 
utilities, and mines.
    My most rewarding professional experience has been serving as the 
Department of Commerce's Chief Economist, a position that reports 
directly to the Under Secretary of Economic Affairs. In addition to my 
analytical work, I have had the opportunity to become intimately 
familiar with major issues facing our agency and bureaus. These issues 
include budgeting and management in a time of fiscal restraint; data 
collection for a growing, increasingly mobile population; and 
communicating to the public the commitment we have to data security, 
cost control, and risk management. I believe this experience has 
improved my effectiveness as a manager and strategic thinker, and will 
serve the Secretary, the Administration, the Congress and the public 
well.
    Finally, in my capacity as Chief Economist, I have had the great 
pleasure of meeting regularly with business leaders from all parts of 
the country. It is one thing to observe data trends, it is another to 
talk to business leaders to understand the decisions that are the basis 
for those trends. These meetings have been an exceedingly rewarding 
experience for me, but I believe their true value has been in providing 
business leaders with a forum where their concerns are heard and 
responded to by Administration officials.
    I appreciate the opportunity to come before you today. I have 
enjoyed working with this committee and appreciate meeting with members 
and staff about my nomination and learning more about your work and 
priorities. If my nomination is approved by this Committee and 
confirmed by the full Senate, I look forward to working with you and 
your staff members on all items of shared interest and concern. Thank 
you.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Mark Edward 
Doms.
    2. Position to which nominated: Under Secretary for Economic 
Affairs, Department of Commerce.
    3. Date of Nomination: September 13, 2012.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released tothe public.

        Office: U.S. Department of Commerce 1401 Constitution Ave, NW, 
        HCHB Room 4852, Washington, D.C. 20230.

    5. Date and Place of Birth: January 21, 1963; Petersburg, Virginia.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
    Not married.
    7. List all college and graduate degrees. Provide year and school 
attended.

        1992: University of Wisconsin-Madison, Ph.D. in economics. 
        Major fields: econometrics and industrial organization.

        1986: University of Maryland Baltimore County, B.A. in 
        mathematics and economics (Economics Alumnus of the Year, 
        2010).

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated,

        Chief Economist, Department of Commerce, August 2009 to present

        Senior Economist, Federal Reserve Bank of San Francisco, 2003-
        2009

        Economist, Board of Governors of the Federal Reserve System, 
        1996-2002
        Economist, Organization for Economic Cooperation and 
        Development, Paris, 1995-1996
        Economist, Center for Economic Studies, Department of Commerce, 
        19921995

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years: None.
    12.Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    None of the organizations listed below restrict membership on the 
basis of sex, race, color, religion, national origin, age, or handicap.

------------------------------------------------------------------------

------------------------------------------------------------------------
National Association of           2006-2008, 2010  Member
 Business Economist
------------------------------------------------------------------------
Comparative Analysis of                 2008-2009  Executive Director
 Enterprise Data
------------------------------------------------------------------------
American Economic                       1998-2004  Member
 Association
------------------------------------------------------------------------
Community Club (tutoring          1999-2000, 2012  Member
 organization)
------------------------------------------------------------------------

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.

        $500, Obama for America, 7/7/2011
        $250, Obama for America, 8/5/2012

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements. None.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    See attached resume for publications. Relevant speeches:

        A. 2012 NABE Industry Conference: Making it in America: 
        Manufacturing Matters, May 30-31, 2012, Federal Reserve Bank of 
        Cleveland, Cleveland, OH.

        B. GlobalWlN STEM Education Panel, May 24, 2012, 122 Cannon 
        House Office Building.

        C. The Coalition of Service Industries &The Georgetown Center 
        for Business and Public Policy, 101 Constitution Avenue, NW, 
        May 3, 2012, Digital Delivery of Cross-Border Trade in 
        Services: The Threats, The Remedies.

        D. Manufacturing Innovation 2012, Orlando, FL, May 7, 2012, 
        National Manufacturing Strategy Session.

        E. The NAM Economic Forum, Wednesday, October 19, 2011, 
        Mandarin Oriental Hotel, 1330 Maryland Avenue, NW, Washington, 
        D.C.

        F. Jobs, Inequality, and the Public Sector: Improving the 
        Economic Competitiveness and Innovative Capacity of the U.S., 
        October 11, 2011, Georgetown University in Washington, D.C.

        G. The Manufacturing Economy: Proximity and Performance, May 6, 
        2011, Federal Reserve Bank of Cleveland, Cleveland, OH.

        H. The Middle East Program, Program on America and the Global 
        Economy, and United States Studies of the Woodrow Wilson 
        International Center for Scholars, Women and Entrepreneurship: 
        Perspectives from the Middle East and the United States, March 
        29, 2011.

        I. The Pew Center on Global Climate Change and the Georgetown 
        Climate Center, State and Federal Climate and Energy Policy: 
        Where do we go from here?, February 24, 2011.

        J. 2nd Annual Conference on Microdata Access--``Responsible 
        Data Sharing in the 21st Century'', February 10, 2011, National 
        Press Club, 529 14th Street Northwest, Washington D.C. 20045.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony. None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    For over the past 3 years, I have served as Chief Economist of the 
Department of Commerce, a position that reports directly to the Under 
Secretary of Economic Affairs. While in this position, I have worked 
directly on, and have become intimately familiar with, all major issues 
facing the Economics and Statistics Administration. These issues 
include budgeting challenges, data collection, communication, cost 
control, and risk management. Further, in my role as Chief Economist, I 
demonstrated how the data produced by BEA and Census can be used to 
inform a wide range of policy discussions, as evidenced by the numerous 
reports that flowed from ESA during my tenure.
    In my previous occupations (mainly with the Federal Reserve 
System), I was a significant user of the data products produced by 
Census and ESA, and contributed to the theories and methods of 
producing data products.
    The primary reasons I wish to be confirmed as Under Secretary for 
Economic Affairs are first to serve my country in a constructive way 
and, second, to help provide vital information to our society (through 
ESA/BEA/Census) in a cost-effective way.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Ensuring proper management and accounting controls over ESA/BEA/
Census are two of the primary responsibilities of the Under Secretary 
for Economic Affairs. It is of primary importance to make sure that our 
tax dollars are spent wisely.
    As stated above, I have developed experience managing large 
organizations over the past 2-1/2 years, especially as the previous 
Under Secretary (Rebecca Blank) held various other roles in the 
department. I have regularly participated in and contributed to all 
significant discussions surrounding Census and BEA.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        The first challenge is to lower the per-household costs of the 
        2020 Census. As the decennial Census is the single largest non-
        defense activity of the U.S. government, it is essential to 
        conduct the research and get the systems in place to stop the 
        per-household cost increases of previous decades.

        The second challenge is to better communicate with the public 
        the value of government collected data.

        The third challenge is to ensure that our tax dollars are 
        wisely spent.
                   b. potential conflicts of interest
    1, Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have a 401(k) and a pension starting at age 65 with the Federal 
Reserve (the pension is based on my previous years of service).
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain. None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with department's designated agency ethics official.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with department's designated agency ethics official.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy. None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with department's designated agency ethics official.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    No other relevant information.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so?, Yes.
                                 ______
                                 
                  Curriculum Vitae of Mark Edward Doms
Education
Ph.D. in Economics, University of Wisconsin-Madison, 1992.

B.A. in Mathematics and Economics, University of Maryland Baltimore 
County, 1986.
Employment
U.S. Department of Commerce, Chief Economist--August 2009 to present

Key advisor to the Secretary of Commerce on economic issues and 
development. Directs a staff of economists and policy analysts who 
produce a wide variety of reports and forecasts focused on current 
economic conditions and trends.

Federal Reserve Bank of San Francisco, Senior Economist--San Francisco 
2003-2009

Advised the Bank President and boards of directors on current economic 
issues. Conducted research in the areas of consumer spending, housing, 
productivity, and innovation.

Board of Governors of the Federal Reserve System, Economist--
Washington, D.C. 1996-2002

Prepared projections on the economy for the Board of Governor's 
Greenbook forecast, monitored economic conditions, and conducted 
longer-term economic research.

Organization for Economic Cooperation and Development, Economist--Paris 
1995-1996

Directed an international study on the relationship between 
technological change, productivity, and labor demand; encouraged 
international coordination in using government microdata in research 
and policy analysis.

Center for Economic Studies, U.S. Department of Commerce, Economist--
Washington, D.C. 1992-1995

Conducted longer-term research on productivity growth, technology, 
worker skills, and wages.
Publications--Peer Reviewed Journals
        ``Endogenous Skill Bias in Technology Adoption: City-Level 
        Evidence from the IT Revolution,'' with Paul Beaudry and Ethan 
        Lewis, The Journal of Political Economy, December 2010.

        ``Local Labor Market Endowments, New Business Characteristics, 
        and Performance,'' with Alicia Robb and Ethan Lewis. Journal of 
        Urban Economics, 67(1), January 2010, pages 61-77.

        ``Constructing Price and Quantity Indexes for High-Technology 
        Goods'', SSHRC International Conference on Index Number Theory 
        and the Measurement of Prices and Productivity, A. Nakamura, B. 
        Balk, and E. Diewert eds. (with Ana Aizcorbe and Carol 
        Corrado), 2006.

        ``Communications Equipment: What Has Happened to Prices?,'' 
        NBER/CRIW, Measuring Capital in the New Economy, University of 
        Chicago Press, 2005.

        ``Prices for Local Area Network Equipment'', with Christopher 
        Forman, Information Economics and Policy, 17(3), July 2005, 
        pages 365-388.

        ``How Fast Do Personal Computers Depreciate? Concepts and New 
        Estimates,'' in Tax Policy and the Economy, NBER, Volume 18, 
        James Poterba ed., MIT Press (with Wendy Dunn, Stephen Oliner, 
        and Daniel Sichel).

        ``IT Investment and Firm Performance in U.S. Retail Trade,'' 
        with Ron Jarmin and Shawn Klimek, Economics of Innovation and 
        New Technology, October 2004, 13(7), pages 595-614.

        ``Understanding Productivity: Lessons from Longitudinal 
        Microdata'', with Eric Bartelsman, Journal of Economic 
        Literature, September 2000, 38(3), pages 569-94.

        ``Capital Adjustment Patterns in Manufacturing Plants'', with 
        Timothy Dunne, Review of Economic Dynamics, April 1998, 1(2), 
        pages 409-429.

        ``Comparing Wages, Skills, and Productivity between 
        Domestically and Foreign-Owned Manufacturing Establishments in 
        the United States'', with J. Bradford Jensen, in Geography and 
        Ownership as Bases for Economic Accounting, 1998, pages 235-55, 
        NBER Studies in Income and Wealth, vol. 59. Chicago and London: 
        University of Chicago Press.

        ``Workers, Wages, and Technology'', with Timothy Dunne and 
        Kenneth Troske, Quarterly Journal of Economics, February 1997, 
        112(1), pages 253-90.

        ``The Effect of Technology Use on Productivity Growth'', with 
        Robert McGuckin and Mary Streitwieser, Economics of Innovation 
        and New Technology, 1998, 7(1), pages 1-26.

        ``Estimating Capital Efficiency Schedules within Production 
        Functions'', Economic Inquiry, January 1996, v. 34, iss. 1, pp. 
        78-92.

        ``The Role of Technology Use in the Survival and Growth of 
        Manufacturing Plants'', with Timothy Dunne and Mark Roberts, 
        International Journal of Industrial Organization, December 
        1995, 13(4), pages 523-42. (Also reprinted in Innovation, 
        Evolution of Industry and Economic Growth, Audretsch and 
        Klepperer (eds), The International Library of Critical Writings 
        in Economics, Series Editor: Mark Blaug, 2000.)

        ``Energy Intensity, Electricity Consumption, and Advanced 
        Manufacturing Technology Usage'', with Timothy Dunne, 
        Technological Forecasting and Social Change, October, 1995.
Publications--Federal Reserve Bank of San Francisco Economic Letters
        ``The Outlook for Productivity Growth: Symposium Summary,'' 
        March, 2009.

        ``Summer Reading: New Research in Applied Microeconomics 
        Conference Summary,'' September, 2008.

        ``The Narrowing of the Male-Female Wage Gap,'' with Ethan 
        Lewis, June, 2007.

        ``House Prices and Subprime Mortgage Delinquencies,'' with Fred 
        Furlong and John Krainer, June, 2007.

        ``Financial Innovations and the Real Economy: Conference 
        Summary,'' with John Fernald and Jose A. Lopez, March, 2007.

        ``The Rise in Homeownership,'' with Meryl Motika, November, 
        2006.

        ``Property Debt Burdens,'' with Meryl Motika, July, 2006. ``The 
        Diffusion of Personal Computers across the U.S.,'' December, 
        2005.

        ``IT Investment: Will the Glory Days Ever Return?,'' June, 
        2005.

        ``Productivity Growth and the Retail Sector,'' December, 2004.

        ``Consumer Sentiment and the Media,'' October, 2004.

        ``The Bay Area Economy: Down but Not Out,'' with Mary Daly, 
        November, 2003.
Publications--Other Works
        ``Regional Growth and Resilience: Evidence from Urban IT 
        Centers,'' with Jeremy Gerst and Mary Daly in Federal Reserve 
        Bank of San Francisco's Economic Review, 2009.

        Review of, ``Technology, Growth, and the Labor Market,'' D. 
        Ginther and M. Zavodny eds., Journal of Economic Literature.

        ``The Boom and Bust in Information Technology Investment,'' 
        Federal Reserve Bank of San Francisco's Economic Review, 2004, 
        pages 19-34.

        ``Productivity, Skill, and Wage Effects of Multinational 
        Corporations in the United States'', with J. Bradford Jensen, 
        in Foreign Ownership and the Consequences of Direct Investment 
        in the United States: Beyond Us and Them, Nigh Westport, CT: 
        Quorum Books.

        ``Labor Supply and Personal Computer Adoption,'' with Ethan 
        Lewis, Federal Reserve Bank of San Francisco Working Paper 
        2006-18.

    Senator Kerry. Thank you very much, Dr. Doms.
    Ms. Clyburn.

     STATEMENT OF HON. MIGNON L. CLYBURN, NOMINEE TO BE A 
          COMMISSIONER OF THE FEDERAL COMMUNICATIONS 
                   COMMISSION (REAPPOINTMENT)

    Ms. Clyburn. Senator Kerry, Ranking Member Hutchison, and 
distinguished members of the Committee, good afternoon and 
thank you for the incredible privilege afforded me through 
today's exchange.
    I, too, would like to acknowledge my family and friends 
here today, including my father, Congressman James Clyburn.
    I respectfully request, Mr. Chairman, that my full 
statement be included in the record.
    Senator Kerry. Without objection, it will be.
    Ms. Clyburn. It is hard to believe that more than 3 years 
have passed between my initial appearance before this committee 
and now. During that time, the FCC has undertaken some of the 
most significant policy issues in its history, and I believe 
the American public is better off as a result.
    While it is true that the Commission has been diligent in 
promoting deployment and adoption of communications services 
since 2009, it could very well pale in comparison to what the 
agency must do in order to adapt to the changing consumer 
trends, technological advances, and innovations that are sure 
to continue.
    Case in point: When I first sat before you, in 2009, 
believe it or not, tablet devices had not even been introduced 
to the U.S. consumer. Today, 22 percent of American adults own 
such a device, and that is up from only 11 percent last year.
    With the communications industry evolving at such a rapid 
pace, I firmly believe that, no matter what become--comes 
before the Commission in the months and years ahead, we must 
ensure that the agency stays true to those core basic 
principles laid out in the Communications Act: consumer 
protection, effective competition, and public safety. We run a 
process, at the Federal Communications Commission, which allows 
for numerous opportunities for public comment from initial 
notice to final order. The FCC seeks, welcomes, and considers 
ideas and critiques from individuals and large entities, alike. 
Such input is essential, and it offers everyone, from the 
average American to the most connected CEO, a seat at the 
table. This openness is paramount to our mission.
    One-sixth of the American economy can be directly linked to 
industries the FCC regulates. Our policies have been devoted to 
promoting broadband deployment and adoption while modifying 
current policies and implementing new ones.
    And I am proud that almost all of this work has been done 
on a bipartisan basis.
    The FCC is able to be heard outside of Washington, D.C., 
because funding from Congress allows us to better serve our 
citizens. I am grateful to all of you for that. I have had the 
opportunity to participate with some of you in townhalls and 
other meetings in your respective states. Those exchanges give 
us a sense of how our policies are being received outside of 
the Beltway.
    I am also proud of the work that we have done for citizens 
who so often struggle for access to services and adequate 
devices. In 2010, Congress wisely provided the Commission with 
an incredible tool--the 21st Century Communications and Video 
Accessibility Act--and we have worked diligently to enact its 
provisions. In February, Congress passed another historic piece 
of legislation, enacting the spectrum management and public 
safety provisions of the Middle Class Tax Relief and Job 
Creation Act of 2012. We plan to faithfully comply with both 
the language and the spirit of that statute.
    In addition, I believe that our Universal Service reforms 
focuses on consumers. We are ensuring that more Americans have 
access to both voice and broadband service than under the 
previous regime. And consistent with the goals of the Act, we 
are working hard to eliminate the rural urban and rural 
divides. Further, we recognized the importance of both fixed 
and mobile broadband by allocating funding for both types of 
services in high-cost areas.
    When Congress created the FCC in 1934, it made one of the 
Commission's fundamental obligations to ensure the promotion of 
safety of life and property through the use of wire and radio 
communications. The devastation and service outages caused by 
Derecho and Superstorm Sandy show that this obligation remains 
as vital today as it did nearly 80 years ago. We may not be 
able to prevent natural disasters, but we can, and must, 
improve our nation's ability to respond in such crises.
    It has been a privilege to serve as a Federal 
Communications Commissioner for the past 3 and one-half years. 
I am honored to appear before you today, and look forward to 
any questions you may have.
    Thank you very much.
    [The prepared statement and biographical information of Ms. 
Clyburn follow:]

      Prepared Statement of Hon. Mignon L. Clyburn, Commissioner, 
                   Federal Communications Commission
    Chairman Rockefeller, Senator Hutchison, and distinguished members 
of the Committee, good afternoon and thank you for the incredible 
privilege afforded to me through today's exchange. It is hard to 
believe that more than three years have passed between my initial 
appearance and now.
    In that time, the FCC has undertaken some of the most significant 
policy issues in its history, and I believe the American public is 
better off as a result. While it is true that the Commission has been 
diligent promoting deployment and adoption of communications services 
since 2009, it could very well pale in comparison to what the agency 
must do in order to adapt to the changing consumer trends and the 
technological advances and innovations sure to continue. Case in point: 
When I first sat before you in 2009, believe it or not, tablet devices 
had not even been introduced to the U.S. consumer. And now, according 
to the most recent data for this year, 22 percent of American adults 
own such a device. That amount has doubled from 11 percent in 2011. 
Today, more people are relying on mobile broadband than ever before.
    With the communications industry evolving at such a rapid pace, I 
firmly believe that no matter what comes before the Commission in the 
months and years ahead, we must ensure that the agency stays true to 
those basic, core principles laid out in the Communications Act: 
Consumer protection, effective competition, and public safety.
    We run a process at the Federal Communications Commission that 
allows for numerous opportunities for public comment. This is designed 
to ensure that we never lose sight of our core tenets. From initial 
Notice to final Order, the FCC seeks, welcomes, and considers ideas and 
critiques from individuals and large entities alike. Such input is 
essential and offers the average American and the most connected CEO a 
seat at the table. Our framework affords everyone an opportunity to 
participate in our deliberations and ensures that attorneys, 
specialists, and well-heeled consultants are not the only ones who have 
access to our regulatory process. This openness is paramount to our 
mission.
    I have enjoyed being a part of this engagement, as it has allowed 
me to hear and absorb first-hand how the votes I cast and decisions I 
make can help or potentially hurt, the communications landscape of 
America. My door is open to all, and while at times that can lead to an 
overwhelming calendar, the meetings I have with outside parties are the 
most rewarding and intellectually-stimulating aspects of my current 
role. At one moment I may hear from disabled advocates requesting 
parity when it comes to accessibility concerns, and the next engage in 
discussions on new types of medical services, such as Medical Body Area 
Networks, which may improve treatment for seriously ill patients.
    One-sixth of the American economy can be directly linked to the 
industries the FCC regulates, and through smart communications 
policies, we play a large part in stimulating investment, promoting 
innovation, and encouraging job creation. For example, we have provided 
significant Commission resources promoting broadband deployment and 
adoption by modifying current policies and implementing new ones. And I 
am proud that almost all of this work has been done on a bipartisan 
basis. I am also thankful for the Commission's dedicated public 
servants, whose hard work and sage advice enable us to achieve the best 
results for the American people.
    The FCC is able to be heard here and outside of Washington because 
funding from Congress allows us to better serve our citizens. I am 
grateful to all of you for that. I have had the opportunity to 
participate with some of you in town halls and other meetings in your 
respective states. Those exchanges not only give us a sense of how our 
policies are being received outside of the beltway, but they help to 
put a public face on an agency that at times, receives more criticism 
than praise, in large part, because there are too few opportunities for 
public interaction. I wish this were not so, as in recent years the FCC 
has done much to improve communication opportunities for many, 
including those with disabilities.
    I am extremely proud of the work that we have done for citizens who 
so often struggle for equitable access to services and adequate 
devices. In 2010, Congress wisely provided the Commission with an 
incredible, bipartisan tool: The 21st Communications and Video 
Accessibility Act--and we have worked quickly to enact its provisions. 
For example, the Commission is implementing rules that require certain 
video programming devices to be capable of displaying closed 
captioning. We have also promulgated new rules regarding captioning and 
full-length video programming, deeming that when a captioned TV program 
is re-shown on the Internet in segments, it must be captioned if 
substantial portions of the entire program are shown in those segments. 
This is a prime example of streamlined, efficient, and bipartisan 
support and good faith dealing between the Commission and industry, 
resulting in consumer benefits that were long overdue and greatly 
needed.
    In February of this year, Congress passed another historic piece of 
legislation by enacting the spectrum management and public safety 
provisions of the Middle Class Tax Relief and Job Creation Act of 2012. 
We plan to comply faithfully with both the language and spirit of that 
statute.
    In the Chairman's strategic plan, one of the outlined goals states 
that a competitive framework for communication services should foster 
innovation while offering consumers reliable and meaningful choice in 
affordable services. We have sought to promote such competition through 
our efforts on interoperability in the lower 700 MHz band, the TV White 
Spaces proceeding, amending Wireless Communications Service rules to 
provide 30 megahertz of spectrum for mobile broadband service, enabling 
greater use of microwave licenses for wireless backhaul in rural areas, 
and the data roaming rules. And I am proud to say that the American 
communications ecosystem is better for it.
    In addition, I believe that our reforms on universal service center 
on consumers--ensuring that more Americans have access to both 
telephone and broadband service than under our previous system. And 
consistent with the goals of the Act, we are working hard to ensure 
that there is no rural/urban divide and that we do not favor one 
technology over another, by recognizing the importance of both fixed 
and mobile broadband and allocating funding for both types of services 
in high-cost areas.
    When Congress created the FCC in 1934, it made one of the 
Commission's foundational obligations ``the promotion of safety of life 
and property through the use of wire and radio communications.'' The 
devastation and service outages caused by Derecho and Super Storm Sandy 
show that obligation remains as vital today as it did almost eighty 
years ago. We may not be able to prevent natural disasters, but we can 
and must improve our Nation's ability to respond in such crises. It is 
essential, particularly in times of major emergencies such as during 
and after a natural disaster, that communications networks keep us 
connected to each other and to the emergency help that we may need. I 
want to recognize the dedicated FCC Commissioners and staff who worked 
hard during and after the storm, to assist providers and consumers in 
getting our communication networks back up and running.
    It has been a privilege to serve as a Federal Communications 
Commissioner for the past three and one half years. I am honored to 
appear before you today for further consideration and look forward to 
any questions you may have. Thank you.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Mignon 
Letitia Clyburn (Ming).
    2. Position to which nominated: Commissioner, Federal 
Communications Commission.
    3. Date of Nomination: June 25, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: Federal Communications Commission, 445 12th Street SW, 
        Washington, D.C. 20554.

    5. Date and Place of Birth: March 22, 1962; Charleston, South 
Carolina.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).
    Not applicable
    7. List all college and graduate degrees. Provide year and school 
attended.

        Bachelor of Science, Banking and Finance, and Economics
        University of South Carolina, August 1980-May 1984

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Commissioner, Federal Communications Commission, July 2009 to 
        present.

        Commissioner, South Carolina Public Service Commission, July 
        1998-July 2009 (Chair, 2002-2004).

        General Manager, Editor, The Coastal Times Newspaper, May 1984-
        June 1998.

        Producer, The Coastal Times Today, public affairs program, UPN, 
        1991-1992.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years.

        South Carolina Advisory Committee, U.S. Commission on Civil 
        Rights, (1999-2009), Served as chair when it was reconstituted.

        South Carolina Energy Advisory Council (2001-2009).

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years.

        The Palmetto Project, Secretary/Treasurer, Trustee, 2004-2009.

        Trident Technical College Foundation, Board Member, Executive 
        Committee Member, 2001-2009.

        Columbia College Board of Visitors, 2007-2009 SC Cancer Center 
        Board, 2007-2009.

        Indigo Holding Company, Real Estate, President, 2001-2009.

        YWCA of Greater Charleston, Board Member and President 2006-
        2008.

        Reid House of Christian Service, Board Member, 2001-2008.

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Reid House of Christian Service, 2001-2008.

        YWCA of Greater Charleston (all women at the time), 2005-2009, 
        President.

        Charleston Chapter of the Links, Incorporated (all women) 1999 
        to present.

        Edventure Children's Museum, Executive Board, 1999-2005 Morris 
        Brown AME Church, Member, 1968 to present.

        National Association of Regulatory Utility Commissioners 
        (NARUC), 1998-2009: Audit Committee, Washington Action 
        Committee (Chair, two years), Utility Market Access Partnership 
        Committee (UMAP), Electricity Committee, Energy, Resources and 
        the Environment Committee.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    I was elected four times to serve on The Public Service Commission 
of South Carolina (1998, 2002, 2004, and 2006). No debts are 
outstanding. My full term of service was from July 1998 until July 
2009.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $5OO or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.
    Friends of James E. Clyburn, $1,000, 2006; $250, 2012
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        National Council of Negro Women Scholarship (Columbia, SC).

        Graduate of the South Carolina Executive Institute.

        James Bonbright Award, Terry College of Business.

        Lincoln C. Jenkins Award, Columbia, SC Urban League.

        Community Broadband Hero Award, National Association of 
        Telecommunications Officers and Advisors.

        National Hispanic Media Coalition, Impact Award.

        Women in Cable Telecommunications, Public Policy Award.

        National Organization of Black Elected Officials (Women), 
        National Shining Star Award.

        Crittenton Services of Greater Washington, Legacy Award for 
        Leadership.

        West Ashley Democrats Marjorie Amos Frazier, Pacesetter Award.

        Consumer Electronics Association, Digital Patriots Award.

        College of Charleston, Distinguished Communicator Award.

        Charleston, SC Branch, NAACP, Trailblazer Award.

        Alliance for Women in Media, 60 at 60.

        Community Service/Business Awards from: Omega Psi Phi and Phi 
        Beta Sigma Fraternities, Delta Sigma Theta and Sigma Gamma Rho 
        Sororities, Arabian Temple and Court, National Council of Negro 
        Women, United Negro College Fund, Moja Arts Festival, and Mt. 
        Zion and Morris Brown AME Churches.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        February 15, 2012, Technology Support for Small Businesses, E 
        Business NOW, Washington, D.C.

        November 8, 2011, Transition of Universal Service from Phone to 
        Broadband, Massachusetts Broadband Conference, Boston, 
        Massachusetts.

        April 14, 2011, Women in Public Safety Communications, The 
        Association of Public Safety Communications Officials 
        International Orlando, FL.

        September 14, 2010, 24th Annual NAMIC Conference, 3D: 
        Diversity, Digital, Demographics, New York, NY.

        June 14, 2010 Wireless Spectrum Needs: What is the Best Way to 
        Serve All of the American People? Rainbow PUSH Coalition 39th 
        Annual Convention, Chicago, IL.

        March 9, 2010, A National Digital Literacy Corps to Meet the 
        Adoption Challenge, Digital Inclusion Summit, Washington, D.C.

        September 21, 2009, Broadband Adoption: Traveling the 
        Consumer's Last Mile,'' The Joint Center for Political and 
        Economic Studies Washington, D.C.

        November 23, 2008, Transformative Power of Broadband: Key 
        Issues During Challenging Times, National Foundation of Women 
        Legislators, Sarasota, FL.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        February 16, 2011, Appeared before the Subcommittee on 
        Communications and Technology, Committee on Energy and 
        Commerce, United States House of Representatives.

        June 24, 2010, Appeared before the Senate Commerce Committee on 
        ``Universal Service: Transforming the High-Cost Fund for the 
        Broadband Era''.

        March 25, 2010, Appeared before the United States House of 
        Representatives Committee on Energy and Commerce, Subcommittee 
        on Communications, Technology and the Internet, ``Oversight of 
        the Federal Communications Commission: The National Broadband 
        Plan''

        September 17, 2009, Appeared before the United States House of 
        Representatives, Committee on Energy and Commerce, Subcommittee 
        on Communications, Technology, and the Internet, Hearing on 
        ``Oversight of the Federal Communications Commission''.

        July 15, 2009, Confirmation hearing before the Senate Commerce 
        Committee.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    During my 11 years as a State Commissioner, my daily interactions 
with investor-owned utilities and the consumers they serve reinforced 
two main principles which guide the manner in which I approach 
government service.
    That ``on the ground perspective'' of how key decisions directly 
impact people and enterprises at the state and local levels, made me 
more sensitive to why it is so vital for regulators to be open-minded 
and fair, and balanced, when it comes to rulemaking. Secondly, 
interactions with Commissioners from other states during meetings and 
through committee assignments, not only allowed for cooperative, non-
partisan engagement, but the sharing of ideas and best practices 
ensured that the effects of any decision made in one jurisdiction took 
into account any potential negative, or unintended impact, on the 
another.
    I bring those key lessons and a spirit of cooperation to the 
Federal Communications Commission, through the recognition that sound 
policy is not one-size-fits-all exercise. Great ideas and pragmatic 
policy are more often derived through robust and inclusive engagement.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    With my leadership experience at the state commission level and 
through several voluntary commitments, I learned quickly the value of 
fostering an environment where transparency, open lines of 
communication, adequate personnel training, and clear goals and 
objectives can be found. If confirmed, I look forward to continuing my 
work with the Chairman and the staff, to ensure proper management and 
fiscal accountability, by being a member of a team which leads by 
example.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
Universal Service and Intercarrier Compensation Reform
    The Commission made history last quarter with the comprehensive 
reform and modernization of the Universal Service and Intercarrier 
Compensation systems. Now in place are fiscally responsible and 
incentive-based means, to ensure ubiquitous affordable voice and 
broadband service, on both the fixed and mobile platforms.
    This rulemaking will have significant impact on legacy providers, 
by linking any future funding to firm build-out requirements, and 
enacting budgetary adjustments over a number of years. This may impact 
a large number of providers' current economic framework, so years of 
work and engagement will need to take place as these significant 
reforms are phased in.
Incentive Auctions
    Current estimates indicate that over 300 million wireless consumers 
download more than five billion apps annually (2010 figures). Among 
those are approximately 101 million smartphones users, who consume 24x 
more data than their traditional mobile phone counterparts. With that 
explosive growth in traffic, compounded with the growth in the use of 
tablets, it is apparent that the current demand for spectrum could soon 
exceed the available supply.
    The need for new spectrum has become such a national priority that, 
in June 2010, President Obama released a memorandum entitled 
``Unleashing the Wireless Broadband Revolution.'' The Memorandum 
asserts that, to address this looming spectrum shortage, we should 
promote an environment where innovation thrives, and we should take 
steps to unlock the value of otherwise underutilized spectrum.
    The FCC, with its authority to conduct voluntary incentive 
auctions, will provide financial incentives for current licensees to 
acquire and reallocate this valuable real estate for its most efficient 
use. This long-term, comprehensive engagement will entail not only the 
setting up and execution of the auction itself, but also spectrum 
reallocation and other administrative functions. The entire process 
will take between six and 13 years to complete.
Interoperability in the 700 MHz Band
    In order to encourage the most efficient use of spectrum, promote 
the widest possible deployment of communications services, and ensure 
the opportunity for robust competition in the marketplace, the 
Commission must not only find and free up spectrum, it must enable both 
large and small licensees to have meaningful access to advanced 
devices. In this particular band lies the only noninteroperable 
commercial mobile service frequency. It must be determined whether a 
unified band class would result in harmful interference in other Blocks 
and if so, can it be mitigated in order to deliver more broadband 
services.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    Currently, I am only enrolled in the traditional state/federal 
retirement plans, 401K and interest bearing savings accounts.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    No, I do not.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    I am unaware of any potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    I am unaware of any issue that could result in a possible conflict, 
however, any potential conflict of interest, will be resolved in 
accordance with the terms of the ethics agreements in which I have 
entered into with the agency's designated ethics official. That 
agreement has been supplied to this committee.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    On April 4, 2011, I delivered a speech, and subsequently issued a 
series of statements, on a piece of legislation introduced in North 
Carolina entitled ``Level Playing Field/Local Government Competition.'' 
The bill, I believed, discouraged municipal governments from directly 
addressing deployment options in areas where the private sector has 
failed to meet local service needs.
    Earlier in my regulatory career, I served for nearly three years as 
Chair of the Washington Action Committee for the National Association 
of Regulatory Utility Commissioners and its Legislative Task Force. 
NARUC has been active in a number key legislative matters and 
jurisdictional issues which intersect the Federal Communications 
Commission's core functionalities. Also, in my capacity as a South 
Carolina Public Service Commissioner, I was a resource to lawmakers in 
South Carolina on consumer issues and key regulatory decision-making.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    During this period, I never lobbied any lawmaker, and continuously 
consulted with the designated ethics official to identify any potential 
conflicts of interest.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes, to the 
best of my ability.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                      Resume of Mignon L. Clyburn
Education
1980-1984--University of South Carolina, Columbia, SC
B.S. Business Administration
Banking & Finance and Economics

1976-1980--W. J. Keenan High School, Columbia, SC
General Diploma
Awards received
Community Service: Omega Psi Phi and Phi Beta Sigma Fraternities, Delta 
Sigma Theta and Sigma Gamma Rho Sororities, Mt. Zion and Morris Brown 
AME Churches, NCNW, UNCF, Moja Arts Festival, and The NAACP; 
Professional: Terry College of Business, Columbia Urban League, CEA, 
NATOA, WICT, and The National Hispanic Media Coalition
Work experience
2009 to Present, Commissioner, Federal Communications Commission, 
Washington, D.C.
1998-2009, Commissioner, Sixth Congressional District
2002-2004, Chairman, South Carolina Public Service Commission, 
Columbia, SC
1984-1998, Publisher, General Manager, The Coastal Times Newspaper 
Charleston, SC
Community activities
Served as a trustee of: The Trident Technical College Foundation, The 
Palmetto Project (secretary/treasurer), Columbia College Board of 
Visitors, SC Cancer Center Board and is a member of Links, Inc.; Served 
on the boards of: YWCA of Greater Charleston (president), Adventure 
Children's Museum, Reid House of Christian Service, Trident Urban 
League and Trident United Way as well as Charleston County Democratic 
Women (president); City of Charleston Site and Design, Charleston Area 
Arts Council; Women in Transition, and United Way Allocations Board; 
Was a member of the City of Columbia Reform and Restructuring 
Commission, Common Ground School Improvement Committee (SC Education 
Oversight Committee) and SC Great Friends to Kids (Adventure)
Professional memberships
Southeastern (past chair) and National Association of Regulatory 
Utility Commissioners (Utility Market Access Partnership, Audit 
Committee, Foundation Board member, Legislative Task Force and co-chair 
of Washington Action Committee); SC Energy Advisory Council; served as 
president of the Black Women Entrepreneurs, past treasurer of the SC 
Coastal Association of Black Journalists; and a graduate of the South 
Carolina Executive Institute

    Senator Kerry. Thank you very much, Ms. Clyburn.
    Dr. Wright, as I mentioned earlier, I have to leave, and I 
didn't want you to think I'm leaving because we've reached you, 
or something. I had a 3 o'clock; it's now past that. Senator 
Boxer is now going to preside, and I thank you for your 
understanding.
    Dr. Wright. Thank you.
    Senator Kerry. Appreciate it.
    Senator Boxer.
    Senator Boxer [presiding]. Thank you.
    Dr. Wright?

STATEMENT OF DR. JOSHUA D. WRIGHT, NOMINEE TO BE A COMMISSIONER 
                AT THE FEDERAL TRADE COMMISSION

    Dr. Wright. Senator Boxer, Senator Kerry, Ranking Member 
Hutchison, and members of the Committee, I'm deeply honored to 
have been nominated by President Obama to serve as a 
Commissioner of the Federal Trade Commission, and grateful to 
this committee for considering my appointment.
    I'd also like to recognize and express my gratitude to 
Chairman Leibowitz and Commissioners Rosch, Brill, and 
Ohlhausen, for being here today. If confirmed, I very much look 
forward to working with them.
    Finally, I'd also like to introduce some members of my 
family: my wife, Anhvinh; my children, James and Ella; my 
parents, Nelson and Sandy Wright; my uncle, George Cary, a 
former Deputy Director in the Bureau of Competition during the 
Clinton administration; my aunt, Marlene Cary, and my cousin, 
Alex Cary.
    I profoundly respect the Federal Trade Commission as an 
institution, its role in protecting markets and consumers, and 
its mission in ensuring the effective operation of markets. The 
Commission has earned its reputation as the world's premiere 
competition and consumer protection agency.
    If confirmed as Commissioner, this would mark my fourth 
opportunity to serve the agency. My experience with the 
Commission began as a 20-year-old intern in the Bureau of 
Economics. One year later, I served as an intern in the Bureau 
of Competition. Since then, my education, research, and 
professional development, as both a lawyer and an economist, 
have focused largely upon the economic and legal aspects of 
competition and consumer protection regulation. In 2007, I 
rejoined the Commission as its inaugural Scholar-in-Residence 
before returning to George Mason University School of Law.
    My experiences at the Commission, and my academic work, 
have focused on protecting consumers through the careful and 
thoughtful application of the Commission's many tools, rigorous 
legal and economic analysis, and objective evaluation of 
economic data. If confirmed, I intend to apply my knowledge and 
experience to the Commission's mission of promoting consumer 
welfare and protecting consumers from unfair methods of 
competition and unfair and deceptive acts or practices. I 
further intend to help ensure the Commission takes full 
advantage of the wealth of expertise available to it in the 
form of its many talented lawyers and economists.
    The Commission faces many challenges in carrying out its 
broad and fundamental mission of protecting consumers. One is 
to continue vigilant enforcement of competition and consumer 
protection laws where obviously harmful conduct is taking 
place. For example, the FTC has attacked unfair and deceptive 
practices in mortgage servicing, subprime credit, foreclosure 
rescue, and telemarketing robocalls, among other areas. I will 
support the Commission's continued vigilance in protecting 
consumers in these areas, if confirmed.
    The Commission also faces pressing challenges in 
implementing its consumer protection and competition law 
efforts in high-tech environments. These environments present 
an important arena for the Commission to bring to bear its 
expertise for the benefit of consumers.
    With respect to the Commission's consumer protection 
mission, these efforts include not only preventing fraudsters 
from preying upon consumers on the Internet, but also continue 
to help consumers protect their privacy without diminishing the 
benefits of competition and innovation. The Commission must 
also carefully analyze mergers and other new and creative 
business combinations and practices in high-tech markets to 
vigorously protect consumers from anticompetitive conduct 
without depriving them of the benefits of innovation.
    Finally, the Commission must continue to play a leading 
role in the global competition and consumer protection 
communities. With over 100 jurisdictions around the world 
enforcing competition or consumer protection laws, resources 
spent to improve the analytical foundation of enforcement 
institutions here and abroad, and to strengthen cooperation 
with other enforcement institutions, are critical to further 
the Commission's fundamental mission. These efforts 
simultaneously develop sound policy at home as domestic 
agencies communicate with, and learn from, their overseas 
counterparts, and enhance our ability to exert a positive pro-
consumer influence on the institutional design and policy 
decision of agencies abroad.
    If I'm fortunate enough to be confirmed, I will work with 
my fellow commissioners, the agency staff, and members of this 
committee to help the Commission fulfill its mission of 
protecting consumers and invest in its future success.
    I look forward to your questions.
    [The prepared statement and biographical information of Dr. 
Wright follow:]

   Prepared Statement of Joshua D. Wright, Nominee for Commissioner, 
                        Federal Trade Commission
    Chairman Rockefeller, Ranking Member Hutchison, and members of the 
Committee, I am deeply honored to have been nominated by President 
Obama to serve as a Commissioner of the Federal Trade Commission and 
grateful to this Committee for considering my appointment.
    I profoundly respect the Federal Trade Commission as an 
institution, its role in protecting consumers, and its mission in 
ensuring the effective operation of markets. The Commission has earned 
its reputation as the world's premiere competition and consumer 
protection agency. If confirmed as a Commissioner, this would mark my 
fourth opportunity to serve the agency. My experience with the 
Commission began as a 20 year old intern in the Bureau of Economics. 
One year later I served as an intern in the Bureau of Competition. 
Since then my education, research, and professional development as both 
a lawyer and an economist have focused largely upon the economic and 
legal aspects of competition and consumer protection regulation. In 
2007 I rejoined the Commission as its inaugural Scholar-in-Residence 
before returning to George Mason University School of Law.
    My experiences at the Commission and my academic work have focused 
on protecting consumers through the careful and thoughtful application 
of the Commission's many tools, rigorous legal and economic analysis, 
and objective evaluation of economic data. If confirmed, I intend to 
apply my knowledge and experience to the Commission's mission of 
promoting consumer welfare and protecting consumers from unfair methods 
of competition and unfair and deceptive acts or practices; I further 
intend to help ensure the Commission takes full advantage of the wealth 
of expertise available to it in the form of its many talented lawyers 
and economists.
    The Commission faces many challenges in carrying out its broad and 
fundamental mission of protecting consumers. One is to continue 
vigilant enforcement of competition and consumer protection laws where 
obviously harmful conduct is taking place. For example, the FTC has 
attacked unfair and deceptive practices in mortgage servicing, subprime 
credit, foreclosure rescue, and telemarketing robocalls, among other 
areas. I will support the Commission's continued vigilance in 
protecting consumers in these areas, if confirmed.
    The Commission also faces pressing challenges in implementing its 
consumer protection and competition law efforts in high-tech 
environments. These environments present an important arena for the 
Commission to bring to bear its expertise for the benefit of consumers. 
With respect to the Commission's consumer protection mission, these 
efforts include not only preventing fraudsters from preying upon 
consumers on the Internet but also continuing to help consumers protect 
their privacy without diminishing the benefits of competition and 
innovation. The Commission must also carefully analyze mergers and 
other new and creative business combinations and practices in high-tech 
markets to vigorously protect consumers from anticompetitive conduct 
without depriving them of the benefits of innovation.
    Finally, the Commission must continue to play a leading role in the 
global competition and consumer protection communities. With over 100 
jurisdictions around the world enforcing competition or consumer 
protection laws, resources spent to improve the analytical foundations 
of enforcement institutions here and abroad and to strengthen 
cooperation with other enforcement institutions are critical to further 
the Commission's fundamental mission. These efforts simultaneously 
develop sound policy at home--as domestic agencies communicate with and 
learn from their overseas counterparts--and enhance our ability exert a 
positive, pro-consumer influence on the institutional design and policy 
decisions of agencies abroad.
    If I am fortunate enough to be confirmed, I will work with my 
fellow Commissioners, the agency's staff, and the members of this 
Committee to help the Commission fulfill its mission of protecting 
consumers and invest in its future success. I look forward to your 
questions.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Joshua Daniel 
Wright. Nickname: Josh.
    2. Position to which nominated: Federal Trade Commissioner.
    3. Date of Nomination: September 11, 2012.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: George Mason University School of Law 3301 N. Fairfax 
        Drive Arlington, VA 22201.

    5. Date and Place of Birth: January 20, 1977; San Diego, 
California.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Anhvinh Ngoc Wright, Special Education Teacher and 
        Behavior Analyst, Fairfax County School District; children: 
        James Douglas Wright (Age 5) and Ella Grace Wright (Age 3).

    7. List all college and graduate degrees. Provide year and school 
attended.

        University of California at Los Angeles
        Ph.D., Economics (2003)
        JD (2002)
        Attended 1998-2003

        University of California at San Diego
        BA, Economics (1998)
        Attended 1995-1998

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        George Mason University School of Law
        Professor of Law

        University of Texas School of Law
        Visiting Professor

        Federal Trade Commission
        Scholar in Residence

        George Mason University School of Law
        Assistant Professor

        United States District Court for the Central District of 
        California
        Law Clerk to the Honorable James V. Selna

        Latham and Watkins
        Summer Associate (2001)

        Jones Day
        Summer Associate (2000, 2001)

        Economic Analysis Corporation
        Consultant

        Federal Trade Commission
        Honors Paralegal, Bureau of Competition

        Federal Trade Commission
        Intern, Bureau of Economics

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years.

        Federal Trade Commission
        Consultant (continuation of work for Chairman Kovacic)

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years.

        Charles River Associates
        Senior Consultant

        Law and Economics Consulting Group
        Consultant

        International Center for Law and Economics
        Consultant and Board Member

        Express Scripts Inc.
        Consultant

        Internet Corporation for Assigned Names & Numbers
        Consultant

        Arlington Economics
        Consultant

        Family Winemakers of California
        Consultant

        Computer & Communications Industry Association
        Consultant

        Northwestern University
        Consultant

        Supreme Court Economic Review (George Mason University School 
        of Law)
        Co-Editor

        American Bar Association, Section of Antitrust Law
        Senior Editor, Antitrust Law Journal

    My position as Senior Editor to the ABA's Antitrust Law Journal was 
uncompensated and did not involve any fiduciary duties.
    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        American Bar Association
        Member, 2003 to present.

        American Bar Association, Section of Antitrust Law
        Member, 2003 to present

        Federalist Society
        Member, 2008 to present

        American Economic Association
        Member, 2004 to present

        Southern Economic Association, 2006 to present

        International Society of New Institutional Economics
        Member, 2004 to present

        Mclean Swim & Tennis Association
        Member, 2010 to present

        American Law & Economics Association
        Member, 2004 to present

    Note: None of these organizations restricts membership on the basis 
of sex, race, color, religion, national origin, age, or handicap.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt. No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.

        Mitt Romney, $2,500 (February 2012).

        I have not held office or rendered services to a state or 
        national political party or elective committee during the same 
        period.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Principal Investigator, Searle Center on Law, Regulation, and 
        Economic Growth Civil Justice Institute Project on State 
        Consumer Protection (Competitive Grant Award)

        Co-Principal Investigator (with Bruce H. Kobayashi), Tilburg 
        Law and Economics Center Grant Research Grant (Competitive 
        Grant Award)

        Runner-up, Jones Day Swope Antitrust Writing Prize

        Departmental Teaching Assistant Award, UCLA Department of 
        Economics

        Institute for Humane Studies, Research Grant

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
Books and Book Chapters
        ANTITRUST LAW IN PERSPECTIVE: CASES, CONCEPTS, AND PROBLEMS IN 
        COMPETITION POLICY (with Andrew I. Gavil, William E. Kovacic, 
        and Jonathan B. Baker) (forthcoming 3rd Edition)

        Co-Editor, PIONEERS IN LAW AND ECONOMICS (with Lloyd R. Cohen) 
        (2009)

        Co-Editor, RESEARCH HANDBOOK IN THE LAW AND ECONOMICS OF THE 
        FAMILY AND SOCIAL INSTITUTIONS (with Lloyd R. Cohen) (2011)

        Co-Editor, COMPETITION POLICY AND PATENT LAW UNDER UNCERTAINTY: 
        REGULATING INNOVATION (with Geoffrey A. Manne) (2011)

        The Dramatic Rise of Consumer Protection Law, (with Eric 
        Helland), in THE AMERICAN ILLNESS: ESSAYS ON THE RULE OF LAW 
        (FR. Buckley, ed., Yale University Press, forthcoming 2012)

        Benjamin Klein's Contribution to Law and Economics, in PIONEERS 
        IN LAW AND ECONOMICS (Cohen and Wright, eds., Edward Elgar 
        Publishing Limited, 2009)

        Antitrust Analysis of Exclusive Dealing and Tying Arrangements 
        (with Alden F. Abbott), in THE LAW AND ECONOMICS OF ANTITRUST 
        (Keith N. Hylton ed., 2010)

        The Chicago School, Transaction Cost Economics, and Antitrust, 
        in THE ELGAR COMPANION TO TRANSACTION COST ECONOMICS (Peter 
        Klein and Mike Sykuta, eds., 2009)

        Antitrust, Multi-Dimensional Competition, and Innovation: Do We 
        Have An Antitrust Relevant Theory of Competition Now? (with 
        Geoffrey A. Manne), in COMPETITION POLICY AND PATENT LAW UNDER 
        UNCERTAINTY: REGULATING INNOVATION (2011)

        Intellectual Property and Standard Setting (with Bruce H. 
        Kobayashi), in the American Bar Association HANDBOOK ON 
        ANTITRUST ASPECTS OF STANDARD SETTING (2010)
Articles and Essays (By Subject Matter)
Law and Economics
        Behavioral Law and Economics: Its Origins, Fatal Flaws, and 
        Implications for Liberty (with Douglas H. Ginsburg), 106 (3) 
        NORTHWESTERN LAW REVIEW 1033 (2012)

        The Law and Economics of Network Neutrality (with Thomas W. 
        Hazlett), 45 INDIANA LAW REVIEW 767 (2012)

        Alcohol, Antitrust, and the 21st Amendment: An Empirical 
        Examination of Post and Hold Laws (with James C. Cooper), 32 
        INTERNATIONAL REVIEW OF LAW AND ECONOMICS 379 (2012)

        The Economics of Slotting Contracts (with Benjamin Klein), 50 
        JOURNAL OF LAW AND ECONOMICS 421 (2007)
Antitrust Law and Economics
        The Antitrust-Consumer Protection Paradox: Two Policies At War 
        With Each Other, 121 YALE LAW IOURNAL 2216 (2012)

        Dynamic Competition and the Limits of Antitrust Institutions 
        (with Douglas H. Ginsburg), 78 (1) ANTITRUST LAW JOURNAL 1 
        (2012)

        Do Expert Agencies Perform Better Than Generalist Judges? 
        Evidence from the Federal Trade Commission (with Angela M. 
        Diveley), forthcoming in JOURNAL OF ANTITRUST ENFORCEMENT 
        (2012)

        Misbehavioral Economics: The Case Against Behavioral Antitrust 
        (with Judd E. Stone), 33 (4) CARDOZO LAW REVIEW 1517 (2012)

        Abandoning Antitrust's Chicago Obsession: The Case for 
        Evidence-Based Antitrust, 78 (1) ANTITRUST LAW JOURNAL 301 
        (2012)

        The Limits of Antitrust and Patent Holdup: A Reply to Cary et 
        al., (with Bruce H. Kobayashi), forthcoming 78 (2) ANTITRUST 
        LAW JOURNAL 701 (2012)

        Moving Beyond Naive Foreclosure Analysis, 19(5) GEORGE MASON 
        LAW REVIEW 1163 (2012)

        Antitrust Settlements: The Culture of Consent (with Douglas H. 
        Ginsburg), forthcoming in CONCURRENCES (2012)

        What Would Predatory Pricing Law Be Without John McGee? A Reply 
        to Professor Leslie, forthcoming in 85 (3) SOUTHERN CALIFORNIA 
        LAW REVIEW, POSTCRIPT (2012)

        Still Rare Like A Unicorn? The Case of Behavioral Predatory 
        Pricing (with Judd E. Stone), 8 JOURNAL OF LAW ECONOMICS AND 
        POLICY 859 (2012)

        Does Antitrust Enforcement In High Tech Markets Benefit 
        Consumers? Stock Price Evidence From FTC v. Intel, 38 REVIEW OF 
        INDUSTRIAL ORGANIZATION 387 (2011)

        The Sound of One Hand Clapping: The 2010 Merger Guidelines and 
        the Challenge of Judicial Adoption (with Judd E. Stone), 39 
        REVIEW OF INDUSTRIAL ORGANIZATION 154 (2011)

        Google and the Limits of Antitrust: The Case Against the Case 
        Against Google (with Geoffrey A. Manne), 34 HARVARD JOURNAL OF 
        LAW & PUBLIC POLICY 171 (2011)

        Is Antitrust Too Complicated for Generalist Judges? The Impact 
        of Economic Complexity and Judicial Training on Appeals (with 
        Michael Baye), 54 JOURNAL OF LAW AND ECONOMICS (2011)

        Antitrust Sanctions (with Douglas H. Ginsburg), 6(2) 
        COMPETITION POLICY INTERNATIONAL 3 (2010)

        Antitrust Formalism is Dead! Long Live Antitrust Formalism!: 
        Some Implications of American Needle v. NFL (with Judd E. 
        Stone), 2009-10 CATO SUPREME COURT REVIEW 369 (2010)

        Antitrust, Economics, and Innovation in the Obama 
        Administration, GLOBAL COMPETITION POLICY (November 2009)

        Can Bundled Discounting Increase Consumer Prices Without 
        Excluding Rivals? (with Daniel A. Crane), 6 COMPETITION POLICY 
        INTERNATIONAL 209 (2009)

        An Evidence Based Approach to Exclusive Dealing and Loyalty 
        Discounts, GLOBAL COMPETITION POLICY (July 2009)

        Antitrust Pricing War: Congress v. the Court (with Geoffrey A. 
        Manne), NEW FEDERAL INITIATIVES PROJECT (2009)

        Overshoot the Mark? A Simple Explanation of the Chicago 
        School's Influence on Antitrust, 5 COMPETITION POLICY 
        INTERNATIONAL 179 (2009)

        Antitrust Analysis of Category Management: Conwood Co. v. U.S. 
        Tobacco, 17 SUPREME COURT ECONOMIC REVIEW 311 (2009)

        Antitrust (Over-?) Confidence (with Thomas A. Lambert), 20(2) 
        LOYOLA CONSUMER LAW REVIEW 219 (2008)

        The Roberts Court and the Chicago School of Antitrust: The 2006 
        Term and Beyond, 3(2) COMPETITION POLICY INTERNATIONAL 25 
        (2007)

        The Roberts Court's Antitrust Jurisprudence: The Chicago School 
        Marches On, 8(4) ENGAGE 29 (2007)

        Slotting Contracts and Consumer Welfare, 74(2) ANTITRUST LAW 
        JOURNAL 439 (2007)

        MasterCard's Single Entity Strategy, 12 HARVARD NEGOTIATION LAW 
        REVIEW 225 (2006)

        Antitrust Law and Competition for Distribution, 23 YALE JOURNAL 
        ON REGULATION 169 (2006)

        Sui Generis?: An Antitrust Analysis of Buyer Power in the 
        United States and European Union (with Richard Scheelings), 39 
        AKRON LAW REVIEW 207 (2006)

        Singing Along: A Comment on Goldberg and Muris on the Three 
        Tenors, 1(3) REVIEW OF LAW AND ECONOMICS 4 (2005)

        Vons Grocery and the Concentration-Price Relationship in 
        Grocery Retail, 48 UCLA LAW REVIEW 743 (2001)
Intellectual Property & Antitrust
        Innovation and The Limits of Antitrust (with Geoffrey A. 
        Manne), 6(1) JOURNAL OF COMPETITION LAW AND ECONOMICS 153 
        (2010)

        Patent Holdup, Antitrust and Innovation: Harness or Noose? 
        (with Aubrey N. Stuempfle), 61 ALABAMA LAW REVIEW 559 (2010)

        Reverse Payment Settlements and Upcoming Congressional Action 
        (with Geoffrey A. Manne), NEW FEDERAL INITIATIVES PROJECT 
        (2009)

        Why the Supreme Court was Correct to Deny Certiorari in FTC v. 
        Rambus, GLOBAL COMPETITION POLICY (March 2009, Release Two)

        Federalism, Substantive Preemption, and Limits on Antitrust: An 
        Application to Patent Holdup (with Bruce H. Kobayashi), 5 
        JOURNAL OF COMPETITION LAW AND ECONOMICS 469 (2009), reprinted 
        in COMPETITION POLICY AND PATENT LAW UNDER UNCERTAINTY: 
        REGULATION INNOVATION (with Geoffrey A. Manne) (Cambridge 
        University Press, 2011)

        Missed Opportunities in Independent Ink, 2005-06 CATO SUPREME 
        COURT REVIEW 333 (2006)
Contracts and Contract Theory
        Option Backdating and Why Executive Compensation is Not All 
        About Norms, 2 CORPORATE GOVERNANCE LAW REVIEW 385 (2006) (with 
        Geoffrey A. Manne)

        Behavioral Law and Economics, Paternalism, and Consumer 
        Contracts: An Empirical Perspective, 2 NYU JOURNAL OF LAW AND 
        LIBERTY 470 (2007)
Consumer Protection
        Are State Consumer Protection Acts Really Little FTC Acts? 
        (with Henry N. Butler), 63 FLORIDA LAW REVIEW 163 (2010)

        The Availability of Consumer Credit (with David S. Evans), 22 
        (3) LOYOLA CONSUMER LAW REVIEW 279 (2010)

        Three Problematic Truths About the Consumer Financial 
        Protection Agency Act of 2009 (with Todd J. Zywicki), 1 (12) 
        LOMBARD STREET (September 2009)

        How the Consumer Financial Protection Agency Act of 2009 Would 
        Change the Law and Regulation of Consumer Financial Products 
        (with David S. Evans), 2 BLOOMBERG LAW REPORTS: RISK AND 
        COMPLIANCE (2009)
Others
        Expanding FTC's Rulemaking and Enforcement Authority, NEW 
        FEDERAL INITIATIVES PROJECT (2010)

        The Constitutional Failure of Gang Databases, 2 STANFORD 
        JOURNAL OF CIVIL RIGHTS AND CIVIL LIBERTIES 115 (2006)
Commentary
        First Microsoft, now Google: Does the government have it in for 
        consumers?, CNET NEWS (with Geoffrey Manne and BerM Szoka) 
        (July 2, 2011)

        Durbin's Antitrust Fantasies, THE WASHINGTON TIMES (with Todd 
        Zywicki) (June 17, 2010)

        The Return of ``Big is Bad,'' THE DEAL MAGAZINE (with Keith N. 
        Hylton and Geoffrey A. Manne) (May 26, 2009)

        U.S. Antitrust Becomes More European, FORBES. COM (May 18, 
        2009) (with Keith N. Hylton and Geoffrey A. Manne)

        Hell No, Don't Let Them Go!, CHICAGO TRIBUNE (May 8, 2008) 
        (with Thomas W. Hazlett)
Other Publications
        The Future of Law and Economics: A Discussion (with Henry G. 
        Mantle)

        GEORGE MASON LAW & ECONOMICS RESEARCH PAPER NO. 0835 (2008)

        An Antitrust Analysis of the Federal Trade Commission's 
        Complaint Against Intel, GEORGE MASON LAW & ECONOMICS RESEARCH 
        PAPER NO. 10-27, ICLE ANTITRUST AND COMPETITION POLICY WHITE 
        PAPER SERIES (2010)

        A Response to Professor Levitin on the Effect of the Consumer 
        Financial Protection Agency Act of 2009 on Consumer Credit 
        (with David S. Evans) GEORGE MASON LAW & ECONOMICS RESEARCH 
        PAPER NO. 09-56 (2009)

        Comment on the Proposed Update on the Horizontal Merger 
        Guidelines: Accounting for Out-of-Market Efficiencies, GEORGE 
        MASON LAW & ECONOMICS RESEARCH PAPER NO. 10-38 (2010)

        Comment on the Intellectual Property, Concentration and the 
        Limits of Antitrust in the Biotech Seed Industry (with F. Scott 
        Kieff, Geoffrey A. Manne, and Michael E. Sykuta) LEWIS & CLARK 
        LAW SCHOOL LEGAL STUDIES RESEARCH PAPER NO. 2010-9, GEORGE 
        MASON LAW & ECONOMICS RESEARCH PAPER NO. 10-24 (2009)

        A First Principles Approach to Antitrust Enforcement in the 
        Agricultural Industry (with Geoffrey A. Manne) 5 CPI ANTITRUST 
        CHRONICLE, LEWIS & CLARK LAW SCHOOL LEGAL STUDIES RESEARCH 
        PAPER NO. 2010-15, GEORGE MASON LAW & ECONOMICS RESEARCH PAPER 
        NO. 10-31 (2010)

        Defining and Measuring Search Bias: Some Preliminary Evidence, 
        International Center for Law & Economics, GEORGE MASON LAW & 
        ECONOMICS RESEARCH PAPER NO. 12-14 (2011)
Working Papers
        Tastes Great, Less Filling: The Effects of Contract Regulation 
        on Beer Consumption (with Jonathan Klick)

        Grocery Bag Bans and Foodborne Illnesses (with Jonathan Klick)

        Antitrust Courts: Specialists Versus Generalists (with Douglas 
        H. Ginsburg)

        The Goals of Antitrust: Why Welfare Trumps Choice (with Douglas 
        H. Ginsburg)
Blog Posts
    I regularly contribute to a group blog at Truthonthemarket.com, 
which focuses upon business law and economics. The regular contributors 
of the blog are a number of law professors and economists. Since I 
joined the blog in 2005, I have posted over 500 items which are each 
publicly available.
    Some blog posts have been republished at other websites. For 
example, a number of my posts at Truth on the Market are republished at 
Technology Liberation Front. I have also provided ``guest'' commentary 
on legal blogs, such as Conglomerate.org and the PennReg Blog. Those 
posts are available here: http://www.theconglo
merate.org/wright.html and here: http://www.law.upenn.edu/blogs/
regblog/2012/04/do-expertagencies-outperform-generalist-judges.html.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    May 26, 2011. Oral and Written Testimony, Hearing Before the U.S. 
House of Representatives Committee on the Judiciary Subcommittee on 
Intellectual Property, Competition and the Internet on ``How Will the 
Proposed Merger Between AT&T and T-Mobile Affect Wireless 
Telecommunications Competition.''
    March 29, 2012. Oral and Written Testimony, Hearing Before the U.S. 
House of Representatives Committee on the Judiciary Subcommittee on 
Intellectual Property, Competition and the Internet on ``HR. 1946, the 
Preserving Our Hometown Independent Pharmacies Act of 2011.''
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    My history with the Federal Trade Commission begins in the summer 
of 1997, at age 20, when I interned in the Bureau of Economics while an 
undergraduate at the University of California, San Diego. The next 
summer I interned in the Bureau of Competition before beginning my 
studies at UCLA School of Law. Since then my studies and professional 
development have focused largely upon issues involving the law and 
economics of regulation and, more specifically, the economic and legal 
aspects of competition and consumer protection regulation.
    When I returned to the Federal Trade Commission as its inaugural 
Scholar-in-Residence from 2007-2008, I worked closely with two former 
Chairpersons--Deborah Majoras and William Kovacic--and learned from 
them how to effectively harness the Commission's expertise and 
resources to further its competition and consumer protection missions 
and to promote consumer welfare. My experience serving Commissioners, 
the Bureau of Economics, and the Bureau of Competition has given me a 
multi-faceted appreciation for the internal operations of the 
Commission, how economics informs the Commission's application of 
competition and consumer protection law, and how empirical evidence can 
best be harnessed to achieve the Commission's goals and overarching 
mission of protecting consumers.
    In addition to my experience as a law professor specializing in 
antitrust, I am also a trained economist and regularly publish research 
on a variety of topics within both industrial organization and 
antitrust economics. The Commission has had three Ph.D. economists as 
Commissioners in the past--all during the 1980s: Jim Miller, George 
Douglas, and Dennis Yao. Antitrust analysis increasingly employs 
complex economic models and statistical methods to better understand 
the competitive effects of business arrangements and to design policies 
that better serve consumers. These increasingly sophisticated 
approaches to antitrust analysis are also increasingly technical; 
harnessing these methods for consumer welfare requires training to 
properly understand and implement. This requires greater coordination 
among the Commission, the Bureau of Competition, the Bureau of Consumer 
Protection, and the Bureau of Economics to make the best use of the 
Commission's high quality staff of economists.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    The Commission's primary responsibilities include setting agency 
priorities and managing agency resources to achieve those goals in an 
efficient manner. Proper management and accounting controls, as 
critical to the Commission's overall mission, are therefore squarely in 
the ambit of each Commissioner's responsibility; I will endeavor to 
deploy my expertise and all available resources to ensure the efficient 
operation of the agency.
    I do not have experience managing a large organization.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        The Commission's first challenge is to protect consumers and to 
        maximize consumer welfare--the unifying obligation underlying 
        both its competition and consumer protection enforcement 
        actions. This challenge requires using Commission expertise to 
        identify both problems whose solution will provide consumers 
        the greatest return on Commission resources as well as 
        effective enforcement strategies to resolve those problems. The 
        Commission's most pressing challenge in identifying and 
        optimizing its enforcement efforts in the modern economy 
        involves competition and consumer protection in high-tech 
        markets; these environments are typically characterized by 
        dynamic competition and innovation, as well as complex business 
        arrangements involving intellectual property rights.

        The second challenge arises in response to the fact that there 
        are now roughly 120 jurisdictions in the world with competition 
        laws, with approximately 90 of those appearing since 1990. The 
        Commission has a long history of investing significant 
        resources into facilitating cooperation and coordination among 
        jurisdictions and agencies both around the world and here in 
        the United States. These efforts are critical to ensuring the 
        development of sound competition policy at home--as domestic 
        agencies communicate with and learn from their overseas 
        counterparts--as well as maximizing the ability of U.S. 
        agencies to exert a positive and pro-consumer influence on the 
        institutional design and policy decisions of agencies abroad.

        The third challenge facing the Commission is making the 
        necessary investments to ensure that it continues to develop 
        the human capital within the agency to maintain its well-
        deserved reputation and to achieve success. That reputation is 
        attributable to its quality staff of attorneys, economists, and 
        administrative professionals. Many, if not all of the 
        challenges facing competition and consumer protection 
        enforcement efforts, benefit substantially from the 
        Commission's efforts to nurture and to further develop economic 
        expertise, especially as applied to particular high-tech 
        sectors, particular technologies and industries, and the law.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I am the co-author of two law casebooks currently under revision 
and will, under contracts with the book publishers, receive royalties 
for any future sales after publication. If confirmed, I will sever both 
arrangements.
    I will continue to participate in an employee benefit plan (403(b)) 
through University of Texas. My former employer does not make 
contributions to the plan.
    If confirmed, I will take an unpaid leave of absence from George 
Mason University during my government service.
    I will continue to participate in an employee benefit plan (George 
Mason ORP--defined contribution plan) through George Mason University. 
If confirmed, my employer will not make contributions to the plan while 
I am on unpaid leave of absence.
    I will continue to participate in an employee benefit plan (GMU 
Retirement--defined contribution plan). If confirmed, my employer will 
not make contributions to the plan while I am on unpaid leave of 
absence.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    I intend to obtain unpaid leave at George Mason University School 
of Law during my government service. If confirmed, I will sever all 
ongoing relationships with the following entities: Charles River 
Associates; the International Center for Law & Economics; Express 
Scripts, Inc.; Arlington Economics; and, the Internet Corporation for 
Assigned Names & Numbers.
    If confirmed, I will also resign from my position on the board of 
directors of the International Center for Law & Economics.
    If confirmed, I will resign from my position as Co-Editor for the 
Supreme Court Economic Review (George Mason University School of Law) 
and as Senior Editor of the Antitrust Law Journal (American Bar 
Association).
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Federal Trade Commission's 
Designated Agency Ethics Official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of the ethics agreement that I have entered 
into with the Commission's Designated Agency Ethics Official and that 
has been provided to the Committee. I am not aware of any other 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Federal Trade Commission's 
Designated Agency Ethics Official to identifi potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of the ethics agreement that I have entered 
into with the Commission's Designated Agency Ethics Official and that 
has been provided to this Committee. I am not aware of any other 
conflicts of interest. I plan to remain a member of the American Bar 
Association but will resign as Senior Editor of the Antitrust Law 
Journal if confirmed.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy. None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of the ethics agreement that I have entered into with 
the Commission's Designated Agency Ethics Official and that has been 
provided to this Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees?
    If confirmed as a Federal Trade Commissioner, I would work 
diligently with the Chairman and my fellow Commissioners to do so.
    2. Will you ensure that your depai tinent/agency does whatever it 
can to protect congressional witnesses and whistle blowers from 
reprisal for their testimony and disclosures?
    If confirmed as a Federal Trade Commissioner, I would work 
diligently with the Chairman and my fellow Commissioners to do so.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                       resume of joshua d. wright
Academic Appointments, Positions and Affiliations
    Professor of Law, George Mason University School of Law

  <bullet> Courses: Contracts I, Contracts II, Economic Foundations of 
        Legal Studies, Antitrust, Advanced Antitrust, Intellectual 
        Property and Antitrust

    Professor (Courtesy), George Mason University Department of 
Economics (2009-Present)
    Associate Professor, George Mason University School of Law (August 
2010-May 2011)
    Faculty, GMU Law and Economics Center Judicial Education Program

  <bullet> Economic Institute for Judges (microeconomics and 
        quantitative methods to state and Federal judges)

  <bullet> Case Analysis Seminars (with the Honorable Douglas H. 
        Ginsburg)

  <bullet> Co-Organizer and Instructor, American Bar Association & 
        Mason Judicial Education Program Institute on Antitrust Law and 
        Economics

  <bullet> Co-Organizer and Instructor, Empirical and Experimental 
        Methods Workshops for Law Professors

  <bullet> Economics Institute for Law Professors

    Assistant Professor, George Mason University School of Law (January 
2005-August 2010)
    Visiting Assistant Professor, George Mason University School of Law 
(2004)
    Visiting Professor, University of Texas School of Law (August 2008-
May 2009)
    Scholar in Residence, Federal Trade Commission (January 2007-July 
2008)
    Senior. Fellow, George Mason University Information Economy Project
    Research Director, George Mason Law and Economics Center Searle 
Civil Justice Institute
Education
    University of California, Los Angeles, Department of Economics 
(1999-2003)

  <bullet> Ph.D., Economics (2003)

    University of California, Los Angeles, School of Law (1998-2002)

  <bullet> J.D. (May 2002)

  <bullet> Managing Editor, UCLA Law Review

    University of California, San Diego (1995-1998)

  <bullet> B.A., Economics (June 1998)

    Patrick Henry High School, San Diego (1992-1995)
Research Interests
  <bullet> Antitrust Law and Economics

  <bullet> Industrial Organization

  <bullet> Consumer Protection

  <bullet> Law and Economics of Regulation

  <bullet> Intellectual Property

  <bullet> Law and Economics of Contracts
Other Teaching Experience
    Adjunct Professor, Pepperdine University Graduate School of Public 
Policy (2003)

  <bullet> Graduate course in Law and Economics

    Lecturer, UCLA Department of Economics

  <bullet> Undergraduate course in Law and economics

    Teaching Assistant, UCLA Department of Economics

  <bullet> Introductory, intermediate, advanced, and graduate 
        microeconomics courses

  <bullet> Departmental Teaching Assistant Award (2001, 2002, 2003)
Honors, Grants and Awards
    Principal Investigator, Searle Center on Law, Regulation, and 
Economic Growth Civil Justice Institute Project on State Consumer 
Protection
    Co-Principal Investigator (with Bruce H. Kobayashi), Tilburg Law 
and Economics Center Research Grant
Select Recent and Forthcoming Publications
    The Antitrust-Consumer Protection Paradox: Two Policies At War With 
Each Other, 121 YALE LAW JOURNAL 2216 (2012)
    Behavioral Law and Economics: Its Origins, Fatal Flaws, and 
Implications for Liberty (with Douglas H. Ginsburg), 106 (3) 
NORTHWESTERN LAW REVIEW 1033 (2012)
    Do Expert Agencies Perform Better Than Generalist Judges? Evidence 
from the Federal Trade Commission (with Angela M. Diveley), forthcoming 
in JOURNAL OF ANTITRUST ENFORCEMENT (2012)
    Moving Beyond Naive Foreclosure Analysis, 19 (5) GEORGE MASON LAW 
REVIEW 1165 (2012)
    Dynamic Competition and the Limits of Antitrust Institutions (with 
Douglas H. Ginsburg), 78 (1) ANTITRUST LAW JOURNAL 1 (2012)
    Antitrust Settlements: The Culture of Consent (with Douglas H. 
Ginsburg), forthcoming CONCURRENCES (2012)
    Abandoning Antitrust's Chicago Obsession: The Case for Evidence-
Based Antitrust, 78 (1) ANTITRUST LAW JOURNAL 301 (2012)
    The Limits of Antitrust and Patent Holdup: A Reply to Cary et al., 
(with Bruce H. Kobayashi), forthcoming 78 (2) ANTITRUST LAW JOURNAL 
(2012)
    The Law and Economics of Network Neutrality (with Thomas W. 
Hazlett), 45 INDIANA LAW REVIEW 767 (2012)
    Misbehavioral Economics: The Case Against Behavioral Antitrust 
(with Judd E. Stone), 33(4) CARDOZO LAW REVIEW 1517 (2012)
    The Sound of One Hand Clapping: The 2010 Merger Guidelines and the 
Challenge of Judicial Adoption (with Judd E. Stone), 39 REVIEW OF 
INDUSTRIAL ORGANIZATION 145 (2011)
    Is Antitrust Too Complicated for Generalist Judges? The Impact of 
Economic Complexity and Judicial Training on Appeals (with Michael 
Baye), 54 JOURNAL OF LAW AND ECONOMICS 1 (2011)
Books and Book Chapters
    ANTITRUST LAW IN PERSPECTIVE: CASES, CONCEPTS, AND PROBLEMS IN 
COMPETITION POLICY (with Andrew I. Gavil, William E. Kovacic, and 
Jonathan B. Baker) (forthcoming 3rd Edition)
    Co-Editor, PIONEERS IN LAW AND ECONOMICS (with Lloyd R. Cohen) 
(2009)
    Co-Editor, RESEARCH HANDBOOK IN THE LAW AND ECONOMICS OF THE FAMILY 
AND SOCIAL INSTITUTIONS (with Lloyd R. Cohen) (2011)
    Co-Editor, COMPETITION POLICY AND PATENT LAW UNDER UNCERTAINTY: 
REGULATING INNOVATION (with Geoffrey A. Manne) (2011)
    The Dramatic Rise of Consumer Protection Law (with Eric Helland), 
in THE AMERICAN ILLNESS: ESSAYS ON THE RULE OF LAW (F.H. Buckley, ed., 
Yale University Press, forthcoming 2012)
    Benjamin Klein's Contribution to Law and Economics, in PIONEERS IN 
LAW AND ECONOMICS (Cohen and Wright, eds., Edward Elgar Publishing 
Limited, 2009)
    Antitrust Analysis of Exclusive Dealing and Tying Arrangements 
(with Alden F. Abbott), in THE LAW AND ECONOMICS OF ANTITRUST (Keith N. 
Hylton ed., 2010)
    The Chicago School, Transaction Cost Economics, and Antitrust, in 
THE ELGAR COMPANION TO TRANSACTION COST ECONOMICS (Peter Klein and Mike 
Sykuta, eds., 2009)
    Antitrust, Multi-Dimensional Competition, and Innovation: Do We 
Have An Antitrust Relevant Theory of Competition Now? (with Geoffrey A. 
Manne), in COMPETITION POLICY AND PATENT LAW UNDER UNCERTAINTY: 
REGULATING INNOVATION (2011)
    Intellectual Property and Standard Setting (with Bruce H. 
Kobayashi), in the American Bar Association HANDBOOK ON ANTITRUST 
ASPECTS STANDARD SETTING (2010)
Articles and Essays (By Subject Matter)
Law and Economics
    Behavioral Law and Economics: Its Origins, Fatal Flaws, and 
Implications for Liberty (with Douglas H. Ginsburg), 106 (3) 
NORTHWESTERN LAW REVIEW 1033 (2012)
    The Law and Economics of Network Neutrality (with Thomas W. 
Hazlett), 45 INDIANA LAW REVIEW 767 (2012)
    Alcohol, Antitrust, and the 21st Amendment: An Empirical 
Examination of Post and Hold Laws (with James C. Cooper), 32 
INTERNATIONAL REVIEW OF LAW AND ECONOMICS 379 (2012)
    The Economics of Slotting Contracts (with Benjamin Klein), 50 
JOURNAL OF LAW AND ECONOMICS 421 (2007)
Antitrust Law and Economics
    The Antitrust-Consumer Protection Paradox: Two Policies At War With 
Each Other, 121 YALE LAW JOURNAL 2216 (2012)
    Dynamic Competition and the Limits of Antitrust Institutions (with 
Douglas H. Ginsburg), 78 (1) ANTITRUST LAW JOURNAL 1 (2012)
    Do Expert Agencies Perform Better Than Generalist Judges? Evidence 
from the Federal Trade Commission (with Angela M. Diveley), forthcoming 
in JOURNAL OF ANTITRUST ENFORCEMENT (2012)
    Misbehavioral Economics: The Case Against Behavioral Antitrust 
(with Judd E. Stone), 33 (4) CARDOZO LAW REVIEW 1517 (2012)
    Abandoning Antitrust's Chicago Obsession: The Case for Evidence-
Based Antitrust, 78 (1) ANTITRUST LAW JOURNAL 301 (2012)
    The Limits of Antitrust and Patent Holdup: A Reply to Cary et al., 
(with Bruce H. Kobayashi), forthcoming 78 (2) ANTITRUST LAW JOURNAL 701 
(2012)
    Moving Beyond Naive Foreclosure Analysis, 19 (5) GEORGE MASON LAW 
REVIEW 1165 (2012)
    Antitrust Settlements: The Culture of Consent (with Douglas H. 
Ginsburg), forthcoming in CONCURRENCES (2012)
    What Would Predatory Pricing Law Be Without John McGee? A Reply to 
Professor Leslie, forthcoming in 85 (3) SOUTHERN CALIFORNIA LAW REVIEW, 
POST-
CRIPT (2012)
    Still Rare Like A Unicorn? The Case of Behavioral Predatory Pricing 
(with Judd E. Stone), 8 JOURNAL OF LAW ECONOMICS AND POLICY 859 (2012)
    Does Antitrust Enforcement In High Tech Markets Benefit Consumers? 
Stock Price Evidence From FTC v. Intel, 38 REVIEW OF INDUSTRIAL 
ORGANIZATION 387 (2011)
    The Sound of One Hand Clapping: The 2010 Merger Guidelines and the 
Challenge of Judicial Adoption (with Judd E. Stone), 39 REVIEW OF 
INDUSTRIAL ORGANIZATION 154 (2011)
    Google and the Limits of Antitrust: The Case Against the Case 
Against Google (with Geoffrey A. Marne), 34 HARVARD JOURNAL OF LAW & 
PUBLIC POLICY 171 (2011)
    Is Antitrust Too Complicated for Generalist Judges? The Impact of 
Economic Complexity and Judicial Training on Appeals (with Michael 
Baye), 54 JOURNAL OF LAW AND ECONOMICS (2011)
    Antitrust Sanctions (with Douglas H. Ginsburg), 6(2) COMPETITION 
POLICY INTERNATIONAL 3 (2010)
    Antitrust Formalism is Dead! Long Live Antitrust Formalism!: Some 
Implications of American Needle v. NFL (with Judd E. Stone), 2009-10 
CATO SUPREME COURT REVIEW 369 (2010)
    Antitrust, Economics, and Innovation in the Obama Administration, 
GLOBAL COMPETITION POLICY (November 2009)
    Can Bundled Discounting Increase Consumer Prices Without Excluding 
Rivals? (with Daniel A. Crane), 6 COMPETITION POLICY INTERNATIONAL 209 
(2009)
    An Evidence Based Approach to Exclusive Dealing and Loyalty 
Discounts, GLOBAL COMPETITION POLICY (July 2009)
    Antitrust Pricing War: Congress v. the Court (with Geoffrey A. 
Manne), NEW FEDERAL INITIATIVES PROJECT (2009)
    Overshoot the Mark? A Simple Explanation of the Chicago School's 
Influence on Antitrust, 5 COMPETITION POLICY INTERNATIONAL 179 (2009)
    Antitrust Analysis of Category Management: Conwood Co. v. U.S. 
Tobacco, 17 SUPREME COURT ECONOMIC REVIEW 311 (2009)
    Antitrust (Over-?) Confidence (with Thomas A. Lambert), 20(2) 
LOYOLA CONSUMER LAW REVIEW 219 (2008)
    The Roberts Court and the Chicago School of Antitrust: The 2006 
Term and Beyond, 3(2) COMPETITION POLICY INTERNATIONAL 25 (2007)
    The Roberts Court's Antitrust Jurisprudence: The Chicago School 
Marches On, 8(4) ENGAGE 29 (2007)
    Slotting Contracts and Consumer Welfare, 74(2) ANTITRUST LAW 
JOURNAL 439 (2007)
    MasterCard's Single Entity Strategy, 12 HARVARD NEGOTIATION LAW 
REVIEW 225 (2006)
    Antitrust Law and Competition for Distribution, 23 YALE JOURNAL ON 
REGULATION 169 (2006)
    Sui Generis?: An Antitrust Analysis of Buyer Power in the United 
States and European Union (with Richard Scheelings), 39 AKRON LAW 
REVIEW 207 (2006)
    Singing Along: A Comment on Goldberg and Muris on the Three Tenors, 
1(3) REVIEW OF LAW AND ECONOMICS 4 (2005)
    Vons Grocery and the Concentration-Price Relationship in Grocery 
Retail, 48 UCLA LAW REVIEW 743 (2001)
Intellectual Property & Antitrust
    Innovation and The Limits of Antitrust (with Geoffrey A. Manne), 
6(1) JOURNAL OF COMPETITION LAW AND ECONOMICS 153 (2010)
    Patent Holdup, Antitrust and Innovation: Harness or Noose? (with 
Aubrey N. Stuempfle), 61 ALABAMA LAW REVIEW 559 (2010)
    Reverse Payment Settlements and Upcoming Congressional Action (with 
Geoffrey A. Manne), NEW FEDERAL INITIATIVES PROJECT (2009)
    Why the Supreme Court was Correct to Deny Certiorari in FTC v. 
Rambus, GLOBAL COMPETITION POLICY (March 2009, Release Two)
    Federalism, Substantive Preemption, and Limits on Antitrust: An 
Application to Patent Holdup (with Bruce H. Kobayashi), 5 JOURNAL OF 
COMPETITION LAW AND ECONOMICS 469 (2009), reprinted in COMPETITION 
POLICY AND PATENT LAW UNDER UNCERTAINTY: REGULATION INNOVATION (with 
Geoffrey A. Marine) (Cambridge University Press, 2011)
    Missed Opportunities in Independent Ink, 2005-06 CATO SUPREME COURT 
REVIEW 333 (2006)
Contracts and Contract Theory
    Option Backdating and Why Executive Compensation is Not All About 
Norms (with Geoffrey A. Manne), 2 CORPORATE GOVERNANCE LAW REVIEW 385 
(2006)
    Behavioral Law and Economics, Paternalism, and Consumer Contracts: 
An Empirical Perspective, 2 NYU JOURNAL OF LAW AND LIBERTY 470 (2007)
Consumer Protection
    Are State Consumer Protection Acts Really Little FTC Acts? (with 
Henry N. Butler), 63 FLORIDA LAW REVIEW 163 (2010)
    The Effect of the Consumer Financial Protection Agency Act of 2009 
on the Availability of Consumer Credit (with David S. Evans), 22 (3) 
LOYOLA CONSUMER LAW REVIEW 279 (2010)
    Three Problematic Truths About the Consumer Financial Protection 
Agency Act of 2009 (with Todd J. Zywicki), 1 (12) LOMBARD STREET 
(September 2009)
    How the Consumer Financial Protection Agency Act of 2009 Would 
Change the Law and Regulation of Consumer Financial Products (with 
David S. Evans), 2 BLOOMBERG LAW REPORTS: RISK AND COMPLIANCE (2009)
Others
    Expanding FTC's Rulemaking and Enforcement Authority, NEW FEDERAL 
INITIATIVES PROJECT (2010)
    The Constitutional Failure of Gang Databases, 2 STANFORD JOURNAL OF 
CIVIL RIGHTS AND CIVIL LIBERTIES 115 (2006)
Commentary
    First Microsoft, now Google: Does the government have it in for 
consumers?, CNET NEWS (with Geoffrey Marine and BerM Szoka) (July 2 
2011)
    Durbin's Antitrust Fantasies, THE WASHINGTON TIMES (with Todd 
Zywicki) (June 17, 2010)
    The Return of ``Big is Bad,'' THE DEAL MAGAZINE (with Keith N. 
Hylton and Geoffrey A. Marine) (May 26, 2009)
    U.S. Antitrust Becomes More European, FORBES.COM (with Keith N. 
Hylton and Geoffrey A. Marine) (May 18, 2009)
    Hell No, Don't Let Them Go!, CHICAGO TRIBUNE (with Thomas W. 
Hazlett) (May 8, 2008)
Working Papers
    Tastes Great, Less Filling: The Effects of Contract Regulation on 
Beer Consumption (with Jonathan Klick)
    Grocery Bag Bans and Foodborne Illnesses (with Jonathan Klick)
    Antitrust Courts: Specialists Versus Generalists (with Douglas H. 
Ginsburg)
    The Goals of Antitrust: Why Welfare Trumps Choice (with Douglas H. 
Ginsburg)
Research Projects in Progress
    Causal Inference in Antitrust Event Studies (with Jonah Gelbach and 
Jonathan Klick)
Academic Presentations
    Do Expert Agencies Perform Better Than Generalist Judges? Evidence 
from the Federal Trade Commission

        Law and Society Annual Meetings (June 2012)

        George Mason University Levy Workshop in Law and Liberty 
        (February 2012)

        George Mason University School of Law FTC Conference (October 
        2011)

    State Regulation of Alcohol Distribution: The Effects of Post and 
Hold Laws on Output and Social Harms

        Southern Economic Association Meetings (November 2012)

        George Washington University Department of Economics (March 
        2012)

        American Law and Economics Association Annual Meeting (May 
        2011)

        Conference on Empirical Legal Studies (November 2010)

        United States Department of Justice Antitrust Division (October 
        2010)

        George Mason University School of Law Levy Workshop (September 
        2010)

        Washington University at St. Louis Law and Economics Workshop 
        (September 2010)

    Behavioral Economics, Law, and Liberty

        Mont Pelerin Society Annual Meetings (October 2010)

        George Mason University School of Law (September 2010)

    Misbehavioral Economics: The Case Against Behavioral Antitrust

        Canadian Law and Economics Association Annual Meeting (October 
        2010)

    Antitrust Sanctions

        American Law and Economics Association Annual Meeting (May 
        2010)

    Is Antitrust Too Complicated for Generalist Judges? The Impact of 
Economic Complexity and Judicial Training on Appeals

        Southern Economic Association Annual Meeting (November 2010)

        Georgetown University Law and Economics Workshop (October 2009)

        Washington University at St. Louis Law and Economics Workshop 
        (October 2009)

        American Law and Economics Association Meetings (May 2009)

        George Mason University Economics Department Public Choice 
        Seminar (April 2009)

        Stanford Law and Economics Workshop (January 2009)

        University of Texas Law and Economics Workshop (December 2008)

        UCLA Law and Economics Workshop (September 2008)

        Northwestern University Law and Economics Workshop (September 
        2008)

    Federalism, Substantive Preemption, and Limits on Antitrust: An 
Application to Patent Holdup

        Tilburg Law and Economics Center (December 2008)

        George Mason/Microsoft Conference on the Law and Economics of 
        Innovation (May 2008)

        Duke University Law School Intellectual Property Symposium 
        (February 2008)

    The Effects of Contract Regulation in the Alcoholic Beverage 
Industry

        Southern Economic Association Annual Meeting (November 2007)

    Antitrust, Multi-Dimensional Competition, and Innovation: Do We 
Have An Antitrust Relevant Theory of Competition Now?

        George Mason/Microsoft Conference on the Law and Economics of 
        Innovation (May 2007)

    The Antitrust Law and Economics of Category Management

        American Law & Economics Association Annual Meeting (May 2004)

    The Economics of Slotting Contracts

        Silicon Flatirons New Institutional Economics Conference (June 
        2009)

        Peking University Conference on Chinese Anti-Monopoly Law 
        (October 2007)

        American Law & Economics Association 2005 Annual Meeting (May 
        2005)

        International Society of New Institutional Economics 2004 
        Annual Meeting (September 2004)

        George Mason University Law School Levy Workshop (March 2004)

    Slotting Contracts and Consumer Welfare

        First Annual Conference on Empirical Legal Studies (October 
        2006)

        Southern Economic Association Annual Meeting (September 2006)

        Southeastern Association of Law Schools Annual Meeting (July 
        2006)

        American Law & Economics Association 2006 Annual Meeting (May 
        2006)

        International Industrial Organization Conference (April 2006)

        George Mason University Law School Levy Workshop (March 2006)

        University of Texas Law School Center for Law and Economics 
        (January 2006)

    Behavioral Law and Economics, Paternalism, and Consumer Contracts: 
An Empirical Perspective

        NYU Journal of Law and Liberty Symposium (October 2006)

    The Roberts Court and the Chicago School of Antitrust: The 2006 
Term and Beyond

        William S. Boyd School of Law, UNLV (April 2008)

        University of Missouri-Columbia School of Law (February 2008)
Conferences and Testimony
    Panelist, Second Annual George Mason LEC Conference on Competition, 
Search, and Social Media (May 2012)
    Panelist, Federalist Society Debate on Google and Antitrust at 
Columbia Law School (January 2012)
    Panelist, AALS Annual Meeting: Behavioral Economics and Antitrust 
(January 2012)
    Panelist, George Mason University Law and Economics Center 
Conference on The Law and Economics of Search Engines and Online 
Advertising (June 2011)
    Panelist, United States House of Representatives Committee on the 
Judiciary Subcommittee on Intellectual Property, Competition and the 
Internet Hearing on ``How Will the Proposed Merger Between AT&T and T-
Mobile Affect Wireless Telecommunications Competition?'' (May 2011)
    Panelist, The FCC's Wireless Competition Report: A Preview (May 
2011)
    Panelist, George Mason University Law and Economics Center 
Conference on Behavioral Economics and the Consumer Financial 
Protection Bureau (March 2011)
    Panelist, The Federalist Society Program on the FTC and The 
Internet (January 2011)
    Panelist, The Federalist Society Program on Regulation of the 
Internet (December 2010)
    Panelist, Stanford/Hoover Conference on Patents, Innovation and 
Business (June 2010)
    Panelist, DOJ/FTC Proposed Merger Guidelines Workshop (January 
2010) Panelist, LECG Consumer Protection and Antitrust Conference 
(October 2009)
    Panelist, Technology Policy Institute Conference on High-Tech 
Antitrust (October 2009)
    Panelist, SEALS Empirical Legal Research Workshop (August 2009)
    Panelist, ICANN Workshop on Economic Analysis of Vertical 
Separation for New gTLDs (June 2009)
    Panelist, Cato Institute Program on Antitrust in the New 
Administration (June 2009)
    Panelist, FTC Workshop on Resale Price Maintenance (May 2009)
    Panelist, Searle Center Conference on Antitrust Law and Economics 
(September 2008)
    Panelist, FTC at 100 Conference (September 2008)
    Panelist, Federalist Society Conference on Intellectual Property 
(July 2008)
    Panelist, SIEPR/Hoover Institution Conference on the Modernization 
of Antitrust (May 2008)
    Panelist, Searle Center Research Roundtable on the Theory of the 
Firm (March 2008)
    Panelist, Searle Center Research Roundtable on the Law and 
Economics of Innovation (January 2008)
    Panelist, Searle Center Conference on The End of the Microsoft 
Consent Decree (November 2007)
    Panelist, DOJ/FTC Hearings on Sherman Act Section 2 and Single Firm 
Conduct (November 2006)
    Panelist, George Mason Law Review Fall 2006 Antitrust Symposium 
(September 2006)
Professional Activities
    Co-Director, Robert A. Levy Fellowship in Law & Liberty at George 
Mason University Affiliate, International Center for Law and Economics 
in Honor of Armen Alchian
    Research Director, Searle Civil Justice Institute, George Mason Law 
and Economics Center
    Co-Editor, Supreme Court Economic Review (Volume 20-present)
    Senior Editor, Antitrust Law Journal
    Associate Editor, International Review of Law and Economics
    Referee, Journal of Law and Economics, American Law & Economic 
Review, Review of Law and Economics; Supreme Court Economic Review, 
Review of Industrial Organization, Journal of Legal Studies, Yale Law 
Journal, Harvard Law Review
    Contributor, Truth on the Market (a blog dedicated to academic 
commentary on law, business, and economics)
Professional Experience
    Senior Consultant, Charles Rivers Associates, Inc. (October 2009-
Present)
    Consultant, Federal Trade Commission (July 2008-April 2009)
    Law Clerk to the Honorable James V. Selna, U.S. District Court for 
the Central District of California (2003-2004)
    Consultant, Economic Analysis, LLC (1998-2002)
    Summer Associate, Latham and Watkins (2001)
    Summer Associate, Jones Day Reavis & Pogue (2000 and 2001)
    Honors Paralegal, Federal Trade Commission, Bureau of Competition 
(1998) Intern, Federal Trade Commission, Bureau of Economics (1997)
Affiliations and Memberships
    International Industrial Organization Society
    American Economics Association
    Southern Economic Association
    International Society of New Institutional Economics
    American Law and Economics Association
    Federalist Society
    California Bar Association
    American Bar Association

    Senator Boxer. Thank you.
    Ms. Trottenberg, I just really need a ``yes'' or a ``no'' 
to this question. We're moving forward with MAP-21. Will you 
commit to coordinating closely with regional, State, and local 
transportation authorities to ensure that the Department 
provides clear and consistent Federal guidance, while also 
allowing sufficient flexibility to accommodate the needs of 
each local community?
    Ms. Trottenberg. Yes.
    Senator Boxer. Thank you.
    Ms. Clyburn, I'm going to get you a letter--I don't need an 
answer now; I'm going to--we're going to hold the record open. 
Nine of us just sent a letter to the Chairman of the FCC 
expressing our concern about maintaining the diversity of 
ownership--of media ownership. And there are a lot of committee 
chairs on this: Leahy, Boxer, Harkin--actually, Bernie Sanders 
circulated this letter--Patty Murray, Ron Wyden, others.
    So, the question that I want you to answer is how you 
believe--what your belief is about maintaining that diversity. 
And we're asking that the FCC not proceed with its proposed 
rule changes in media ownership without providing clear 
evidence-based response to our concerns. So, rather--because 
it's such a long subject, would you do us the honor and 
privilege of answering that question as we keep this record 
open?
    Ms. Clyburn. Thank you, Senator, for this ability to 
express myself.
    You may know, by my background, that I spent 14 years as a 
general manager and publisher of a weekly newspaper in 
Charleston, South Carolina, called The Coastal Times. So, 
diversity in media, those types of issues----
    Senator Boxer. Good.
    Ms. Clyburn.--are what I lived and breathed for a number 
of----
    Senator Boxer. Good.
    Ms. Clyburn.--years.
    Senator Boxer. Good.
    Ms. Clyburn. So, I commit to you my full----
    Senator Boxer. Good.
    Ms. Clyburn.--participation. And I also would like you to 
know, in that particular proceeding, that we--by my request, 
we've extended the comment period for 30 days.
    Senator Boxer. Excellent.
    Ms. Clyburn. And so, the public-interest groups and all 
others interested will have a more robust opportunity to----
    Senator Boxer. Well, I----
    Ms. Clyburn.--engage.
    Senator Boxer.--will pass this on to my colleagues, and we 
will look forward to your response.
    And, Dr. Wright, welcome. I have some issues with your --
with some of your statements, so I'm going to be very 
straightforward and give you a chance to respond.
    You know that the FTC's mission is to, quote, ``prevent 
business practices that are anticompetitive or deceptive or 
unfair to consumers, and to enhance informed consumer choice 
and public understanding of the competitive process.''
    Now, you have written some things that give me pause, and 
concern me. As one example, you write that the Consumer 
Financial Protection Bureau's agenda was, quote, ``aggressive 
and dangerous,'' and, quote, ``that its existence is likely to 
do more harm than good for consumers.''
    Do you--you know, what concerns me is your criticism of the 
mission. So, can you--you want to try to explain why you think 
it's ``dangerous and aggressive''? Could you explain----
    Dr. Wright. Absolutely.
    Senator Boxer.--why you feel it's ``dangerous and 
aggressive''?
    Dr. Wright. Absolutely. I appreciate the opportunity to 
answer the question.
    In my academic writing, I had written about the earlier 
version of the CFPA, prior to the--what was ultimately passed 
through the CFPB. In those articles, I had analyzed what was 
put forth in a series of academic articles about being the 
intellectual basis for the CFPB. Much of that was to do with 
what's known as the ``behavioral economics literature.'' It's 
an area in which I have some expertise. I was concerned that 
some of the extensions of both the theory and evidence that was 
in the empirical literature in the economic space being 
extended in a manner inconsistent with the body of actual 
economic knowledge that we had. I expressed those concerns. 
They largely had to do with----
    Senator Boxer. Do you still have those concerns, that the 
agenda was ``aggressive and dangerous,'' the Consumer Financial 
Protection Bureau's agenda--that's what I'm trying to get at--
and that ``the existence of it is likely to do more harm than 
good for consumers''?
    Dr. Wright. No, I don't have that----
    Senator Boxer. OK. So, let's move on. You don't stand by 
that anymore, those comments.
    Dr. Wright. Those comments were never about the existing 
agency.
    Senator Boxer. OK. All right. That's important.
    But, here, in 2012, you wrote that the FTC--now, you're--
you want to be part of the FTC--you wrote that the FTC's 
administrative review of complex litigation in the antitrust 
context does not produce better results than litigation handled 
by Article III courts. You've criticized the Commission, 
arguing it's been hampered by--and I quote you--``a history and 
pattern of appointments evidencing a systematic failure to meet 
expectations.''
    So, these comments seem to indicate that you doubt the 
FTC's mission. And I just always am interested in why you would 
want to be a commissioner on a Commission that you say has a 
pattern--``a history and pattern of appointments evidencing a 
systematic failure to meet expectations.''
    Dr. Wright. I'm happy to clarify those comments.
    Senator Boxer. OK.
    Dr. Wright. First, I believe greatly in the Commission's 
fundamental mission of protecting consumers. These are issues 
that I've been working on, as an academic, in practice, and at 
the Commission, since I was 20 years old.
    That particular article had to do with a highly contentious 
issue in the competition space to do with the Commission's use 
of Section 5, Unfair Methods of Competition. One justification 
for using Section 5, Unfair Methods of Competition, relies on 
the notion that the Commission, on average, has greater 
expertise and greater facility to handle complex antitrust 
cases than generalist Article III judges. That debate usually 
takes place without much in the way of empirical debate. That 
paper was an attempt to inject one particular empirical view by 
comparing decisions of District Court judges with 
commissioners, both appealed to Federal Courts of Appeal, to 
evaluate how those cases--a particular subset of cases, not the 
entire mission of the Federal Trade Commission--how those cases 
were faring in the Federal Courts.
    I think that there's a consensus view, in antitrust 
circles, that the Commission's use of its Section 5 Unfair 
Methods of Competition authority, to be distinguished from the 
clear cases where the Commission is preventing consumer harm in 
areas such as consumer protection, fraud, deception, and so 
forth--that, in this one subset of areas, the Commission's 
reliance on expertise was not showing up empirically, in terms 
of differences with cases with District Court judges.
    Senator Boxer. OK. Well, I'm going to ask you to follow up, 
because we--I'm just going to have one more question, and then 
we're going to turn to my colleagues. But, you know, I don't--I 
didn't hear you explain what I asked you about. So, I--it may 
be my problem; I'm not a legal expert, but--so, we'll work 
together to see if we can get some more detailed answers on 
that question.
    Now, I don't know--I didn't hear you say you'd be recusing 
yourself from certain matters--did I miss that, Brian? All 
right--because of some of your work that's been paid for by 
corporate interests. So, have any papers you've written been 
funded by entities with matters before the FTC? Would you 
submit a list of the sponsors of your work and the 
organizations with which you're affiliated? And would it be 
your intent to recuse yourself where you've had those 
relationships?
    Dr. Wright. Absolutely, I can--my--all financial 
relationships through consulting or through research grant 
provided by third-party entities have been disclosed to the 
Commission and to the Committee. I will recuse myself, for 
instance, in law enforcement matters pertaining to Google, 
consistent with the President's ethics pledge, for a 2 year 
period. Also, in all other appropriate cases----
    Senator Boxer. OK.
    Dr. Wright.--where potential conflicts are issued, I will 
consult the legal ethics officials at the Commission. I take my 
ethical requirements and obligations very seriously, and will 
consult advice from the legal ethics officials at the FTC, and 
recuse, where appropriate.
    Senator Boxer. I have no doubt that you would do that, but 
I would like you to do that now, and sit with them, and submit 
a list to this committee. We need to know if we are looking at 
someone who's going to be able to participate--I don't know the 
extent to which you've been hired by these corporate folks, and 
it may not be a long list. So, if you wouldn't mind, if you 
could do that, before.
    And I'll withhold--I have a couple of more questions, but 
Senator Schumer is here, and we all anticipated your arrival.
    And I want you to know, before you came, we gave the most 
glowing introduction of Polly. But, go ahead.

             STATEMENT OF HON. CHARLES E. SCHUMER, 
                   U.S. SENATOR FROM NEW YORK

    Senator Schumer. Well, thank you, Madam Chair. And I'll be 
very, very brief.
    I ask unanimous consent my statement be read----
    Senator Boxer. Without objection----
    Senator Schumer.--into the record.
    Senator Boxer.--so ordered.
    [The prepared statement of Senator Schumer follows:]

            Prepared Statement of Hon. Charles E. Schumer, 
                       U.S. Senator from New York
    Good afternoon everyone and I want to thank you, Chairman 
Rockefeller, Ranking Member Hutchison, and all the members of this 
committee for allowing me to speak here today. I know we are pressed 
for time so I will try to keep things brief.
    I am so pleased to be able introduce a former member of my staff, 
and a good friend, Polly Trottenberg to this committee.
    President Obama has seen Polly's work as Assistant Secretary for 
Transportation Policy at the Department of Transportation, and he 
simply could not have made a better choice than for her to continue 
that work as Under Secretary for Policy.
    Polly possesses the rare combination of talent, intellect, 
experience, and dedication that made her not only an outstanding 
legislative director and public servant, but also a tireless advocate 
for the issue she cares so much about--the unquestionable need for 
affordable and efficient transportation as an environmental, social, 
and economic necessity.
    Before coming to Capitol Hill, Polly worked for the Port Authority 
of New York and New Jersey in the aviation department. There she helped 
to operate and manage three of the Nation's largest and most complex 
airports.
    She then joined Senator Daniel Patrick Moynihan's office where she 
championed his philosophy--a cause I fight to advance to this today--
that grand transportation and infrastructure projects are key to the 
economic future of New York, and to the entire country.
    Then, right after I was first elected to the Senate in 1998, 
Senator Moynihan, my mentor and then senior colleague, told me he was 
giving me a gift--Polly Trottenberg, to be my Legislative Director.
    I hired Polly immediately, and during her seven years as leader of 
my legislative staff, Polly Trottenberg never let me down.
    Along with her expertise in a wide range of issues required to be 
an effective legislative director in the Senate, Polly always 
maintained her focus on advocating for and addressing the critical 
transportation needs for New York, and the country as a whole.
    She lead the negotiations to bring low-cost air service to long 
neglected upstate cities, and also worked day and night to secure $20 
billion in critical aid to help New York City recover and rebuild after 
the 9/11 attacks. Polly fought hard and always got the job done
    Polly had a lot of big accomplishments, but it was her day in and 
day out commitment, drive, and intellect that truly set her apart.
    On Capitol Hill, Polly is known in every hall as a preeminent voice 
on transportation policy.
    After leaving my office, Polly went to work for my friend Senator 
Boxer. And, most recently, Polly was handpicked by Mayor Bloomberg, 
Governor Rendell, and Governor Schwarzenegger to be Executive Director 
of Building America's Future, their action committee which highlights 
the critical needs of America's transportation infrastructure.
    There, Polly fought for the cause she loves--promoting the urgent 
need for Congress and the President to rebuild America.
    She has continued that work both as Assistant Secretary for 
Transportation Policy and currently as Acting Under Secretary for 
Policy.
    From our highways, roads and bridges, from the rails to the skies, 
America's transportation challenges are Polly's challenges. She 
embraces them and has a laser-like focus to meet them.
    These are daunting challenges for any Administration or Department 
of Transportation to face, but President Obama has charted a new and 
ambitious course to not only tackle them, but also to expand and grow.
    Polly's unquestionable dedication, experience, and intelligence 
make her uniquely qualified to craft and implement these bold 
initiatives
    I recommend her nomination wholeheartedly and without reservation, 
and urge her swift confirmation.
    I again thank Chairman Rockefeller and my colleagues for holding 
this hearing and look forward to working together to address this 
nation's critical transportation needs.

    Senator Schumer. I just want to tell one brief story.
    The week after I won election to the Senate, Senator 
Moynihan, the senior Senator, called me to his office. He said, 
``I want to tell you two things. First, you're the first to 
know I am not going to run again for the Senate; it'll open up 
the seat,'' which, later, Senator Hillary Clinton took over. 
But, second, he said, ``I want to give you a gift.'' And I 
said, ``What's that?'' He said, in his Moynihan way, ``Pol-ly 
Trot-ten-berg.''
    [Laughter.]
    Senator Schumer. She had worked for Senator Moynihan for 
years. He suggested she become my legislative director. One of 
the best decisions I made was to have her be the legislative 
director. She was, for 8 years, and was just fabulous. So, she 
truly merits this position.
    I thank the Committee for its indulgence and just ask 
unanimous consent my entire statement----
    Senator Boxer. It will be put----
    Senator Schumer.--be read into the record.
    Senator Boxer.--right into the record at the very 
beginning----
    Ms. Trottenberg. Thank you, Senator.
    Senator Boxer.--as if given in its entirety.
    Senator Schumer. Thank you. And----
    Senator Boxer. And----
    Senator Schumer.--I appreciate the courtesy of you and the 
members of the Committee.
    Senator Boxer. Of course.
    And we will get back with Senator Hutchison's questions. 
Let's go to 5 minutes.
    Senator Hutchison. Thank you.
    Let me start with Ms. Trottenberg. I'd like to have your 
assessment, today, of the Highway Trust Fund. One of the things 
that you said in your 2009 confirmation hearing is that it's 
probably the greatest challenge the Department faces. What is 
the status of it now? And do you have recommendations on how we 
can make it more solvent so it does not go into the general 
revenue?
    Ms. Trottenberg. Well, as you all may know, thanks to MAP-
21, we were able to get a--approximately $105 billion 2-year 
surface bill; and the trust fund pays for about 85 billion of 
that, and there's about 19 billion that was added in general 
fund provisions through various measures through the Finance 
Committee. When we get to the end of the 2-year period of MAP-
21, the Highway Trust Fund will be close to depleted, and there 
is some anxiety that the transit account within the Highway 
Trust Fund may not even last the full 2 years. So, clearly, 
although we're very grateful for MAP-21--and it's a terrific 
boon for the transportation industry--we still need to do some 
work on the long-term--shoring up the long-term funding of the 
Highway Trust Fund.
    Senator Hutchison. I agree with you 100 percent, and I 
think Senator Boxer did a--just huge effort at passing that 
bill and getting us the funding for the infrastructure that we 
needed. Do you have suggestions on how you would address that 
dangerous shortfall?
    Ms. Trottenberg. Yes. I mean, the administration, in its 
last budget proposal, recommended that we use some of the 
savings from the drawdown in Iraq and Afghanistan. And I think 
the President and other members of the administration, 
including Secretary LaHood, have frequently offered to try and 
sit down and work with Members of Congress. Obviously, finding 
a solution to the long-term needs of the transportation account 
is going to require the administration and the Congress, in a 
bipartisan way, making some revenue decisions.
    We are also, though, using some of the authorities that 
Congress had granted us to at least make the dollars we have go 
a lot further, with programs like TIFIA, which can leverage 
private investment and, basically, bring back a return of 10-
to-1 on Federal dollars. So, we are constantly looking for ways 
that we can use the programs. We have TIGER, as well, where we 
leveraged a lot of public and private investment.
    But, clearly, there's going to need to be a bigger solution 
on the transportation front. The administration has put a 
couple of ideas on the table, but--going to need to work with 
Congress, I think, to find the ultimate solution.
    Senator Hutchison. Well, let me just put on the table that 
Senator Kerry and I have an infrastructure bank bill that 
really is a lot like TIFIA. It tracks TIFIA. But, I think that 
might be another way to attract private money that could be 
leveraged, as well, so I hope that will be another option.
    Ms. Trottenberg. Yes. And the administration has been 
supportive of your bill, and certainly of the concept of 
infrastructure banks and of leveraging private investment. So, 
that's an area where we certainly want to continue working with 
Congress.
    Senator Hutchison. Just one other question to you, and then 
I'll move on, and that is, the length of NEPA environmental 
approval process has been another concern raised, that you go 
on and on and on. Are you looking at, not in any way lessening 
the look at the environmental issues, but shortening the 
process?
    Ms. Trottenberg. Yes, that's a great question. And 
obviously, our administration is committed to having the best 
environmental outcomes for transportation projects, but we have 
two new sets of tools. One, MAP-21 had a lot of project-
streamlining provisions, and we have been aggressively getting 
the rulemakings underway. I think a lot of them will be areas 
that I know will be music to the ears of project sponsors, and 
many here in Congress; having more categorical exclusions so 
projects can go ahead without having to go through NEPA; 
looking at a lot of ways that we can exempt projects, 
basically, from the whole process, and really speed them along.
    We have also, administratively, prior to MAP-21--the 
President has put out an executive order and a Presidential 
memorandum tasking all the permitting agencies to work together 
to try and speed up the approvals of transportation projects. 
And we have, now, a rapid response team with the DOT, the 
Council of Environmental Quality, EPA, and other agencies, and 
we try and work through projects as quickly as we can, and we 
have actually posted some of them on a dashboard that you can 
access on the White House Website, and we've really been able 
to really speed up some major projects around the country.
    Senator Hutchison. I think that's good and should be 
continued.
    Ms. Clyburn, I wanted to ask you about the open docket, the 
Title II reclassification docket that has remained open, 
despite Net Neutrality having already been issued. And if the 
open Internet order is struck down in the courts, would you 
support using reclassification, under Title II, to impose 
common-carrier regulations on the Internet?
    Ms. Clyburn. Thank you so much, Senator. And I want to join 
your colleagues in congratulating you, and how appreciative we 
are of your service. You're truly a role model.
    As you have put forth, that determination has yet to be 
made. I will--when that--when we get that clarity from the 
court, I commit to you that I will have an open policy and 
engagement for all considerations as it relates to that.
    But, I--I'm not comfortable committing on a pathway 
forward, at this time, as it relates to any decision I would 
make, without all of the variables in front of me.
    Senator Hutchison. Well, I think there is concern, as you 
know, in some parts of the Senate, about what is considered 
overreach, by some, on the Net Neutrality ruling. I know that 
is not the view of all of the Senate. But, my question is, What 
limits, really, are you going to put on FCC actions, when the 
law is perhaps --well, it certainly wasn't enacted with the 
thought of Net Neutrality, and it seemed like an overreach, to 
many on our side of the aisle. Is there any view, on the 
Commission, that there be a more clear law before you go into 
the regulation and the Net Neutrality implementation?
    Ms. Clyburn. Any enhanced guidance from this body is 
welcome. We live in an ever-changing communications landscape, 
and that requires a whole host of engagements and on-the-go 
decisionmaking, as it relates to our engagement.
    So, again, any clarity that you would be willing to give 
from that perspective is welcome, but we are, and will, 
continue to weigh all variables in front of us, and will follow 
the law to the letter.
    Senator Hutchison. Well, thank you.
    My time is up, and I'll let other members ask. I know we'll 
have a second round----
    Senator Boxer. Yes.
    Senator Hutchison.--and I do have another set of questions. 
Thank you.
    Senator Boxer. We will have a second round, in order of 
arrival. So, we'll go Klobuchar, Lautenberg, Cantwell, Boozman, 
Thune, and Warner.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much.
    Thank you, to all of you. You're all doing well today. 
Appreciate----
    Senator Boxer. Oh, I didn't see----
    Senator Klobuchar.--hearing all these different issues.
    I wanted to, first, start with you, Ms. Clyburn. And, 
appreciate all the good work you've been doing, as well, at the 
FCC. This is something I've talked with you briefly about 
before, and I know, just this week, you got a letter on this 
issue, signed by 35 Senators. It came to my mind again, just a 
few months ago, when I was up in a small town in Minnesota 
during a forest fire. It's a town of 900 people, the moose 
capital of our state. There's a moose on the water tower. And 
you can imagine how hard the small businesses have to work to 
keep in business there. And in the middle of finding out that 
they'd saved the town from the fire, two businesses were 
focused on one thing, and that is that customers are not able 
to reach their businesses because of the way this is working, 
with the least-cost routing services, that calls are literally 
being dropped. And they have--they've all created their own 
little graphs to show me the problem. And I know the FCC has 
been looking into this, but it is a major problem in rural 
areas. And, well, I guess I had a few questions about this.
    First of all, if the FCC has sought to sanction any 
companies for these deceptive practices, if there is some work 
being--going on with the complaint process, because there have 
been some issues with that; they found it hard to file 
complaints--I know you've been looking into this--and that some 
of them are told to go to State agencies, yet I think we all 
know, most of this is going on with interstate carriers. And I 
am really pleading with the entire Commission to look at this 
issue again; it has not been resolved.
    Ms. Clyburn. I thank you so much, Senator, for reinforcing 
an issue that is important to me. While it is true, I don't 
think, in South Carolina, we have too many moose on water 
towers----
    [Laughter.]
    Senator Klobuchar. Oh, come on.
    Ms. Clyburn. We--no. But, I assure you that the concerns 
that you express, as it relates to what we call ``rural call 
completion'' are as important to me as they are to you. I will 
assure you that the FCC is currently conducting investigations. 
Our enforcement bureau is doing that. And you will--as that 
nears completion, you will hear more about that.
    For the first time, the FCC issued a declaratory ruling 
that was firm in the directive of those companies and what the 
responsibilities are, as it relates to call completion. Also, 
we have set up an online interactive site for those consumers, 
as well as an--a realtime engagement for those companies, that 
if they see and know that there is a problem--if there is a 
problem that exists--that they are to conduct us in realtime, 
and so that we can follow and follow up on those complaints.
    So, I encourage all of you that have been--you know, you 
have been hearing about these particular issues--to have those 
companies, those rural carriers, contact us so that we can 
follow in realtime and act appropriately. But, we are engaged, 
and soon you will hear more about that engagement.
    Senator Klobuchar. Because I'm just picturing if a major 
company in a metro area wasn't able to have people call them, I 
think we'd be hearing about it and doing something about it----
    Ms. Clyburn. Absolutely. It----
    Senator Klobuchar.--and that's what's going on.
    Ms. Clyburn.--impacts business and it impacts, potentially, 
emergency services. So----
    Senator Klobuchar. Exactly.
    Ms. Clyburn.--thank you.
    Senator Klobuchar. Thank you very much.
    Ms. Trottenberg, I appreciate all the great words my 
colleague said about you, and I had a question. Senator Warner 
and I introduced the Dig Once bill, which requires that states 
install broadband conduits as part of any transportation 
project that is federally funded. And this proposal was 
accepted by the administration by executive order this summer. 
And, as Under Secretary of Transportation for Public Policy, I 
would like a commitment that you'll make sure that this gets 
implemented, because I really believe that one of--it's one of 
these things that makes so much sense, because, otherwise, 
people who have--states that have short road construction 
seasons, because of snow and bad weather, we're constantly 
having digging going on. And you imagine the public would 
really prefer that we would just dig once and do the conduits 
at the same time we did the Federal projects.
    Ms. Trottenberg. Absolutely. And just--you probably know 
this, Senator. Our Deputy Secretary, John Porcari, was formerly 
the Maryland State DOT Secretary and was a real pioneer in 
making Dig Once work in that state, so he has been very 
committed to making sure we do a good job at DOT with that.
    Senator Klobuchar. OK, thank you.
    And then, my last question--and you may be working with 
Army Corps of Engineers on this, but I just wanted to make you 
aware of the transportation issues that we're having on the 
Mississippi River because of the drought, where Minnesota, 
itself--we haven't had as much drought as some other states--
but, our farmers and our businesses are starting to have 
trouble getting their goods down--on barges--to go down the 
river into Illinois and Missouri. And I just truly believe the 
future for our country is exports, and we're going to have to 
be able to have a transportation system, as I know you know, 
that works. But, I wanted to call your attention to this, as 
we're getting to some--a very dire situation on the 
Mississippi.
    Ms. Trottenberg. Well, thank you. And there is already a 
lot of attention within DOT, the Army Corps, and at the White 
House. We're well aware of what's going on, and looking at the 
economic impacts, and talking about what we're able to do.
    Senator Klobuchar. OK, thank you. And then, I have some 
questions, Dr. Doms, about the Census, but I'll put those on 
the record.
    Thank you.
    Senator Boxer. Thank you, Senator.
    Senator Lautenberg.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Madam Chairman.
    And thank each one of you for your willingness to undertake 
these very difficult assignments.
    And I also would say a word about our colleague from Texas. 
It would be hard to say that we agreed on a lot of policy 
things, but the one thing we can agree on is that Senator 
Hutchison stated her case, knew the subject, and worked very 
hard to make her side the right side.
    And we congratulate you for lots of good work, wish you 
well in the future.
    And, Ms. Trottenberg, you're so accomplished, here, as we 
hear it from those who had contact with you before, that I am--
it's easy to imagine that you're going to solve all these 
problems in a hurry. And we're pleased at that.
    One of them--Sandy wreaked havoc on the East Coast, causing 
damage never conceived of before, especially to New Jersey's 
transit system, one of the more costly parts of the damage 
resulting from infrastructural damage to the transportation 
system. The recently passed surface transportation law included 
a new emergency repair program for transit that will help 
rebuild and perhaps even redesign systems after disasters like 
this strike.
    The question that hangs over us in New Jersey is, Do we 
want to go back and repair the things as they were, or does it 
call for us to take a second look and see what's going to be 
most efficient, in terms of having the functioning appropriate 
and our--the availability of that part of our State to those 
who come in and are so much a part of our--the commerce of our 
State?
    What do you think you have to do, if confirmed--it is 
noted, here, if confirmed; if you're not confirmed, you'll not 
do anything about it--but, if confirmed, what do you do to 
prioritize funding with a program like this?
    Ms. Trottenberg. Yes. Thank you, Senator Lautenberg. And 
obviously, DOT has been working very, very closely with New 
York and New Jersey and all the affected areas, and 
particularly the Federal Transit Administration, I know, has 
been doing a lot of work with New Jersey Transit to get service 
up and running, and replace the cars that were damaged by the 
hurricane.
    The emergency relief program that was created in MAP-21, 
unfortunately, as you know, it has not yet been funded, because 
it has been caught up in the Continuing Resolution. Some of our 
MAP-21 programs, although authorized, were not yet funded in 
that bill.
    One of the advantages of that--of funding that program, 
versus going through FEMA, for example, is the--the FEMA 
requirement is, basically, that you build to the existing 
standard. The Transit Emergency Relief Program would enable us, 
I think, to, sort of, build to 21st-century standards, to take 
into account resiliency, which we're clearly going to need to 
do, and I think we're hoping, as we move forward, that we can 
activate that program. It will be, clearly, helping New Jersey 
and New York rebuild and make their transit systems more 
resilient--would be a top priority.
    Senator Lautenberg. It's inevitable, or crucial to our 
recovery, that that part of the problem be solved. And it--
Amtrak is planning to build a new tunnel, as you know, under 
the Hudson River, to increase high-speed rail and commuter rail 
service. That project will add much-needed capacity for our 
packed rail lines, while also ensuring that our infrastructure 
is prepared to handle the future storms.
    What do you do to move projects like this forward without 
delay and without waiting for the ultimate design to be 
finished?
    Ms. Trottenberg. That's a good question. And, as you know, 
Senator Lautenberg, Secretary LaHood has termed the Gateway 
Project critical. At DOT, we firmly believe it's critical for 
the future mobility needs, not only of the New York 
metropolitan region, but also for the whole Northeast Corridor. 
The capacity constraints with the two Hudson River tunnels 
are--it's a real issue. And, obviously, Hurricane Sandy has 
demonstrated, we need more resiliency in that travel corridor, 
as well.
    We have started talking with offices here on the Hill, with 
New Jersey Transit, with the MTA, the Port Authority, New York 
State DOT, New Jersey DOT, and we're starting to explore. We 
recognize that certain pieces of the Gateway Project, we need 
to get started on right away. And we're starting to explore how 
we move forward with that. Obviously, there are some budget 
uncertainties at the moment. We don't yet know our fiscal 2013 
budget situation. But, we're trying to look for every possible 
way we can help you proceed.
    Senator Lautenberg. Madam Chairman, if I can just throw in 
one more----
    Senator Boxer. Yes, go ahead.
    Senator Lautenberg.--question, here.
    And--directed for Dr. Wright--and as I looked at material 
that you've written and that we know about, and your concern is 
for--against ``excessive regulation.'' But, how do you do--how 
do you protect the safety of the consumers without having 
rules? Is one a challenge to the other, and, say, less is more, 
when it comes to--because yours is a regulatory responsibility, 
if you have it, and---- just kind of clear the air for me a 
little bit.
    Dr. Wright. I'm happy for the opportunity to do so.
    I do believe in rules and regulation. I also believe that 
markets are a powerful institution that operate for consumers. 
I believe, and have written, that regulation has the power and 
ability to harness markets to work for consumers. There are 
also risks that regulation can operate to the detriment of 
consumers.
    In my academic writing, I have taken positions, for 
example, in the competition space in which I'm most familiar, 
calling for greater regulation and greater sanctions in cases 
involving price-fixing. What I believe, and I would say my 
focus is, is not on the amount of regulation, but, rather, I 
think, as most economists would approach the subject, is driven 
by thinking about consumer welfare and whether or not 
regulation, in any instance, operates to improve, increase, or 
reduce consumer welfare. I think that would be a fair way to 
characterize my approach.
    Senator Lautenberg. Thanks very much, Madam Chairman. Thank 
you.
    Senator Boxer. Thank you.
    So, in this order: Cantwell, Ayotte, and Pryor. Unless 
anybody else comes back, that's what we'll do.
    Senator?
    Senator Cantwell. Thank you.
    Ms. Trottenberg, thank you so much for mentioning the 
freight mobility efforts of the Department of Transportation. I 
look forward to working with you on that implementation, and 
very big priority for helping to create more jobs as it relates 
to exports and to making sure the product is competitive, 
moving out of our borders.
    And, Ms. Clyburn, I know my colleague Senator Boxer 
mentioned this letter on media consolidation. I sent my own 
personal letter, but I'm certainly supporting Senator Sanders' 
letter, as well, and feel very strongly that the Commission may 
be heading toward a resolution of disapproval by Congress if it 
continues down this route. I mean, this is not the Rupert 
Murdoch view of, you know, the world. We are saying that, if 
you want to have an independent media, they need to be 
independent, not consolidated. And so, we will be loud and 
boisterous about what the Commission is intending to do if it 
follow--if it continues to follow this path.
    Ms. Trottenberg. I appreciate your engagement.
    Senator Cantwell. Thank you.
    Mr. Wright, I wanted to ask you--I know my colleagues have 
asked you a little bit about your recusal comments; and you and 
I had a chance to talk in my office a little about this--but, 
you know, the FTC can sometimes move at a glacial pace. So, 
while you're saying you would recuse yourself from things that 
are, you know, a conflict before the FTC, are you talking about 
all current enforcement matters before the FTC? What I'm saying 
is, that 2 year period of time, there could be something that's 
before the FTC right now, and, 2 years from now, it could still 
be before the FTC. So, even though you've said, ``Well, I'll 
recuse myself on--for a 2 year period,'' these are things that 
are currently before them. So----
    Dr. Wright. Yes, I appreciate the opportunity to clarify 
and expand on our earlier discussion about recusal obligations.
    The 2 year period comes from the President's ethics pledge. 
If a case triggering any potential conflict of interest, as it 
relates to Google or any other potential case that would 
trigger a conflict based on disclosures I've made to the 
Committee and also to the Commission, I would then go to the 
ethics officials at the FTC, who are experts in exactly what 
the recusal and other conflict-of-interest obligations are 
beyond that period. I'm not an expert in those obligations. I 
can assure you, when and if there is any obligation, under the 
letter or the spirit of the recusal--excuse me, of conflict-of-
interest standards, I will recuse myself.
    Senator Cantwell. Well, I think I'll probably ask you a 
more direct question for--in writing, because you've obviously 
been involved, on behalf of some interests, and if you are--and 
that time period could take longer than 2 years to resolve 
those individual issues. And so, I'd--I am not going to--I'm 
not going to leave it up to a trust of the--you're going to 
check in, 2 years from now, with the FTC. I want to know if you 
were involved in a case now involving a matter before the--
currently before the FTC, and it's not resolved within 2 years, 
whether you're going to recuse yourself, yes or no; not, you're 
going to consult with somebody. I want to know--so--but, we'll 
get you that in writing, so you'll have a firm viewpoint of 
that, and then you can give us a response.
    Dr. Wright. I appreciate that.
    Senator Cantwell. And then, I think Senator Boxer asked 
this question, but--so, if somebody has paid you, financially, 
for the type of work that you've done, will you recuse yourself 
from matters in--revolving around those writings?
    Dr. Wright. Yes. I have dozens, over 70, academic 
publications--books, a case book--and a handful of those 
writings, I've received funding either--directly or 
indirectly--either for support for research or through a think 
tank. All of those have been disclosed, both to the Committee 
and to the Commission. In those cases--for example, in Google, 
I will recuse myself, at a minimum, for the period of the 2 
years, under the President's ethics pledge.
    Senator Cantwell. But, that's why I'm still--I'll come back 
to you on that, because I--if you've written about it and 
consulted on it, it doesn't matter--if it's a case that's now 
before the Commission, and it takes 3 years to resolve, I want 
to know whether you're going to recuse yourself.
    So, OK, I need to move on, because I don't have a lot of 
time. I'm trying to help the Chair, here, run here hearing.
    Can you state your views on the FTC's rulemaking, Section 
811, pursuant to the energy bill of 2007, that prohibits market 
manipulation, and whether you believe the FTC's rules are 
accurate and appropriate in the interpretation of that 
underlying statute? You and I had a chance to talk about this; 
I'm not trying to get whether you know the specific section of 
the code, as much as this issue which you and I have discussed.
    We have given the FTC the ability to police oil markets for 
antimanipulation behavior. The Federal Energy Regulatory 
Commission has had this authority, as it relates to oil in--I'm 
sorry, as it relates to electricity, natural gas markets--and 
it used that authority, I believe, appropriately. The FTC has 
more recently had this authority. It took, I think, until 2009 
to get the rulemaking. I want to understand whether you are 
solidly behind the use of those--that statute, and how you see 
it being implemented.
    Dr. Wright. Absolutely. Since our last discussion--and one 
of the things I said is, I've traditionally been an antitrust 
guy, and, as a non-antitrust rule, sort of, outside of my 
initial expertise, so I did go back, I've looked at the rule, 
I've read some of the comments around the rule and had some 
time to learn more about it, in anticipation of having this 
conversation today.
    I also understand the disparity in the activity level 
between, as you mentioned, FERC versus the FTC's investigations 
under the rule. I understand the rule was designed to be 
implemented, or designed in around a (10)(b)(5)-like fraud 
standard.
    I believe that protecting consumers in oil and gas markets 
is very important. This is one of the markets that affects 
everybody, and affects everybody in an important way. I can 
commit to you that, where there are violations of the rule, I 
will support enforcing the law. I do not know, because I'm not 
privy to--I do understand there's an investigation underway, 
but I'm not privy to any of the details of that investigation, 
or why, for example, there's the disparity in activity level 
between, for example, FERC and the FTC.
    I can also commit to you that, if confirmed, I would talk 
to the staff to try to find out what's going on with respect to 
enforcement with the rule, why the numbers are different. I 
could commit to talking to folks at FERC or the SEC who are, 
themselves, implementing this rule in a more active manner, and 
try to get a sense at what the obstacles are----
    Senator Cantwell. I think my time is expired, so we'll 
probably follow that up, as well, in writing, and if you----
    Dr. Wright. Absolutely.
    Senator Cantwell.--could respond to that.
    But, this is--will be a very critical and important element 
of my deciding about your nomination. I don't think the FTC is 
being aggressive enough, and I'm sure as not going to support 
anybody to be on the FTC that isn't going to help in 
implementing this new law in an area where consumers deserve 
protection.
    Thank you, Madam Chairman.
    Senator Boxer. Senator, we are going to have a second 
round, if you want to stay. We're going to have another round.
    Senator Ayotte.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. I thank the Madam Chair.
    I want to thank all the witnesses for being here.
    And I know that Senator Hutchison has left, but--oh, there 
she is.
    Senator Hutchison, I just want to thank you for your 
tremendous leadership and how hard you've worked, and how 
dedicated you've been to this committee. I will miss your 
leadership in the Senate, and I consider you someone who we can 
all aspire to serve and be like. So, thank you.
    I wanted to ask Commissioner Clyburn a quick question 
about--New Hampshire is one of the states that's a net donor to 
the Universal Service Fund. If you look at the statistics from 
2010, the last available year on your website, New Hampshire 
gave about $25 million more to the fund than it received. And 
when you look at the current Universal Service Fund tax that 
you'd receive as a consumer, it's about 15 percent, roughly, of 
the bill that the consumer receives for telecommunications 
services. And during difficult economic times, this tax is not 
insignificant.
    What steps has the Commission taken to address the 
Universal Service Fund burden on consumers, number one?
    And then I have a follow-up question. What should I tell my 
constituents? There are areas of New Hampshire, including in 
the North Country and other more rural areas of my State, that 
still don't have full broadband access; and yet, when they look 
at their bills, and they see themselves paying this fee, 
they're wondering, ``Well, why is my money going to Oklahoma or 
Wyoming or some other State, when we have real needs that very 
much impact economic development in those areas of New 
Hampshire?''
    Ms. Clyburn. Thank you very much, Senator.
    If I were in your shoes, I would affirm to my constituents 
that the FCC has moved forward on an aggressive incentive-
based, fiscally proficient regulatory framework to reform the 
Universal Service Fund in order to, going forward, ensure that 
the funds received by carriers will go to, not only voice-
enabled services, but broadband-enabled services. We have 
reformed the Universal Service, to the point where both price 
cap--in price-cap areas, as well as raised-return areas, that 
they are--have their marching orders, in essence, that, again, 
if they receive this fund, they have certain obligations by 
certain timetables.
    We have also put this fund on a budget. We have freezed the 
level of support. We have made some reforms, both internally as 
well as a subset in our lifeline proceeding, that has--is on 
track, this year, to save $200 million to that fund.
    So, you can tell your constituents that what we have done 
was to--is to reform a framework that has served well over 
time, but was inefficient and ill-equipped to meet the 
communications needs of the day. So, targeted, streamlined, 
fiscally responsible approach, where everyone is accountable 
and everyone is on a budget. So, you will see--the figure you 
quoted? I am confident that will--it will continue to decrease, 
over time, because we put budgetary constraints in place.
    Senator Ayotte. I appreciate that, and I just want to make 
clear that I would like to see that. And the deficiency? 
Obviously, for consumers in New Hampshire, when we have real 
broadband needs I appreciate that we're moving in the direction 
of reform. I would love to see you do anything possible to 
expedite that, and particularly for those states that are donor 
States, but yet have real needs that could be addressed by the 
Universal Service Fund.
    Ms. Clyburn. There are 19 million Americans that are 
similarly affected, and the reforms in place, and the--what we 
have done, we're well on our way to address those needs, to the 
tune of 400,000 people, in short order, through a reverse 
auction that we just conducted--additional persons--and 83,000 
more rural mouths will be serviced, from a mobility side. So, 
we're taking a one-two approach, both from a terrestrial 
standpoint, as well as a mobile standpoint, to ensure that that 
experience is a more robust and equitable one for your 
constituents.
    Senator Ayotte. Good, I appreciate that, and I look forward 
to continuing to work with you on this important issue to my 
New Hampshire constituents.
    Ms. Clyburn. Thank you, Senator.
    Senator Ayotte. I see my time's up.
    Senator Boxer. Thank you, Senator Ayotte.
    So, we're going to have a second round. And I'll start off.
    First of all, Dr. Doms, you're the most fortunate person on 
the panel.
    [Laughter.]
    Senator Boxer. Just consider yourself very fortunate.
    [Laughter.]
    Senator Boxer. And I have no questions for you, which 
really is going to make you happy.
    Dr. Doms. Thank you.
    Senator Boxer. So, we will get back to Dr. Wright.
    [Laughter.]
    Senator Hutchison. He'll be happier, still, when I don't 
have any questions.
    Senator Boxer. Oh, I'll be happier, still.
    [Laughter.]
    Senator Boxer. Dr. Wright, this is an easier one for you. 
This past October, California retail gas prices spiked to a 
record of $4.67 per gallon, and the refineries had a very easy 
explanation. They said, ``Well, we've had disruptions, we've 
had fires, and the like,'' and everyone kind of believed it, 
until a private sector firm stepped up to the plate--McCullough 
Research--and they said--McCullough Research--and they said, 
``No, we just looked at the emissions data, and there was no 
flagging in refinery production, and there's no way that this 
could have been the case.'' So, we called on the Federal Trade 
Commission--Senator Feinstein and I and others--to investigate 
the causes of the spike.
    Now, you know, the job you aspire to, it means a lot to our 
state, because we went through the Enron scandal and the rest, 
and we're still--we still know people who just went out of 
businesses, small business, because the manipulation of 
electricity rates and people saying, ``Sock it to grandma,'' 
and all that stuff. So, we're in sort of post-traumatic stress 
from that; we haven't gotten over that. And now we're asking 
the FTC to aggressively look at this.
    So, what do you think the FTC should do if it turns out the 
private sector research firm is right and this so-called 
shortage never really was there, and this has all been 
manipulated?
    Dr. Wright. Senator, I appreciate the question.
    Let me say, first, I was born and raised in California----
    Senator Boxer. I know. San Diego.
    Dr. Wright [continuing]. My parents, who are here, are from 
California----
    Senator Boxer. Yes.
    Dr. Wright.--came out from California. I spent a long time 
paying California gas prices. And, as an economist, I also care 
a great deal about issues impacting consumer welfare that have 
a large impact----
    Senator Boxer. So, what would you do about this specific 
thing if it turns out that there was manipulation of the data?
    Dr. Wright. The Commission has a number of tools available 
to it, both under its Unfair and Deceptive Practices authority, 
should that be triggered; obviously, if there's collusion 
through traditional competition----
    Senator Boxer. Would you look at disgorgement? That made 
you cough, I know; I'm sorry.
    [Laughter.]
    Dr. Wright. Yes, it did. It did.
    We also have available to us----
    Senator Boxer. Would you look at disgorgement?
    Dr. Wright. Absolutely, I would look at any and all 
appropriate remedies as an issue that I would be----
    Senator Boxer. OK.
    Dr. Wright.--happy to talk with the staff about, with the 
Commission----
    Senator Boxer. Well, it's not ``be happy to talk to.'' We 
have asked for a serious investigation. Our people are paying 
$4.67 a gallon because they were told there was a shortage, and 
we all accepted it. And now it turns out, if this firm is right 
and we have the emissions to prove it, there was no such 
shortage. And I could tell you, Senator Feinstein and I are 
just up on the ceiling about this. So, it's not a question of 
``talking to the staff,'' it's a question of being part of an--
a very aggressive investigation.
    Let me move on to two questions that the Chairman has for 
you. Chairman Rockefeller.
    The FTC supports an online consumer tool called Do Not 
Track mechanism. What that means is that if consumers are 
visiting Websites to learn about sensitive matters, like a 
medical condition or a personal financial matter, they should 
have a choice to do it without having online companies tracking 
them.
    Do you agree that consumers should have the ability to tell 
companies not to track them, and that companies should honor 
that request? Yes or no.
    Dr. Wright. Yes.
    Senator Boxer. Good.
    What is your opinion of the FTC's privacy report and its Do 
Not Track recommendation?
    Dr. Wright. Consistent with the last answer, I support the 
Commission's view in favor of a Do No Track mechanism. I 
support--the reports focus on notice and choice, and consumer 
choice of key aspects of developing its approach in privacy.
    With respect to specific recommendations regarding Do Not 
Track legislation or other similarly----
    Senator Boxer. Well, could you just give us a written 
answer to that, to the exact recommendations of the Commission? 
Would you do that for us?
    Dr. Wright. Absolutely.
    Senator Boxer. Thank you.
    And the last question. This is from Chairman Rockefeller. 
Our country is still recovering from a major financial crisis 
that began in 2007. Homeowners across the country saw their 
homes drop in value, and faced foreclosure and displacement. 
Since that time, numerous states and Federal agencies have 
brought cases against banks and mortgage companies--successful 
cases--for deceptive practices that led to and worsened the 
crisis.
    While most people say that the mortgage industry is to 
blame for many of the problems that arose, Dr. Wright, you take 
a very different position. This is Senator Rockefeller writing 
this. In a law review article you published, you said that 
foreclosures, quote, ``did not present a consumer protection 
issue.'' Here's what you wrote, ``While there was undoubtedly 
fraud during the housing boom, both by borrowers and lenders, 
the problems that have been seen in the mortgage market are the 
result of national''--oh, sorry--``rational consumer responses 
to incentives, not a problem of fraud, consumer confusion, or 
systematic irrationality.''
    So, I just have to say, just my own opinion, is, ``Oh, boy, 
just don't say that around San Diego, because people don't 
agree with that.''
    And, given your views, if you're faced with a crisis of 
this magnitude--this is a question coming from Senator 
Rockefeller--how can we trust you to be a commissioner and 
address the concerns of American consumers, if you basically 
say, you know, it's their fault?
    Dr. Wright. I appreciate the question, and from Senator 
Rockefeller, as well.
    In the same article, I did say that regulators could have, 
and should have, done a better job in that market at the time.
    And let me say further, with respect to the Commission's 
core mission of fighting fraud and deception, I am extremely 
supportive. I have been in other academic writings. And, in 
general, my view is that conduct that harms consumers should be 
prosecuted to the fullest extent of the law available to the 
Commission. With respect to fraud, I take the same position, 
and I can assure you that, if confirmed, I will do so.
    Senator Boxer. OK. Well, I would appreciate seeing those 
papers, because this one is a little scary, when you say 
foreclosures did, quote, ``not present a consumer protection 
issue,'' since we know, from court cases all across the 
country, that there were many people who were putting these 
mortgages that were deceptive, people didn't know what they 
were getting into, and the rest; and there was clear deception, 
and many of the banks have stepped up and paid billions of 
dollars, essentially saying, you know, ``We pushed through 
these documents; people didn't realize what was happening.''
    So, I just would love to see your other writings, where we 
can say to Chairman Rockefeller that, ``Dr. Wright has other 
papers where he takes an aggressive view in favor of 
consumers.'' So, you'll submit those----
    Dr. Wright. I'd be happy to do that.
    Senator Boxer [continuing]. For the record?
    Senator Boxer. Thank you.
    Senator Hutchison.
    Senator Hutchison. Well, I have listened to the questions 
from the Senator from California, and I would just ask, if 
there were an investigation by the FTC, would you consider 
that, even though the number of permits being issued on private 
lands--and oil wells being drilled because of new technology 
have increased, nevertheless, the number of permits being 
issued in the Gulf of Mexico, which is the second largest 
potential oil recovery in our country, second to Alaska, have 
virtually stopped. The Gulf of Mexico is under a permitorium 
because the number of permits being issued by the government in 
the Gulf of Mexico have severely been lowered. So, if you were 
going to do an investigation of what is causing the price of 
gasoline to go up, would that also be a fair area to look at, 
if you are determining if there is collusion or antitrust 
violations or fraud, also the actual data on number of wells 
being drilled?
    Dr. Wright. Absolutely, Senator. To identify the 
conventional sort of analysis, the Bureau of Economics and the 
folks at the Commission engage in would look at all relevant 
data on supply and-demand factors. This is something that 
they've done in many contexts, and I would, of course, if 
confirmed, support a thorough investigation of all of those 
factors before coming to any conclusion.
    Senator Hutchison. Well, thank you. I think that it is 
important that the FTC follows the law, that if there is an 
unfair business practice or unfair method of competition, that 
there be a vigorous investigation. But, I would just also say 
that it's very important that the Commission stay within the 
law that it is formed to implement, not make. So, I will not 
ask you a question on that, because I think that it's self-
evident.
    But, you know, I think we could do a whole lot more to 
bring down the cost of gasoline with the XL pipeline out of 
Canada coming to the refineries, which we'd love to have 24 
hour-workloads in my home state; and the Keystone pipeline is 
one way to do it. So, I don't think it's a matter of--well, I 
don't know, maybe an investigation would show something 
different, but we've got to drill more wells if we're going to 
have more gasoline; and so, I would hope that there would be a 
fair hearing, if one is launched.
    I would just like to say, Dr. Doms, the area that I think 
you have certainly had experience with is the Census, and I 
think there has been a discussion of how the last Census was 
done. Can you tell us if you believe that the method used in 
2010 was valid, and was it as efficient as it could be, or do 
you have other thoughts about it?
    Dr. Doms. OK, I appreciate the question, Senator.
    In terms of the effectiveness of the Census in 2010, all 
the research shows that it was the most accurate Census that 
we've ever done. So, that's the good news.
    In terms of efficiency, what I'd like to do is talk about 
what we're doing to plan ahead for 2020, because we realize 
that the costs incurred in 2010 have to be tempered, especially 
in this fiscal environment.
    We've been very aggressive in planting--in planning for the 
2020 Census. We are working closely with the GAO. We have taken 
onboard the recommendations from the National Research Council. 
And we are having quarterly meetings with congressional staff 
to talk about our progress to reduce the cost of 2020, going 
forward; in terms of using new technologies and looking at 
where the major costs were in 2010, and asking the question, 
How can we reduce those costs in the future?
    Senator Hutchison. Thank you. That's very good. I agree 
with you, I think it was universally considered a good Census, 
and anything that can be done more efficiently would be, of 
course, welcome.
    Last question to you. You've been the Chief Economist at 
the Department of Commerce, and obviously the biggest issue we 
face today is our unemployment rate and getting our economy up 
and going. Do you have any thoughts, from an economist's point 
of view, about what we could be doing that would spur growth in 
the economy? And what would you be recommending to the 
Secretary, going forward?
    Dr. Doms. That's an excellent question. One of my roles 
that I play that I take very seriously is that I talk to 
business leaders a lot. That is something that I did in my 
previous career with the Federal Reserve, and that's something 
that I do now. I've spoken to business leaders from many of the 
states that are represented on the dais today. What I do then 
is, I take that information, and I transmit that information to 
folks in the administration.
    When we look at the economy today, in job creation over the 
past 34 months, we've had about 5.4 million new jobs. Those are 
in the private sector. The government sector has actually been 
contracting. And it's going to be the private sector, going 
forward, that's going to create the jobs.
    So, anything that I hear from the private sector, I then 
transmit to--to better form our policies.
    Senator Hutchison. All right. Thank you very much.
    And, Madam Chairman, I'm----
    Senator Boxer. Thank you, Senator.
    Senator Ayotte.
    Senator Ayotte. Thank you, Madam Chair.
    Dr. Wright, I wanted to ask your view on Section 5 
Authority. Some members of the Commission have said the FTC 
possesses powers under Section 5 that extend beyond our 
antitrust statutes. However, when you ask them what their 
interpretation is of these powers, they are not clearly 
defined, in terms of the boundaries of what would go beyond the 
antitrust statutes. What I'd like to understand is this: if 
we're going to ask people to comply, we need people to 
understand clearly what the rules are. If there are these 
undefined powers under Section 5, then I think it's difficult 
for businesses to understand, How do we then know what behavior 
we can and cannot engage in?
    So, how would you approach this? How should the FTC 
approach the definition of Section 5 authority in a way that 
can provide certainty to market participants?
    Dr. Wright. I very much appreciate the question. And I 
certainly share the concern that having a legal standard that's 
amorphous or vague can impose costs on both businesses and, in 
turn, upon consumers.
    I'm afraid my answer is not going to settle the scope of 
Section 5 for you, unfortunately.
    Senator Ayotte. Well, I just noticed the Chairman in the 
audience; maybe he can----
    [Laughter.]
    Dr. Wright. The--we may have different answers.
    [Laughter.]
    Dr. Wright. I don't think--let me start with, I think, a 
proposition on which most people in the competition community 
agree upon with respect to Section 5, which is that I don't 
think that there's much debate that it does, in fact, extend 
beyond the scope of the Sherman Act. For example, there is not 
much debate over the use of Section 5 in engaging in 
enforcement actions for invitations to collude, which fall 
short of the Sherman Act 1 prescription, because there's no 
actual agreement, but don't offer any benefits to consumers, 
have a real risk of harming them, were the agreement to come to 
fruition. And so, an agreed upon area, in an area of 
application for Section 5, Unfair Methods of Competition, at 
the FTC, which I support, is in the use of invitations to 
collude. Beyond invitations to collude is where there's a great 
deal of uncertainty about when and where, both what guiding and 
what limiting principles, will apply to application of Section 
5. There are a number of different views on that topic. I know 
that the Commission has had a workshop on the subject. They're, 
sort of, developing a record.
    If confirmed, one area that I think the Commission--one 
thing the Commission could do, on behalf of both businesses 
seeking clarity in the area, but, most importantly, consumers 
who would benefit from that clarity, is to issue a policy 
statement that would articulate those guiding and limiting 
principles. If confirmed, I would look forward to working with 
the Commission and the staff on what those Section 5 Unfair 
Methods of Competition investigations are looking like, 
incorporating their views; of course, working with the 
Committee, as well. But, I do think a policy statement along 
those lines would be to the benefit of the consumers, in the 
interest of the agency's mission.
    Senator Ayotte. And this type of policy statement would, in 
your view, if it were agreed upon by the Commission, provide 
clarity and be issued for the public consumption?
    Dr. Wright. The one I have in mind would, yes.
    Senator Ayotte. OK.
    [Laughter.]
    Senator Ayotte. Also, with regard to Section 5, there have 
been instances where, in certain enforcement actions, the terms 
become the de facto regulation for the entire industry, because 
of the nature of the enforcement action. Sometimes the 
Commission has engaged in voluntary guidelines. One example 
would be the interagency Working Group on Food Marketing. So, 
in these cases, what ends up happening, I think, is, by what is 
issued, the guidelines that are voluntary end up becoming de 
facto regulations that the industry feels that they must comply 
with. So, what do you think, in terms of the issue of Section 5 
with regard to applying it to a voluntary guideline situation?
    Dr. Wright. That issue, and the specific example, are a bit 
outside of the, sort of, typical of Section 5 uses I'm familiar 
with, in the antitrust context. I am aware that the Commission 
will work with groups, like the Interagency Food Working Group, 
to contribute its expertise on the marketing side, or some 
other expertise it has, to a self-regulatory or other sort of 
regulatory process.
    I, if confirmed, will have to learn more about the agency's 
role in those sorts of processes, and certainly would intend to 
do so.
    Senator Ayotte. Good, I would appreciate that. And also, I 
just think it's important for people to have clarity and for 
the responsibilities to be defined on who makes the 
regulations, versus the Commission action on certain areas.
    So, thank you.
    Senator Boxer. Thank you, Senator.
    Thank you, Senators. And thank you, panel. You've all been 
patient and articulate.
    And I just wanted to, so to speak, clear the air on our 
California gas issue, because Senator Hutchison and I--I don't 
necessarily disagree with her. She wants to see more drilling. 
I, you know, disagree with her point that that's an issue of 
debate. I believe, you know, clearly, that we have the right 
balance now. I believe, speaking for her, because she said it, 
she would like to see more drilling. We have more drilling; 
she'd like to see even more. I believe protecting the coast and 
the rest of it is an economic issue. But, that's not what the 
Commission's about.
    What the Commission's about is, if there's manipulation and 
if statistics have been played with, the Commission has the 
absolute responsibility to look at it. So, I want to just put 
it on the record--and then we'll stand adjourned, here--what 
happened, and why Senator Feinstein and I got involved in this.
    When our gas prices spiked so high, headed toward 5 bucks--
and they were going to $5; they were at $4.67--what we said--
what we were told is that there were problems at the 
refineries. And we knew there was a fire at one of--and we 
believed--we thought, OK, that's a fair-enough reason. But, 
this private firm did something very interesting, and they 
measured the emissions coming out of those refineries, so they 
knew exactly how much product was being refined. And, at the 
end of the day, it turned out there was no shortage. This is 
our opinion, and we're very upset about it. So, what we want to 
make sure is that there wasn't some kind of a collusion 
situation to say there was a shortage of product, when there 
wasn't.
    But, the issue of drilling off the coast, or on the coast, 
or more or less, is a very important debate that's going to go 
on long after both of us are not here in the Senate. But, for 
now, this issue has nothing to do with that. The Commission has 
nothing to do with whether we drill more or less, but that they 
have to protect the consumers, here. And they may find, as they 
have many times, that there was no manipulation. I'm very 
disappointed in the history of the Commission, to be honest 
with you. They've never so much as scolded the oil companies. 
So, I'm not happy with them. Even the current members, whatever 
party. OK?
    But, I wanted to get your answer, and I was glad--happy 
with your answer, sir, because you said you felt it was 
something that you would look into; and if, in fact, you found 
that there was manipulation, you would take action.
    I want to thank everybody. I want to say, in behalf of the 
Chairman, we wish you all well, and we thank you. And we thank 
your families for being here; we know that all these jobs 
require sacrifice from family and loved ones.
    So, thank you very much, everybody. We stand adjourned.
    [Whereupon, at 4:15 p.m., the hearing was adjourned.]
                            A P P E N D I X

Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                      to Hon. Polly E. Trottenberg
Surface Transportation Funding
    Question 1. It's no secret that funding for our surface 
transportation system is a huge challenge. The Highway Trust Fund is 
broken and being held together by completely unrelated ``pay-fors''. 
Amtrak and the intercity passenger rail grants are subject to 
unpredictable annual appropriations. At this point, I really don't see 
much difference in the way we pay for highways, transit, or trains. Yet 
it's overwhelmingly clear that we are in dire need of more investment 
in transportation infrastructure across the board.
    Ms. Trottenberg, the Administration has been hesitant to seriously 
propose any new funding mechanisms, beyond the occasional mention of 
using savings from military drawdowns in Iraq and Afghanistan. In 
addition to the traditional gas tax approach, what other realistic 
options are there to fund transportation? What creative solutions do 
you propose?
    Answer. Clearly finding sustainable funding for the Federal surface 
transportation program is an urgent challenge confronting policymakers. 
The Federal gas tax has not been raised in 19 years, and with Americans 
driving less per capita and the Nation's vehicle fleet growing ever 
more fuel-efficient, the Highway Trust Fund's purchasing power 
continues to decline. Congress has added over $54 billion in General 
Fund transfers to the Highway Trust Fund over the last few years, 
including almost $19 billion for MAP-21.
    The Obama Administration has proposed using the savings from the 
military drawdowns in Iraq and Afghanistan as a source of funding for 
transportation and has supported programs such as TIFIA, TIGER, RRIF 
and an infrastructure bank that would help leverage additional public 
and private funds for transportation. A number of other experts have 
proposed variations on the gas tax such as oil import fees or VMT fees. 
So far none of the proposals have drawn a critical mass of support 
among elected officials and transportation stakeholders.
    As such, the Administration has committed to working with Congress 
to find a more sustainable funding solution. In recent history, 
Congress has increased revenues for transportation only in the context 
of more comprehensive bipartisan tax and deficit reduction legislation. 
Given the magnitude of what is required to put the Federal surface 
transportation program on a sustainable path, it will require 
negotiation at the highest levels to reach agreement on a future 
transportation revenue source.

    Question 2. How can we create a more predictable, sustainable 
funding stream for Amtrak and passenger rail in general? Should states 
be able to use their Highway Trust Fund dollars for rail projects if 
they desire to do so?
    Answer. We face a similarly daunting challenge in funding Amtrak 
and passenger rail. Currently both are funded through annual 
appropriations making it difficult to plan and execute long-term 
capital projects. In its FY13 Budget submission, the Administration 
proposed creating a separate funding account for passenger rail. 
Additionally, there should be some discussion about providing states 
with the flexibility to use their apportioned highway or transit funds 
for rail projects, based on local needs and priorities.
Surface Transportation Reauthorization (MAP-21)
    Question 3. Ms. Trottenberg, as you know Congress passed a surface 
transportation reauthorization, MAP-21, earlier this year. This 
legislation contained reauthorizations of several agencies under the 
Commerce Committee's jurisdiction, including those related auto, bus, 
and truck safety. While this bill included a substantial number of new 
requirements and reorganization of our transportation programs, the 
authorization only lasts until September 2014. What are the key 
challenges to implementation of MAP-21 in the shortened time-frame of 
the authorization?
    Answer. The Department commends Congress for its work in passing 
MAP-21 with substantial bipartisan support, and we are hard at work 
implementing its new provisions, including a focus on the new safety 
oversight and enforcement authorities granted to FMCSA, NHTSA, FTA and 
PHMSA.
    We believe the provisions in MAP-21 requiring performance measures 
and performance-based planning will ultimately empower State DOTs, 
transit agencies, MPOs, elected officials, and the public to make more 
informed and cost-effective transportation investment decisions. But 
these provisions will be a real challenge to implement. They will 
require transportation agencies to collect more data and to do more 
analysis of those data to show how policy changes can lead to improved 
performance. And they will force transportation agencies to face real 
conflicts between traditional decision-making practices and practices 
focused on improving performance.
    Finally, MAP-21 requires DOT to undertake dozens of safety, project 
delivery and performance-related rulemakings over a two-year time frame 
and it the Department, working with OMB, will have to work aggressively 
to meet the legislative deadlines.

    Question 4. What are the key issues, beyond funding, that need to 
be addressed in the next reauthorization?
    Answer. We hope to build on our work in performance management in 
the next reauthorization and offer states greater flexibility to meet 
their performance goals in the most cost-effective way. We expect that 
the implementation process will help inform policymakers for the next 
reauthorization, and we do believe that there are several areas that 
the next reauthorization should address. One priority is a rail title, 
which we recognize Congress may also choose to address next year when 
PRIIA expires. The Administration strongly supports creating a long-
term legislative framework for high-performance passenger rail, 
including Amtrak, and freight rail in the U.S.
    A second priority is developing a more multimodal approach to 
transportation policy. The TIGER Grant Program enacted as part of the 
Recovery Act was a breakthrough in allowing us to direct funding to 
whichever mode of transportation could most effectively address a 
transportation problem. MAP-21 makes some progress in that direction, 
but we still have extensive restrictions on how funding can be 
allocated. The Administration's Infrastructure Bank proposal was 
significant not only for its funding innovations, but also for allowing 
funding to be directed in a multimodal way.
    Third, we need to make further progress on distracted driving. As 
you know, curtailing distracted driving has been and will continue to 
be a priority policy area for the Department. We are pleased that 39 
States, the District of Columbia, and Guam have already banned text 
messaging for all drivers; and that 10 States, the District of 
Columbia, and the Virgin Islands have prohibited all drivers from using 
handheld cell phones while driving. Building on this momentum, the 
Department will look for opportunities to encourage states to pass 
additional comprehensive distracted driving laws, and will make this a 
priority in the next reauthorization.
Private Financing of Infrastructure
    Question 5. Ms. Trottenberg, you testified before this Committee in 
July 2011 about how we can best leverage limited Federal funding to 
partner with private capital and increase overall infrastructure 
investment. This is an issue I, among others on this Committee, remain 
strongly interested in. While we have been able to move legislation 
yet, we have seen some success through programs such as the Federal 
Highway Administration's TIFIA program and Federal Railroad 
Administration's RRIF program. Beyond these existing programs, are 
there other initiatives the Department is working on to promote private 
investment into infrastructure?
    Answer. We share your interest in leveraging Federal funding to 
encourage broader investment of private capital in transportation 
infrastructure. MAP-21 included several provisions aimed at this 
objective, which we are implementing. MAP-21's expanded TIFIA program 
is a powerful catalyst for increasing private investment. Since 2006, 
TIFIA has facilitated eight major public-private partnerships in the 
United States worth approximately $13.5 billion. The TIFIA loans in 
these projects represent less than one-third of the total value and 
were critical to the project sponsor's ability to attract private debt 
and equity for a substantial portion of the remaining costs. A number 
of the projects that have submitted letters of interest for the 
expanded TIFIA program under MAP-21 will be delivered as public-private 
partnerships, and will be facilitating substantial co-investment by the 
private sector.
    We are also implementing the provisions in MAP-21 that require the 
USDOT to provide guidance on best practices for structuring public-
private partnerships and to create model contracts for the most popular 
type of public-private partnerships. Private sector involvement in 
these projects doesn't simply provide access to new sources of capital, 
but also include involvement in the design, construction, operations 
and maintenance of the projects, which may create opportunities for 
innovation, accelerated delivery, and other benefits. With the 
implementation of these new MAP-21 provisions, we will be helping many 
of our state and local partners better understand these potential 
benefits, while ensuring that the public interest is protected.
    Through DOT's other competitive programs, particularly the TIGER 
program, we have been encouraging our state and local grantees to 
partner with the private sector to deliver their projects more 
efficiently and more effectively. Many of the freight projects that we 
funded in TIGER, for example, facilitate greater investment by private 
freight railroads in new rail capacity. These investments include major 
investments in CSX's National Gateway Project and Norfolk Southern's 
Crescent Corridor project, but also include public and private sector 
co-investment to mitigate some of the worst bottlenecks on our freight 
rail system, like the CREATE project in Chicago, the Colton Crossing 
Project in Southern California, and the Tower 55 Project in Fort Worth, 
Texas. Sometimes a small injection of discretionary Federal funding can 
provide the final piece of a funding package that includes private, 
state, and local funding.
    Of course, more can be done by USDOT and Congress to facilitate 
broader private investment in our infrastructure. For example, while 
the Private Activity Bonds program administered by USDOT was under-
utilized in its early years, it is increasingly used to finance major 
public-private partnerships, often in concert with TIFIA, and it looks 
increasingly likely that our $15 billion national volume cap will be 
fully allocated, assuming market conditions remain relatively favorable 
for the issuance of these bonds. Increasing the national volume cap 
would facilitate broader private sector investment.

    Question 6. Have you considered how the Department might be able to 
move forward on some of the concepts behind an infrastructure bank or 
fund without legislation? Are there steps you can take right now?
    Answer. USDOT's implementation of the expanded TIFIA program under 
MAP-21, and other competitive programs like TIGER, has demonstrated, 
and will hopefully continue to demonstrate, the value of many of the 
concepts behind the national infrastructure bank proposals.

  <bullet> TIFIA and TIGER both leverage substantial public and private 
        sector co-investment, with TIFIA historically funding no more 
        than 33 percent of project costs (this could potentially climb 
        higher under MAP-21) and TIGER historically attracting 
        approximately $2 of non-Federal co-investment for every $1 of 
        TIGER funds awarded to a project.

  <bullet> Both programs have broad eligibility criteria, opening up 
        Federal funding to a host of surface transportation projects 
        that are not generally eligible for formula funds, including 
        freight rail and port projects, but also passenger rail and 
        multi-modal projects.

  <bullet> TIFIA and TIGER both provide broader eligibility for a 
        variety of applicants, including private sector project 
        sponsors that partner with public sector agencies. This 
        facilitates well-developed project planning and more robust 
        partnerships in project funding and delivery.

  <bullet> These programs facilitate multi-jurisdictional projects of 
        national and regional significance, including multi-state 
        highway bridges and investments in corridors of national 
        significance.

  <bullet> As we implement these programs we are learning lessons and 
        developing best practices that would be transferable in the 
        event a national infrastructure bank were established.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                       Hon. Polly E. Trottenberg
    Question 1. Can you describe the steps that the U.S. Department of 
Transportation (DOT) is taking to ensure that the reforms included in 
the Moving Ahead for Progress in the 21st Century Act (MAP-21) are 
being promptly implemented in accordance with the bill, including 
providing any communication or direction regarding MAP-21 
implementation, and lay out your plans to provide frequent updates to 
the authorizing committees on such progress?
    Answer. DOT maintains a centralized database to track the progress 
of ongoing rulemakings in each operating administration, and we post 
reports on the Internet each month informing the public of the status 
of our significant rulemakings. Senior leadership of the Department 
also regularly meet with each operating administration to be briefed on 
the current status of their rulemakings.
    Upon enactment of MAP-21, DOT immediately began developing an 
implementation plan and timeline, assigning every MAP-21 action to the 
appropriate office. Provisions that could be implemented immediately, 
such as the expanded TIFIA program, were addressed first, while 
simultaneously laying the groundwork for implementation of provisions 
that were effective October 1.
    The Deputy Secretary and I have spearheaded regular implementation 
meetings to engage OST and modal leadership. These meetings have fast-
tracked discussion of emerging issues and facilitated efforts to 
resolve any problems that might have slowed down implementation 
progress. In light of MAP-21's significant programmatic changes and 
tight timeframes, DOT has maintained momentum, providing leadership, 
guidance and information through stakeholder meetings, webinars, and 
posted a vast array of material on Departmental websites.
    Many MAP-21 provisions mandate reports to Congress on specific 
topics. In addition, DOT is making every effort keep Committee staff 
informed as implementation efforts progress. We have regularly notified 
Committee staff of upcoming informational or outreach sessions, 
guidance, and Federal Register notices related to MAP-21 
implementation. We have also provided informational briefings upon 
request, and respond to Congressional inquiries on an ongoing basis.

    Question 2. Can you please describe the Department's progress in 
expanding the Transportation Infrastructure Finance and Innovation Act 
(TIFIA) program as authorized under MAP-21? In your leadership role 
over the Office of Policy, what steps have been taken to handle the 
growth of the TIFIA program and the great demand from across the 
country for assistance under TIFIA?
    Answer. Since the passage of MAP-21, we have taken a number of 
steps to implement the changes to the TIFIA program and expand the 
TIFIA Joint Program Office to meet increasing demand. We estimate that 
the $1.7 billion authorized for TIFIA in MAP-21 will allow the 
Department to provide approximately $17 billion in credit assistance 
and leverage an additional $20 to $30 billion of infrastructure 
investment.
    On July 31, the Department published a Notice of Funding 
Availability in the Federal Register inviting project sponsors to 
submit letters of interest (LOIs) for TIFIA assistance on a rolling 
basis. Since that date, we have received LOIs for more than $14 billion 
in credit assistance to finance over $37 billion in total project 
costs. The Notice of Funding Availability also outlined important 
process changes that we have implemented within the Department to 
review LOIs on a rolling, first-come, first-served basis.
    On a parallel track, we are working to ensure that the TIFIA Joint 
Program Office has the necessary staff to review applications and 
negotiate credit agreements. The TIFIA Office developed a staffing plan 
that is now being implemented. We are hiring financial and legal 
experts to serve in various functions within the TIFIA Joint Program 
Office, including loan origination and negotiation, credit analysis and 
budget, and portfolio monitoring.
    In my office, my staff and I have been very involved in the 
implementation of TIFIA under MAP-21, working collaboratively with 
other offices within the Office of the Secretary and the Modal 
Administrations to ensure that the TIFIA program has the necessary 
policies and resources to respond to the growing volume of credit 
requests.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                       Hon. Polly E. Trottenberg
Strategic Freight Plan
    Question 1. One of the goals of the Freight Policy Council is the 
development of a national freight strategic plan. I think you'd 
probably agree that that process should include robust input from 
industry, labor, state and local governments, and safety advocates. In 
Washington state, we take the approach that all the modes should work 
together to better our freight system as a whole--and I'm glad that is 
the approach that Secretary LaHood has adopted with the Council. Will 
you commit to holding designated outreach events outside of Washington 
D.C. to gather input on the national freight strategic plan?
    Answer. As senior DOT officials travel, we are actively seeking 
opportunities to meet with stakeholders representing diverse interests 
and perspectives in this area to gain insights on the national freight 
strategies on freight related issues. Earlier this year, Secretary 
LaHood kicked off the DOT Freight Policy Council during a visit to 
Washington State in Spokane and Seattle. In September of 2012, 
Secretary LaHood hosted a Freight Forum here in Washington, DC that 
included over 100 participants representing public and private sectors 
interested in freight related initiatives.
    We are in the process of exploring opportunities for regional 
Forums during 2013. As other senior DOT officials travel around the 
country, they have been participating in DOT Freight Roundtables. These 
roundtables are designed as small interactive sessions with 
stakeholders with diverse perspectives. Just last week, we hosted three 
separate Freight Roundtables in Portland, OR; Sacramento, CA; and 
Chicago, IL. We will continue to conduct DOT Freight Roundtables 
through the spring of 2013. In addition, we are exploring opportunities 
to meet with targeted interests groups representing various modal 
interests, safety, environment and economic development over the next 
year. We will also be actively working with State DOTs and local MPOs 
to ensure their input along the way.

    Question 1a. How will the Freight Policy Council ensure that all 
regions of the country have input into the development of the national 
freight strategic plan?
    Answer. The Department recently held an on-line national dialogue 
that provided an opportunity for over 1,300 participants from across 
the country to exchange ideas on suggested elements for state freight 
plans and freight performance measures. There was representation from 
every state and 140 metropolitan areas. In addition, we also hosted a 
separate on-line dialogue with over 5,000 participants on all MAP 21 
performance measures, which included unique insights on freight 
performance measures.
    The Department has also used `webinars' as a tool, providing an 
opportunity for participants to log in from anywhere in the country. In 
the past several months, we have hosted two specific webinars on 
Freight in America, offering over 500 participants the chance to ask 
questions to presenters and also submit unique insights using real time 
chat functions.
    We will continue to use these tools in addition to face to face 
sessions to engage stakeholders on freight movement from around the 
country.

    Question 1b. What is the U.S. Department of Transportation's 
timeline for beginning the freight strategic planning process?
    Answer. We began work on freight strategic planning issues as soon 
as the legislation was signed by President Obama. The Freight Policy 
Council held its first meeting in late August. The ``Chain Gang'', an 
informal multi-modal working group originally formed to discuss freight 
policy issues, was re-purposed and expanded to serve as the staff of 
the Freight Policy Council. Now known as the MAP-21 Freight 
Implementation Team (MFIT), it is chaired by the Chief Economist of 
USDOT and staffed by designees from the OST Policy, FRA, FHWA, MARAD, 
FMCSA, FAA, and the St. Lawrence Seaway Development Corporation.
    Preliminary guidance to the states on how to qualify projects for 
the 95 percent Federal funding match provided in MAP-21 was published 
in the Federal Register on October 15. The MFIT is working to develop 
performance measures for the conditions and performance report on the 
freight transportation system required within two years of the passage 
of MAP-21. Work began in August on the comprehensive truck size and 
weight study required by MAP-21. Work is also underway on the 
compilation of state laws covering truck size and weight and, 
specifically, exceptions to the current Federal size and weight limits. 
FHWA is working with other modal agencies and OST to develop the 
national freight network required by MAP-21. Guidance has been issued 
encouraging states to form State Freight Advisory Committees and to 
develop State Freight Plans that will inform the National Freight 
Strategic Plan required by MAP-21.

    Question 1c. As part of the strategic planning process, will each 
freight industry sector be asked to identify freight chokepoints, major 
transportation corridors and gateways, intermodal connections, and 
opportunities for collaboration on infrastructure?
    Answer. U.S. DOT is working with freight stakeholders in all the 
freight transportation modes to identify parts of the freight 
transportation system that are particularly important to the national 
economy. Stakeholders will also be asked to identify bottlenecks that 
inhibit the efficient performance of the freight transportation system, 
and to develop appropriate measures of conditions and performance of 
the freight system. We met with freight stakeholders in Washington, DC 
in September, and more outreach meetings around the country are 
planned. The purpose of these outreach meetings will be:

  <bullet> To inform freight stakeholders about the freight provisions 
        of MAP-21

  <bullet> To involve the freight community in the process of selecting 
        measures of condition and performance and developing a National 
        Freight Strategic Plan

  <bullet> To encourage states to form State Freight Advisory 
        Committees and develop State Freight Plans
Role of the Under Secretary
    Question 2. How do you view the role of the Under Secretary of 
Transportation for Policy in the implementation of the MAP-21 freight 
provisions?
    Answer. The Office of Policy, under the direction of the Under 
Secretary, has primary responsibility for coordinating the Department's 
efforts to implement the freight provisions of MAP-21. A MAP-21 Freight 
Implementation Team, consisting of designees from several modal 
administrations plus the Office of the Secretary, has been assembled to 
address the various statutory requirements. It is chaired by the 
Department's Chief Economist, working at the direction of the Under 
Secretary. The Freight Implementation Team serves as staff to the 
Freight Policy Council. The Under Secretary also has broad 
responsibility for freight policy development and implementation within 
the Department of Transportation, beyond what is required by MAP-21.

    Question 2a. How does that role relate to the leadership of the 
Freight Policy Council activities within U.S. Department of 
Transportation?
    Answer. The Freight Policy Council consists of the Deputy 
Administrators of the Federal Highway Administration, the Federal 
Railroad Administration, the Maritime Administration, the Federal Motor 
Carrier Safety Administration, the Federal Aviation Administration, the 
Pipeline and Hazardous Materials Safety Administration, the Research 
and Innovative Technology Administration, and the St. Lawrence Seaway 
Development Corporation, along with the Under Secretary of 
Transportation for Policy, the Assistant Secretary for Transportation 
Policy, The Assistant Secretary for Budget and Programs, and Assistant 
Secretary for Aviation and International Affairs, and the General 
Counsel. It is chaired by the Deputy Secretary of Transportation. Staff 
from the Office of Transportation Policy, under the direction of the 
Under Secretary, supports the Freight Policy Council, along with 
designees from the other modal administrations.
Management of Different Modal Interests
    Question 3. Your position is multimodal in nature--you will be the 
Secretary's top transportation policy advisor for a variety of modes, 
some of which have competing interests and jurisdictions. How do you 
intend to balance these different interests, especially with regard to 
multijurisdictional efforts (like the Freight Policy Council)?
    Answer. Multi-modalism is an Obama Administration priority, and an 
important goal of mine at U.S. DOT. To promote a complete 
transportation system incorporating all forms of transport, I am 
dedicated to ensuring participation and collaboration between the 
numerous modes represented at U.S. DOT. Policies that affect all modes, 
such as safety, freight, and performance measures, require 
collaborative planning and cooperative decision making. By consistently 
bringing different modes to the table and working together to identify 
joint areas of concern and develop appropriate solutions, the Policy 
Office plays a leading role in guiding the Operating Administrations at 
U.S. DOT to work together and pursue an efficient, multimodal 
transportation system that balances multiple interests.
    Over the past four years, we have had a steady track record of 
implementing multimodal efforts throughout numerous programs and 
policies. In 2009, the Department established the U.S. DOT Safety 
Council, taking a collaborative approach to safety across 
transportation modes. The Council brings together modal administrators, 
chief safety officers, and other departmental leaders to address DOT-
wide safety challenges such as Safety Culture and safety data issues.
    Also in 2009, the Policy Office announced the first TIGER 
discretionary grants as part of the Obama Administration's ARRA 
campaign. The TIGER program has since completed four rounds of national 
competition, awarding over three billion dollars to 218 innovative 
projects across the country. The TIGER effort has included every mode 
since its inception, and the Policy Office manages the TIGER process 
through close collaboration with the surface modal administrations for 
the evaluation, selection, implementation, and tracking of TIGER 
projects. Through collaborative decision making, the Policy Office 
funded projects that leverage private funding, demonstrate innovative 
project delivery, create economic opportunity, and greatly benefit 
communities and the Nation.
    In the area of freight policy, Secretary LaHood established the 
Freight Policy Council in August 2012 to bring together senior 
leadership and modal administrators, as well as policy, budget, 
economic, safety, and research experts to oversee the implementation of 
MAP-21's freight provisions, including the development of the National 
Freight Strategic Plan. The Department's `Chain Gang' of freight 
experts from various modes also meets to coordinate the development of 
MAP-21 provisions. With input from various modes, we released Interim 
Guidance outlining U.S. DOT's recommendations for State Freight Plans 
and Freight Advisory Committees in October 2012, and are currently 
working to designate a National Freight Network and establish the 
National Freight Strategic Plan.
    As the Department works to develop and implement national 
performance measures required by MAP-21, the Policy Office is working 
with each of the modes, stakeholder groups, and experts from numerous 
fields to develop mutually-agreed upon metrics and ensure that their 
adoption will lead to a more multimodal transportation system.
    Moving forward, I am committed to continued collaboration across 
modes in relevant policy and program arenas, to ensure a multimodal 
national transportation system.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                       Hon. Polly E. Trottenberg
Drunk Driving
    Question 1. Ms. Trottenberg, this month thousands of families will 
celebrate the holidays without loved ones, without family members who 
were killed by drunk drivers. What is so tragic is that every drunk 
driving crash is 100 percent preventable.
    The example of my home state of New Mexico offers lessons and hope 
for significantly reducing drunk driving fatalities nationwide. New 
Mexico uses a combination of enforcement and education efforts. One 
example is New Mexico's mandatory ignition interlock law for all DWI 
offenders.
    Although Congress did not accept a similar interlock provision as 
part of MAP 21, I am pleased that legislation I authored to develop new 
technologies to reduce drunk driving crashes, the ROADS SAFE Act, did 
become law.
    If confirmed, will you continue to support efforts to combat drunk 
driving nationwide?
    Answer. Drunk driving is a nationwide tragedy, and as you point 
out, it is entirely preventable. That is why reducing drunk driving has 
been a priority for the National Highway Traffic Safety Administration 
(NHTSA) and the Department for many years. The Department uses a 
comprehensive strategy, which includes research, outreach, technology, 
and law enforcement, to reduce the toll of drunk driving. The 
Department has worked with New Mexico and other states to develop, 
test, and deploy effective countermeasures, including a state impaired 
driving leadership program that follows the successful New Mexico 
model. Because of the complexity of the drunk driving problem, this 
comprehensive approach is necessary to achieve lasting gains. However, 
with more than 10,000 alcohol-impaired driving fatalities each year, it 
is essential that we also keep investigating innovative new strategies 
such as the technology utilized in the Driver Alcohol Detection System 
for Safety (DADSS). Secretary LaHood has identified impaired driving as 
a key Departmental priority and if confirmed I will work diligently to 
implement the Secretary's vision.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                       Hon. Polly E. Trottenberg
    Question 1. Last week the President signed into law Senator 
McCaskill and my bipartisan European Union Emission Trading Scheme 
Prohibition Act. Secretary LaHood has been a vocal opponent of the EU's 
overreach with ETS. Can you explain the DOT's plans for implementation?
    Answer. Senator Thune, I would like to recognize this Committee's 
leadership on the EU ETS issue. The legislation you and Sen. McCaskill 
authored, passed by the Congress and signed by the President, played an 
important role in securing a temporary suspension of EU ETS to our air 
carriers. Because of this suspension, there is no immediate need for 
the Secretary to act under this legislation. In addition, we are 
encouraged by the progress on addressing global emissions in ICAO and 
we are working to accelerate this progress and finding a permanent 
solution to EU ETS. The Department remains committed to using its full 
scope of powers and influence to find workable and acceptable solutions 
to this issue internationally.

    Question 2. What do you see as DOT's core objectives?

  <bullet> If confirmed, one of your responsibilities will be 
        coordinating the DOT's budget development. With the fiscal 
        cliff, sequestration, and government wide spending cuts looming 
        how will your office identify areas within the DOT that can be 
        eliminated, reduced or reformed while still meeting DOT's 
        objectives?

  <bullet> Do you have any specific examples you can provide the 
        Committee?

    Answer. Throughout my tenure at the Department of Transportation, I 
have worked to ensure that our budget requests support the success of 
our economy by investing in our Nation's most critical transportation 
needs. I have worked closely with the Assistant Secretary for Budget 
and Programs to develop budgetary policies and priorities that will 
create jobs by investing in our Nation's transportation infrastructure, 
spur innovation across our transportation systems, and improve 
transportation safety--our number one priority.
    For example, the President's FY 2013 Budget request proposed 
several new initiatives that will improve program performance, better 
connect communities, and enhance safety. At the same time, the FY 2013 
President's Budget identified $154 million in administrative cost 
savings including travel, advisory contracts, communications and 
employee IT devices, printing and reproduction that could be redirected 
towards our transportation priorities.
    This is an ongoing effort. Over the past year, we have continued to 
identify savings across the Department, and I will continue to play a 
strong role in our investment decisions to ensure that we are most 
effectively using our resources to meet our Nation's transportation 
objectives.

    Question 3. One of the goals of MAP-21 was ``to do more with 
less.'' As DOT implements MAP 21 I think it is important that this be 
remembered, especially when promulgating regulations. For instance, one 
practical way to do this is considering the impact various rules and 
regulations have on different parts of the Nation. For instance, while 
congestion mitigation is essential is urban areas, it is less necessary 
in rural areas like my home state of South Dakota. For that reason, I 
think it would be ridiculous to require them to meet the same 
regulatory standards. If confirmed, can I get your commitment to 
remember these differences when promulgating rules and regulations and 
help our state DOT's succeed in ``doing more with less.''
    Answer. DOT strives to issue rules that are carefully tailored to 
address specific issues, while providing performance-based standards, 
rather than prescriptive, one-size-fits-all standards, allowing 
regulated entities to find the ways to comply with our regulations that 
best meet their needs. I commit to working closely with all different 
parts of the country, from the most rural to the most urban, to ensure 
that our policies at USDOT account for their very different needs and 
priorities. Further, in accordance with the Small Business Regulatory 
Flexibility Act, and various executive orders, DOT considers ways to 
lessen compliance burdens on small businesses as well as State, local, 
and tribal governments.

    Question 4. During Mr. Huerta's confirmation I asked him for an 
update on possible changes to the FAA's Part 77, also known as One 
Engine Inoperative (OIE). At that time no formal changes had been made, 
but discussions were ongoing. Can you provide an update on this?
    As I said before, it appears to me this change would have an 
enormous impact on private property rights, building heights, urban 
development, and jobs. Will your office ensure that a cons-benefit 
analysis, with comments from stakeholders, is done and ensure economic 
impacts are considered before changes to OIE are made?
    Answer. The FAA's goal in reviewing our airspace policy as it 
relates to planning for a critical engine failure on take-off (One 
Engine Inoperable, OEI) is to preserve the safety, efficiency and 
capacity of our Nation's airports and the surrounding airspace, as we 
transition to NextGen, and beyond. We are also committed to supporting 
airports in their efforts to be good partners to the communities they 
serve. The FAA is continuing to review this issue and will continue to 
work with and seek the input of interested parties to explore balanced 
public policy solutions, as well as assess their economic impacts to 
airports, airlines, and local development.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Boozman to 
                       Hon. Polly E. Trottenberg
    Question 1. We must enhance and maintain our country's leadership 
in aviation. Earlier this year, we held a hearing on the competiveness 
of the U.S. Aerospace sector.
    All witnesses generally agreed that the FAA and other agencies must 
work with stakeholders to modernize our air transportation system, and 
we know that collaboration leads to manufacturing job creation and 
consumer benefits.
    One witness testified that some lost business opportunities are 
caused by delays in the FAA certification process. I am very concerned 
about these lost jobs and the harm to our economy. Further discussion 
touched on TSA's ongoing procrastination with regard to the Aircraft 
Repair Station Security Rule. I have three questions:
    First, what will you do to make progress on the FAA certification 
delays?
    Answer. I recognize the issue of certification is of key importance 
in the aviation sector and the FAA has taken concrete steps to improve 
the process. Section 312 of the Federal Aviation Administration (FAA) 
Modernization and Reform Act of 2012 (Public Law 112-95) required the 
FAA Administrator, in consultation with the aviation industry, to 
conduct an assessment of the aircraft certification and approval 
process.
    The FAA has developed a comprehensive implementation plan, along 
with a plan to measure the effectiveness of the recommendations which 
the Aircraft Certification Process Review and Reform Aviation 
Rulemaking Committee submitted to the Director of Aircraft 
Certification on May 22, 2012. Furthermore, the FAA has begun 
implementation of these actions which were required to begin no later 
than February 14, 2013, and which FAA monitors by other means.
    The Aircraft Certification Process Review and Reform (ACPRR) 
Aviation Rulemaking Committee (ARC) submitted the following 
recommendations to the Director of Aircraft Certification on May 22, 
2012:

        1. Development of Comprehensive Means to Implement and Measure 
        the Effectiveness of Implementation and Benefits of 
        Certification Process Improvements

        2. Enhanced Use of Delegation

        3. Integrated Roadmap and Vision for Certification Process 
        Reforms

        4. Update Part 21 to Reflect a Systems Approach for Safety

        5. Culture and Change Management

        6. Process Reforms and Efficiencies Needed for Other AIR 
        Functions.

    The FAA has already initiated many activities as part of on-going, 
continuous certification process improvement efforts which are 
associated with the Committee's recommendations and will begin others 
to fulfill the intent of all of the recommendations.

    Question 2. Second, will you proactively, through inter-agency 
dialogue and other means, encourage the TSA to take action on the 
Aircraft Repair Station Security Rule? If so, please elaborate.
    Answer. As background, TSA was originally tasked with creating a 
repair station security rule in Sec. 611 of the VISION 100 legislation, 
passed in 2003. TSA was instructed to issue a final rule to 
``strengthen oversight'' for all FAA certificated part 145 repair 
stations, located both domestically and abroad. The agency was afforded 
240 days to issue the final rule, which elapsed without such action.
    Next the ``9/11 Commission Recommendation Act of 2007'' mandated 
that the TSA issue the final rule within one year of enactment of the 
legislation (August 3, 2007). The bill gave the TSA until August 3, 
2008 to issue the final rule or no new foreign repair stations would be 
afforded FAA-certification. Since TSA has not yet issued the final 
rule, Flight Standards has not performed an initial certification on a 
repair station outside the U.S. since August 2008. They remain in a 
queue, depending on the date on which their pre-application statement 
of intent (PASI) was filed and to which Flight Standards International 
Field Office they applied.
    FAA and TSA have been working together to be prepared for the final 
rule. FAA has provided TSA access to our databases and provided 
information on the number of applicants in the cue, their locations, 
and the field office performing the certification.
    Early in the process, TSA worked to develop the program and TSA 
inspectors accompanied FAA inspectors to repair stations. In 
preparation for the new security rule, the FAA has begun to meet more 
frequently to discuss the procedures for notifying when an applicant is 
ready for a security evaluation, how the program will be monitored and 
how FAA certification will be revoked or suspended, if warranted. Going 
forward, I will be tracking the progress of both agencies.

    Question 3. Finally, what else would you do to promote the 
importance of the aviation sector, including manufacturing, in the 
Department of Transportation, in the international marketplace, and 
within the U.S. Government?
    Answer. I strongly support the goal of a strong, healthy and 
globally competitive U.S. airline industry. At DOT we have worked to 
open markets, increase business opportunities for airlines and provide 
more travel options for consumers.
    In the last four years we have signed Open Skies Agreements with 
Japan, Brazil, and Columbia as well as countless other countries. In 
Japan we have seen almost a 4 percent growth in passenger traffic. In 
Brazil, the market has grown 10 percent. We have also granted anti-
trust immunity to certain airlines alliances where we found that 
airlines and consumers would benefit.
    DOT is also an active member of the President's National Export 
Intiative (NEI). Under the NEI, we have worked to formulate and 
implement strategies which will support exports of U.S. aviation goods 
and services in key markets abroad, not only aircraft, but the many 
components which support aviation infrastructure.
    Through the APEC (Asia Pacific Economic Cooperation) Transportation 
Working Group, we are working on a business aviation initiative to 
allow this sector to reach its potential in the Asia-Pacific region, 
which should stimulate demand for U.S. manufactured aircraft.
    Finally, we are working in ICAO to find a global approach to 
addressing greenhouse gas emissions from international aviation and 
solve the EU ETS dispute so that ETS does not apply to our carriers.
    If confirmed, I will continue to work closely with airlines, 
airports, labor, and consumers to further open markets abroad to help 
the health of the industry and provide more travel options for 
consumers.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                          to Dr. Mark E. Doms
Improving the Use of Economic Data
    Question 1. Dr. Doms, the Economics and Statistics Administration 
(ESA) is a relatively small agency but one with enormous 
responsibility. Your office is the bookkeeper of the Nation's Gross 
Domestic Product (GDP) and the findings of the Bureau of the Census. 
The data you report has an enormous impact on the lives of all 
Americans. Additionally, as Under Secretary, you would serve as one of 
the government's chief economists.
    As we continue to recover from one of the worst recessions in our 
Nation's history, good economic analysis is in particularly high 
demand. We need to understand American competitiveness, especially in 
our Nation's manufacturing sector. This Committee will be looking to 
your office to help us understand these pressing economic questions.

    Question 1a. Given the current economic climate, what can the ESA 
do to better support American businesses and families? For instance, 
are there ways to better analyze or collect statistical information?

    Question 1b. If confirmed, how do you plan to implement any of the 
changes you have articulated in your answer to the previous question?
    Answer. I believe the Economics and Statistics Administration can 
best support American businesses and families by continuing to provide 
the highest quality analysis and statistical information about our 
communities and our economy. Good data is the bedrock of sound 
decision-making by our Federal and local leaders. ESA must effectively 
oversee and foster the work of America's two premier statistical 
agencies: the Census Bureau and the Bureau of Economic Analysis (BEA). 
The Census Bureau conducts surveys to fulfill its own Federal mandate, 
and administers dozens of key surveys for other Federal agencies such 
as the Department of Health and Human Services, the National Institutes 
of Health, the Bureau of Justice Statistics and the Department of 
Housing and Urban Development, to name a few.
    The analytical work of the Bureau of Economic Analysis continues to 
improve the standard of economic analysis in our world. In the wake of 
the financial crisis and recession, BEA identified areas where existing 
economic data, in hindsight, fell short of providing a comprehensive 
view of what was happening to the economy. A series of proposals 
followed, collectively known as GDP and Beyond, which will increase the 
information available to policy-makers on the economic conditions of 
American households and small businesses.
    If confirmed, I will champion the innovations of survey design, 
data collection and analytical rigor that the Census Bureau and the 
Bureau of Economic Analysis pursue with an eye towards cost and 
operational efficiency.
American Community Survey
    Question 2. Dr. Doms, I strongly believe that good data is 
absolutely essential to developing good public policy and distributing 
billions of dollars of Federal funding to the right communities. This 
is why I strongly support the American Community Survey, which replaced 
the long form on the decennial census. This new survey provides more 
timely data than a 10-year update. I was dismayed when the House cut 
its funding this spring. I oppose any efforts to make the survey 
voluntary--it would decrease the quality of the data and increase the 
survey costs by millions. Do I have your pledge to protect the 
essential American Community Survey?
    Answer. The American Community Survey (ACS) provides critical 
insight into the health of our great nation. I will, if confirmed, 
extend every effort to demonstrate to Congress and the American people 
how important ACS statistics are to helping policymakers, businesses, 
and local community leaders make informed decisions.
Bureau of the Census
    Question 3. The Census Bureau is an essential agency in my 
judgment, and it needs to have strong support and a clear line of 
authority. There are many questions about pending proposals to change 
the structure of the Commerce Department. If confirmed, do you pledge 
to be mindful of the Census Bureau and protect its authority and its 
budget so the fundamental work of the decennial census, the American 
Community Survey, unemployment data, poverty data, and all its work 
will continue?
    Answer. If I am confirmed, you have my commitment that I will 
continue to fervently protect the authority and independence of the 
Census Bureau and the critical work that it performs.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                            Dr. Mark E. Doms
    Question 1. Dr. Doms, the American Community Survey (ACS) provides 
crucial up-to-date information about the social and economic needs of 
communities. However, most people aren't aware that business leaders 
heavily rely on the ACS for demographic and socioeconomic data, using 
it as a tool for market evaluation and consumer segmentation.
    While many businesses now use sophisticated and proprietary site 
and segmentation products from private firms, these products are built 
largely on a statistical and geographic foundation provided by the 
census.
    As the chair of the Commerce Subcommittee on Competitiveness, 
Innovation, and Export Promotion, I'm interested in helping to build a 
competitive agenda to move forward and I think ensuring business 
leaders have access to this crucial decision-making tool, helps move 
that agenda forward.
    Can you expound on the importance of and the role the ACS plays in 
business decisions and building our economy?

    Question 1a. Are there things the Census Bureau can do to improve 
the accessibility and usability of the ACS for business leaders?
    Answer. The American Community Survey (ACS) provides a high quality 
statistical view of our communities and our economy. The ACS provides a 
level playing field for all businesses. An individual who wants to 
start a small business or those self-employed have access to the same 
accurate information about their communities as a large or medium-sized 
employer that can afford the services of a site selection company. 
Retail businesses use the ACS to understand the characteristics of the 
neighborhoods in which they locate their stores along with determining 
the types of products they sell in their stores. There is no private 
sector substitute for ACS data for small and rural communities. Without 
the ACS, the United States business sector would face increased 
difficulty and risks in making decisions that support the Nation's 
economy.
    The Census Bureau has launched a digital transformation that seeks 
to dramatically improve the way business leaders and the public access 
the estimates from the ACS. In line with the new Federal digital 
strategy, the Census Bureau has already made steady improvements to how 
users access official statistics. In July, the agency launched its 
first application programming interface (API) enabling developers to 
pull 2010 Census and American Community Survey statistics easily into 
their own web and mobile applications. Since launching this open data 
service, more than 1,700 developers have signed up to have access. In 
addition, the Census Bureau has incorporated all of the ACS data into 
several new data access and mapping tools. For instance, QuickFacts 
provides users of all levels ACS statistics and business information 
from the Economic Census side by side for any place in the Nation with 
a population of 5,000 or more.
    If I am confirmed, I will continue to support the innovative work 
of the Census Bureau to provide broader, more agile Internet tools that 
are compatible with the new generation of mobile devices and further 
deploy search features that meet the needs of the novice and 
experienced business data user.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                            Dr. Mark E. Doms
    Question. Many low-income families struggle to make ends meet in 
New Jersey because it is a high cost-of-living state. But the Federal 
government does not produce an official statistic that measures 
geographic variation in the cost of living. That means that New Jersey 
families that cannot afford the basics may not be eligible for Federal 
help. If confirmed, what would you do to make sure Federal statistics 
take into account geographic variation in the cost of living?
    Answer. Geographic variation in costs is an important issue and a 
challenging one to resolve with respect to economic measurement. Below 
I would note two statistical products that address geographic variation 
specifically and which may address the concerns you have raised.
    First, the Bureau of Economic Analysis (BEA) has made great 
progress in the design and implementation of a cutting edge regional 
price parity index which will allow for the adjustment of key regional 
statistics. BEA has published prototype estimates of this index for the 
past two years and expects to publish a final prototype index in 2013. 
We expect this new index will become an official series beginning in 
2014 with adjusted regional data following.
    Second, for the past two years the Census Bureau has been providing 
research on a Supplemental Poverty Measure (SPM) that provides a new 
way to measure the well-being of families like those in New Jersey who 
live in high cost-of-living states. If confirmed, I will continue to 
support the research and distribution of these new statistical products 
that I believe states and local communities have already found very 
useful.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                            Dr. Mark E. Doms
Census
    Question 1. Dr. Doms, you will oversee the Census Bureau in your 
role as Under Secretary of Economic Affairs. The Census is critical for 
ensuring that communities have proper representation and the resources 
needed for health care, law enforcement and education. What new tools 
or technologies could potentially improve the accuracy and efficiency 
of the 2020 Census?

    Question 1a. How can the Census Bureau harness new tools and 
lessons learned from the 2010 Census to improve the Census process 
moving forward?

    Question 1b. What are the best ways to ensure an accurate and 
complete counting of Americans--especially those living in rural areas 
where census participation can be low and it is difficult for census 
workers to follow up with those who do not respond to census 
questionnaires?
    Answer. Work is already underway at the Census Bureau to develop 
new methodologies for capturing interview responses and managing field 
operations through the use of mobile devices. In addition, the Census 
Bureau will offer an Internet response option, which provides 
opportunities to increase response, improve language support, and 
develop new innovations to address quality issues such as duplication 
and coverage improvement.
    The Census Bureau also is exploring the use of administrative 
records (e.g., tax, social security information, and data from other 
censuses and surveys), to inform about households that do not respond 
to the census.
    The 2010 Census offers a wealth of data that is informing the 
design of the 2020 Census. For example, Census Bureau staff have 
matched the administrative records mentioned above to the entire 2010 
Census universe to provide evidence for the potential benefits and 
challenges associated with using those records to support census 
operations. The Census Bureau is building a Knowledge Database from 
over one-hundred 2010 evaluation reports and audits developed by the 
Government Accountability Office, the Office of Inspector General, the 
National Academy of Sciences, and others to help guide research and 
development of the 2020 Census design.
    The Census Bureau is exploring propensities to respond among rural 
populations and will tailor field operations to harder to reach 
populations that are less likely to respond to the census. In the 2010 
Census, Census Bureau field staff interviewed every household in some 
of the areas of the country that are particularly difficult to 
enumerate. This included remote areas of Alaska, Northern Maine, and 
the Colonias of South Texas. As the country continues its expansion of 
broadband use, the Internet may offer new possibilities for better 
capturing rural populations in the Census.
Bureau of Economic Analysis
    Question 2. As you know, the Bureau of Economic Analysis (BEA) 
strives to provide timely, relevant and accurate economic data to 
policy makers and the public. Do you have any thoughts on how to make 
BEA data more accessible and useful to public users, potentially 
through new open government tools or technologies?
    Answer. BEA has recently made great strides to ensure that users 
have full and complete access to data. In 2011, the Bureau launched a 
new online Interactive Data System that combines easy and intuitive 
access with analytical tools like charting and graphing. In fact, this 
new system won the 2012 Driving Digital Government Award from the 
Center for Digital Government for its innovative use of technology to 
connect the public to data.
    BEA has also worked with the Census Bureau on the recently released 
``America's Economy'' mobile application and is also involved in a 
number of other efforts to connect data users to data. Additionally, 
this year the Bureau launched a blog designed to bridge the gap between 
technical publications and plain language explanations of the data.
    If confirmed, I will continue to support BEA's efforts to reach its 
customers using leading edge communications tools.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                       to Hon. Mignon L. Clyburn
E-Rate
    Question 1. E-Rate is a vital program for ensuring students in even 
the most rural communities in our Nation enjoy the educational benefits 
and opportunities that broadband provides. During your first 
confirmation hearing, you committed to supporting and protecting the E-
Rate program. And, at a hearing earlier this year, you promised not to 
support any effort to take funds from E-Rate, funnel funds through E-
Rate, or use E-Rate legal authority for broadband adoption or other 
digital literacy initiatives. Will you renew those commitments in your 
second term to protect and support the E-Rate program?
    Answer. Yes.
Incentive Auctions
    Question 2. I was pleased to see that the FCC recently sought 
public comment on proposed rules to implement the voluntary incentive 
auction provisions of my public safety spectrum legislation. As you 
know, that legislation--which was generated out of this Committee--
combined innovative spectrum policy with the creation of a nationwide, 
next-generation public safety network. Your colleagues on the FCC have 
publicly recognized this link. They have all acknowledged the need to 
make sure that these incentive auctions raise enough money to meet the 
goals set forth in the legislation--including funding for the 
nationwide public safety network. I know that developing these auctions 
will be a complex process, but do you agree that an important 
consideration for these rules must be providing sufficient funding for 
public safety?
    Answer. Yes. Sections 6401 and 6413 of the Act direct that certain 
proceeds from the forward auction, must be deposited in the Public 
Safety Trust Fund for a national first responder network and public 
safety research. I believe that it is important for the Commission to 
design an incentive auction that can help provide funding for First Net 
and other public safety goals in the Act.
Media Ownership
    Question 3. Shared services agreements enable multiple stations in 
a single television market to combine key aspects of their operations, 
including in some cases advertising sales, back-office functions, 
newsgathering operations, and even carriage negotiations with cable and 
satellite companies. These contracts are not public or commonly 
reviewed by the Federal Communications Commission, though, so it is 
difficult to judge their impact.
    Given that broadcasters are stewards of the public airwaves, would 
you agree that the Commission should review the details of all shared 
services agreements (including local marketing agreements and joint 
sales agreements) to make sure that they are in the public interest? If 
it is found that shared services agreements are not in the public 
interest or harm consumers, would you commit to considering limits on 
these arrangements?
    Answer. I agree that the sharing of certain services, like those 
mentioned in your question, may be the only means by which broadcast 
stations in smaller media markets are able to afford providing key 
functionalities. There are outlets unable to singularly support the 
overhead costs associated with news gathering, production, and 
advertising sales, and could be facing bankruptcy if they were forced 
to go it alone.
    However, when the sharing of services results is a monotone, 
uniformity of news dissemination, and the combining of resources is to 
the detriment of original investigative reporting, the viewing public, 
I believe, suffers.
    The FCC's draft Order on media ownership, currently under review by 
the full Commission, contemplates these concerns, and I am carefully 
reviewing the language to ensure that we have the proper safeguards in 
place to ensure that they are in the public interest.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                         Hon. Mignon L. Clyburn
    Question 1. Does the Chairman's Draft Order Address the 3rd Circuit 
Remand on Diversity--Commissioner Clyburn, on November 14, Chairman 
Genachowski circulated his draft media ownership report and order to 
the other Commissioners. As reported by the press, the proposed rule on 
media cross ownership is very similar to the rule ordered by the 
Chairman's Republican predecessor, which the Senate in 2008 voted in 
favor of overturning.
    There is no compelling reason for the Chairman to weaken media 
ownership rules. Last Thursday, I sent a letter to the Chairman 
expressing my disappointment with the draft order. I know other 
Senators have signed on to Senator Sanders's letter.

    Question 1a. Commissioner Clyburn, do you believe the Chairman's 
draft order on media ownership satisfies what the Third Circuit Court 
of Appeals told the FCC it needed to address regarding women and 
minority ownership of broadcast outlets in its remand of earlier media 
ownership rules?
    Answer. The draft Order you reference is currently on circulation, 
so I am unable to directly answer your question. However, as indicated 
by my December 3rd statement on our Form 323 report, I am working to 
ensure that the FCC does everything possible to address the Court's 
concerns in its remand.

    Question 1b. Do believe the Commission has collected all the data 
it needs to address the Court's remand?
    Answer. I believe that the data-gathering improvements the 
Commission has been working on related to broadcast ownership reporting 
and ongoing studies concerning the critical information needs of 
communities put us on a course to get the necessary ownership data in a 
comprehensive and up-to-date manner. However, as I stated in my answer 
to your previous question, the analysis of the data is what the 
Commission needs, and I feel that the draft Order on media ownership 
that we are currently considering represents the best vehicle for a 
forward-looking roadmap to examine the critical information needs of 
American communities and how consumers access news. I am working with 
the Chairman's office, those of my fellow commissioners, and the FCC's 
Media Bureau to make certain that such a path forward is included in 
the draft Order.

    Question 2. Will the Chairman's Draft Order Fix the Problems of the 
Newspaper Industry--Commissioner Clyburn, do you believe that weakening 
the media cross ownership rule, making it easier for the owner of a 
daily newspaper to also own a television station or a radio station in 
the same market will cure what ails the newspaper industry today?
    Answer. We are mandated by Congress to review every four years 
whether our current rules are necessary: (1) due to competition and (2) 
in the public interest. Some smaller entities have stated that further 
consolidation will help, as advertising dollars are migrating to 
Internet-based news sources leaving them unable to rely on a 
previously-plentiful revenue stream, while others state consolidation 
leads to multi-platform bundling which leaves independent voices weaker 
and unable to compete with a single property option.
    However, should opportunities for limited cross-ownership be 
endorsed by the agency, the Commission must implement strong factors, 
tests and thresholds which must be fulfilled, should separate entities 
wish to consolidate.

    Question 3. State of On-line News Reporting--Commissioner Clyburn, 
at the national level, do you believe that the state of online news 
reporting has reached the level of sophistication where it offsets what 
has been lost in recent years by the reductions in the journalism 
operations of traditional media?
    Answer. While some studies suggest that many of the sources 
consumers rely on for their on-line news engagement originate from 
traditional media companies, with advertising dollars migrating toward 
a wider variety of news, opinion-editorial and ``infortainment'' 
(information/entertainment) sites, revenue to traditional news 
companies is being diluted and the level of investigative reporting and 
local coverage have declined substantially.

    Question 4. Potential Impact of Incentive Auctions on Women and 
Minority Ownership--Commissioner Clyburn, women ownership of full power 
commercial television stations is under seven percent nationally, while 
racial minorities own a little over two percent of these stations. Are 
you concerned that the upcoming incentive auctions may encourage women 
and minority owners of television stations to take the cash and exit 
the business, further reducing the diversity of television station 
ownership?
    Answer. While I am personally troubled by the lack of diversity 
when it comes to full power properties, the most important word in the 
incentive auction authority Congress gave us is voluntary. Broadcasters 
have the option to participate in this engagement if they decide it is 
in their best interest. Chairman Genachowski has directed the staff to 
conduct this proceeding in a manner that improves the mobile and 
broadcast industries, and if minority and women broadcast owners choose 
to avail themselves of the auction and exit the broadcast industry, 
they are entitled to do so.

    Question 5. Concern Over Impact of Progeny Waiver on Unlicensed 
User in 900 MHz Band--Commissioner Clyburn, in one of your speeches you 
called unlicensed spectrum one of the great spectrum policy innovations 
of the 20th century that has allowed for a new wave of technologies. I 
agree with your assessment.
    In 1995, the FCC came out with rules for licensing spectrum for 
Multi-lateration Location Monitoring Service (M-LMS) right smack in the 
middle of the 900 megahertz (MHz) unlicensed band.
    For over 15 years the band was unused by these licensees due to the 
technology not being mature and no business model. What flourished in 
the band was vibrant unlicensed innovation including Wireless Internet 
Service Providers.
    Almost a year ago, the FCC granted a waiver to one of these 
licensees subject to demonstrating that its system will not cause 
unacceptable levels of interference to unlicensed devices that operate 
in the 902 to 928 MHz band.
    The joint testing has wrapped up. My understanding is that the test 
results show that many unlicensed devices could not co-exist with the 
new service.
    Given the intensive consumer and industrial use of these unlicensed 
frequencies and their importance to our economy and wellbeing, I would 
think the FCC will tread carefully.
    I would not be surprised if this M-LMS licensee is allowed to move 
forward in the 4 MHz it has licensed, other M-LMS licensees might also 
consider seeking FCC permission to move forward. Then the issue of what 
is unacceptable interference becomes even more important, because if it 
is not done well, much of the existing unlicensed band with its large 
installed base of users will effectively not be able to be used anymore
    Commissioner Clyburn, can you assure me that the FCC will take all 
necessary steps to ensure that if the FCC allows this new service to go 
forward, the public will not suffer the loss of use of 900 MHz 
unlicensed spectrum?
    Answer. By way of background, Progeny is seeking to provide service 
in the 900 Mhz band which is shared among many users, including many 
unlicensed users. The Commission rules require that before commencing 
service, Progeny conduct field tests to show how its network might 
affect unlicensed operations. Under the Commission's rules, a 
prospective licensee must not cause ``unacceptable levels of 
interference'' to unlicensed operations. Progeny has submitted reports 
of these tests that currently, are under review by Commission staff, 
which has also asked for comment from all interested parties.

    Question 6. 700 MHz Interoperability--Commissioner Clyburn, is it 
your understanding that the FCC wireless bureau engineering staff have 
indicated that there are not significant technical impediments to 
interoperability in the lower 700 MHz band?
    Answer. The comments in the record raise two general technical 
issues with regard to interoperability in the lower 700 MHz band. 
First, whether one mobile wireless network can technically support two 
band classes: Band Class 12 for A Block licensees and Band Class 17 for 
B and C Block licensees. Second, whether there is any merit to the 
argument that, because A Block licensees are subject to potential 
interference from Channel 51 operations and E Block operations, until 
those interference threats are removed, an interoperability mandate 
will adversely impact the customers of B and C Block licensee.
    On the first issue, paragraph 41 of the March 2012 Notice of 
Proposed Rulemaking, which the Commission unanimously voted to approve, 
makes the following point. ``Since the two Band Classes overlap in 
frequencies, we think it is likely that there are relatively simple, 
cost effective solutions that will allow a single network to 
accommodate devices from both band classes. For example, would the 
Equivalent Home Public Land Mobile Network file (EHPLMN) update in 
devices allow the LTE network to support both Band Class 12 and Band 
Class 17 devices''? While I prefer to keep an open mind as I review the 
record, that language suggests that the Commission believes that having 
one network accommodate both band classes should not be difficult.
    On the second issue, involving potential interference that B and C 
Block licensees would face from Channel 51 and E Block licensees if 
required to be in a network with A Block licensees, the A Block 
licensees believe that they have provided the more persuasive technical 
analyses. In those technical analyses, the A Block licensees tested B 
Block and C Block handset devices currently available on the market and 
found that they did not experience harmful interference from the 
signals being emitted from Channel 51 and E Block licensees. The 
technical experts of the FCC should examine those technical analyses, 
as well as the analyses offered by the B and C Block licensees, and 
decide this issue.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                         Hon. Mignon L. Clyburn
    Question 1. Superstorm Sandy caused serious damage to 
telecommunications networks in New Jersey. These networks are vital for 
connecting families and coordinating emergency service during a natural 
disaster. But, as we have seen, they are also vulnerable to disruption 
and outages. What is the FCC doing to make sure our communications 
systems are better prepared for the next natural disaster?
    Answer. The FCC staff took number of actions leading up to and 
following that horrific occurrence. We:

  <bullet> Coordinated with the New Jersey Broadcast Association and 
        FEMA to ensure New Jersey broadcast personnel could have 
        emergency access to their broadcast facilities and priority 
        access to fuel supplies for their generators. This enabled 
        broadcasters in the hardest hit areas to stay on the air.

  <bullet> Worked with DHS to ensure communications service providers 
        (primarily wireless and cable providers) had priority access to 
        two New Jersey fuel depots, to meet needs for generators and 
        restoration crew vehicles. This was very important because, 
        during Sandy, reliable access to fuel supplies was a major 
        problem.

  <bullet> Identified non-English speaking stations in New Jersey and 
        provided the stations' emergency contact information and 
        coverage maps to FEMA. FEMA used this information to help 
        ensure non-English speaking stations could remain on the air 
        and provide emergency information to the non-English speaking 
        public.

  <bullet> Coordinated with the New Jersey Public Utilities Commission 
        to determine points of contact for major power companies in New 
        Jersey and passed the information to communications service 
        providers for coordinated restoration planning and execution. 
        This was especially important to communication service 
        providers because they rely to a great extent on the operation 
        of commercial power.

  <bullet> In addition, an international cable landing station in New 
        Jersey had a generator malfunction that put its continued 
        operation at risk. The FCC coordinated with DHS and found a 
        telecom carrier that was willing to loan a generator to the 
        landing station. As a result, the cable landing station 
        remained operational throughout the ordeal.

    Question 2. As you know, there is evidence that New Jersey's only 
licensed high-power television station, WWOR, has failed to live up to 
its obligations to serve the people of New Jersey. When you appeared 
before this Committee in 2009, you committed to reviewing this case 
quickly and thoroughly. Yet, more than three years later, and five 
years after its license expired, the FCC has taken no action on WWOR. 
When can we expect movement on this issue?
    Answer. It is my understanding that WWOR-TV's license renewal 
application is currently pending, and is contested by several parties. 
The FCC's Media Bureau issued a Letter of Inquiry regarding the issues 
of concern last year, and received WWOR's response in April of 2011. 
License renewal applications are normally handled at the Bureau-level 
and thus not voted on by the Chairman and commissioners, but I am told 
that there are other issues associated with the proceeding, including 
cross-ownership, and the Bureau is working to resolve all of the issues 
simultaneously.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                         Hon. Mignon L. Clyburn
    Question. As a former prosecutor, I've seen firsthand the critical 
contributions public safety communications officials make to public 
safety on a daily basis--helping to save lives and bring criminals to 
justice.
    Consumers in the U.S. are increasingly reliant on text messages, 
photos and live video calls as smartphones and tablets continue to 
dominate the mobile market. However, many are frustrated that these 
rich means of communications cannot be used in an emergency. The 
importance of emergency services is why I serve as the co-chair of the 
Congressional NG911 caucus.
    The FCC should be commended for the important steps already taken 
to accelerate the development and deployment of next generation 911 
technology, but more work needs to be done.
    There has been a lot of news lately of the current 911 network 
experiencing failures. One of the possible benefits of NG911 should be 
more redundancy and back-up systems when traditional voice networks 
fail.
    What do you think the FCC can do while it looks at NG911 to ensure 
we create a better and more effective back up to 911 networks in the 
event of a failure?
    Answer. NG911 networks will be more resilient by design than the 
current architecture and offer more capabilities to enhance public 
safety. It is a Commission priority, however, to ensure the resilience 
of 9-1-1 services today, even as we plan for the NG911 networks of the 
future.
    To that end, the Commission staff has been working with diverse 
advisory committees like the Communications Security, Reliability and 
Interoperability Council (CSRIC) to develop best practices that will 
help make 9-1-1 networks more resilient and to better plan for natural 
and manmade disasters. These best practices recommend diversity of all 
network elements involved in completing a 9-1-1 call. The Commission 
has also routinely monitored the performance of carrier networks 
serving Public Safety Answering Points (PSAPs) through the Commission's 
outage reporting systems. During emergency events, Commission staff 
work actively with carriers making these reports to assist in 
identifying problems and remediating them as quickly as possible.
    Some recent natural disasters, however, have demonstrated that the 
resilience of current 9-1-1 networks certainly is not uniformly at 
acceptable levels. When the derecho struck this area on June 29, it 
left in its wake more than 2 million people who were unable to contact 
9-1-1 for varying periods of time due to carrier network problems. That 
is unacceptable. The Commission's Public Safety and Homeland Security 
Bureau is preparing a report that looks at that experience and may 
recommend action steps to foster greater and maintain greater 
resiliency of the networks that connect people to 9-1-1 service. I am 
also looking forward to the in-depth inquiry that the planned hearings 
on Superstorm Sandy will facilitate, and will closely evaluate the 
information we obtain.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                         Hon. Mignon L. Clyburn
Digital divide on Tribal lands
    Question 1. The mission of the Federal Communications Commission is 
to make communications services available to all the people of the 
United States. However, the first people of the United States--Native 
Americans--face a significant digital divide on Tribal lands.
    Most people probably cannot imagine life without a telephone. Yet 
today more than 30 percent of households in Indian Country do not have 
access to basic telephone service. Broadband access is much worse with 
probably more than 90 percent lacking broadband. These statistics do 
not truly convey the hardships created by this lack of 
telecommunications service. Imagine not being able to call an ambulance 
when you or someone you love is in medical danger. Phones and broadband 
also help keep friends and family members in touch when they are far 
apart. Imagine not being able to speak with a loved one who is serving 
in the military and won't be home this holiday season.
    Although Tribal lands are among the least connected, this is 
precisely where modern communications technologies can help the most. 
By overcoming physical distances and geographic isolation, broadband 
can help improve economic development, education, and access to health 
care.
    I know you share my view of the importance of this issue, and I am 
pleased that the Commission is paying particular attention to this 
challenge. There is a new Office of Native Affairs and Policy to help 
work with Tribes on a government-to-government basis. The recent 
Universal Service order proposes a Tribal Mobility Fund to expand 
wireless access. It will also require engagement with Tribes. These are 
welcome steps in the right direction.
    If reconfirmed, will you seek to ensure that the Commission 
continues to work with Tribes and telecommunications carriers to tackle 
the digital divide facing so many Native American communities?
    Answer. Yes, I agree with your statements, and have been working 
closely with our Office of Native Affairs and Policy, to ensure that 
our reforms provide the means for much needed voice and broadband 
services in Indian Country.
Accelerating broadband deployment to unserved households
    Question 2. Ms. Clyburn, I know from your first confirmation 
hearing in 2009 that you believe that universal service reforms should 
enable all Americans, regardless of where the live in the country, to 
have meaningful access to broadband.
    I understand that the USF reform process is still underway and will 
take several years to complete. But I am concerned that much of the 
funding reserved for broadband deployment under the Connect America 
Fund (CAF) phase I will go unspent while there are still many New 
Mexican households that lack broadband access. In September, Senator 
Bingaman and I wrote Chairman Genachowski to ask the FCC to ``work 
swiftly to find a way to use all currently available Connect America 
Fund (CAF) resources to meet our Nation's digital divide challenge.'' 
The letter also asked the Commission to ``consider proposals from price 
cap carriers serving New Mexico to deploy broadband immediately to the 
least-expensive unserved households.''
    What more can the FCC do to help accelerate broadband deployment to 
unserved communities while the Connect America Fund (CAF) phase II is 
still under development?
    Answer. Recognizing among other facts, that over 80 percent of the 
more than 19 million Americans unserved live in price cap territories, 
the Commission provided for two phases of funding to make broadband-
capable networks available to as many locations as possible in those 
areas. In Connect America Fund Phase I, the Commission froze existing 
high-cost support for price cap carriers and provided up to $300 
million of additional, incremental support in 2012, in order to advance 
deployment of broadband-capable infrastructure while it implements 
Phase II. Then in Phase II, the Commission has provided for up to $1.8 
billion to be spent each year, over a period of five years, to further 
advance deployment of broadband-capable infrastructure and sustain 
services in price cap territories through a combination of a forward-
looking cost model and competitive bidding. The Commission directed the 
Wireline Competition Bureau (``Bureau''), to develop the cost model for 
CAF Phase II, and the Bureau is expected to complete its work in 2013.
    Of the initial $300 million in Phase I incremental support 
allocated to price cap carriers to support the deployment of broadband-
capable networks to currently unserved locations, approximately $115 
million was accepted. A number of carriers requested that the 
Commission either waive or reconsider certain of the build requirements 
in order for them to accept the full amounts available to them. The 
Commission recently adopted a Further Notice of Proposed Rulemaking 
concerning CAF Phase I, wherein we seek comment on two alternative 
approaches to advancing our broadband objectives in price cap 
territories, using the remaining 2012 Connect America Phase I funding. 
Under the first alternative, we propose to combine the remaining 
funding from the first round of the Connect America Fund into any 
future rounds of Connect America Phase I funding, and to revise the 
Phase I rules to expand the definition of eligible areas, adopt a 
process to update to the National Broadband Map, and alter the metric 
used to measure build-out. Under the alternative proposal, remaining 
funds from the first round of Phase I would be added to the budget for 
Phase II.
    One way to accelerate broadband deployment pending Phase II, would 
be for the Commission to adopt modifications to CAF Phase I so that 
more unserved locations are built, while Phase II is under development. 
I would support an Order that proposes such action, as long as we 
continue to ensure that we meet the overall goals of our reform 
discussed in the USF/ICC Reform Order, including using the limited 
funds in an efficient and effective manner.
Support for low-income persons without broadband
    Question 3. The Commission has issued rules to reform how universal 
service funds will support building out broadband networks in rural 
areas. But we know that having broadband available where you live is 
not the only aspect to tackling the digital divide. People need to see 
the value of having it. And they need to be able to afford to pay for 
it.
    The universal service Life Line and Link Up initiatives have helped 
many people with low incomes get basic telephone service. In rural 
Tribal areas, Enhanced Life Line and Link Up help not just with 
adoption rates but also service deployment to some high cost areas 
where many potential customers could not afford phone service.
    In addition to the Commission's efforts, some cable and phone 
companies have committed to offering reduced price broadband options 
for certain low income families.
    Could you share your thoughts on how the Commission can use 
universal service initiatives, and also work with private companies, to 
increase broadband adoption, particularly among people with low 
incomes?
    Answer. As you note, a number of companies have voluntarily 
committed to expanding broadband availability to low-income consumers 
through adoption initiatives. I applaud these efforts as one-third of 
Americans have not adopted broadband at home, and for those who are 
low-income, affordability is a critical factor that prevents them from 
adopting. The Commission recognized this in our Lifeline Reform Order 
voted earlier this year, and we took two important steps. First, we 
established a broadband goal for the Lifeline program. Second, we 
established a pilot program for broadband service to help the 
Commission determine how to move Lifeline from a telephone-only subsidy 
to supporting broadband service for low-income consumers. The Wireline 
Competition Bureau is currently considering those applications to 
participate in the pilot, and I expect that they soon will be making 
decisions about those projects that will be selected to participate. I 
anticipate that after the 12-month pilot program, the Commission will 
have the information it needs to move Lifeline from a telephone-only 
program to broadband.
Support for telemedicine
    Question 4. New Mexico is a rural state where many rural 
communities are not only underserved when it comes to in 
communications, but also underserved in health services. We have some 
great folks at the University of New Mexico and in our hospital systems 
who are working hard to improve rural healthcare by using new 
innovative telehealth technologies.
    The Government Accountability Office has criticized the FCC's 
management of the Rural Health Care Program. Some of the telemedicine 
proposals contained in the FCC's National Broadband Plan also seem to 
be on hold at the moment. I realize that the FCC is engaged in 
substantive reform in areas such as universal service. But telehealth 
is another area that should be a priority.
    If reconfirmed, will you support efforts to improve and increase 
telemedicine opportunities, especially for rural communities?
    Answer. Yes, telemedicine has been a priority for me because I have 
seen firsthand the life-saving benefits and cost savings telemedicine 
provides to those who live and work in rural America. I am happy to 
report that the FCC staff has done a tremendous job of evaluating our 
rural Healthcare Pilot Program. They recently published a report on the 
lessons learned including how broadband can lower the cost and improve 
the quality of healthcare, among many other benefits. The Chairman has 
circulated for the Commission meeting in December, an Order which takes 
the lessons learned from that Pilot Program and proposes to establish a 
Healthcare Connect Fund. I am happy to support this Order, as I expect 
it will promote telemedicine in rural areas and will lead to 
significant cost savings, and more importantly, save lives.
Importance of broadcast TV and Radio
    Question 5. Today, there is a lot of excitement about mobile 
broadband, which puts the power of the Internet into the palm of your 
hand. I am amazed by what new smartphones and tablets like the iPad can 
do.
    Yet, with all the excitement about new mobile technologies, it is 
easy to forget that broadcast TV and radio are truly the first 
``wireless'' technologies. They continue to play a valuable role today. 
Not everyone can afford cable or satellite TV. Not everyone has access 
to the Internet at home.
    Free broadcast TV and radio are especially important in times of 
emergency. For example, when northern New Mexico faces severe winter 
storms or summer forest fires, people turn to their local broadcasters 
for the latest weather and safety information. Outside of emergencies, 
local businesses also appreciate how advertising on local broadcast 
stations can help them reach customers in their communities.
    Can you share your views on the value of over-the-air broadcasting 
and the importance of its role in an evolving telecommunications 
landscape?
    Answer. I have long proclaimed that the importance of over-the-air 
broadcasting cannot be overstated. Recent research indicates that the 
number of Americans relying on it increased from 46 to 54 million in 
the past year, and that young adults, minorities and lower-income 
families are the primary viewers. Further, there is a growing trend 
toward canceling cable subscription service and using over-the-air TV 
paired with over-the-top Internet content viewing, referred to as 
``cord-cutting''. Although there are innumerable new alternatives to 
broadcast television, by most accounts it is still the most preferred 
and reliable means for the American public to access news, content and 
public safety alerts.
Call completion problems in rural areas
    Question 6. Ms. Clyburn, I joined with many of my colleagues in 
sending a letter to Chairman Genachowski expressing concern about call 
completion problems in rural areas, including in New Mexico. This is 
not simply a matter of annoyance for affected telephone users. It can 
mean missing a call during an emergency. I know you responded already 
orally to questions about this issue during the hearing.
    Could you please restate, for the written hearing record, what you 
believe that FCC can do to finally resolve the problem of rural call 
completion issues?
    Answer. This issue has been of real concern to me due to the impact 
it can have on rural economies and the public's safety if calls can't 
go through. The Commission is actively engaged in finding a solution as 
quickly as possible, and I continue to press our staff to work quickly, 
given the significance of this issue. I have been encouraging all 
carriers and customers experiencing call completion problems to use the 
real-time information tools the FCC has made available to help us 
determine the cause and parties involved in order to resolve individual 
issues more quickly.
    To the extent that this issue is about paying high access rates in 
rural areas, the major ICC reform we voted last year is bringing those 
rates down over time and this issue should not persist long-term. As 
for the short-term problem, our USF/ICC Reform Order also confirmed 
that carriers cannot block, choke, or reduce or restrict traffic in any 
way, and the Bureau followed up with a second Order that clarifies that 
originating carriers can be held liable for knowing that there are 
completion issues and not correcting them.
    Our Enforcement Bureau is actively investigating this serious 
matter. The staff is collecting real-time information to spot patterns 
and resolve the connection issues, but they also are investigating 
particular carriers and their practices. I continue to communicate with 
the Chairman's Office and our staff about rural call completion issues 
frequently and will continue to do so until this issue has been 
resolved.
Media Ownership
    Question 7. The FCC seems to be poised to adopt media ownership 
rules at a time of increasing media concentration. Congress tasked the 
FCC with promoting localism and diversity in America's broadcast 
system. Yet there are low levels of female and minority-owned media 
outlets in New Mexico and nationwide.
    What policies would help create more opportunities for women, 
Hispanic and other minority-owned media outlets to flourish in New 
Mexico and across the country?
    Answer. Female and minority-owned broadcasters cite lack of capital 
as the paramount barrier to remaining viable and acquiring properties. 
Countless entities have exhausted options in terms of financing, are 
out of ideas, and are in crisis (bankruptcy).
    The Minority Tax Certificate, which the FCC adopted in 1978, 
offered companies an incentive which resulted in notable increases of 
minority media ownership. The policy allowed companies to defer capital 
gains taxation from the sale of media properties to under-represented 
communities. As a result, 364 tax certificates and 200 media 
transactions exceeding $1 billion in value were realized until Congress 
repealed the Tax Certificate Program in 1995.
    I am hopeful that Congress takes another look at what worked best 
with this tool, address any issues which proved problematic, 
reinstitute a revised framework, and join the FCC in exploring options 
to break down barriers to entry for small businesses interested in 
operating in the broadcast space.

    Question 7a. Would you support changes to media ownership rules 
that undermine established goals of increasing ownership diversity?
    Answer. No I would not.
Prison Phones
    Question 8. Could you explain more about your work related to 
prison phone rates, an issue which has recently received public 
attention and scrutiny?
    Answer. This issue has been pending before the Commission in a 
Petition for Rulemaking for almost a decade. Families and friends of 
prisoners have asked that the Commission ensure that they have access 
to fair prices when speaking with their incarcerated loved ones over 
the phone. Studies show that connections with family and friends are 
important in helping lower recidivism rates, and it is typical for the 
families of prisoners to pay the bulk of the cost of these calls. This 
is a particular hardship because families often are low-income, and are 
unable to visit their loved ones due to the time, expense, and in many 
cases, the prison facilities are located great distances from their 
homes.
    I have met with some of the petitioners and their counsel, and have 
heard stories of rates that can be as high as $4.95 to connect, plus 89 
cents per minute for an interstate, long distance call. A typical 15 
minute call can cost up to $17.
    I have been working with the Chairman for a number of months to 
move this proceeding, and am happy to report that he has circulated a 
Further Notice to consider what actions the Commission can take to 
address these high rates. By statute, the Commission has an obligation 
to ensure interstate rates are just and reasonable, and I look forward 
to working with my colleagues and all interested parties to reviewing 
these rates and ensuring that we have fulfilled that obligation.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                         Hon. Mignon L. Clyburn
    Question 1. Commissioner Clyburn, in your written and oral 
testimony before the Senate Committee on Indian Affairs this summer, 
you said that the Federal Communications Commission's Universal Service 
cost model would account for Alaska's relatively higher costs of 
broadband deployment. Specifically, you highlighted ``the unique 
challenges of serving remote areas of Alaska'' and explained that ``we 
included an Alaska specific variable to reflect different costs within 
that area.'' After that hearing, I discovered that the FCC's cost model 
not only doesn't accommodate Alaska's higher costs, but penalizes 
Alaska by assuming it is cheaper to serve than the rest of the country. 
Given this fact, would you like to correct your previous testimony?
    Answer. The point I was making in my testimony is that we took 
great strides in balancing numerous objectives and concerns in our 
reform, including the unique circumstances of providing service on 
Tribal Lands and in Alaska. In particular, the Bureau included 
variables for Tribal Lands and Alaska in its regression analysis for 
rate-of-return carriers' high cost loop support (an $800 million 
support mechanism). Interested parties continue to raise concerns about 
that analysis, and my office has been engaged with them as they discuss 
their varied issues. This dialogue has been fruitful, and I understand 
that the staff is preparing an Order to further address those concerns. 
I look forward to reviewing that Order to ensure that we are doing all 
we can to revise our reforms where necessary, while meeting the overall 
goals discussed in the USF/ICC Reform Order, including using those 
limited funds in an efficient and effective manner.

    Question 2. Do you share the concerns regarding the USF 
Transformation Order recently expressed by Commissioner Rosenworcel in 
her concurring statement issued with the Commission's Fifth Order on 
Reconsideration of the USF Transformation Order?
    Answer. My understanding is that Commissioner Rosenworcel has some 
concerns about the regression analysis for the rate-of-return carriers' 
high cost loop support mechanism. My office has been engaged with the 
parties as they discuss their varied issues with the analysis. This 
dialogue has been fruitful, and I understand that the staff is 
preparing an Order to further address those concerns. I look forward to 
reviewing that Order to ensure that we are doing all we can to revise 
our reforms where necessary, as we meet the overall goals of the 
reforms discussed in the USF/ICC Reform Order, including using the 
limited funds in an efficient and effective manner.

    Question 3. Specifically, Commissioner Rosenworcel stated: ``This 
agency's reforms to the high-cost universal service system are 
extremely complex. I fear that this complexity can deny rural carriers 
dependent on them the certainty they need to confidently invest in 
their network.'' Do you agree?
    Answer. See my response immediately above.

    Question 4. Before the FCC issued its USF Transformation Order in 
November 2011, a group of 29 Senators and myself wrote in April, 2011, 
to Chairman Genachowski urging him that reform proposals must strike a 
balance to protect the investments that have already occurred with the 
need to overhaul the USF programs. When the Order was adopted, 
Commissioner Clyburn, you issued a concurring statement in which you 
said: ``we have in place a waiver process that is firm, predictable, 
yet fair,'' and you added that this waiver process would ``avoid 
inadvertently harming the success we have already achieved through our 
legacy system.'' However I have heard from many rural carriers that the 
Order has harmed these carriers and denied the certainty that any 
business requires to make investments.
    If you are reappointed, what changes in the Transformation Order 
would you commit to pursue to make certain that the Commission's 
process is fair and predictable in a way that ensures rural carriers 
are not deprived of the opportunity to recover lawful investments and 
expenses they have already incurred in the provision of universal 
service before the new rules were adopted?
    Answer. The USF/ICC Reform Order reflected a bipartisan, unanimous, 
and balanced agreement on a set of complex issues that the industry and 
the Commission have attempted to reform for a decade. We inserted more 
fiscal discipline and responsibility in meeting America's broadband and 
voice needs, but recognized that as we implement the Order, adjustments 
may be necessary. In that vein, we have made several modifications over 
the last year. In addition to numerous Bureau level Orders, the 
Commission has issued five Orders on Reconsideration, that consider a 
number of issues including giving companies more time to adjust to 
certain provisions. Throughout this process, I have welcomed 
constructive dialogue with the parties impacted by the reform, and 
believe that these productive discussions will continue to ensure that 
we will meet our overarching goals of ubiquitous, state of the art, 
broadband and voice services.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                         Hon. Mignon L. Clyburn
Spectrum Crunch
    Question 1. Ms. Clyburn, as you know, many in the wireless and 
telecom industry are very concerned about the need for additional 
spectrum given great consumer demand for wireless services. Some recent 
economic reports have concluded that unleashing 300 MHz of spectrum for 
mobile broadband by 2016 would spur $75 billion in new capital 
spending, create between 300,000 to 770,000 new jobs and add $230 
billion in GDP. When you look at the entire wireless ecosystem and all 
of the economic benefits that are derived from this type of investment, 
it is no wonder that this has been one of the few good-news stories of 
the U.S. economy lately. Clearly, given the rising importance of this 
segment of the economy to our overall economic health, the work the FCC 
does in this domain must be done very carefully, because mistakes made 
by the FCC could result in the stifling of this one dynamic area of our 
economy. I believe that we need to do more to identify new spectrum and 
get it into the hands of those who will invest and continue to build 
robust wireless networks.
    Consistent with the President's call for an additional 500 MHz of 
spectrum, how do we get more spectrum to market quickly and avoid the 
pitfalls of kicking the can down the road?
    Answer. We will be better equipped to realize those objectives by 
taking the following actions: (1) repurpose spectrum to flexible use by 
removing regulatory barriers--examples WCS and AWS-4; (2) conduct 
traditional auctions--like H block; (3) conduct new types of auctions--
an example being the TV bands incentive auctions; and (4) explore 
innovative approaches, such as sharing using databases--for example, TV 
white spaces and 3.5 GHz.
Universal Service Fund (USF) Contribution Reform
    Question 2. Ms. Clyburn, an important issue with respect to 
Universal Service Fund (USF) Reform that has not yet been addressed is 
the industry contribution mechanism that pays for USF subsidies.
    Ms. Clyburn, what are your views on concluding contribution reform 
during your tenure as Commissioner? Do you believe contribution reform 
should be concluded in a timely fashion, say within the next year?
    Answer. As you know, since the release of the National Broadband 
Plan in 2010, the FCC has been in process of reforming the Universal 
Service Fund (``USF'') programs to take into account the importance of 
broadband availability, both deployment and adoption, to our Nation's 
citizens, including community anchor institutions. We have voted 
significant reforms for the E-rate program, the high-cost program, and 
most recently the Lifeline program under Chairman Genachowski's 
leadership. Our reforms also address the continuing availability of 
voice service that consumers rely upon every day to communicate.
    Earlier this year, the Commission approved a Further Notice seeking 
comment on contribution reform. We sought comment on a variety of 
options, and while there is wide agreement that the Commission should 
reform the contribution side of the USF equation, there is very little 
agreement on how the Commission should do so. At this time, I believe 
that we lack sufficient, empirical data that supports any particular 
approach. I have encouraged interested parties to provide us with the 
data that supports their stated positions and to collaborate in order 
to build consensus, as I believe as you do, that contribution reform is 
important.
    In my time at the Commission, I have observed that it is often the 
case that the Commission's proceedings are advanced when interested 
parties are engaged, not only with the policymakers, but with one 
another to find common ground. You also asked about timing. As you 
know, the Chairman sets our agenda, so it's difficult for me to predict 
when a Reform Order may be circulated, but I remain engaged with all 
interested parties in working towards a resolution as quickly as 
possible.
Long Distance Call Completion Problems in Rural America
    Question 3. Ms. Clyburn and Dr. Wright, yesterday, I along with 
several other Senators sent a letter to the FCC concerning the issue of 
call completion problems in rural America. We have heard from many 
constituents regarding the persistent problem of some long-distance 
telephone call not being completed to consumers in rural areas. I am 
concerned about public safety and worry that it's only a matter of time 
before this situation leads to tragedy when a rural customer is unable 
to complete an urgent call. This is an issue where the FCC and the FTC 
may have to collaborate on investigating the issue of any providers 
failing to properly complete calls to rural areas.
    What has the FCC and the FTC done in relation to this issue? Will 
each of you commit to working together in this area to examine all 
possible causes?
    Answer. This issue has been of real concern to me due to the impact 
it can have on rural economies and the public's safety if calls can't 
go through. The Commission is actively engaged in finding a solution as 
quickly as possible, and I continue to press our staff to work quickly, 
given the significance of this issue. I have been encouraging all 
carriers and customers experiencing call completion problems to use the 
real-time information tools the FCC has made available to help us 
determine the cause and parties involved in order to resolve individual 
issues more quickly.
    To the extent that this issue is about paying high access rates in 
rural areas, the major ICC reform we voted last year is bringing those 
rates down over time and this issue should not persist long-term. As 
for the short-term problem, our USF/ICC Reform Order also confirmed 
that carriers cannot block, choke, or reduce or restrict traffic in any 
way, and the Bureau followed up with a second Order that clarifies that 
originating carriers can be held liable for knowing that there are 
completion issues and not correcting them.
    Our Enforcement Bureau is actively investigating this serious 
matter. The staff is collecting real-time information to spot patterns 
and resolve the connection issues, but they also are investigating 
particular carriers and their practices. I continue to communicate with 
the Chairman's Office and our staff about rural call completion issues 
frequently, and I would be happy to coordinate and work with the FTC on 
this matter if that agency believes it should be involved.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Roger F. Wicker to 
                         Hon. Mignon L. Clyburn
    Question. In your March 22, 2012, statement in support of the 
Commission's issuance of a Notice of Proposed Rulemaking regarding 
lower 700 MHz interoperability, you said ``This NPRM provides 
sufficient notice about the rules the Commission might adopt if the 
industry does not achieve true interoperability across the lower 700 
MHz band. At a minimum, those are the goals the voluntary solution 
should achieve. We need to quickly arrive at an appropriate method to 
measure the progress of those efforts. If sufficient progress is not 
being made, we should not hesitate to adopt these proposed rules. I 
look forward to an industry solution, or the adoption of rules, by the 
end of this [2012] calendar year.'' \1\ Do you still desire to see the 
FCC take such action before year-end? If so, what steps are you taking 
to make that happen?
---------------------------------------------------------------------------
    \1\ http://transition.fcc.gov/Daily_Releases/Daily_Business/2012/
db0321/FCC-12-31A4.pdf
---------------------------------------------------------------------------
    Answer. I stand by my statement. We initiated the Lower 700 MHz 
Interoperability proceeding to address this problem and expressed the 
Commission's preference that the relevant wireless companies work 
towards a voluntary resolution. I agree that such an approach can offer 
the market greater flexibility and would limit the Commission's 
involvement. But I am hearing that the industry is not any closer to a 
resolution than it was in March and this troubles me greatly. In the 
coming weeks, expect enhanced engagement from our Office on this front, 
because we are committed to bringing greater efficiencies and 
opportunities to the commercial market.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Roy Blunt to 
                         Hon. Mignon L. Clyburn
    Question. I understand that USF/ICC reform has a goal of dispersing 
of $1.8b in 2013 to support delivering broadband to consumers in very 
high cost areas served by price cap companies to bridge what is often 
referred to as the ``rural-rural divide.'' However, I understand the 
disbursal of those funds is dependent on the Commission's development 
of an economic model. What is the status of the development of that 
model, and progress toward implementing CAF Phase II? And what are the 
Commission's plans for investing that money in the event the model is 
not completed in time?
    Answer. In its USF/ICC Reform Order, the Commission directed the 
Wireline Competition Bureau (``Bureau'') to develop the cost model for 
CAF Phase II (the ``Connect America Cost Model''). Here is an update on 
the actions the Bureau has taken to date on development of the Connect 
America Cost Model:
    In early 2011, the Bureau released a Public Notice, inviting 
interested parties to submit proposed forward-looking cost models. In 
response, parties submitted two separate models into the record, and on 
June 8, 2012, the Bureau sought comment on these models as well as ``on 
a number of threshold decisions regarding the design of and data inputs 
to the forward-looking cost model.'' \1\ The Bureau also hosted an in-
person workshop in September 2012 to discuss the design and mechanics 
of the cost models in the record and, more recently, commenced a 
virtual workshop soliciting input on a variety of topics related to the 
development and adoption of the cost model.
---------------------------------------------------------------------------
    \1\ Wireline Competition Bureau Seeks Comment on Model Design and 
Data Inputs for Phase II of the Connect America Fund, WC Docket Nos. 
10-90 and 05-337, Public Notice, 27 FCC Rcd 6147 (Wireline Comp. Bur. 
2012).
---------------------------------------------------------------------------
    The Administrator of the Universal Service Fund, the Universal 
Service Administrative Company (USAC), has procured the services of a 
contractor to assist with the public hosting, execution, and support of 
the Connect America Cost Model, under policy direction from the 
Commission. On December 11, 2012, the Bureau announced the availability 
of version one of the Connect America Cost Model, which provides 
Commission staff and interested parties the ability to calculate costs 
using a variety of different inputs and assumptions. While version one 
of the Connect America Cost Model is similar to the CQBAT model 
submitted into the record by the ABC Coalition, it contains a number of 
key differences, including an estimate of the cost of providing not 
only broadband services, but also voice services.
    The Bureau has emphasized that it has not adopted this version of 
the Connect America Cost Model, and that the inclusion of various 
capabilities does not represent a preliminary finding about the 
approach that the Bureau will ultimately adopt in this proceeding. The 
Bureau will continue to develop the cost model platform and inputs 
before finalizing and adopting a forward-looking cost model for Connect 
America Phase II as directed by the Commission in the USF/ICC Reform 
Order. The Bureau anticipates that a second version of the Connect 
America Cost Model will be available in the coming weeks and will 
include an update to 2010 census geographies and updated SBI data. The 
Bureau will shortly start soliciting input in the virtual workshop on 
whether there are any other functionalities or capabilities that should 
be added to the Connect America Cost Model platform.
    After an opportunity for further public comment, the Bureau will 
adopt an order at a subsequent date in 2013, that adopts a final 
version of the Connect America Cost Model that will be used for 
purposes of estimating support amounts in price cap areas. The Bureau 
has encouraged interested parties to access the Connect America Cost 
Model (version one and any subsequent version) to provide input on 
whether it provides reasonable estimates of forward looking efficient 
costs and what adjustments, if any, should be made before the Bureau 
finalizes and adopts the Connect America Cost Model.
    At this time, I do not anticipate that the Bureau will be unable to 
complete its work on the Connect America Cost Model in 2013. 
Nonetheless, should an unforeseen delay occur, then the price cap 
carriers would continue to receive frozen USF support and CAF Phase I 
funding, if elected, for broadband deployment. As you probably know, 
the Commission has an NPRM pending to consider revisions to CAF Phase I 
which potentially could lead to more carriers electing to use the CAF 
Phase I money to deploy broadband to unserved consumers.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Marco Rubio to 
                         Hon. Mignon L. Clyburn
    Question. The FCC plays an important role in licensing spectrum for 
telemetry, tracking, and command for U.S. space launch. I am concerned 
that the FCC may impose duplicative requirements that are outside the 
scope of spectrum licensing and that are already regulated by other 
Federal agencies, which could significantly impact the ability for U.S. 
launch services providers to receive timely, streamlined, and 
consistent consideration of licensing applications. Given the growing 
role of the commercial space launch sector, particularly in Florida, 
and the need to restore U.S. competitiveness in the international 
launch market, what actions does the FCC plan to undertake that will 
streamline the regulatory licensing process to ensure the viability of 
this growing sector of the economy?
    Answer. While the FCC licenses spectrum for use during space 
launches, other agencies such as the FAA and NASA have primary 
responsibility for most issues regarding space launches. The FCC has no 
intention to duplicate the efforts of these other agencies. The 
spectrum that is typically used for telemetry, tracking, and command 
during U.S. space launches is allocated for use by Federal agencies. 
Consequently, in those situations involving commercial use of spectrum 
where the FCC has a statutory responsibility regarding spectrum use by 
non-Federal government entities, the Commission works closely with NTIA 
to avoid the potential for harmful interference. The FCC will continue 
to work with the NTIA and other Federal agencies to ensure that this 
process is efficiently administered as possible.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                        to Dr. Joshua D. Wright
Economic Theory and Consumer Protection
    Question 1. Dr. Wright, as an economist and law professor, you have 
published papers on numerous topics related to the FTC. In these 
writings, you demonstrate a clear worldview that government should 
intervene to protect consumers infrequently, and only after conducting 
stringent cost-benefit analyses. And on balance, you seemingly err 
against consumer protections on the belief that government actions tend 
to be more harmful to the public than letting some bad actors go 
unnoticed.
    As you can see from the work I have done in this Committee, 
consumer protection is one of my absolute priorities. I regard the FTC 
as the most important consumer protection agency in the United States. 
I'm interested in hearing how the economic theories and cost-benefit 
analysis methods you subscribe to would impact your decision-making as 
a Commissioner.
    Specifically, what do you see as the FTC's role in consumer 
protection? Would your economic views predispose you toward certain 
outcomes in consumer protection cases?
    Answer. I believe the Commission is the world's preeminent consumer 
protection and competition agency. I hold both of the Commission's 
missions in the highest regard. I have written about the complexity in 
regulating high-tech markets--and the attendant caution required--the 
intellectual thrust of those concerns, usually raised in competition 
law cases, is that regulators should be wary of wrongly condemning pro-
consumer behavior. These concerns are heightened when dealing with 
rapid innovations, as is common in high-tech markets. These concerns 
are not implicated, however, where the Commission is enforcing promises 
regarding privacy protections.
    Historically, I think the Commission has done an outstanding job 
rigorously enforcing the consumer protection and competition laws 
passed by Congress. If confirmed, my top priority will be to uphold 
both the agency's consumer protection and competition law enforcement 
functions. The two areas are closely related and complementary in 
ensuring markets work efficiently. My views on consumer regulation (and 
competition law as well) are grounded only on sound and broadly 
accepted economic theory and the rigorous analysis of empirical data. 
These are fundamental tools for pursuing the Commission's mandate to 
protect consumers and maximize consumer welfare. These are goals I take 
seriously, and, in my view, goals that are consistent with the 
application of sound microeconomic analysis.

    Question 2. I am concerned that a number of the FTC's top consumer 
protection initiatives do not fit neatly within your economic models. 
For example, the FTC has made consumer privacy a priority--something 
that I have long supported--and yet it is extremely difficult to place 
a dollar figure on the value of an individual's privacy. How would you 
approach issues like privacy for which reliance on cost-benefit 
analyses may be inadequate?
    Answer. I believe the insights of microeconomic theory can and do 
inform both the consumer protection and competition missions of the 
agency. Economic analysis helps guide the Commission's efforts even 
when a cost-benefit analysis is difficult--such as for privacy issues--
because sound economic theory and analysis can suggest the correct 
inquiries for the Commission's focus and investigation. Of course, 
vigorous enforcement in the privacy arena is appropriate even without 
such an analysis when a practice implicates the Commission's deception 
authority.

    Question 3. Would you insist that cost-benefit analyses always be 
performed in order for you to support a Commission initiative? What if 
there were insufficient data?
    Answer. As discussed above, a cost-benefit analysis is not always 
required in order to support a Commission initiative. For example, 
vigorous enforcement under the FTC's deception authority does not 
require such an analysis. Similarly, in the antitrust arena, certain 
conduct well-known to reduce consumer welfare is appropriately 
addressed under a rule of per se illegality--in other words, the 
conduct is appropriately condemned without a detailed analysis of its 
costs and benefits. If confirmed, I can assure you that I will strive 
to enforce existing law in all cases in furtherance of the Commission's 
mission based upon the best evidence available.
Consumer Financial Protection
    Question 4. Dr. Wright, during these difficult economic times, I 
have become increasingly concerned about scams and frauds that target 
struggling families. The FTC has been focusing on this area, issuing 
new rules prohibiting certain debt settlement and mortgage foreclosure 
rescue scams and conducting numerous enforcement actions. You have 
expressed skepticism about government intervention in markets, and 
about the need for consumer financial protections.
    Do you agree with any of the consumer financial protection actions 
that the FTC has taken in recent years? Do you believe the Commission 
should have done more to protect consumers from bad mortgages with 
misleading terms--bad mortgages that ultimately led to the collapse of 
global financial markets?
    Answer. Protecting consumers from unfair and deceptive business 
practices is central to the Commission's consumer protection mission. I 
strongly support the Commission's efforts in these areas, and, if 
confirmed, look forward to working with the agency to continue its 
proud tradition of increasing market transparency and combating unfair 
or deceptive business practices. As a broad example in the consumer 
protection context, I strongly support the FTC's fraud program. I fully 
support many of the FTC's recent consumer protection enforcement 
actions, including the FTC's recent consent order against an egregious 
invasion of consumer privacy, where rent-to-own companies and a 
software design firm pre-installed software onto consumer computers to 
track purchasers' locations and take pictures inside consumers' homes. 
This case provides an excellent example of the Commission's application 
of both the deception and unfairness prongs of its consumer protection 
authority.
    Turning to the Commission's work regarding mortgage servicing, debt 
relief, and related areas, I fully support the Commission's efforts to 
curb deceptive marketing and lending practices and the Commission's 
enforcement actions in these areas. The FTC should fully employ its 
enforcement authority to challenge practices that exploit consumers' 
vulnerabilities in the mortgage lending arena, as in other markets.

    Question 5. If confirmed, where would you want the Commission to 
focus its efforts in protecting American consumers from these types of 
scams and frauds?
    Answer. If confirmed, as discussed above, I believe the 
Commission's efforts in combating deceptive practices in areas such as 
mortgage servicing, debt relief, and other forms of financial fraud are 
a critical area of the Commission's consumer protection mission. The 
Commission should continue to vigorously combat these and other unfair 
and deceptive business practices, including deceptive and online 
marketing practices, for the benefit of all consumers.
Privacy
    Question 6. Privacy is a critical component of the FTC's consumer 
protection mission, and it has been one of my top priorities for the 
agency. Given this, I am interested in learning more about how you 
believe the Commission should approach consumer privacy issues.
    In your testimony, you talk about the challenges the Commission 
faces in implementing its consumer protection efforts in high-tech 
environments. Yet a number of the FTC's privacy and data security cases 
involve the very high-tech industry that you believe warrant limited 
regulation and oversight. What types of privacy cases should the 
Commission focus on, and why? Are there privacy actions the Commission 
has brought with which you disagree? Would you support privacy cases 
like those against Google and Facebook that involve the high-tech 
industry? Why or why not?
    Answer. The Commission often attacks deceptive practices designed 
to evade consumers' legitimate expectations based upon promises firms 
made regarding privacy. The Commission should remain vigilant in 
enforcing businesses' promises to consumers, such as those made by 
Google and Facebook. I have written about the complexity in regulating 
high-tech markets--and the attendant caution required--the intellectual 
thrust of those concerns, usually raised in competition law cases, is 
that regulators should be wary of wrongly condemning pro-consumer 
behavior. These concerns are heightened when dealing with rapid 
innovations, as is common in high-tech markets. These concerns are not 
implicated, however, where the Commission is enforcing promises 
regarding privacy protections. I support the principles of notice and 
choice embodied in proposed general privacy legislation because they 
help facilitate competition and benefits for consumers; I do not, 
however, have any particular recommendations or views on specific 
legislation at this time without further study. If confirmed, I would 
look forward to working with the Committee on these important issues.

    Question 7. The FTC's privacy report recommends that companies 
implement privacy by design, offer increased transparency, and provide 
improved consumer choice. The report also calls on Congress to consider 
enacting general privacy legislation. What are your views on the FTC's 
report? Which recommendations would you support, and which 
recommendations would you disagree with? Why? Do you support general 
privacy legislation? Why or why not?
    Answer. I support the general thrust of the FTC's privacy report in 
its articulation of the principles of transparency and consumer choice. 
These principles, in my view, provide a useful general framework for 
thinking about privacy regulation in manner consistent with serving 
consumer welfare. I have considered some of the report's 
recommendations, though not all. For example, I support both the 
Commission's general recommendation for privacy legislation as well as 
additional authority in the area of data security. I do not have 
particular recommendations to offer at this time about legislation in 
those areas. If confirmed, I will confer with both my colleagues and 
staff at the Commission as well as the Committee as I further develop 
views in these areas based upon my experiences and learning at the 
Commission.

    Question 8. Where do you believe the Commission should focus its 
consumer protection resources in the area of privacy? Are there areas 
where you believe the Commission should limit its role? Which ones, and 
why?
    Answer. In many privacy cases, the Commission is using its 
deception authority to enforce promises that a private company has made 
to consumers. The Commission should remain vigilant in enforcing these 
promises and preventing deceptive acts that harm consumers. While I 
have written that agencies should be cautious in regulating high-tech 
markets, the intellectual thrust of those concerns--most often raised 
in the competition context--is that one should be wary of wrongly 
condemning pro-consumer behavior that is difficult to understand in the 
high-tech markets. This concern is not implicated when the FTC acts to 
enforce promises made regarding consumer privacy protections.
    For example, I support the FTC's recent enforcement action against 
DesignerWare under both its deception and unfairness authority. In that 
case, DesignerWare provided software designed to help rent-to-own-
stores disable a computer if it was stolen or if the renter failed to 
make payments on it. The software also had a ``Detective Mode'' which 
enabled the rent-to-own stores to access private and confidential 
details about users, passwords, and user names for e-mail accounts and 
financial institutions, social security numbers, and medical records. 
That software also could log keystrokes, capture screen shots, and even 
take photographs of unsuspecting users with the computer's webcam. The 
Commission's complaint against both DesignerWare and the rent-to-own 
stores included both unfairness and deception counts. This sort of 
behavior clearly harms consumers, intrudes egregiously upon consumer 
privacy, was reachable under existing law, and the Commission 
appropriately furthered its mission of protecting consumers in this 
case involving online privacy protections.
    Where consumer harm is not apparent, I believe the Commission 
should take a more cautious approach before acting. That caution does 
not apply when there is clear harm--for example, when firms break 
promises to consumers regarding privacy protections or when firms 
engage in behavior that clearly harms consumers without countervailing 
benefits where consumers cannot avoid those harms.

    Question 9. During your testimony in front of the Committee, you 
emphasized ``consumer harm'' as a metric for FTC action. Do you believe 
that protecting consumer privacy, in and of itself, constitutes 
protecting a consumer from harm? Or do you believe that consumers 
should only be protected from the physical, financial or otherwise 
tangible harms that stem from the misuse of personal information?
    Answer. Cases involving intrusions on consumer privacy typically 
involve broken promises to provide some level of privacy protection. 
The Commission typically responds by invoking its deception authority 
to enforce these promises. In these cases, the harm is obvious and the 
promise should be enforced regardless of the level of protection 
promised. In these cases, the harm to consumers through the invasion of 
privacy is actionable itself, without any further harm. Under the 
Commission's unfairness authority, where no promise has been made, 
Congress has directed the FTC in statute to consider a variety of 
factors, and the Commission in its 1984 unfairness statement identified 
physical, medical, and financial harms as those it would enforce. The 
Do Not Call Registry relied upon preventing intrusions into the home. 
If confirmed, I would fully enforce invasions of consumer privacy which 
violate this unfairness standard as enforced by the Commission.
``Do-Not-Track''
    Question 10. Dr. Wright, both the FTC and I support an online 
consumer tool called a ``Do-Not-Track'' mechanism. This mechanism would 
allow consumers to conduct their affairs online without entities 
collecting and aggregating their personal information. For instance, a 
user who visits websites--to learn about sensitive matters such as a 
medical condition or personal finances, for example--would have a 
choice to do so without having online companies track him or her. Under 
a bill I have introduced, consumers, with the single click of a mouse, 
could tell online companies to not collect their information. The 
companies would be legally bound to honor this request, subject to 
exceptions. The FTC is tasked with promulgating implementing 
regulations and with enforcement.
    Dr. Wright, do you agree with me that consumers should have the 
ability to tell companies not to track them and that companies should 
honor that request? More specifically, do you believe that a Do-Not-
Track request from a consumer should prohibit the collection of 
information about him or her, subject to limited exceptions for the 
basic functionality of the service and for such things as security and 
fraud prevention?
    Answer. Online privacy is a critical and rapidly growing consumer 
concern, which I take seriously, and will continue to take seriously if 
confirmed. I support Do Not Track as an appropriate balance between 
consumer privacy interests and the benefits of online advertising, and 
support the FTC's coordination with the W3C to develop and implement a 
consumer-friendly Do Not Track standard. Regardless, consumers should 
have a Do Not Track option that is easy to identify, understand, and 
use. I would, of course, also enforce any Do Not Track legislation or 
other consumer privacy standards Congress saw fit to pass to supplement 
these efforts.

    Question 11. What is your opinion of the Do-Not-Track 
recommendation contained in the FTC's privacy report?
    Answer. I support Do Not Track standards that emphasize consumer 
privacy and ease of consumer use. If confirmed, I would work to 
implement and enforce any agency-promulgated Do Not Track standards or 
agency agreements with the W3C to implement effective Do Not Track 
features to maintain consumer Internet privacy.

    Question 12. At the World Wide Web Consortium, also known as the 
W3C, there is currently an industry effort to develop voluntary Do-Not-
Track standards. And I have introduced a bill that would establish a 
legal framework for Do-Not-Track that would be enforced by the FTC. 
What role, if any, do you think the FTC should play in the W3C process?
    Answer. I understand the FTC has been working closely with the W3C 
to develop an effective and consumer friendly Do Not Track standard, 
and that there is still work to be done in that regard. I support the 
FTC's actions involvement in this arena. I understand there are various 
positions as to what the exact parameters of a Do Not Track standard 
should be, and how it should be implemented and enforced. Whatever the 
parameters may be, any final Do Not Track standard must be easy for 
consumers to find, understand, and use. If confirmed, I would look 
forward to working with the Committee on these issues to ensure that 
American consumers are confident in their online privacy.

    Question 13. Earlier this year, in conjunction with the release of 
the White House's privacy report, the Digital Advertising Alliance 
(DAA) announced that it would honor Do-Not-Track requests from web 
browsers. The industry has articulated numerous exceptions to this 
pledge, based on its own self-regulatory initiative, including 
exceptions for ``market research'' and ``product development''. I 
believe these exceptions are so large that they render the DAA's Do-
Not-Track pledge practically meaningless. Do you believe that these 
exceptions are too big?
    Answer. While I support a Do Not Track mechanism, I do not at this 
time have any specific views as to these particular exemptions. If 
confirmed, I will discuss the status of the industry self-regulatory 
initiatives and possible concerns with them with the Commission staff, 
Commissioners, and this Committee.

    Question 14. If industry fails to live up to its self-regulatory 
pledge or otherwise fails to agree to meaningful Do-Not-Track 
compliance standards, do you believe this failure to self-regulate only 
highlights the need for Federal legislation?
    Answer. I concur that there is a point at which legislation will be 
appropriate if self-regulatory efforts fail to generate a Do Not Track 
standard.
Enforcement of Consumer Protection Rules
    Question 15. At the hearing, in response to a question from Senator 
Cantwell regarding the FTC's Petroleum Market Manipulation Rule, you 
stated that, where there are violations of the rule, you would support 
enforcement. Is this true for all consumer protection rules issued by 
the FTC?
    Answer. Yes. If confirmed, I will enforce existing law.

    Question 16. Given your preference for allowing the market to 
operate on its own and your general inclination against regulation, do 
you disagree with any issuance of consumer protection rules that the 
FTC has developed in recent years? If so, please discuss. Would you 
commit to enforcing violations of these rules as diligently as you 
would any other rules issued by the Commission?
    Answer. I have not studied all of the consumer protection rules 
that have been issued in recent years. I am not aware of any specific 
examples of consumer protection rules I disagree with at this time. As 
noted above, if confirmed, I commit to enforcing violations of all 
existing laws, including any such rules.
The FTC's Actions with Respect to Alcohol Sales
    Question 17. Since the repeal of Prohibition, states have been the 
primary authority when it comes to regulating the distribution and sale 
of alcohol. States have enacted varied laws that presumably reflect the 
attitudes and beliefs of their citizens on alcohol sales, health, and 
safety.
    Dr. Wright, the Office of Policy Planning has issued reports and 
other public documents regarding state regulation of alcohol sales. The 
FTC has a mission to promote competitive free markets, but alcohol is a 
drug susceptible to abuse (particularly by minors) and is distinct from 
consumer products or services. Does the FTC have an interest in using 
its resources to weigh in on state laws and regulations regarding 
alcohol sales and distribution? If so, why?
    Answer. Where Federal or state regulators or legislators request 
the Commission's input on the competitive impact of a proposed 
legislation or regulation, the FTC plays an important role in 
cooperating with those entities and providing information based upon 
its expertise in these areas. Alcohol usage, especially by minors, 
raises substantial concerns, both state and federal; many of these can 
fall under the Commission's competition and consumer protection 
authorities under the FTC Act and Clayton Act. For example, I support 
the Commission's action against Phusion Products regarding the 
advertisement of its now widely banned Four Loko product. The 
Commission's decades-long involvement with alcohol sales, labeling, and 
advertising has given the Commission a special understanding of 
competition and consumer protection issues connected to alcohol. But as 
the FTC's staff has stated, and as I have acknowledged in my own 
academic writing, there are clearly other public interests at stake 
besides those traditionally at the heart of the Commission's mandate--
consumer choice, low prices, and convenience.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Barbara Boxer to 
                          Dr. Joshua D. Wright
    Question. Dr. Wright, at the hearing I questioned you on comments 
you made regarding creation of the Consumer Financial Protection Bureau 
(CFPB), specifically comments that the agenda envisioned for the CFPB 
was ``problematic'' and that its ``existence is likely to do more harm 
than good for consumers.''
    When I questioned you regarding those comments, you said ``I had 
written about the earlier version of the CFPA (Consumer Financial 
Protection Act) prior to what was ultimately passed with the CFPB 
(Consumer Financial Protection Bureau). . . . Those comments were never 
about the existing agency.''
    But your writings contradict your testimony. While it is true that 
you criticized the proposed CFPA in a 2009 academic paper, in September 
2011, 14 months after the Dodd-Frank Wall Street Reform and Consumer 
Protection Act--the bill which created the CFPB--was signed into law, 
you wrote an article titled ``My Reflections on the Senate CFPB 
Hearing.'' In this article you said ``the CFPB's intellectual blueprint 
suggests a more aggressive and dangerous agenda.'' Why does your 
testimony in response to my questioning contradict your writings?
    Answer. The concerns I expressed in predicting what the CFPA or 
CFPB might do were based upon several academic writings explicating its 
intellectual foundations but have not come to pass. The blog post 
referring to the CFPB took place before the CFPB had the opportunity to 
engage in a substantial amount of activity. I believe both writings 
make clear that my concern was with the intellectual underpinnings of 
the CFPA, and in particular, certain applications of the behavioral 
economics literature to consumer protection regulation. I was concerned 
that some of the principles in the literature underlying the CFPA could 
harm consumers. For example, in the article you cite, I noted the 
possible dangers of the CFPB relying upon behavioral economic insights 
then-formulated by several academic articles into rules such as the 
proposed ``plain vanilla'' mandates, among others. Standard economic 
analysis, as I discussed in my 2009 academic article, suggested 
misapplication of these behavioral insights could ultimately harm the 
most vulnerable consumers by reducing the availability of popular and 
beneficial products to these potential borrowers. My view that consumer 
protection rules should serve the best interests of consumers remains 
unchanged. Further, I recognize that my comments in both the article 
and blog post came before the CFPB had the opportunity to engage in 
much activity. These were predictions. There is certainly substantial 
work for both the FTC and the CFPB to do in protecting consumers, and I 
am pleased to see that my concerns as articulated both in the post you 
cite as well as with Professor Evans have not come to pass. My 
criticisms about what the agency might do, based upon influential 
academic writings, have not come to fruition. At the hearing, I tried 
to articulate that those concerns did not apply to the work of the now-
operating CFPB. If confirmed, I will fully cooperate with the CFPB and 
will enforce existing laws and regulations fully to protect all 
consumers.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                          Dr. Joshua D. Wright
    Question 1. As a former state legislator and insurance 
commissioner, I am a firm believer in our system of federalism. Alcohol 
regulation, in particular, is an area historically reserved to the 
states under a three-tiered system of regulation.
    You have written extensively as an academic about the antitrust 
implications of alcohol regulation.
    As an FTC commissioner, what would be your view on the proper role 
of the Commission in the regulation and marketing of alcohol? And as an 
FTC commissioner, do you anticipate pushing for policies that 
contemplate a larger role for the FTC in promoting direct shipment of 
wine or alcohol?
    Answer. States have broad authority to regulate alcohol. The 
Commission has developed expertise regarding the advertising and 
marketing of alcohol, which implicate the Commission's consumer 
protection and competition missions. I support the Commission's efforts 
to curb deceptive advertising, to examine and regulate potentially 
anticompetitive mergers, to promote consumer education regarding 
alcohol (and the effects of underage drinking), to provide views to 
other Federal agencies on alcohol labeling issues, to provide views to 
state legislators on request concerning the competitive effects of 
proposed regulation, and to produce economic studies of the industry. I 
support continuing the Commission's mission in these areas. I do not 
anticipate advocating a broader role for the agency in these areas, if 
confirmed.

    Question 2. What express provisions of Federal or constitutional 
law give the Federal Trade Commission authority over alcohol or to 
promulgate policies affecting the sale or marketing of alcohol?
    Answer. The FTC Act and the Clayton Act empower the Commission to 
review alcohol industry mergers. The FTC Act further empowers the 
Commission to challenge anticompetitive practices within the alcohol 
industry, as well as to challenge unfair or deceptive practices 
involving alcohol marketing and advertising. Finally, Section 6 of the 
FTC Act permits the FTC to conduct studies and issue reports.

    Question 3. In light of your work as a lawyer representing a client 
in the Wine Country Gift Basket litigation, will you recuse yourself 
from any related issues that come before the FTC, if confirmed?
    Answer. If confirmed, I will comply with the letter and spirit of 
all ethical obligations involving conflicts. These rules are in place 
to ensure confidence in the Commission's decisions and I take those 
commitments very seriously. I have disclosed all financial 
relationships with the Commission and the Committee, including 
financial support received from the Family Winemakers of California in 
the amicus brief referenced. President Obama's Ethics Pledge extends 
the general obligation set forth under the Standards of Conduct not to 
participate in any particular matter involving specific parties in 
which the firm is a party to two years following appointment to the 
Commission. In all future matters potentially giving rise to conflicts, 
I will seek the advice and counsel of the Federal Trade Commission's 
ethics officials in order to determine how to fully comply with the 
letter and spirit of the law.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Dr. Joshua D. Wright
Recusal From Current Enforcement Actions at the FTC
    Question 1. Professor Wright, it is possible that it may take the 
FTC more than two years to make decisions on enforcement actions on 
issues resulting from its current investigation of Google. You have 
already expressed your views on the investigation in your writing and 
public appearances. It makes it difficult, then, not to conclude that 
you have in some measure already prejudged the outcome of the 
investigation, regardless of how long it would take the Commission to 
complete its investigation. Will you recuse yourself from all current 
FTC enforcement matters involving Google?
    Answer. I take my ethical obligations very seriously. I have 
disclosed these financial relationships to the Committee and to the 
Commission, including its ethics officials. If confirmed, I pledge to 
recuse myself where recusal is required by existing law or President 
Obama's Ethics Pledge, which imposes additional obligations. Consistent 
with President Obama's Ethics Pledge, I will recuse myself from certain 
FTC matters, including law enforcement matters, involving Google for a 
period of two years.

    Question 2. Are there any other companies or industries where you 
might have to recuse yourself on FTC enforcement actions based on your 
writings or based on who has provided financial support?
    Answer. I have disclosed these financial relationships to the 
Committee and to the Commission, including its ethics officials. Those 
entities that provided financial support since I became a law professor 
in 2004 are:

        Microsoft Corporation

        Church & Dwight, Inc.

        Internet Company for Assigned Names & Numbers

        Google, Inc.

        Express Scripts, Inc.

        International Center for Law & Economics

        Family Winemakers of California

        Arlington Economics, Inc.

        AT&T

        American Tort Reform Association

        American Beverage Association

        Northwestern University

        George Mason University

        Computer & Communications Industry Association

        Charles River Associates

        Liberty Fund

        Law and Economics Consulting Group

        Cambridge University Press

        Thomson West

    Some of these entities directly or indirectly funded research, 
published work, or commentary prior to the reporting period of the 
Senate Questionnaire or Form OGE 278. For example, Microsoft 
Corporation is not included on those documents but is listed here 
because it indirectly funded research prior to those reporting periods. 
I have included entities that have provided direct or indirect 
financial support since 2004, out of an abundance of caution.
    I take my ethical obligations at the Commission very seriously. 
Avoiding conflicts and appearance of impropriety is important to 
maintaining the credibility of the agency and the execution of its 
important mission of protecting consumers. President Obama's Ethics 
Pledge, among other requirements, extends the general obligation set 
forth under the Standards of Conduct not to participate in any 
particular matter involving specific parties in which the former 
employer or client is a party to two years following appointment to the 
Commission. It also prohibits meeting or communicating with one's 
former employer or client unless the meeting or communication is open 
to all interested parties. I will abide by those requirements and all 
other ethics laws. Further, in all future matters potentially giving 
rise to conflicts, I will seek the advice and counsel of the Federal 
Trade Commission's ethics officials in order to determine how to fully 
comply with the letter and spirit of applicable ethics laws.
FTC Petroleum Market Manipulation Regulations
    Question 3. Dr. Wright, as you are aware, I am frustrated that the 
Federal Trade Commission (FTC) seems unwilling or unable to use the new 
authority and responsibility Congress gave them in 2007 (codified at 42 
U.S.C. 17301-17305) which the FTC Rule defines as prohibiting ``any 
person, directly or indirectly, in connection with the purchase or sale 
of crude oil, gasoline, or petroleum distillates at wholesale, from 
knowingly engaging in any act, practice, or course of business--
including the making of any untrue statement of material fact--that 
operates or would operate as a fraud or deceit upon any person, or 
intentionally failing to state a material fact that under the 
circumstances renders a statement made by such person misleading, 
provided that such omission distorts or is likely to distort market 
conditions for any such product.'' Your academic work seems to indicate 
that you may not support the FTC's Rule prohibiting petroleum market 
manipulation.
    Can you state your views for the record on the FTC's Petroleum 
Market Manipulation Regulations and whether you believe they are 
accurate and appropriate interpretations of the underlying statutes?
    Answer. Protecting American consumers in oil and gas markets is 
among the most important of the Commission's priorities, and the agency 
can and should vigilantly enforce its authority in this area where 
violations occur. The Market Manipulation Rule is an important tool 
that helps the FTC ensure American consumers are not harmed by 
manipulation of fuel prices. The statute prohibits ``any manipulative 
or deceptive device or contrivance . . . in connection with the 
purchase of or sale of crude oil gasoline or petroleum'' and the Market 
Manipulation Rule was designed to mirror SEC rule 10b-5. It also 
forbids any person from knowingly reporting false information about 
petroleum or fuel to the Federal Government with the intention of 
affecting government data or statistics.
    I would like to emphasize that while I support enforcement of the 
Market Manipulation Rule when violations occur, I do not have any basis 
upon which to comment on the specific merits of any pending 
investigation. I am privy neither to the Commission's work in this area 
to date nor to the available evidence of any pending investigations. If 
confirmed, I will carefully analyze existing evidence and vigilantly 
enforce the Market Manipulation Rule when it is violated.

    Question 4. As a Commissioner would you vote to strengthen or 
weaken these regulations? Please be specific.
    Answer. If confirmed, I will enforce all existing law, including 
the Market Manipulation Rule, to its fullest extent. I understand 
Congress intended the Commission to have an authority analogous to the 
SEC's rule 10b-5 authority and that implemented by FERC. If confirmed, 
I will support enforcement of the rule in a manner consistent with 
Congress' intent.

    Question 5. Do you agree with some at the FTC who consider 
themselves an enforcement agency and therefore should play little to no 
role in policing wholesale petroleum markets beyond waiting for market 
complaints and reviewing mergers?
    Answer. I view the FTC's primary role as an enforcement agency, 
including all existing laws under its jurisdiction. This mission 
includes enforcing the Market Manipulation Rule as well as its 
traditional consumer protection and competition missions.

    Question 6. Without a specific complaint, what anti-competitive 
activity do you believe would justify an FTC investigation and use of 
its market manipulation authority?
    Answer. The statute prohibits ``any manipulative or deceptive 
device or contrivance . . . in connection with the purchase of or sale 
of crude oil gasoline or petroleum'' and was designed to mirror SEC 
rule 10b-5. It also forbids any person from knowingly reporting false 
information about petroleum or fuel to the Federal Government with the 
intention of affecting government data or statistics. Where there is 
reason to believe the rule is being violated I would support an FTC 
investigation to further develop facts. Where evidence suggests a 
violation of the rule I will support enforcement.
    I would like to emphasize that while I support enforcement of the 
market manipulation rule when violations occur, it would be 
inappropriate for me to comment on the specific merits of any pending 
investigation. I am privy neither to the Commission's work in this area 
to date nor to the available evidence of any pending investigations. If 
confirmed, I will carefully analyze existing evidence and vigilantly 
enforce the Market Manipulation Rule when it is violated.

    Question 7. In general, how would you as a Commissioner help ensure 
the FTC uses its anti-market manipulation authority in the way Congress 
intended--to investigate anomalous gasoline price spikes and assure 
that consumers are safe from market fraud, manipulation, or other 
anticompetitive behaviors?
    Answer. I am committed to enforcing the Market Manipulation Rule 
where violations exist. If confirmed, I will work with the Commission 
and its staff to better understand the current status of any pending 
investigations and evidence to which I am not currently privy. Further, 
I will discuss the operation and enforcement of analogous authorities 
by FERC and the SEC to better understand how they are making use of the 
authority.

    Question 8. Last week, the six Senators from the West Coast called 
for an investigation into this year's West Coast gas price spikes that 
occurred while crude oil prices were declining, inventories were 
increasing, and there is evidence of possible misleading market making 
information. Given these facts, would you support an FTC investigation 
into this matter as an FTC Commissioner?
    Answer. I would want to fully evaluate the facts and existing 
evidence before making a determination about whether I would support an 
investigation, if confirmed. If facts uncovered indicated a reason to 
believe there is a violation of the Market Manipulation Rule, I will 
support enforcement.

    Question 9. Do you believe that West Coast petroleum markets should 
be more transparent and less concentrated?
    Do you agree that if pricing structures in these markets were 
opaque that the market is probably inefficient to the detriment of 
consumers?
    Do you agree that if the West Coast wholesale oil market was highly 
concentrated it could be subject to market power abuse?
    Answer. Highly concentrated markets can be subject to abuse of 
market power. Lack of transparency in pricing can also harm consumers. 
I have not conducted an independent analysis of West Coast petroleum 
markets and thus do not currently have a view as to whether those 
markets should be more transparent or less concentrated at this time. 
If confirmed, I will enforce the Commission's authority under the FTC 
Act to prevent acquisitions or conduct that harm consumers and violate 
the antitrust laws.

    Question 10. In 2005, in the wake of Enron's role in the Western 
Electricity Crisis, Congress gave the Federal Energy Regulatory 
Commission (FERC) new responsibilities to prevent manipulation of 
electricity and natural gas markets. In response, FERC expanded its 
market oversight and investigation abilities, added dedicated staff, 
and expanded collection of essential market data. The results are 
striking; FERC has been able to root out a large number of cases of 
fraud and manipulation in the electricity and natural gas markets that 
probably would have gone undetected and cost consumers billions. To 
date FERC used its 2005 anti-manipulation authority to conduct 107 
investigations resulting in 52 settlements and civil penalties of $294 
million and disgorgement of ill-gotten profits totaling $155 million. 
Unfortunately, I have seen scant evidence of a similar effort at the 
FTC despite receiving parallel authorities and responsibilities in 2007 
to police wholesale oil markets using the same ``manipulative or 
deceptive device or contrivance'' standard established by Section 10(b) 
of the Securities Exchange Act.
    Dr. Wright, do you believe the FTC should be more like FERC in 
proactively policing wholesale oil markets?
    Answer. I understand your concern that the FTC has not been as 
active as FERC in exercising a similar authority aimed at preventing 
market manipulation. As an outsider to the Commission, I am neither 
privy to FTC information and evidence concerning any pending 
investigation under the Market Manipulation Rule, nor to any 
information that might explain the disparity in enforcement records. If 
violations of the Market Manipulation Rule are occurring, I believe the 
Commission should fully enforce the rule in those instances. If 
confirmed, I will enforce the Commission's authority where there is 
evidence of violations. I will also consult with FERC officials to 
better understand their enforcement strategies and approaches.

    Question 11. Would you support efforts to create the necessary 
enforcement ethos and staff expertise and resources at the FTC as now 
exists at FERC?
    Answer. As an outsider to the Commission, I am neither privy to FTC 
information and evidence concerning any pending investigation under the 
Market Manipulation Rule, nor to any information that might explain the 
disparity in enforcement records. I would support additional steps to 
ensure the Commission does what is necessary to enforce the rule if 
there is evidence that violations are going unenforced. I will also 
consult with FERC officials to better understand their enforcement 
strategies and approaches.

    Question 12. How do you believe the FTC should best monitor and 
collect non-public data from the wholesale petroleum markets in order 
to ensure it is able to monitor and detect any anticompetitive or 
illegal activity?
    Answer. I do not have any specific views as to what data monitoring 
and collection efforts would be appropriate in order to enforce the 
Market Manipulation Rule or other law. I have not been privy to FTC 
information and evidence concerning any pending investigation nor have 
I had the opportunity to discuss the implications of additional 
monitoring and collecting non-public data with Commission staff. If 
confirmed, I will certainly do so and work with the Committee on these 
important issues.

    Question 13. Congress provided the FTC with a clear standard for 
manipulation by relying on the large body of case law interpreting and 
applying section 10(b) of the Securities and Exchange Act of 1934 and 
Rule 10b-5, do you agree the FTC should apply this law in accordance 
with analogous securities law precedents?
    Answer. I understand Congress intended the Commission to have an 
authority analogous to the SEC's Rule 10b-5 authority. If confirmed, I 
will support enforcement of the rule in a manner consistent with 
Congress' intent. I have not specifically considered the issue of 
whether securities law precedents should be applied in the context of 
FTC application of the Market Manipulation Rule or considered what 
legal issues might be implicated by such reliance. If confirmed, I will 
discuss these issues with the Commission staff and Commissioners as 
well as the Committee.
Level of Market Concentration in West Coast Petroleum Markets
    Question 14. Dr. Wright, I know you are an anti-trust scholar so 
I'm interested in hearing your views about the concentrated West Coast 
petroleum market. The West Coast is an isolated gasoline market with 
few pipelines connecting to other regions. The refineries within the 
West Coast are almost entirely what the West Coast must rely on for 
finished motor gasoline. In addition, within the West Coast, the 
largest 3 companies own 53 percent of refining capacity, the largest 4 
own 67 percent, and the largest 5 own 79 percent.
    Given these facts, are you concerned about a greater opportunity 
for the use of market power to anti-competitively influence prices?
    In your opinion, and considering the above statistics, does the 
West Coast wholesale petroleum market represent a highly efficient 
market?
    Answer. If confirmed, I will approach all potential investigations 
with a reliance on economic analysis and data, and will support 
vigorous enforcement to protect consumers where anticompetitive conduct 
takes place. As an antitrust scholar, I take the efficient operation of 
markets very seriously: markets are a primary engine of economic 
growth, and anticompetitive conduct threatens the gains from markets 
consumers regularly enjoy. Antitrust analysis has, however, evolved 
from relying exclusively upon market shares and structure to assess the 
competitive performance of markets to more direct analysis of 
competitive effects. Thus, market share statistics such as those above, 
while relevant data, are not sufficient to make any conclusions about 
the efficiency of any market without more. I am certainly open to the 
possibility that the petroleum market represents a highly concentrated 
and inefficient market, but without rigorous investigation grounded in 
empirical data, I cannot express an educated opinion as to whether the 
petroleum market on the West Coast presents any particular competitive 
concerns.

    Question 15. Given the current West Coast situation, do you think 
there is sufficient competition and lack of barriers of entry to 
prevent the use of market power?
    Could a West Coast refiner or multiple refiners arbitrarily raising 
prices without losing sufficient sales to offset the increase in 
profits from the elevated prices?
    In June 2009, the Government Accountability Office (GAO-09-659) 
found that less concentrated markets were statistically significantly 
associated with lower gasoline prices and recommended that the FTC 
undertake more regular retrospective review of the past petroleum 
industry mergers, do you agree with this recommendation?
    Answer. I understand gasoline markets are remarkably important to 
consumers and competition issues in these markets deserve careful 
scrutiny. I have not conducted an independent analysis of the West 
Coast wholesale petroleum market or markets. I would need to conduct 
such an analysis to address the competitiveness of these markets, an 
appropriate understanding of barriers to entry, and potential for firms 
to exercise market power. I also have not reviewed in detail the 
aforementioned GAO study. I fully support FTC retrospective studies of 
petroleum mergers.
FTC's Mission
    Question 16. Mr. Wright, your writings seem to stress the costs of 
FTC enforcing its statutory mission and argue that generally it would 
be better for the consumer if the FTC erred on the side of less 
enforcement and missing anticompetitive practices. I have also seen 
examples of your writings that indicate antipathy and sometimes 
hostility to toward FTC antitrust enforcement. Mr. Wright, can you 
state for the record that you will support the mission of the FTC and 
will not support efforts to weaken existing FTC rules?
    Answer. I fully support the FTC's consumer protection and 
competition missions. I will vigorously enforce the law for the maximum 
benefit of consumers.

    Question 17. Do you believe that FTC actions in the past have 
dampened innovation and competition in the marketplace?
    Answer. I believe that regulation is appropriate when a problem 
generates substantial consumer welfare losses and when the regulation 
can avert those losses in a cost-effective manner. I have criticized 
prior enforcement matters--including some by the FTC--because I feared 
the Commission had not adequately taken into account the action's 
impact upon incentives to innovate. While I have expressed these views 
as an academic with respect to some specific cases, I believe the 
Commission has generally done an excellent job in carrying out both its 
consumer protection and competition missions. The Commission is the 
world's preeminent consumer protection and competition law agency, 
primarily because it has taken actions that deter consumer harm in a 
cost-effective manner, maximizing consumer welfare while minimizing the 
risk of dampening competition or innovation.

    Question 18. Your writings also seem to emphasize your belief that 
the burden of proof should be placed on the consumer to show 
anticompetitive behavior, and not for the FTC to proactively 
investigate suspicious market activity. Can you please clarify your 
views on burden of proof?
    Answer. I believe the Commission's competition law mission is to 
protect consumers from anticompetitive conduct that creates or 
maintains market power. The plaintiff--whether an antitrust agency, a 
rival firm, or class of consumers--ultimately bears the burden of 
persuasion in antitrust cases. The appropriate scope of that burden in 
competition cases is flexible under antitrust law. The critical inquiry 
is what rule will maximize consumer welfare. Some challenged practices 
have proven so likely to harm consumer welfare that they are properly 
regarded as per se illegal: no proof of harm is necessary to condemn 
the challenged practice. Still others are briefly examined to determine 
whether they may safely be determined as per se illegal or if they 
should be subjected to close empirical scrutiny of costs and benefits. 
Towards the other end of the spectrum of business practices, some 
arrangements between firms present the possibility of consumer harm, 
but typically indicate pro-consumer arrangements, leading to higher 
quality, greater product variety, and lower prices. In these cases, a 
strong showing of consumer harm through rigorous empirical data is due. 
The Commission should of course actively investigate all serious 
threats to consumer welfare, and, if confirmed, I will support the 
rigorous investigation of any business practice implicating competitive 
harm leading to consumer welfare losses.

    Question 19. Do you believe the FTC should monitor and collect non-
public data from the wholesale petroleum markets in order to ensure it 
is able to monitor and detect any anticompetitive or illegal activity?
    Answer. I have not specifically considered and I do not have any 
specific views as to what data monitoring and collection efforts would 
be appropriate in order to enforce the Market Manipulation Rule or 
other laws in petroleum markets. I have not been privy to FTC 
information and evidence concerning any pending investigation nor have 
I had the opportunity to discuss the implications of additional 
authority to monitor and collect nonpublic data with Commission staff. 
If confirmed, I will certainly do so and work with the Committee on 
these important issues.
Consumer Financial Protection Bureau (CFPB)
    Question 20. Dr. Wright, in response to questions posed by Senator 
Boxer during your December 4, 2012 confirmation hearing, you said that 
your statements calling the Consumer Financial Protection Bureau (CFPB) 
``aggressive and dangerous'' were in reference to the Agency as earlier 
conceived and not the current CFPB. However, it seems you made the same 
statements in reference to the current CFPB on September 9, 2011. In a 
``Truth on the Market'' blog post, you say that the CFPB could ``could 
harm consumers and small businesses'' and that ``. . . the CFPB's 
intellectual blueprint suggests a more aggressive and dangerous 
agenda.''
    Now that the CFPB has promulgated rulemakings to flesh out its 
authorities and taken action to protect consumers in cases against 
credit card companies, do you still think that the CFPB is pursuing an 
``aggressive and dangerous agenda''?
    Do you think that any of the CFPB's actions--including its 
rulemakings, investigations, and enforcement actions--have ``harm[ed] 
consumers and small businesses,'' as you thought 15 months ago may 
happen?
    Answer. My concerns, both as described in my paper with David Evans 
and in my comments on Truth on the Market, have always been about the 
potential for consumer harm growing out of an abuse of several insights 
from behavioral economics. The concerns I expressed about the potential 
actions of a Consumer Financial Protection Agency or a related Consumer 
Financial Protection Bureau have not come to pass. For example, as I 
commented in the Truth on the Market post you cite, hard-paternalism 
interventions such as mandatory ``plain vanilla'' products can reduce 
the availability of beneficial financial products, especially to the 
most vulnerable and least well-off consumers. I remain concerned about 
the potential misuse of behavioral insights to justify these 
interventions. This concern arises out of a fear that some of these 
regulatory proposals might ultimately harm rather than benefit 
consumers. Yet these concerns have not come to fruition in the CFPB's 
regulations to date, which have been largely sensible and much more 
circumspect than some of the initial proposals from the underlying 
legal scholarship grounding the original CFPA. There is substantial 
work for the CFPB to do in protecting consumers, and, if confirmed, I 
look forward to cooperating fully with the CFPB in the agencies' mutual 
mission of ensuring consumers are fully protected from deceptive, 
fraudulent, and unfair practices.

    Question 21. To effectively enforce the FTC's consumer protection 
mission under the Sherman Act, Clayton Act, and the FTC Act, the FTC 
must extensively monitor many markets and collect large amounts of 
data. In turn, the CFPB, to effectively enforce its consumer protection 
mission as provided in the Dodd-Frank Wall Street Reform and Consumer 
Protection Act (Dodd-Frank Act), must extensively monitor many markets 
and collect large amounts of data.
    In order to multiply the effectiveness of the consumer welfare 
protection missions of both Agencies and to avoid duplication of effort 
and costs, do you support a cooperative agreement between the FTC and 
the CFPB? (Beyond the requirements for cooperation in collecting and 
tracking complaints as explicitly required by Sec. 1013(b)(3)) of the 
Dodd-Frank Act).
    Specifically, do you support the sharing of all Agency collected 
market data as requested by either Agency and the sharing of data by 
either Agency during an investigation?
    Answer. Both the CFPB and FTC share a common mission of protecting 
consumers. As your question suggests, one potential drawback to dual 
enforcement of a common mandate is redundant costs in compiling data 
on, investigating, and prosecuting similar conduct under differing 
standards. While I am not privy to either the Commission's or CFPB's 
ongoing investigations, I support both the current memorandum of 
understanding between the Commission and CFPB as well as broad 
information-sharing and cooperation between the two agencies pursuant 
to both agencies' consumer protection missions.
Pharmacy Benefit Managers (PBMs)
    Question 22. Dr. Wright, in your writings you have generally 
supported Pharmacy Benefit Managers (PBMs) as they currently exist and 
opposed allowing pharmacies to collectively negotiate with PBMs. Do you 
maintain that position? Please explain the reasoning for your answer.
    Answer. I want to reiterate that I have disclosed a financial 
relationship with Express Scripts, Incorporated to the Commission and 
the Committee arising from consulting work provided related to the 
impact of state regulation on health care costs and health outcomes. 
Pursuant to President Obama's Ethics Pledge, I will not participate in 
certain FTC matters, including law enforcement matters, involving 
Express Scripts before the FTC for two years.
    I have testified concerning the risks of antitrust exemptions, 
including a proposed exemption involving independent pharmacies. I 
maintain that position. Competition agencies, the bipartisan Antitrust 
Modernization Commission, and antitrust scholars generally have long 
been skeptical of antitrust exemptions as a method of influencing 
bargaining outcomes between two private parties precisely because such 
exemptions put consumers at serious risk of anticompetitive conduct. If 
confirmed and confronted with a PBM business practice or merger that 
fell outside the aforementioned Ethics Pledge, I would analyze it 
carefully under existing law, employing rigorous empirical evidence, 
and with an eye toward its ultimate impact upon consumer welfare.

    Question 23. The Affordable Care Act supports confidential 
reporting by PBMs (as described below) in the new health insurance 
exchanges (to the commissioners of the state exchanges and to the plans 
participating in the exchanges) and under Medicare Part D. While these 
new reporting would not require PBMs to change their business model or 
pass the savings on to their members, I would like to better understand 
your views on information disclosure given your writing.
    Do you support disclosing information on the percent of all 
prescriptions that are provided through retail pharmacies compared to 
mail order pharmacies, generic dispensing and substitution rates in 
each location?
    Do you support disclosing information on the aggregate amount and 
type of rebates, discounts and price concessions that the PBM 
negotiates on behalf of the plan and the aggregate amount of these that 
are passed through to the sponsor?
    Do you support disclosing information on the average aggregate 
difference between the amount the plan pays the PBM and the amount that 
the PBM pays the retail and mail order pharmacy?
    Answer. I have not had the opportunity to specifically consider the 
merits of confidential reporting by PBMs as described in your question 
pursuant to the Affordable Care Act. As a general matter, pricing 
transparency can and often is an important element of facilitating 
competition in some markets. However, mandating competitors to disclose 
pricing to rivals can also raise competitive risks. FTC staff have, 
with the approval of the Commission, raised these concerns in letters 
to state legislatures considering mandatory disclosure obligations 
involving PBMs and in other industries for those reasons. If confirmed, 
my views on this issue would be informed by Commission staff, 
Commissioners, and be guided by careful economic analysis and 
evaluation of evidence.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                          Dr. Joshua D. Wright
    Question. In a 2009 paper, you claimed there was no meaningful 
failure of mortgage consumer protection in the run-up to the financial 
crisis because borrowers understood the risks of subprime mortgages.
    But, last year, a former Chase mortgage banker in Florida--whose 
team had originated more than $2 billion in mortgages in 2007--admitted 
that the bank had sought out less savvy borrowers and steered them into 
riskier and more expensive subprime loans in order to increase bank 
profits.
    Similarly, a whistleblower from Wells Fargo--the largest 
residential home mortgage originator in the United States--who had been 
the bank's top-producing subprime loan officer admitted that she had 
steered consumers who had been eligible for prime loans into subprime 
mortgages. According to her affidavit, some loan officers falsified 
loan applications to steer customers into subprime mortgages. Others 
lied to customers about the terms of subprime loans, including the 
ability to prepay without penalty, in order to encourage them to apply 
for subprime loans.
    Do you still believe that consumer protections in the mortgage 
market were adequate in the run-up to the financial crisis?
    Answer. I have observed in my academic writing that ``some 
consumers were victims of unfair and deceptive practices in securing 
mortgages'' as well as ``that the regulatory agencies could and should 
have done a better job of regulating that burgeoning subprime mortgage 
market.'' See David S. Evans & Joshua D. Wright, The Effect of the 
Consumer Financial Protection Act of 2009 on Consumer Credit, 22 Loy. 
Consumer L. Rev. 277, 309 n.80 (2010). I continue to believe that the 
appropriate agencies bear some responsibility for failing to 
appropriately regulate subprime mortgages. The overarching point behind 
my critique of the CFPA Act with Professor Evans, and related 
commentary discussing the potential activities of the CFPB, is not that 
regulation was inappropriate. It is that good regulation--both 
effective and cost-effective regulation--was appropriate: that not 
every additional regulation would solve the problems with poorly 
regulated subprime mortgage markets. And indeed, I believe well-crafted 
and considered regulations can improve consumer welfare, as I indicated 
there and elsewhere throughout my academic work. I believe the key 
inquiry is how to regulate correctly to maximize consumer welfare by 
preventing deceptive, unfair, and fraudulent practices while 
maintaining a robust and competitive market for consumer products. If 
confirmed, I will fully enforce existing laws and regulations and will 
support new cost-effective regulations which will facilitate these 
goals, consistent with the Commission's mission.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                          Dr. Joshua D. Wright
    Question 1. In our meeting last month, you said you take an 
evidence-based approach and look only at empirical data and facts when 
making decisions. I was heartened to hear that. However, a review of 
your research and writings indicate that you have strong views about 
antitrust enforcement, state alcohol regulation, and online privacy, 
among others. How will you square your previous writings with your 
pledge to take an evidence-based approach if confirmed as an FTC 
Commissioner?
    Answer. I reaffirm my commitment to look closely at empirical data 
when making decisions. My previous writings indicate my commitment to 
an evidence-based approach to consumer protection and competition law. 
The primacy of empirical evidence is central to my academic research 
and my approach to analyzing consumer protection and competition 
issues. Reliance upon economic theory guides my opinions and writings, 
especially where I express a strong view. If confirmed, I will rely 
upon available data to guide decisions about enforcing existing 
consumer protection and competition law in furtherance of consumer 
welfare.

    Question 2. FTC Chairman Leibowitz has described the FTC as a 
``small agency with a big mission.'' I agree and would add to that a 
very important mission: to protect consumers from unfair, deceptive, 
and anti-competitive practices. Do you believe the government has a 
role to play in protecting consumers? If so, to what extent?
    Answer. I certainly believe the government has a vital role to play 
in protecting consumers. Markets are powerful institutions for 
organizing economic activity, and competition within markets provides 
consumers vast and important benefits, most especially including 
economic growth. Yet well-functioning markets require regulations that 
promote transparency, prevent unfair and deceptive practices, and 
prohibit anticompetitive behavior. The Commission has a critical role: 
protecting consumers when market forces are ineffective by preventing 
fraud, deception, and anticompetitive practices.

    Question 3. What is your view of state regulation, state unfair and 
deceptive acts, and the role of states, particularly state attorneys 
general, in enforcing Federal statutes that protect consumers?
    Answer. I support the state attorneys generals' efforts to prevent, 
deter, and punish fraudulent, deceptive, unfair, and anticompetitive 
conduct, including enforcing Federal statutes where Congress intends. 
The Commission frequently cooperates with state attorneys general in 
advising states on consumer protection and other matters and routinely 
provides state enforcers with access to information obtained in 
investigations.

    Question 4. I appreciate that you will follow the advice of the FTC 
General Counsel and honor the Obama Administration's ethics policies 
and will recuse yourself from FTC business where appropriate. However, 
I am concerned about the possibility that limiting your recusal may be 
insufficient. Please list the entities that have directly or indirectly 
funded any of your research, published work, or commentary.
    Answer. Senator, I have disclosed all financial relationships 
within the relevant reporting period to the Commission and Committee. 
The entities that have directly or indirectly funded any research, 
published work, or commentary are since I became a law professor in 
2004:

        Microsoft Corporation

        Google, Inc.

        Express Scripts, Inc.

        Internet Company for Assigned Names & Numbers

        International Center for Law & Economics

        Family Winemakers of California

        Arlington Economics, Inc.

        AT&T

        American Tort Reform Association

        American Beverage Association

        Northwestern University

        George Mason University

        Cambridge University Press

        Thomson West

    Some of these entities directly or indirectly funded research, 
published work, or commentary prior to the reporting period of the 
Senate Questionnaire or Form OGE 278. For example, Microsoft 
Corporation is not included on those documents but is listed here 
because it indirectly funded research prior to those reporting periods. 
I have included entities that have provided direct or indirect 
financial support since 2004, out of an abundance of caution.

    Question 5. Will you pledge to recuse yourself from FTC business 
that involves any of those entities? If not, please explain why you do 
not believe it is necessary to do so.
    Answer. I take my ethical obligations very seriously. I have 
disclosed these financial relationships to the Committee and to the 
Commission, including its ethics officials. If confirmed, I pledge to 
recuse myself where required by existing law or President Obama's 
Ethics Pledge, which imposes additional obligations. These rules seek 
to balance the importance of maintaining the credibility of the agency 
by avoiding conflicts with the desire to ensure the agency can execute 
its mission with the benefit of its full complement of appointed 
officials. President Obama's Ethics Pledge, among other requirements, 
extends the general obligation set forth under the Standards of Conduct 
not to participate in any particular matter involving specific parties 
in which the former client or employer is a party to two years 
following appointment to the Commission. It also prohibits meeting or 
communicating with one's former employer or client unless the meeting 
or communication is open to all interested parties. I will abide by 
those requirements. Further, in all future matters potentially giving 
rise to conflicts, I will seek the advice and counsel of the Federal 
Trade Commission's ethics officials in order to determine how to fully 
comply with the letter and spirit of all applicable ethics laws.

    Question 6. Given that an entity's business before the FTC can last 
much longer than two years with the ongoing investigation, litigation, 
settlement negotiation, appeal, and potential violation cycle, please 
explain why you are limiting your recusal to Google for only two years?
    Answer. I appreciate your concerns about ethics and recusal 
obligations at the Commission. The Commission's mission requires a keen 
eye towards not only maintaining the integrity of the agency, but also 
to avoiding the appearance of impropriety. The ethical obligations seek 
to balance the importance of maintaining the credibility of the agency 
by avoiding conflicts with the desire to ensure the agency can execute 
its mission with the benefit of its full complement of appointed 
officials. President Obama's Ethics Pledge, among other requirements, 
balances those competing interests by extending the general obligation 
set forth under the Standards of Conduct not to participate in any 
particular matter involving specific parties in which the former client 
or employer is a party to two years following appointment to the 
Commission. It also prohibits meeting or communicating with one's 
former employer or client unless the meeting or communication is open 
to all interested parties. If confirmed, I will fully comply with 
President Obama's Ethics Pledge and all applicable ethics laws.

    Question 7. You are a prolific author and commenter. This committee 
has witnessed the negative effect that a commissioner's social 
networking and blogging activities can have on an agency's ability to 
execute its mission. Will you continue to engage in blogging and social 
networking in your capacity as a commissioner, if confirmed?
    Answer. I understand your concern that blogging and social 
networking can hinder the agency's mission. I will not blog or use 
social media in manner that would undermine the Commission's mission. 
Conversely, these tools can be useful in educating consumers that might 
not otherwise be reached about the Commission's important work. While I 
have not made any decisions about whether I will blog or use social 
networking in my capacity as a Commissioner if confirmed, I can assure 
you that if I do so, it will be in a professional and responsible 
manner aimed at furthering the mission of the agency.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                          Dr. Joshua D. Wright
Deceptive advertising that could endanger children's health
    Question 1. Dr. Wright, we hear a lot these days about parents' 
concerns about sports concussion. Concussions used to just be dismissed 
as ``dings or ``bell ringers.'' We now recognize concussions as a form 
of traumatic brain injury, and we know that multiple concussions or 
blows to the head can lead to lasting brain damage.
    So it is natural that young athletes, coaches, and parents are 
looking for ways to play sports more safely. Unfortunately, some 
companies appear to be taking advantage of these safety concerns by 
using deceptive concussion prevention claims to sell children's sports 
equipment.
    In January 2011, I wrote Chairman Jon Leibowitz to ask the Federal 
Trade Commission to consider investigating potential violations of the 
FTC Act related to selling and reconditioning football helmets. In 
October 2011, this committee held a hearing that examined ``anti-
concussion'' and ``concussion reduction'' claims in marketing for 
soccer headbands, helmets, mouth guards, and even dietary supplements 
for children's use.
    This month, the Commission finalized an order settling charges that 
a mouthguard marketer made deceptive claims that their mouthguards 
reduce the risk of concussions. According to a news release, the 
Commission sent warning letters to 18 other sports equipment 
manufacturers that may be making allegedly deceptive claims that their 
mouthguards, headbands, or other devices can reduce the risk of 
concussions.
    I know you cannot comment on what the Commission may, or may not, 
be doing in regards to my request for an investigation.
    However, I would like to ask if you share my view that, in general, 
issues involving serious children's health concerns should be a high 
priority for the FTC when it considers potential enforcement actions?
    Answer. I share your views that FTC should vigilantly pursue its 
consumer protection mission when serious children's health concerns are 
at issue. The Commission's mission of protecting consumers is always 
important. But it is even more critical when it implicates the health 
and safety of vulnerable consumers, such as children. The Commission 
absolutely should vigorously pursue marketing and advertising practices 
which unfairly, fraudulently, or deceptively harm consumers, especially 
where these practices impact vulnerable consumers, including children.
FTC authority to impose civil penalties in cases where children's 
        health is endangered
    Question 2. Dr. Wright, at a hearing last year this committee 
examined some of the sports concussion claims used to market children's 
sports equipment and even dietary supplements. One of the medical 
experts at the hearing, Dr. Jeffry Kutcher of the University of 
Michigan, told the Committee that:

        The potential harm that I see being caused by products that 
        claim to prevent concussion, when they do not, is far more than 
        simply the financial harm of paying more for something that 
        isn't likely to work as claimed.

    Youth athletes who have already suffered a concussion--as well as 
their coaches and parents-could be especially susceptible to false 
claims that a product prevents head injuries. Children could end up 
putting themselves at greater risk of multiple concussions and lifelong 
brain damage if they return to play too soon, or if they falsely 
believe in a product's claim of concussion prevention.
    I introduced legislation that would allow the Federal Trade 
Commission to impose civil penalties when companies uses false injury 
prevention claims to sell children's sports equipment.
    For limited cases such as these, do you agree that if the 
Commission had civil penalty authority for violations of Section 5 of 
the FTC Act, it could help deter would-be violators from endangering 
children's health?
    Answer. The Commission is, in general, properly empowered to 
prevent deceptive business practices. The Commission's obligation to 
consumers is at its apex in combating unfair or deceptive practices 
imperiling the health and safety of the most vulnerable consumers, such 
as children. I support the vigorous and consistent use of this 
authority to prevent consumer harm, especially when products threaten 
the lives of vulnerable consumers. I am willing to support additional 
authority when existing authority is not sufficient to effectively 
prevent or deter deceptive business practices that harm consumers. 
While I have not developed an opinion on the implications of a 
Commission civil penalty authority in this specific context, if 
confirmed, I would look forward to working with your office and this 
Committee on how to best deter unfair or deceptive conduct that harms 
children, including through civil penalties like those you describe.
Working with state attorneys general
    Question 3. Many American families are suffering in today's 
economy. Unfortunately, people who are seeking work, struggling to make 
mortgage payments, or trying to get by on a fixed income can sometimes 
be more vulnerable to scams. That means you may have a lot of work to 
do during your time as Commissioner.
    How could the Federal Trade Commission leverage its resources to 
better protect consumers?
    Are there ways to work more closely with state attorneys general 
and U.S. attorneys to pursue those who are deceiving consumers and 
committing fraud?
    Answer. As you mentioned, the Commission faces an enormous--and 
enormously important--mission: protecting consumers across the economy 
from unfair methods of competition and unfair or deceptive business 
practices. It is a relatively small agency with a large mission. 
Identifying methods to best leverage the agency's scarce resources to 
further its mission is an important priority. Cooperating with state 
attorneys general and Federal agencies, such as the CFPB, through 
information-sharing and otherwise is one method by which the Commission 
can leverage its resources. If confirmed, I will work to ensure the 
Commission works to prevent as much consumer harm as possible in these 
tough economic times.
FTC role in alcohol regulation
    Question 4. New Mexico is a leader in the fight against drunk 
driving and has significantly reduced alcohol-related traffic 
fatalities through a combination of education, enforcement, and policy 
efforts. In fact, my state has some of the strictest alcohol and drunk 
driving laws in the country.
    So I appreciate the Federal Trade Commission's efforts to help 
ensure that alcohol advertising does not target youths and that 
industry self regulatory practices are working. However, as a former 
state attorney general, I would be concerned if FTC actions related to 
alcohol beverage sales hampered a state's ability to protect public 
safety with stricter rules, for example, to combat drunk driving.
    Could you share your thoughts on the FTC's proper role in the areas 
of alcohol control and assisting states in their efforts to prevent 
underage drinking and drunk driving?
    Answer. Alcohol usage, especially by minors, raises substantial 
concerns, both state and federal; many of these can fall under the 
Commission's competition and consumer protection authorities under the 
FTC Act and Clayton Act. For example, I support the Commission's action 
against Phusion Products regarding the advertisement of its Four Loko 
product. The Commission has also supported the ``Don't Serve Teens'' 
program to reduce underage drinking. I support these activities. The 
Commission's decades-long involvement with alcohol marketing and 
advertising has given the Commission a special understanding of 
competition and consumer protection issues connected to alcohol. But as 
the FTC's staff has stated, and as I have acknowledged in my own 
academic writing, there are clearly other public interests at stake 
than those traditionally at the heart of the Commission's mandate--
consumer choice, low prices, and convenience. Where Federal or state 
regulators or legislators request the Commission's input on the 
competitive impact of a proposed legislation or regulation, the FTC 
plays an important role in cooperating with those entities and 
providing information based upon its expertise in these areas.
Online privacy
    Question 5. Dr. Wright, you note in your written testimony that the 
Commission's consumer protection mission includes ``continuing to help 
consumers protect their privacy without diminishing the benefits of 
competition and innovation.''
    Could you expand on your thoughts about how to better protect 
consumers' (and especially children's) online privacy while not 
hampering innovation that provide consumer and social benefits?
    Answer. The FTC has traditionally sought to protect children's 
online privacy through the COPPA Rule, enforcement actions under 
Section 5 of the FTC Act, and consumer and business education and 
outreach efforts. I support continued vigilance in these efforts. I 
also support updating COPPA to reflect technological progress in the 
marketplace such as Internet access to smart phones and new methods of 
information collection. Expanding these protections is important. I 
understand the Commission is currently reviewing comments to the 
proposed rule. While I have not yet reviewed these comments and do not 
have any specific recommendations, I believe the Commission's goal in 
updating COPPA is and should be to appropriately and carefully update 
and expand these important rules in a manner that fully and vigorously 
protects children while avoiding the potential collateral consequence 
of deterring services that would improve children's online experiences.
Consumer Protection
    Question 6. Dr. Wright, I share some of the concerns raised by my 
colleagues regarding your previously expressed views of consumer 
protection laws and especially, the Consumer Financial Protection 
Bureau (CFPB). During the hearing, in reply to questions from Senator 
Boxer, you stated that previous concerns about the CFPB were ``never 
about the existing agency.'' Additionally, in some of your writings you 
cited very specific concerns, including the agency's design and narrow 
focus. Could you expand on what specific changes in the CFPB have 
assuaged your concerns?
    Answer. My concerns regarding the CFPA and ultimately the CFPB have 
always been regarding the potential for consumer harm through an 
expansive misapplication of certain behavioral economics insights 
leading to serious and paternalistic prohibitions on useful consumer 
products. Fortunately, the CFPB as constituted has not triggered these 
concerns, instead pursuing sensible and necessary consumer protections. 
While I remain concerned about the potential for abuses of behavioral 
economics insights to lead to large-scale consumer harm, the Bureau has 
not pursued such an agenda, and, if confirmed, I look forward to 
cooperating fully with the CFPB in vigorously protecting consumers.

    Question 7. How do you envision cooperation between the FTC and the 
CFPB growing in the future?
    Answer. I expect that as the CFPB continues to promulgate rules, 
investigate markets, compile data, and prosecute offenders, it will 
gather a sophisticated body of research and institutional expertise 
similar to what the Commission has enjoyed for decades. I hope and 
believe the two agencies can mutually reinforce their shared goal of 
maximizing consumer welfare by effectively regulating markets to 
prohibit unfair, deceptive, fraudulent, and anticompetitive conduct. I 
anticipate the two agencies will bring this mutual expertise to bear in 
a variety of channels, such as, but not limited to, through informal 
inter-agency cooperation, providing reports and advice during proposed 
rulemakings, and by sharing relevant market data between agencies where 
appropriate. If confirmed, I look forward to cooperating fully with the 
CFPB in ensuring both agencies can protect consumers.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                          Dr. Joshua D. Wright
Long Distance Call Completion Problems in Rural America
    Question. Ms. Clyburn and Dr. Wright, yesterday, I along with 
several other Senators sent a letter to the FCC concerning the issue of 
call completion problems in rural America. We have heard from many 
constituents regarding the persistent problem of some long-distance 
telephone call not being completed to consumers in rural areas. I am 
concerned about public safety and worry that it's only a matter of time 
before this situation leads to tragedy when a rural customer is unable 
to complete an urgent call. This is an issue where the FCC and the FTC 
may have to collaborate on investigating the issue of any providers 
failing to properly complete calls to rural areas. What has the FCC and 
the FTC done in relation to this issue? Will each of you commit to 
working together in this area to examine all possible causes?
    Answer. I am unaware of any investigations the FTC has undertaken 
involving provider failure to complete calls to rural areas; I 
understand this falls within the FCC's purview. If confirmed, however, 
I can assure you that, consistent with the limits on FTC jurisdiction, 
I will cooperate with Commissioner Clyburn and the FCC as appropriate 
to address consumer harm arising from failed calls to rural areas.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                          Dr. Joshua D. Wright
    Question 1. My constituents have expressed numerous concerns 
regarding the potential anticompetitive effects of the now-approved 
merger of PBMs Express Scripts and Medco as well as continued 
consolidation in the industry. They have told me that consolidation 
will harm patients by reducing choice, decrease access to pharmacy 
services and ultimately lead to higher prescription drug costs paid by 
plan sponsors and consumers. I am very concerned about patient well-
being and quality pharmacy care for my constituents, as well as rising 
health-care costs. Under your leadership, how should the FTC evaluate 
and address these concerns as it reviews ongoing consolidation in this 
market? Would you be willing to review consummated mergers in this 
industry to assess their impact on plan sponsors and consumers?
    Answer. I want to reiterate that I have disclosed a financial 
relationship with Express Scripts, Incorporated to the Commission and 
the Committee arising from consulting work provided related to the 
impact of state regulation on health care costs and health outcomes. 
Pursuant to President Obama's Ethics Pledge, I will not participate in 
certain FTC matters, including law enforcement matters, involving 
Express Scripts before the FTC for two years. It also prohibits meeting 
or communicating with one's former employer or client unless the 
meeting or communication is open to all interested parties. I will 
abide by these requirements and all applicable ethics laws.
    If confirmed, were a merger or consummated merger falling outside 
President Obama's Ethics Pledge and assuming I may otherwise 
participate (I will consult with the FTC's ethics officials as 
appropriate) to come before the Commission, I would, pursuant to the 
Clayton Act, review it carefully to assess its impact upon competition 
and consumers under existing law.

    Question 2. As you know, I come from a rural state with patients 
that have relied on small community pharmacies for a very long time. 
Independent pharmacies provide advice and improve health for their 
patients thereby reducing costs by keeping patients out of the 
hospital. You have testified against a narrow exemption from antitrust 
laws for small independent pharmacies that have been pressured with 
audits and low reimbursements from large pharmacy benefit managers. 
Now, we have a large PBM in Express Scripts-Medco, and industry 
consolidation continues. How would you address the market dominance a 
few PBMs exert with respect to contracting with pharmacy providers 
essential to their networks?
    Answer. I want to reiterate that I have disclosed a financial 
relationship with Express Scripts, Incorporated to the Commission and 
the Committee arising from consulting work provided related to the 
impact of state regulation on health care costs and health outcomes. 
Pursuant to President Obama's Ethics Pledge, I will not participate in 
certain FTC matters, including law enforcement matters, involving 
Express Scripts before the FTC for two years. It also prohibits meeting 
or communicating with one's former employer or client unless the 
meeting or communication is open to all interested parties. I will 
abide by these requirements and all applicable ethics laws.
    I have testified concerning the risks of antitrust exemptions, 
including a proposed exemption involving independent pharmacies. 
Competition agencies, the bipartisan Antitrust Modernization 
Commission, and antitrust scholars generally have long been skeptical 
of antitrust exemptions as a method of influencing bargaining outcomes 
between two private parties. If confirmed and confronted with a PBM 
business practice or merger that fell outside the aforementioned Ethics 
Pledge and assuming I may otherwise participate (I will consult with 
the FTC's ethics officials as appropriate), I would analyze it 
carefully under existing law, employing rigorous empirical evidence, 
and with an eye toward its ultimate impact upon consumer welfare.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                          Dr. Joshua D. Wright
    Question 1. Does it make sense to have multiple agencies enforce 
privacy obligations, or does it make more sense for one agency to have 
this authority?
    Answer. Overlapping enforcement authority involves a variety of 
advantages and disadvantages, and privacy enforcement is no exception. 
While overlapping enforcement authority can lead to agency 
specialization in particular areas of privacy regulation, it can also 
potentially result in duplicative enforcement expenditures as well as 
conflicting regulations. I do not have any specific recommendations at 
this time concerning the desirability of overlapping privacy 
enforcement without having the benefit of observing the FTC in action 
in this arena.

    Question 2. Should there be one set of standards that applies to 
entities that may be collecting, using, and/or sharing the same 
information?
    Answer. Data security is an important issue and I support the 
Commission's efforts in this area under existing law. I share your 
concerns with the costs of having different standards imposed on 
different parties. Doing so often creates artificial advantages for 
some firms and can have the unintended consequence of harming both 
competition and consumers. However, in the context of data security 
different standards for different industries can make sense. For 
example, there is no reason for a small business to need the same data 
protection as an international investment bank. Further, variation in 
state law as applied to data security can impose significant costs on 
companies who may need to comply with many different notification 
regimes. A carefully crafted standard can benefit businesses and 
consumers by simultaneously deterring data theft while avoiding undue 
costs. I thus support the Commission's call for additional data 
security legislation. If confirmed I would be pleased to work with you 
and the Commission on these issues.

    Question 3. Does the FTC currently have enough authority to enforce 
failures to safeguard data?
    Answer. I believe data security is extremely important and 
essential to continued consumer confidence in the Internet economy. The 
Commission has made excellent use of its existing authority in the area 
of data security. The FTC's best available tool for enforcing data 
security issues is its Section 5 authority. If companies make 
commitments to consumers to protect their data in certain ways, and 
subsequently fall short of their promises, these companies have 
deceived consumers and the FTC can bring enforcement actions based upon 
those promises. The FTC has also developed excellent business and 
consumer education business tools on data security. I support the FTC's 
call for data security legislation. If confirmed, I look forward to 
working with the Commission and the Committee on these important 
issues.

    Question 4. Do you believe that elected representatives are 
exercising their authority correctly to control the distribution and 
sale of alcoholic beverages?
    Answer. Alcohol usage poses many challenges for both states and the 
Federal government, including several which implicate the Commission's 
authority over competition and consumer protection issues. States also 
have a variety of other interests in regulating alcohol, including 
underage drinking, health, and safety. In prior work I have recognized 
that regulation of alcohol implicates ``numerous policy concerns in 
addition to the consumer welfare effects at the heart of antitrust 
law.'' See, e.g., Jonathan Klick & Joshua D. Wright, The Effects of 
Vertical Restraints on Output: Evidence from the Beer Industry 
(unpublished working paper, 2008, at p. 22). I do not have any specific 
views on precisely how states should achieve the balance of these many 
concerns. If confirmed as an FTC Commissioner, my primary concern will 
be to carry out the Commission's responsibilities in these markets, 
including vigorous policing of markets for anticompetitive practices, 
evidence-driven merger review, and monitoring marketing and 
advertisement for consumer protection issues. Further, the FTC's policy 
authority under Section 6 of the FTC Act enables it to provide views to 
other Federal agencies on labeling issues, to provide views to states 
that request analyze proposed legislation, to conduct economic studies, 
to report to Congress as requested, and to educate the public through 
public-private campaigns discouraging teenage alcohol consumption.

    Question 5. Do you believe that the Federal Trade Commission has 
the authority to alter the current state alcohol distribution 
structure?
    Answer. States are given broad authority to regulate alcohol 
distribution. The FTC has the limited authority under the FTC Act and 
the Clayton Act to review mergers and enjoin those that would 
substantially lessen competition. The FTC Act also gives the agency 
authority to challenge anticompetitive practices in the alcohol 
industry and to exercise consumer protection oversight over unfair or 
deceptive alcohol marketing and advertising practices. In addition, 
Section 6 of the FTC Act gives the FTC authority to conduct studies and 
issue reports. State officials often request the Commission's advice on 
the likely impact of a proposed state regulation on consumers or 
competition. The FTC routinely issues letters providing such advice 
with the approval of the Commission in order to aid state decision-
making. These letters only offer advice, however, and the state 
official must make his or her own decision about what best serves the 
state's constituents' needs. I do not believe the FTC's authority 
extends to altering the entire current state alcohol distribution 
structure.
                                 ______
                                 
    Response to Written Question Submitted by Hon. John Boozman to 
                          Dr. Joshua D. Wright
    Question. I have some concerns with the lack of PBM transparency 
and its impact on patients, plan sponsors, and employers. Given 
continued consolidation and the growing negotiation leverage that PBMs 
command in the market, what role should transparency play to enhance 
consumer protections?
    Answer. I want to reiterate that I have disclosed a financial 
relationship with Express Scripts, Incorporated to the Commission and 
the Committee arising from consulting work provided related to the 
impact of state regulation on health care costs and health outcomes. 
Pursuant to President Obama's Ethics Pledge, I will not participate in 
certain FTC matters, including law enforcement matters, involving 
Express Scripts before the FTC for two years. It also prohibits meeting 
or communicating with one's former employer or client unless the 
meeting or communication is open to all interested parties. I will 
abide by these requirements and all applicable ethics laws.
    Pricing transparency can and often is an important element of 
facilitating competition in some markets. However, mandating 
competitors to disclose pricing to rivals can also raise competitive 
risks. The Commission's staff, with the approval of the Commission, has 
raised these concerns in letters to state legislatures considering 
mandatory disclosure obligations involving PBMs and in other 
industries.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                              Yvonne Burke
Vision for Amtrak Cascades and state-supported routes
    Question 1. More than 845,000 people rode Washington state's state-
sponsored intercity rail service Amtrak Cascades in Fiscal Year 2012. 
Concurrently, nearly $800 million of Federal high-speed rail funding is 
being invested by the Washington State Department of Transportation to 
improve reliability, increase capacity, and rehabilitate track along 
the 466-mile rail corridor between Eugene, Oregon, and Vancouver, 
British Columbia. These improvements will help make Amtrak Cascades 
more accessible and reliable for residents of the Pacific Northwest. 
Cascades service already has an annual economic impact of more than 
$130 million--as additional trips are added, this is expected to grow.
    With much attention focused on plans to further develop high-speed 
rail in the Northeast Corridor, how can Amtrak ensure state-sponsored 
routes like Cascades aren't forgotten? Is additional authority needed 
by Amtrak to provide that support?
    Answer. Amtrak will be faced with difficult challenges in the next 
year to balance the needs of the Northeast corridor with the growing 
needs of the western states. These challenges come at a time with less 
revenue and the unfortunate devastation from Superstorm Sandy. The 
commitment made by states such as Washington and my home State of 
California to state-sponsored routes, such as Cascades, is based upon 
Federal participation and revenue support. The presence of a Board 
Member from the West will assure there is a continuing reminder of the 
investment made by states and the need for Amtrak to consider the 
Nation's second largest passenger contingency.

    Question 1a. What is your overarching vision for state-supported 
routes as a part of Amtrak's network? How can you best support that 
vision on the Board of Directors?
    Answer. State-supported routes are an important part of the short 
routes in states that have a need for meeting suburban populations. The 
economy of many states depends on the availability of an alternative to 
the automobile for workers to move on a daily basis to areas of 
employment opportunity. These routes can in some cases jointly utilize 
track and routing terminals. State-supported routes are often the 
innovator in technology and meeting the convenience of passengers.

    Question 1b. What is your overarching vision for long-haul routes 
as a part of Amtrak's network? How can you best support that vision on 
the Board of Directors?
    Answer. The long-haul routes are part of the vital Amtrak network. 
There is a need for expansion and upgrade of some of these routes. In 
many instances there has been little if any expansion and extension of 
these routes. My vision would be to see these routes receive upgrades 
and have coordinated schedules with the shorter state routes to provide 
a full range of transportation options for passengers.
Passenger Rail Reliability
    Question 2. Passenger rail reliability is not where it should be 
nationwide, especially with regards to long-haul routes like the Empire 
Builder and Coast Starlight, which run through my state and are 
utilized by many Washington residents. As you know, frequent and 
reliable service is essential to building ridership while increasing 
ticket revenue. What specific actions would you recommend Amtrak 
undertake to improve:

  1.  Performance;

  2.  cost recovery; and

  3.  reliability?

    Answer. Specific actions:

  1.  Performance: There are two areas of performance that I consider 
        the most important--they are on time performance and safety. 
        Obviously, there are other areas of comfort and conveniences 
        such as Internet availability, adequate luggage room, and food 
        that is meals, snacks and fast food. The courtesy of worker are 
        also important. I think Amtrak employees do a good job when 
        interacting with passengers.
  2.  Cost recovery: This year Amtrak did a good job with fare box 
        recovery, but realizes increased fares often do not translate 
        into increased utilization of short and longer routes. I would 
        make every effort to avoid an increase in fares and look at 
        other ways of increasing revenue. In California, we have 
        struggled with the benefit of greater use of advertisement on 
        trains.
  3.  Reliability: On time performance is, in my mind, part of 
        reliability. I realize there are sometimes accidents, weather 
        problems or other incidents that delay trains, but emergency 
        procedures that minimize these delays gives the passenger a 
        greater assurance and confidence.
Passenger Experience
    Question 3. What would you recommend to improve passenger 
satisfaction on Amtrak?
    Answer. Dependability and comfort are probably what I consider 
highest on the list. Obviously, the modernization of cars and seats and 
good maintenance makes a lot of difference as well. Most of the people 
I talk to on short lines enjoy the camaraderie they experience as 
regular passengers.
Cost Control
    Question 4. With the passage of Section 209 in the Passenger Rail 
Investment and Improvement Act of 2008 (PRIIA), which shifts a greater 
burden of cost to states for intercity passenger rail, states want to 
ensure that Amtrak is controlling expenses--something I think we are 
all very supportive of. Where would you recommend Amtrak cut cost to 
reduce the burden on states that sponsor passenger rail?
    Answer. I would like to thank Carl Seip your Legislative Assistant 
for agreeing to meet with me in your office a couple of months ago and 
sharing with me some of the inequities experienced with Amtrak billing 
and reimbursement. It is indeed important that costs be reasonable and 
justifiable. There is an expectation that Amtrak make every effort to 
reduce cost where possible without negatively impacting operations and 
safety.
States as Customers
    Question 5. With the state-sponsored intercity rail continuing to 
grow, and with states paying more under PRIIA Section 209, states are 
more and more viewing themselves as customers of Amtrak. Do you agree 
with this view? Do you think that Amtrak approaches states with that 
attitude? What policies would you recommend that Amtrak adopt to better 
reflect this cooperative partnership where states carry a larger 
portion of intercity rail cost?
    Answer. State sponsored intercity rail makes us partners with 
Amtrak and in a sense we are customers because we utilize track, often 
routing terminals and stations with Amtrak. We pay for all of these 
services. I say ``we'' because I served for 16 years on a local Metro 
Board and presently serve on the California Transportation Commission 
that funds construction and operation of short and long lines. We try 
to meet once a year jointly with the Washington Commission and Oregon 
Commissions. Frankly, there have been some difficulties experienced by 
our local operators but there seems to be a changing approach to local 
and state partners.
    I believe Amtrak should conduct regular meeting with state partners 
to work out in an amicable manner on the issues of cost and schedule. 
States are making large investments in new cars and Positive Train 
Control (PTC) for greater safety. There must be some recognition of 
these expenditures. I am not sure how these goals could be translated 
into policy, but, if confirmed, I would be supportive of efforts to 
move into development of policies that reflect these needs.
Amtrak Board Composition
    Question 6. Considering the increasingly close partnership between 
states and Amtrak, do you think it would be appropriate to have a state 
representative on the Amtrak Board of Directors?
    Answer. A state representative on the Amtrak Board would make a 
positive contribution. This could very well be a rotating ad hoc 
member. State supported services play an important role in Amtrak's 
network and having that perspective appropriately represented in Board 
activities is a fair position. There are a variety of ways that could 
happen--through choice of Board members or other means of 
participation. I would be open to working with you to determine what is 
most appropriate.
PRIIA Challenges
    Question 7. What do you think the top challenges have been for 
Amtrak in implementing the Passenger Rail Investment and Improvement 
Act of 2008? How will you help Amtrak meet those challenges as a Board 
member?
    Answer. With PRIIA placing all Amtrak service that is less than 750 
miles in length under the funding responsibilities of the state, 
questions have been raised that must be resolved, such as additional 
cost for operation of lines that traditionally have been funded 
primarily by Amtrak. In some cases, assumption of these costs is almost 
double what has previously been the state subsidy. In addition, 
inventory disposition, such as rolling stock, station and maintenance 
facilities, as well as track usage, are issues that must be resolved.
    If confirmed, I would try to utilize my experience in any way that 
I could to assist as a member of the Amtrak Board in carrying out the 
mandate of Passenger Rail Investment and Improvement Act of 2008 in the 
most effective and fair manner.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                              Chris Beall
Vision for Amtrak Cascades and state-supported routes
    Question 1. More than 845,000 people rode Washington State's state-
sponsored intercity rail service Amtrak Cascades in Fiscal Year 2012. 
Concurrently, nearly $800 million of Federal high-speed rail funding is 
being invested by the Washington State Department of Transportation to 
improve reliability, increase capacity, and rehabilitate track along 
the 466-mile rail corridor between Eugene, Oregon, and Vancouver, 
British Columbia. These improvements will help make Amtrak Cascades 
more accessible and reliable for residents of the Pacific Northwest. 
Cascades service already has an annual economic impact of more than 
$130 million--as additional trips are added, this is expected to grow.
    With much attention focused on plans to further develop high-speed 
rail in the Northeast Corridor, how can Amtrak ensure state-sponsored 
routes like Cascades aren't forgotten? Is additional authority needed 
by Amtrak to provide that support?
    Answer. It is clear from the PRIIA mandate, and from the 
conversations I have had with all of the Amtrak constituencies, 
including Congressional sponsors, the Amtrak Board of Directors and 
Amtrak management, that the state supported routes are an important 
part of the Amtrak network and of the overall U.S. transportation 
network. Amtrak must continue to focus on the ongoing management, 
maintenance and improvement of these routes, and as a member of the 
Board of Directors, if confirmed, it would be part of my responsibility 
to makes sure that routes like the Cascades routes, which are part of 
Amtrak's core mission, are not forgotten and that Amtrak maintains a 
balanced approach to each of the priorities outlined in its legislative 
mandate. This is especially important as Amtrak is a steward of state 
investments made into these systems and the states must believe and 
know that they are receiving appropriate value for their respective 
funds.
    Based on my understanding of the existing legislation and mandate 
from Congress, it is within Amtrak's authority to provide support to 
the state supported routes. Any changes or expansions of this mandate 
should be addressed in the next iteration of the PRIIA legislation.

    Question 1a. What is your overarching vision for state-supported 
routes as a part of Amtrak's network? How can you best support that 
vision on the Board of Directors?
    Answer. I believe that Amtrak has several clearly outlined mandates 
as part of its congressional mandate, including working collaboratively 
with states to further the state supported routes. I believe that each 
of these routes are an important part of the overall transportation 
system in the U.S., that these routes should provide a high quality 
customer service experience for riders and that Amtrak, and the states 
should work to continuously improve performance on key operating 
metrics including safety, on-time performance, and cost. If I am 
confirmed as one of the member of the Board of Directors, I will work 
collaboratively with other Directors and draw upon my experience 
overseeing large infrastructure businesses to help Amtrak establish 
priorities, policies, and systems that foster these goals and hold 
management accountable for achieving these goals over time.

    Question 1b. What is your overarching vision for long-haul routes 
as a part of Amtrak's network? How can you best support that vision on 
the Board of Directors?
    Answer. I believe that the long-haul routes are another clearly 
outlined mandate from Congress in the PRIIA legislation, and as such, 
Amtrak has a responsibility for the ongoing operation, promotion, 
maintenance and support of these routes. Similar to the state supported 
routes, I believe that these routes are also an important part of the 
overall transportation system in the U.S. and that the performance 
metrics for state supported routes, including a high quality customer 
service experience for riders, safety, on-time performance and cost are 
also appropriate goals that should be monitored by the Board of 
Directors. If I am confirmed as one of the member of the Board of 
Directors, I will work collaboratively with other Directors and draw 
upon my experience overseeing large infrastructure businesses to help 
Amtrak establish priorities, policies and systems that foster these 
goals and hold management accountable for achieving these goals over 
time.
Passenger Rail Reliability
    Question 2. Passenger rail reliability is not where it should be 
nationwide, especially with regards to long-haul routes like the Empire 
Builder and Coast Starlight, which run through my state and are 
utilized by many Washington residents. As you know, frequent and 
reliable service is essential to building ridership while increasing 
ticket revenue.
    What specific actions would you recommend Amtrak undertake to 
improve:

  1.  Performance;

  2.  cost recovery; and

  3.  reliability?

    Answer. There are many things that a Board of Directors can best 
insure ongoing improvement in performance, cost recovery and 
reliability. First and foremost, the Board of Directors must establish 
key metrics in each of these areas and monitor the ongoing performance 
of the enterprise against these metrics. This requires effective 
accounting and information systems and the people to appropriately 
manage and monitor the systems. The Board of Directors should be 
rigorous but fair in the ongoing evaluation of both the people and 
systems. The Board of Directors must also recognize that most 
enterprises are staffed with competent knowledgeable individuals who 
are often constrained by systematic limitations. To the extent that a 
Board of Directors or individual Directors can help identify and remove 
systematic issues that affect performance, the overall enterprise can 
thrive and improve performance. If confirmed as a Director, I would 
approach my role as a change to identify and help break down these 
constraints to improve overall performance on each of the measures 
outlined in the question.
Passenger Experience
    Question 3. What would you recommend to improve passenger 
satisfaction on Amtrak?
    Answer. My personal experience is that I enjoy riding Amtrak most 
when it operates efficiently and on time. Additionally, having multiple 
departure times and alternatives provides additional flexibility and 
convenience, two factors I prize as a consumer.
    I believe that ongoing, effective maintenance is an absolute key to 
improving availability and utilization of large infrastructure systems 
like Amtrak. Effective maintenance requires an investment in systems 
and people to identify and repair high risk components of the system 
including track, locomotives and cars and electrical systems. 
Additionally, maintenance requires an adequate and consistent capital 
expenditure program so that system components that fail frequently can 
be effectively replaced. I know that this has been a key focus for 
Amtrak over the past five years and believe that it should be on an 
ongoing focus in the future.
Cost Control
    Question 4. With the passage of Section 209 in the Passenger Rail 
Investment and Improvement Act of 2008 (PRIIA), which shifts a greater 
burden of cost to states for intercity passenger rail, states want to 
ensure that Amtrak is controlling expenses--something I think we are 
all very supportive of. Where would you recommend Amtrak cut cost to 
reduce the burden on states that sponsor passenger rail?
    Answer. As I mentioned earlier, cost is a key parameter that must 
be an ongoing focus and priority for Amtrak as it provides services to 
all of its customers. One area that I believe is an important and 
effective area for cost improvement is an improving safety record. Many 
times safety is regarded as a cost, and the focus is largely on the 
moral obligation to operate a safe workplace. While I believe strongly 
that any employer must maintain a safe workplace, I have found 
historically that improving safety performance can also significantly 
reduce workers compensation claims and insurance costs and that it can 
also be an effective strategy for cost reduction as well.
    This is one of a number of cost savings ideas and experiences that 
I have obtained as a director of large infrastructure businesses, and I 
hope to find additional opportunities if I am confirmed and engaged as 
an active member of the Board of Directors.
States as Customers
    Question 5. With the state-sponsored intercity rail continuing to 
grow, and with states paying more under PRIIA Section 209, states are 
more and more viewing themselves as customers of Amtrak. Do you agree 
with this view?
    Answer. Yes, I believe that states that contribute funding to 
Amtrak on the state sponsored routes must be viewed as Amtrak's 
customer and that their goals must be incorporated into the ongoing 
management and oversight of Amtrak by the Board of Directors.

    Question 5a. Do you think that Amtrak approaches states with that 
attitude?
    Answer. Based on conversations with Amtrak management and 
Directors, I believe that Amtrak understands the need to work with the 
states on the state supported routes. If confirmed as a Director, I 
would view the ongoing focus and cooperation with the state supported 
routes as a key area of emphasis. The Board of Directors can be 
instrumental as a group in establishing this tone and creating policies 
and accountability measures that reinforce this customer service 
mindset.

    Question 5b. What policies would you recommend that Amtrak adopt to 
better reflect this cooperative partnership where states carry a larger 
portion of intercity rail cost?
    Answer. In any business with Amtrak's scope and scale, accurate and 
transparent reporting is a key first step toward understanding and 
fulfilling state goals regarding intercity rail. I believe Amtrak is 
committed as a policy matter to accurate and transparent reporting and 
I would work as a member of the Board of Directors to support and 
advance this goal. I believe that a policy of accurate and transparent 
reporting, when combined with a key understanding of the state's goals 
for intercity rail and accountability measures related to those goals, 
will produce the positive results that the state partners expect from 
these cooperative partnerships.
Amtrak Board Composition
    Question 6. Considering the increasingly close partnership between 
states and Amtrak, do you think it would be appropriate to have a state 
representative on the Amtrak Board of Directors?
    Answer. I believe that it is the responsibility of each individual 
member of the Amtrak Board of Directors to balance the competing Amtrak 
priorities and customer goals when establishing, implementing and 
monitoring policies and procedures, including the goals of Amtrak's 
state partners. While I believe that it is very important for Amtrak to 
have diverse viewpoints and opinions on the Board, I do not as a 
general rule believe that Directors should be nominated to represent 
specific interests. Instead, I believe they should be appointed to 
carefully consider and balance the requirements of all constituents 
served by Amtrak. However, if a state representative were nominated to 
the Amtrak Board of Directors, I would approach their nomination 
respectfully and would work collaboratively with them to advance the 
overall goals for Amtrak established by Amtrak under its legislative 
mandate.
PRIIA Challenges
    Question 7. What do you think the top challenges have been for 
Amtrak in implementing the Passenger Rail Investment and Improvement 
Act of 2008?
    Answer. Amtrak has faced a number of challenges implementing PRIIA. 
Addressing service levels and financial performance of its long-
distance routes is a key factor that is difficult to address while 
maintaining customer service quality unless ridership is significantly 
increased. This was a critical directive of the PRIIA and Amtrak has 
established Performance Improvement Plans for the majority of these 
routes, but the execution of these plans and the ongoing monitoring and 
reporting of performance under these plans will be critical to 
maintaining public confidence and increasing ridership, managing costs 
and improving service levels. There is no ``silver bullet'' in this 
regard and Amtrak and its Board of Directors must work at the operating 
level to think of new and creative solutions to address these issues.

    Question 8. How will you help Amtrak meet those challenges as a 
Board member?
    Answer. My background and experience making and overseeing 
infrastructure investment and experience as a Director of large 
organizations that provide essential infrastructure services to the 
U.S. economy is directly and uniquely relevant to the ongoing oversight 
of Amtrak as a Director. In total, I have over 14 years of experience 
constructing, operating, financing, managing and governing large-scale 
infrastructure projects and operating businesses. I have served as a 
Director of large organizations that provide infrastructure services. I 
currently serve as a Director of two such companies.
    While many of Amtrak's goals and objectives are unique, many of 
Amtrak's challenges are shared by other large infrastructure 
businesses. I believe my background and experience will help me 
identify creative solutions to the problems Amtrak is experiencing and 
work collaboratively with Amtrak management to accomplish Amtrak's long 
term goals.

                                  <all>

</pre></body></html>
